No. _______
IN THE

Supreme Court of the United States
DONALD J. TRUMP; THE TRUMP ORGANIZATION, INC.; TRUMP
ORGANIZATION LLC; THE TRUMP CORPORATION; DJT HOLDINGS
LLC; THE DONALD J. TRUMP REVOCABLE TRUST; AND
TRUMP OLD POST OFFICE LLC,
Petitioners,
v.
MAZARS USA, LLP; COMMITTEE ON OVERSIGHT AND REFORM OF
THE U.S. HOUSE OF REPRESENTATIVES,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
Jay Alan Sekulow
Stuart J. Roth
Jordan Sekulow
CONSTITUTIONAL LITIGATION
AND ADVOCACY GROUP, P.C.
1701 Pennsylvania Ave, NW,
Ste. 200
Washington, DC 20006
(202) 546-8890
jsekulow@claglaw.com
Stefan C. Passantino
Michael Best & Friedrich LLP
1000 Maine Ave. SW, Ste. 400
Washington, DC 20024
(202) 747-9582
spassantino@michaelbest.com

William S. Consovoy
Counsel of Record
Jordan M. Call
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
Patrick Strawbridge
CONSOVOY MCCARTHY PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
patrick@consovoymccarthy.com

Counsel for Petitioners

i
QUESTION PRESENTED
The Committee on Oversight and Reform of the
U.S. House of Representatives has issued a subpoena
to the accountant for President Trump and several of
his business entities. The subpoena demands private
financial records belonging to the President. The D.C.
Circuit upheld the subpoena as having a legitimate
legislative purpose and being within the statutory
authority of the Committee.
The question presented is:
Whether the Committee has the constitutional
and statutory authority to issue this subpoena.

ii

PARTIES TO THE PROCEEDING AND
RELATED PROCEEDINGS
The parties to the proceeding below are as
follows:
Petitioners are Donald J. Trump, the President
of the United States of America; The Trump
Organization, Inc.; Trump Organization LLC; The
Trump Corporation; DJT Holdings LLC; The Donald
J. Trump Revocable Trust; and Trump Old Post Office
LLC. They were the plaintiffs in the district court and
appellants in the court of appeals.
Respondents are Mazars USA, LLP and
Committee on Oversight and Reform of the U.S.
House of Representatives. Mazars was the defendant
in the district court and appellee in the court of
appeals. The Committee was the intervenordefendant in the district court and intervenorappellee in the court of appeals.
The related proceedings below are:
1. Trump v. Mazars USA, LLP, No. 19-5142
(D.C. Cir.) – Judgment entered October 11, 2019; and
2. Trump, et al. v. Committee on Oversight &
Reform of the U.S. House of Representatives, No. 19cv-01136 (APM) (D.D.C.) – Judgment entered May 20,
2019.

iii

CORPORATE DISCLOSURE STATEMENT
In accordance with Supreme Court Rule 29,
Petitioners The Trump Organization, Inc., Trump
Organization LLC, The Trump Corporation, DJT
Holdings LLC, and Trump Old Post Office LLC state
that they have no parent companies or publicly-held
companies with a 10% or greater ownership interest
in them.

iv

TABLE OF CONTENTS
QUESTION PRESENTED.......................................... i
PARTIES TO THE PROCEEDING AND
RELATED PROCEEDINGS ................................. ii
CORPORATE DISCLOSURE STATEMENT .......... iii
TABLE OF APPENDICES ....................................... vi
TABLE OF AUTHORITIES ..................................... vii
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ................................... 1
INTRODUCTION ....................................................... 2
STATEMENT ............................................................. 4
A.

Background ................................................... 4

B.

Proceedings Below ........................................ 6

REASONS FOR GRANTING THE PETITION ...... 13
I.

The validity of the Committee’s
subpoena is an important issue of
federal law that the Court should settle .... 13

II.

The Committee’s subpoena is invalid ........ 17
A.

The Committee’s subpoena lacks a
legitimate legislative purpose ............ 17

v

B.

1.

This subpoena is part of an
attempted law-enforcement
investigation by the
Committee ................................... 19

2.

The Committee investigation
that led to this subpoena
could not result in
constitutional legislation ............ 25

The Committee lacks the statutory
authority to issue a subpoena to
the President ....................................... 31

III. There are no vehicle issues ......................... 36
CONCLUSION ......................................................... 38

vi

TABLE OF APPENDICES

Page

APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
DISTRICT OF COLUMBIA CIRCUIT,
DATED OCTOBER 11, 2019 .............................. 1a
APPENDIX B — MEMORANDUM OPINION
OF THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF
COLUMBIA, DATED MAY 20, 2019 ............. 158a
APPENDIX C — ORDER OF THE UNITED
STATES COURT OF APPEALS FOR THE
DISTRICT OF COLUMBIA CIRCUIT,
DATED NOVEMBER 13, 2019 ...................... 213a
APPENDIX D — CONSTITUTIONAL
PROVISIONS .................................................. 222a
APPENDIX E — SUBPOENA OF THE HOUSE
OF REPRESENTATIVES OF THE
CONGRESS OF THE UNITED STATES OF
AMERICA, DATED APRIL 15, 2019 ............. 227a
APPENDIX F — H. RES. 507 .............................. 241a
APPENDIX G — H. RES. 660 ............................. 244a
APPENDIX H — EXCERPTS OF THE RULES
OF THE HOUSE OF REPRESENTATIVES . 251a

vii

TABLE OF AUTHORITIES
Page(s)
CASES
Alden v. Maine,
527 U.S. 706 (1999) .............................................. 20
Armstrong v. Bush,
924 F.2d 282 (D.C. Cir. 1991) .............................. 27
Bank Markazi v. Peterson,
136 S. Ct. 1310 (2016) .......................................... 24
Barenblatt v. United States,
360 U.S. 109 (1959) .................................. 14, 18, 21
Campbell v. Davidson,
233 F.3d 1229 (10th Cir. 2000) ............................ 29
Cheney v. U.S. Dist. Court for D.C.,
542 U.S. 367 (2004) .................................. 16, 17, 25
Clinton v. Jones,
520 U.S. 681 (1997) ...................................... passim
Duplantier v. United States,
606 F.2d 654 (5th Cir. 1979) ................................ 27
Eastland v. U.S. Servicemen’s Fund,
421 U.S. 491 (1975) ........................................ 17, 18
Exxon Corp. v. FTC,
589 F.2d 582 (D.C. Cir. 1978) .............................. 31

viii

Franklin v. Massachusetts,
505 U.S. 788 (1992) ........................................ 15, 33
Free Enter. Fund v. PCAOB,
561 U.S. 477 (2010) .................................. 26, 27, 28
Gregory v. Ashcroft,
501 U.S. 452 (1991) .............................................. 33
Griffin v. Padilla,
2019 WL 4863447 (E.D. Cal. Oct. 2, 2019) ......... 29
Hutchinson v. United States,
369 U.S. 599 (1962) ........................................ 23, 24
In re Beef Industry Antitrust Litig.,
589 F.2d 786 (5th Cir. 1979) ................................ 31
Jones v. United States,
529 U.S. 848 (2000) .............................................. 32
Kendall v. U.S. ex rel. Stokes,
37 U.S. 524 (1838) ...........................................14-15
Kilbourn v. Thompson,
103 U.S. 168 (1880) ............................ 10, 17, 21, 22
McGrain v. Daugherty,
273 U.S. 135 (1927) ...................................... passim
Mistretta v. United States,
488 U.S. 361 (1989) .............................................. 27
Mitchell v. Forsyth,
472 U.S. 511 (1985) .............................................. 20

ix

Morrison v. Olson,
487 U.S. 654 (1988) .................................. 12, 27, 36
NFIB v. Sebelius,
567 U.S. 519 (2012) ........................................ 22, 31
Nixon v. Administrator of General Services,
433 U.S. 425 (1977) .......................................... 8, 27
Nixon v. Fitzgerald,
457 U.S. 731 (1982) ...................................... passim
Powell v. McCormack,
395 U.S. 486 (1969) .............................................. 28
Public Citizen v. U.S. Dept. of Justice,
491 U.S. 440 (1989) .............................................. 33
Quinn v. United States,
349 U.S. 155 (1955) .............................................. 18
Schaefer v. Townsend,
215 F.3d 1031 (9th Cir. 2000) .............................. 29
Senate Select Comm. on Presidential Campaign
Activities v. Nixon,
498 F.2d 725 (D.C. Cir. 1974) .............................. 20
Sinclair v. United States,
279 U.S. 263 (1929) .............................................. 23
Tenney v. Brandhove,
341 U.S. 367 (1951) .............................................. 17
Tobin v. United States,
306 F.2d 270 (D.C. Cir. 1962) .............................. 37

x

Trump v. Hawaii,
138 S. Ct. 2392 (2018) .................................. 3, 6, 16
U.S. Term Limits, Inc. v. Thornton,
514 U.S. 779 (1995) ........................................ 28, 29
United States v. Munsingwear, Inc.,
340 U.S. 36 (1950) ................................................ 37
United States v. Nixon,
418 U.S. 683 (1974) .................................. 16, 17, 25
United States v. Rumely,
345 U.S. 41 (1953) ........................................ passim
United States v. Welden,
377 U.S. 95 (1964) ................................................ 24
Watkins v. United States,
354 U.S. 178 (1957) ............................ 18, 19, 31, 32
Wilkinson v. United States,
365 U.S. 399 (1961) .............................................. 20
Yellin v. United States,
374 U.S. 109 (1963) .............................................. 31

STATUTES AND OTHER AUTHORITIES
U.S. Const. art. I ................................................... 8, 18
U.S. Const. art. I, §§ 2-3 .............................................. 1
U.S. Const. art. I, § 8 ................................................... 1

xi

U.S. Const. art. I, § 9 ................................................. 31
U.S. Const. art. I, § 9, cl. 8 .................................... 1, 30
U.S. Const. art. II ........................................................ 8
U.S. Const. art. II, § 1 ............................................... 26
U.S. Const. art. II, § 1, cl. 1................................... 1, 26
U.S. Const. art. II, § 1, cl. 7................................... 1, 30
U.S. Const. art. III..................................................... 12
5 U.S.C. § 7342(a) ...................................................... 31
28 U.S.C. § 1254(1) ...................................................... 1
6 O.L.C. Op. 156 (1982) ............................................. 31
19 O.L.C. Op. 350 (1995) ........................................... 33
Hearing Before the H. Comm. on Oversight &
Reform, 116th Cong. 13 (2019) .......................... 4, 5
House Resolution 507 ............................................ 2, 32
House Resolution 600 .................................................. 2
Memorandum from Laurence H. Silberman, Deputy
Attorney General, to Richard T. Burress, Office of
the President, Conflict of Interest Problems
Arising out of the President’s Nomination of
Nelson A. Rockefeller to be Vice President Under
the Twenty-Fifth Amendment to the Constitution
(Aug. 28, 1974) ..................................................... 26

xii

Memorandum of William H. Rehnquist to Egil
Krogh (Apr. 1, 1969) ............................................ 33
Rules of the House of Representatives, Rule X,
subsection 3(i) ........................................................ 1
Rules of the House of Representatives, Rule X,
subsection 4(c)(2).................................................1-2
Sup. Ct. Rule 10(c)..................................................... 13
The Federalist No. 48 (James Madison) (Rossiter
ed., 1961) .............................................................. 24

1

Donald J. Trump, the President of the United
States of America, The Trump Organization, Inc.,
Trump Organization LLC, The Trump Corporation,
DJT Holdings LLC, The Donald J. Trump Revocable
Trust, and Trump Old Post Office LLC respectfully
petition for a writ of certiorari to review the judgment
of the United States Court of Appeals for the District
of Columbia Circuit.
OPINIONS BELOW
The opinion of the U.S. Court of Appeals for the
District of Columbia Circuit is reported at 941 F.3d
710 and is reproduced at Appendix 1a-157a. The
opinion of the U.S. District Court for the District of
Columbia is reported at 380 F. Supp. 3d 76 and is
reproduced at App. 158a-212a. The order denying the
petition for rehearing is reported at 941 F.3d 1180 and
is reproduced at 213a-21a.
JURISDICTION
The D.C. Circuit issued its opinion on October
11, 2019, and it denied rehearing on November 13,
2019. This Court has jurisdiction under 28 U.S.C. §
1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The constitutional and statutory provisions
involved in this case are: U.S. Const. art. I, §§ 8, 9 cl.
8; U.S. Const. art. II, § 1, cl. 1, 7, §§ 2-3; Rules of the
House of Representatives, Rule X, subsections 3(i),

2

4(c)(2); and House Resolutions 507 and 600. They are
reproduced at App. 222a-26a and 241a-52a.
INTRODUCTION
This is a case of firsts. It is the first time that
Congress has subpoenaed personal records of a sitting
President. It is the first time that Congress has issued
a subpoena, under the guise of its legislative powers,
to investigate the President for illegal conduct. And, it
is the first time a court has upheld any congressional
subpoena for any sitting President’s records of any
kind. Now, under the D.C. Circuit’s decision, Congress
can subpoena any private records it wishes from the
President on the mere assertion that it is considering
legislation that might require presidents to disclose
that same information. Given the obvious temptation
to investigate the personal affairs of political rivals,
subpoenas concerning the private lives of presidents
will become routine in times of divided government.
It is unsurprising, then, that the one thing the
district court, the panel, and the dissenting judges all
agreed upon is this case raises important separationof-powers issues. At its core, this controversy is about
whether—and to what degree—Congress can exercise
dominion and control over the Office of the President.
The Committee on Oversight and Reform of the U.S.
House of Representatives takes the view, supported
by the D.C. Circuit, that every committee of Congress
may subpoena the President’s personal records, that
the Necessary and Proper Clause allows Congress to
investigate the President’s wrongdoing so long as it
also promises to consider remedial legislation, and

3

that Congress can statutorily require presidents to
disclose their personal finances. These are profoundly
serious constitutional questions that the Court should
decide.
But not only are these weighty constitutional
issues, the D.C. Circuit incorrectly decided them. The
Committee’s investigation of the President lacks a
legitimate legislative purpose. It is a law-enforcement
investigation about uncovering whether the President
engaged in wrongdoing. Nor can the investigation
result in valid legislation. The Constitution—not
Congress—created the Office of the President.
Congress, accordingly, cannot require the President to
disclose his finances or otherwise expand or alter the
office’s qualifications. Yet the D.C. Circuit never
should have reached these issues because the
Committee lacks express statutory authorization to
subpoena the President. An express statement should
be required given the separation-of-powers issues that
are raised by unleashing every committee to subpoena
every president for his personal records.
This Court traditionally grants certiorari when
the President has been subjected to novel legal process
and seeks review. The Court has recognized that the
President’s objections merit “respectful and deliberate
consideration.” Clinton v. Jones, 520 U.S. 681, 689-90
(1997). This approach is not out of concern for any
“particular President,” but for the sake of “the
Presidency itself.” Trump v. Hawaii, 138 S. Ct. 2392,
2418 (2018). This case should be no exception.

4

STATEMENT
A.

Background

On April 15, 2019, the Oversight Committee of
the House of Representatives (“Committee”) issued a
subpoena to Mazars USA, LLP, the accounting firm
for President Trump and several Trump entities. The
subpoena required Mazars to produce eight years of
financial and accounting information “related to work
performed for President Trump and several of his
business entities both before and after he took office.”
App. 2a.1
The Mazars subpoena arose from a Committee
hearing last February that featured the testimony of
Michael Cohen. Cohen was then awaiting sentencing
following his guilty plea to several dishonesty-based
crimes (including lying to Congress). He testified that
the President had “inflated” and “deflated” assets on
“personal financial statements from 2011, 2012, and
2013” to obtain a bank loan for a deal “to buy the
Buffalo Bills” and to “reduce his [state] real estate
taxes” and insurance premiums. Hearing Before the H.
Comm. on Oversight & Reform, 116th Cong. 13 (2019),
bit.ly/2IrXTkX. Mazars prepared those financial
statements.

The New York County District Attorney later copied
and served this same subpoena to Mazars as part of a grand jury
investigation into the President. The only difference is that the
District Attorney also demanded tax returns. Trump v. Vance,
No. 19-635, Petition for Writ of Certiorari, at 8 (filed. Nov. 14,
2019).
1

5

The Committee explained why it was interested
in Cohen’s testimony. According to the Chairman,
“Cohen’s testimony raises grave questions about the
legality of ... President Donald Trump’s conduct.” Id.
6. Many Committee members agreed. See, e.g., id. 107
(Hill: “I ask these questions to help determine
whether our very own President committed felony
crimes.”); id. 163-65 (Tlaib: “[O]ur sole purpose[] is
exposing the truth…. President Donald J. Trump …
commit[ed] multiple felonies, and you covered it up,
correct?”); id. 37 (Clay: “I would like to talk to you
about the President’s assets, since by law these must
be reported accurately.”); id. 160-61 (Ocasio-Cortez:
“[D]id the President ever provide inflated assets to an
insurance company? … Do you think we need to
review his financial statements … to compare
them?”); id. 150-52 (Khanna: “[Y]ou have provided …
compelling evidence of Federal and State crimes,
including financial fraud…. I just want the American
public to understand that … the President … may be
involved in a criminal conspiracy.”); id. 30 (Maloney:
lamenting that Cohen is “facing the consequences of
going to jail” but the President “is not.”).
After the hearing, the Chairman memorialized
the Committee’s reasons for issuing the subpoena in
two documents. The first, a March 20 letter to Mazars,
explained that the subpoena would help verify
Cohen’s testimony that “President Trump changed
the estimated value of his assets and liabilities on
financial statements prepared by your company—
including inflating or deflating the value of assets
depending on [his] purpose.” DDC Doc. 30 at 5. The
letter then identified what the Chairman saw as

6

inconsistencies between the 2011, 2012, and 2013
statements that Cohen had shared with the
Committee. The Chairman asked Mazars to “assist” in
the Committee’s “review of these issues.” Id. 6-8.
The second, an April 12 memorandum to the
Committee, once again referenced the desire to verify
Cohen’s testimony, and set forth four purposes for the
subpoena: whether the President (1) “may have
engaged in illegal conduct before and during his
tenure in office”; (2) “has undisclosed conflicts of
interest that may impair his ability to make impartial
policy decisions”; (3) “is complying with the
Emoluments Clauses of the Constitution”; and (4)
“has accurately reported his finances to the Office of
Government Ethics and other federal entities.” Id. at
21. “The Committee’s interest in these matters,” the
memo added, “informs its review of multiple laws and
legislative proposals under [its] jurisdiction.” Id. It did
not elaborate.
B.

Proceedings Below

On April 22, 2019, Petitioners sued Mazars, the
Committee Chairman, and the Committee lawyer who
served the subpoena. Petitioners alleged that the
subpoena lacked statutory authority and it sought
their private records without a “legitimate legislative
purpose.” See App. 241a. A few days later, the
Committee intervened in the place of the individual
congressional defendants, and it agreed to stay
enforcement of the subpoena until the district court

7

ruled on Petitioners’ preliminary-injunction motion.
App. 174a.2
The district court treated the preliminaryinjunction filings as summary-judgment motions,
entered final judgment for the Committee, and denied
a stay pending appeal. App. 178a, 208a-12a. On
appeal, the parties agreed to stay enforcement of the
subpoena until the D.C. Circuit’s mandate issues.
CADC Doc. 1811186 at 2-3.
On October 11, 2019, the D.C. Circuit affirmed
in a divided opinion. App. 1a-157a. For the subpoena
to be statutorily valid, the majority explained, the
House of Representatives needs to have “given the
issuing committee ... authority” to demand these
records. App. 20a. For it to be constitutional, the
subpoena needs a “legitimate legislative purpose.”
App. 68a. This means the Committee is “pursuing a
legislative, as opposed to a law-enforcement,
objective” and “is investigating a subject on which
constitutional legislation ‘could be had.’” App. 24a.
(quoting McGrain v. Daugherty, 273 U.S. 135, 177
(1927)).
Taking the issues “in reverse order,” App. 22a,
the majority upheld the subpoena as constitutional. In
the majority’s view, the Committee’s investigation of
the President was legislative. In so ruling, it relied on
the Chairman’s memoranda. Notwithstanding the
Throughout the proceedings, Mazars has taken the
position that “the dispute in this action is between Plaintiffs and
the Committee,” DDC Doc. 23 at 2, and has taken no position on
the legal issues.
2

8

Chairman’s stated purpose to investigate whether the
President broke the law, the majority considered “more
important” the Chairman’s promise that the
Committee’s “interest in these matters informs [its]
review of multiple laws and legislative proposals.” App.
29a. Moreover, “that the House has pending several
pieces of legislation related to the Committee’s inquiry
offers highly probative evidence of the Committee’s
legislative purpose.” App. 30a. This legislative
justification was not, in the majority’s view, “an
insubstantial, makeweight assertion of remedial
purpose.” App. 32a. “Simply put,” the majority held,
“an interest in past illegality can be wholly consistent
with an intent to enact remedial legislation.” App 32a.
The majority further held that the subpoena
sought information about a subject on which Congress
“may potentially legislate or appropriate.” App. 41a
(citation and quotations omitted). Laws that require
presidents to “disclose financial information” are, in its
view, a “category of statutes” within the legislative
domain since, for example, Congress could pass laws to
enforce the Emoluments Clauses of the Constitution.
App. 44a. The majority thought such legislation would
not “prevent the President from accomplishing his
constitutionally assigned functions” under Article II,
add a qualification for office, or otherwise exceed
Congress’s Article I legislative authority. App. 45a. To
conclude otherwise, according to the majority, “would
be a return to an ‘archaic view of the separation of
powers’” that “is not the law.” App. 49a (quoting Nixon
v. Administrator of General Services, 433 U.S. 425, 443
(1977)). In all, the majority saw “no inherent
constitutional flaw in laws requiring Presidents to

9

publicly disclose certain financial information.” App.
51a.
As to statutory authority, the majority would
not “interpret the House Rules narrowly to deny the
Committee the authority it claims” even though the
House Rules do not expressly authorize it to subpoena
the President. App. 63a. First, the majority rejected
application of the clear-statement rule because “the
House Rules have no effect whatsoever on ‘the balance
between Congress and the President.’” App. 68a. In the
majority’s view, since “Congress already possesses—
in fact, has previously exercised—the authority to
subpoena Presidents and their information, nothing
in the House Rules could in any way ‘alter the balance
between’ the two political branches of government.”
App. 69a.
Second, the majority held that the avoidance
canon was inapplicable. It recognized the Committee’s
statutory authority must be narrowly interpreted if
there are any serious “‘doubts’” as to the subpoena’s
“‘constitutionality.’” App. 69a (quoting United States
v. Rumely, 345 U.S. 41, 46 (1953)). According to the
majority, though, “the constitutional questions raised
here are neither grave nor serious and difficult.” App.
70a.
Finally, the majority held that the prospect of
every congressional committee issuing subpoenas to
the President did not create any separation-of-powers
concerns that would justify a narrowing construction.
App. 71a-72a. It reasoned that a subpoena “directed
at Mazars” presented no occasion to address whether

10

a flurry of subpoenas would interfere with the
President’s official duties, and, regardless, the
majority could identify no argument that this one
“risks unconstitutionally burdening the President’s
core duties.” App. 75a.
Judge Rao dissented. App 77a-158a. She viewed
the dispute as raising “serious separation of powers
concerns about how a House committee may investigate
a sitting president.” App. 77a. “Congress cannot
undertake a legislative investigation” of the President “if
the ‘gravamen’ of the investigation rests on ‘suspicions of
criminality.’” App. 85a (quoting Kilbourn v. Thompson,
103 U.S. 168, 193, 195 (1880)). Rather, “allegations of
illegal conduct against the President cannot be
investigated by Congress except through impeachment.”
App. 83a. Therefore, whether the subpoena has “a
legislative purpose presents a serious conflict between
Congress and the President.” App. 88a-89a.
In Judge Rao’s view, this was not an exercise of
“legislative power” since the Committee “explicitly”
expressed “a purpose of investigating illegal conduct of
the President, including specific violations of ethics
laws and the Constitution.” App. 77a-78a. Indeed, “the
Committee has emphasized repeatedly and candidly its
interest in investigating allegations of illegal conduct
by the President.” App. 120a-21a. The subpoena is “not
about administration of the laws generally or the
President’s incidental involvement in or knowledge of
any alleged unlawful activity within the executive
branch.” App. 122a. Rather, “the topics ... exclusively
focus on the President’s possible engagement in ‘illegal
conduct.’” App. 122a.

11

Judge Rao recognized that the Committee also
professes a legislative purpose. App. 126a. But “the
mere statement of a legislative purpose is not ‘more
important’ when a committee also plainly states its
intent to investigate such conduct.” App. 127a. The
“gravamen ... is the President’s wrongdoing. The
Committee has ‘affirmatively and definitely avowed,’
McGrain, 273 U.S. at 180, its suspicions of criminality
against the President.” App. 135a. In sum, “questions
of illegal conduct and interest in reconstructing
specific financial transactions of the President are too
attenuated and too tangential to” any “legislative
purposes” for the subpoena to be legitimate. App. 133a
(citations and quotations omitted).
Because she would invalidate the subpoena on
law-enforcement grounds, Judge Rao had no need to
reach the parties’ other disputes. But she did express
concern with the majority’s statutory analysis. Judge
Rao, in particular, rejected the notion that separationof-powers concerns are not implicated because the
subpoena was issued to a third-party custodian. App.
86a-88a. She also outlined why laws regulating the
President are “rife with constitutional concerns.” App.
142a.
On November 13, 2019, the D.C. Circuit denied
rehearing. App. 213a-21a. Judge Katsas, joined by
Judge Henderson, dissented. He explained that “this
case presents exceptionally important questions
regarding the separation of powers among Congress,
the Executive Branch, and the Judiciary.” App. 215a
(Katsas, J., dissenting from denial of rehearing en
banc). This is only “the second time in American

12

history [that] an Article III court has undertaken to
enforce a congressional subpoena for the records of a
sitting President.” App. 215a. In upholding such a
subpoena for the first time, the ruling unfortunately
“creates an open season on the President’s personal
records.” App. 216a. Now, “whenever Congress
conceivably could pass legislation regarding the
President, it also may compel the President to disclose
personal records that might inform the legislation.”
App. 216a. “With regard to the threat to the
Presidency,” then, “‘this wolf comes as a wolf.’” App.
217a (quoting Morrison v. Olson, 487 U.S. 654, 699
(1988) (Scalia, J., dissenting)).
Judge Rao, joined by Judge Henderson, also
dissented because “[t]he exceptionally important
constitutional questions raised by this case justify
further review by our court.” App. 218a-19a (Rao, J.,
dissenting from denial of rehearing en banc). “The
panel’s analysis of these issues misapprehends the
gravamen of the Committee’s subpoena and glosses
over the difficult questions it raises for the separation
of powers.” App. 218a. The fallout from upholding this
“unprecedented” subpoena, Judge Rao added, will be
serious because “the panel opinion has shifted the
balance of power between Congress and the President
and allowed a congressional committee to circumvent
the careful process of impeachment.” App. 218a. “This
question is one of exceptional importance,” she
concluded, “both for this case as well as for the

13

recurring disputes between
Executive Branch.” App. 221.3

Congress

and

the

REASONS FOR GRANTING THE PETITION
Review is warranted because the D.C. Circuit
“decided an important question of federal law that has
not been, but should be, settled by this Court.” Sup.
Ct. Rule 10(c). This case raises important separationof-powers questions concerning Congress’s authority
to subpoena the personal records of a sitting President
for legislative purposes. This unprecedented subpoena
should have been invalidated, and the D.C. Circuit’s
decision upholding it was mistaken.
I.

The validity of the Committee’s subpoena
is an important issue of federal law that
the Court should settle.

The district court, before issuing a 41-page
opinion, cautioned that “[t]he issues … are serious”
and that “[n]o judge would make a hasty decision
involving such important issues.” DDC Doc. 33 at 4-5.
The Executive Branch, in its amicus brief below,
explained that the case “raises significant separationof-powers issues” and urged the D.C. Circuit to
invalidate the subpoena. CADC Doc. 1800932 at 6-8.
The D.C. Circuit’s 66-page opinion characterized the
stakes as “weighty,” App. 76a, and the issues as “far”
from “unimportant.” App. 70a. Judge Rao likewise
emphasized the case’s importance in her dissents.
On November 25, the Court granted Petitioners’ motion
to stay the mandate. See Order, Trump v. Mazars USA, LLP, No.
19A545 (Nov. 25, 2019).
3

14

App. 77a. Thus, it should be common ground that “this
case presents exceptionally important questions
regarding the separation of powers among Congress,
the Executive Branch, and the Judiciary.” App. 215a
(Katsas, J., dissenting from denial of rehearing en
banc).
There also can be no reasonable assertion that
resolution of these important legal issues turns on the
routine application of settled law. This Court has not
decided whether a congressional subpoena is valid if,
notwithstanding Congress’s claim that the records are
being demanded for legislative reasons, the committee
also has “affirmatively and definitely avowed” a lawenforcement reason that is the “‘primary purpose[]’”
for issuing the subpoena. McGrain, 273 U.S. at 180;
Barenblatt v. United States, 360 U.S. 109, 133 (1959).
To be sure, the parties have a serious dispute over how
to apply decades-old, if not century-old, precedent to a
congressional demand for a President’s personal
records. Indeed, it took the panel over 130 pages to
decide that issue. But contrary to the Committee’s
argument in opposing a stay, the need for the Court’s
guidance is a reason to grant certiorari—not to deny
it.
The Court likewise has never decided whether
Congress may legislatively require the President to
disclose his finances. This also is a serious issue. “The
executive power is vested in a President; and as far as
his powers are derived from the constitution, he is
beyond the reach of any other department, except in
the mode prescribed by the constitution through the
impeaching power.” Kendall v. U.S. ex rel. Stokes, 37

15

U.S. 524, 610 (1838). “Out of respect for the separation
of powers and the unique constitutional position of the
President,” the Court traditionally gives close review
to legislative efforts to regulate the office. Franklin v.
Massachusetts, 505 U.S. 788, 800 (1992).
Relatedly, when the Chief Executive argues, as
here, that novel legal process directed at him will lead
to “diversion of his energies,” the Court traditionally
grants review given “the singular importance of the
President’s duties.” Nixon v. Fitzgerald, 457 U.S. 731,
751 (1982). The Court has “long recognized the ‘unique
position in the constitutional scheme’” that the
Presidency occupies. Clinton, 520 U.S. at 698 (quoting
Fitzgerald, 457 U.S. at 749). Whether the Committee’s
statutory authority should be narrowly construed to
avoid the separation-of-powers problems that this
case raises—including the serious concerns triggered
by unleashing every congressional committee to
subpoena the President for his personal records—is an
important issue warranting the Court’s review as
well.
That this case raises so many serious issues is
not happenstance. Everything about this dispute is
“unprecedented.” App. 218a (Rao, J., dissenting from
denial of rehearing en banc). It is the first time
Congress has ever subpoenaed the personal records of
a sitting President, and it is the first time a
congressional demand for any presidential records has
been upheld. App. 215a (Katsas, J., dissenting from
denial of rehearing en banc). Furthermore, it is the
first time a court has upheld “a targeted investigation
of the President’s alleged unlawful conduct under the

16

legislative power.” App. 120a (Rao, J., dissenting). The
subpoena, accordingly, “represents an unprecedented
assertion of legislative power.” App. 120a (Rao, J.,
dissenting).
The fact that the President is a petitioner here
heightens the need for review. The President is not an
“ordinary” litigant. Cheney v. U.S. Dist. Court for D.C.,
542 U.S. 367, 381-82 (2004). The Court gives the
President “special solicitude,” Fitzgerald, 457 U.S. at
743, and “‘high respect,’” Cheney, 542 U.S. at 385.
When the President seeks review, this Court grants
certiorari because of the case’s “importance” without
regard for whether it is a “one-of-a-kind” case or
whether there is “any conflict among the Courts of
Appeals.” Clinton, 520 U.S. at 689. The Court has
been especially receptive when, as here, the
President’s concerns are shared by the Executive
Branch. Id. at 689-90. Again, the Court’s deferential
approach is not out of concern for any “particular
President,” but out of respect for “the Presidency
itself.” Hawaii, 138 S. Ct. at 2418.
The Court should adhere to that approach and
grant the petition. Indeed, review is warranted for the
same reasons that it was granted in United States v.
Nixon, 418 U.S. 683 (1974)—the most famous case
involving a presidential subpoena. As here, a “thirdparty subpoena duces tecum” for presidential records
raised questions of “public importance” that justified
review. Id. at 686-87. Only, here, the Committee has
a less pressing need for the records than the parties
had in Nixon, see infra 37-38, and this subpoena raises
more serious legal issues than those raised by the

17

narrowly framed demand in Nixon, see Cheney, 542
U.S. at 387. This is the kind of important dispute, in
sum, that the Court has traditionally felt an
institutional responsibility to hear.
II.

The Committee’s subpoena is invalid.

As explained, the decision to grant certiorari in
a case like this turns on the Court’s “appraisal of its
importance” instead of a “judgment concerning the
merits of the case.” Clinton, 520 U.S. at 689. But even
if the ultimate merit of the President’s claims matters,
certiorari is warranted just the same. The subpoena is
unconstitutional.
A.

The Committee’s subpoena lacks a
legitimate legislative purpose.

“The powers of Congress ... are dependent
solely on the Constitution,” and the subpoena power is
not “found in that instrument.” Kilbourn, 103 U.S. at
182. The Court has held that it is “implied” through
the Necessary and Proper Clause. McGrain, 273 U.S.
at 161. But Congress is not “the final judge of its own
power and privileges.” Kilbourn, 103 U.S. at 199. The
Court “has not hesitated” to invalidate a subpoena
where “Congress was acting outside its legislative
role,” Tenney v. Brandhove, 341 U.S. 367, 377 (1951)—
i.e., acting without a “legitimate legislative purpose,”
Eastland v. U.S. Servicemen’s Fund, 421 U.S. 491, 501
n.14 (1975). Whether the Committee had a legitimate
legislative purpose here turns on two issues.

18

First, Congress cannot exercise “any of the
powers of law enforcement; those powers are assigned
under our Constitution to the Executive and the
Judiciary.” Quinn v. United States, 349 U.S. 155, 161
(1955); accord Watkins v. United States, 354 U.S. 178,
187 (1957). As a result, Congress “cannot inquire into
matters which are within the exclusive province of one
of the other branches,” Barenblatt, 360 U.S. at 11112, or otherwise “‘trench upon Executive or judicial
prerogatives,’” App. 180a.
Second, a congressional investigation cannot
“extend to an area in which Congress is forbidden to
legislate.” Quinn, 349 U.S. at 161. “The subject of any
inquiry always must be one ‘on which legislation could
be had.’” Eastland, 421 U.S. at 504 n.15. Thus, “[i]f no
constitutional statute may be enacted on a subject
matter, then that subject is off-limits to congressional
investigators.” App. 22a.
This subpoena violates both principles. It was
issued for a law-enforcement—not a legislative—
purpose. And, the subject of the inquiry—legislatively
requiring presidents to disclose their finances—would
not be valid legislation as it would exceed Congress’s
authority under Article I.

19

1.

This subpoena is part of an attempted
law-enforcement investigation by the
Committee.

Congress is not “a law enforcement or trial
agency. These are functions of the executive and
judicial departments of government.” Watkins, 354
U.S. at 187. This subpoena is part of an investigation
into whether the President violated the law—a nonlegislative task. App. 120a-36a (Rao, J., dissenting).
Therefore, this subpoena lacks a legitimate legislative
purpose.
That the Committee is investigating whether
the President broke the law is not seriously contested.
At the Cohen hearing (the impetus for this subpoena),
the Chairman and several Committee members
admitted that their purpose was to assess “the legality
of … President Donald Trump’s conduct.” Supra 5.
The Committee’s first request to Mazars stated that it
wanted to investigate the accuracy of the President’s
financial statements to see if he broke the law. And,
in his formal memo, the Chairman’s very first stated
basis for the subpoena was “to investigate whether the
President may have engaged in illegal conduct before
and during his tenure in office.” App. 32a. In short, the
Committee “‘affirmatively and definitely avowed’” an
“‘unlawful’” law-enforcement purpose. App. 134a
(Rao, J., dissenting) (quoting McGrain, 273 U.S. at
180)).4
The Committee also was investigating whether the
President “is complying with the Emoluments Clauses of the
Constitution.” DDC Doc. 30 at 21. But this is law enforcement as
4

20

But the Court would not need the Committee’s
admission to recognize that this is a law-enforcement
subpoena. Its “dragnet” nature, Wilkinson v. United
States, 365 U.S. 399, 412 (1961), together with its
focus on “certain named individuals” and the “precise
reconstruction of past events,” Senate Select Comm.
on Presidential Campaign Activities v. Nixon, 498
F.2d 725, 732 (D.C. Cir. 1974), show that the subpoena
has all the hallmarks of grand-jury and prosecutorial
investigations—not legislative inquiries. That DOJ,
“the Nation’s chief law enforcement” agency, Mitchell
v. Forsyth, 472 U.S. 511, 520 (1985), thinks this looks
like law enforcement, see CADC Doc. 1800932 at 1718, corroborates what is plain from the face of the
subpoena itself.
It is no surprise, then, that the D.C. Circuit
agreed that the subpoena is meant to uncover
“whether and how illegal conduct has occurred.” App.
34a. That court nonetheless upheld the subpoena
because it is “more important” that the Committee
also expressed a “legislative purpose” for issuing the
subpoena—and an “interest in past illegality can be
wholly consistent with an intent to enact remedial
legislation.” App. 29a, 32a. In the D.C. Circuit’s view,
an avowed law-enforcement purpose did not “spoil” an
well. It matters not that the Committee wants to know whether
the President is complying with a constitutional provision
instead of a federal statute; “the Constitution and valid federal
statutes” are both “the supreme law.” Alden v. Maine, 527 U.S.
706, 757 (1999). An investigation into whether the President has
a accepted emoluments is an effort to uncover wrongdoing.

21

“otherwise valid legislative inquiry” because the
Committee’s explanation did not amount to an
“insubstantial, makeweight assertion of remedial
purpose.” App. 32a. This logic fails on every level.
The legislative explanation for the Committee’s
subpoena is makeweight. The Chairman’s first memo
did not identify a legislative agenda that led him to
issue the subpoena—the D.C. Circuit and House
counsel did so on the Committee’s behalf. App. 30a31a. The memo identified four law-enforcement
objectives and, at the end, dropped in a boilerplate
profession of legislative purpose. The Chairman’s
second memo was more of the same. That the House
has passed or is proceeding with legislation allegedly
“related to the Committee’s inquiry” without access to
the records demanded by the subpoena only further
undermines the notion that the professed “legislative
purpose” is substantial. App. 30a. Congress’s power of
investigation is limitless if this is what counts as
“indicia of legislative purpose.” App. 31a.
But even accepting the Committee’s legislative
explanation as genuine, the reviewing court still must
determine whether it is the subpoena’s “real object,”
“primary purpose[],” and “gravamen.” McGrain, 273
U.S. at 178; Barenblatt, 360 U.S. at 133; Kilbourn, 103
U.S. at 195. The Court does not refuse to “see what all
others can see and understand” when it comes to the
“congressional power of investigation.” Rumely, 345
U.S. at 44 (cleaned up). The subpoena’s “gravamen” is
“the President’s wrongdoing.” App. 135a (Rao,
dissenting). It “seeks to investigate illegal conduct of
the President by reconstructing past actions in

22

connection with alleged violations of ethics laws and
the Emoluments Clauses.” App. 120a (Rao, J.,
dissenting). Upholding this subpoena as being
primarily legislative would allow the tail to wag the
dog.
The D.C. Circuit’s conclusion that a legislative
subpoena is always valid—no matter what—so long as
Congress has “professed that it seeks to investigate
remedial legislation,” App. 34a, cannot be reconciled
with first principles or precedent. The ban on
congressional law enforcement is not prophylactic. It
keeps Congress from deploying implied authority
rooted in the Necessary and Proper Clause to usurp
functions that belong to the Executive and Judiciary.
It ensures, in other words, that Congress does not
“overstep the just boundaries of [its] own department,
and enter upon the domain of one of the others.”
Kilbourn, 103 U.S. at 192. Hollowing out the
legitimate-legislative-purpose test permits the
Necessary and Proper Clause “to undermine the
structure of government established by the
Constitution.” NFIB v. Sebelius, 567 U.S. 519, 559
(2012) (opinion of Roberts, C.J.).
Accordingly, while a legislative investigation is
not illegitimate because it might incidentally expose
illegal conduct, App. 24a, a law-enforcement subpoena
does not become legitimate just because it might
incidentally inspire remedial legislation. Allowing
mere recitation of a legislative purpose to inoculate a
subpoena from challenge turns the constitutional line
between a legitimate legislative pursuit and an
illegitimate law-enforcement investigation into a

23

magic-words test. The subpoena’s primary purpose or
gravamen is what has to count.
The D.C. Circuit understood Sinclair v. United
States, 279 U.S. 263 (1929), and Hutchinson v. United
States, 369 U.S. 599 (1962), to hold otherwise. App.
33a-34a. But the claim did not fail in Sinclair because
Congress may engage in law enforcement so long as it
also professes a legislative purpose; it failed because
the “contention that the investigation was avowedly
not in aid of legislation” lacked proof. 279 U.S. at 295
(emphasis added). “The record” demonstrated that the
investigation’s gravamen was legislative in nature; its
legitimacy, accordingly, was not defeated “because the
information sought to be elicited may also be of use”
to prosecutors. Id.
Hutchinson is the same. As in Sinclair, the
challenge to the investigation did not fail because the
Committee merely professed a legislative purpose.
Instead, the “episodes” presented as evidence of a
“departure from ... legitimate congressional concerns”
fell “far short of sustaining what [was] sought to be
made of them.” Id. at 619. The plurality opinion thus
reiterated that a “committee which is engaged in a
legitimate legislative investigation need not grind to a
halt whenever responses to its inquiries might
potentially be harmful to a witness in some distinct
proceeding.” 369 U.S. at 618. Justice Brennan agreed.
His controlling concurrence explained that the Court
“will give the closest scrutiny to assure that indeed a
legislative purpose was being pursued and that the
inquiry was not aimed at aiding the criminal
prosecution.” Id. at 625 (Brennan, J., concurring)

24

(emphasis added). But the fact that “the conduct
under inquiry may have some relevance to the subject
matter of a pending state indictment cannot
absolutely foreclose congressional inquiry.” Id. at 624.
At base, the D.C. Circuit so thoroughly gutted
the test for evaluating legitimate legislative purpose
that only a committee engaged in self-sabotage could
flunk it. Perhaps “a congressional committee could not
subpoena the President’s high school transcripts in
service of an investigation into K-12 education.” App.
43a. But it could surely subpoena an ordinary citizen’s
transcripts for that purpose. If a professed interest in
passing remedial legislation is all the Constitution
requires, then there is no limit to the law-enforcement
investigations upon which Congress can embark. The
D.C. Circuit has left the Executive—to whom “law
enforcement ... power is entrusted,” United States v.
Welden, 377 U.S. 95, 117 (1964)—unarmed in his
clash with “‘the encroaching spirit’ of legislative
power.” Bank Markazi v. Peterson, 136 S. Ct. 1310,
1336 (2016) (Roberts, C.J., dissenting) (quoting The
Federalist No. 48, at 308 (James Madison) (Rossiter
ed., 1961)).
Usurpation of the Executive’s law-enforcement
prerogative is bad enough. But the issue is even more
perilous when the subpoena targets the President. See
U.S. Amicus Brief, No. 19-635, Trump v. Vance, at 21
n* (filed Nov. 22, 2019). This Court has “upheld some
congressional investigations that incidentally uncover
unlawful action by private citizens,” but investigating
alleged “wrongdoing of the President or any
impeachable official [] has never been treated as

25

merely incidental to a legislative purpose.” App. 131a
(Rao, J., dissenting). Under the D.C. Circuit’s
approach, however, nothing would stop Congress from
demanding any records of the President—including
his high school transcripts. Congress just needs to
profess an interest in legislation that would make
presidents disclose the information contained in those
personal records. App. 216a (Katsas, J., dissenting
from denial of rehearing en banc). That approach
cannot be reconciled with the heightened showing of
need the Court requires before approving subpoenas
that demand presidential and White House records.
See Nixon, 418 U.S. at 713; Cheney, 542 U.S. at 385.
But the Mazars subpoena would be invalid even
if the President were not the target. It “is not about
administration of the laws generally or the President’s
incidental involvement in or knowledge of any alleged
unlawful activity within the executive branch. Instead
the topics of investigation exclusively focus on the
President’s possible engagement in ‘illegal conduct.’”
App. 122a (Rao, J., dissenting). That is paradigmatic
law enforcement.
2.

The Committee investigation that led
to this subpoena could not result in
constitutional legislation.

Even though the Committee argued that there
were several legislative areas to which the subpoena
could pertain, the D.C. Circuit was only willing to rely
on one of them as potentially valid: laws that require
presidents to disclose personal financial information.

26

App. 42a-50a.5 But no “valid legislation could be had,”
McGrain, 273 U.S. at 171, because such laws would be
unconstitutional.
The office of the President is created by the
Constitution—not an Act of Congress. By vesting in
him “[t]he executive Power,” U.S. Const. art. II, § 1,
cl.1, the Constitution has “entrusted” the President
“with supervisory and policy responsibilities of utmost
discretion and sensitivity,” Fitzgerald, 457 U.S. at
750. “It is his responsibility to take care that the laws
be faithfully executed.” Free Enter. Fund v. PCAOB,
561 U.S. 477, 493 (2010). Congress might have greater
control over other executive-branch officials, but its
legislative power to directly control the President is
constrained. See Memorandum from Laurence H.
Silberman, Deputy Attorney General, to Richard T.
Burress, Office of the President, Conflict of Interest
Problems Arising out of the President’s Nomination of
Nelson A. Rockefeller to be Vice President Under the
Twenty-Fifth Amendment to the Constitution at 5
(Aug. 28, 1974), bit.ly/31k3rql.
The D.C. Circuit misunderstood this position as
resting on an “‘archaic view of the separation of
The Committee asked the court “to consider whether
any law ‘concerning government ethics and conflicts of interest
affecting Executive Branch officials’ could pass constitutional
muster.” App. 42a. But Congress may not subpoena a president’s
“financial information except to facilitate an investigation into
presidential finances.” App. 43a (citation omitted). As applied to
the President, moreover, statutes “mandating divestment from
financial interests or recusal from conflicted matters” would
“raise difficult constitutional questions.” App. 43a.
5

27

powers’” that would, contrary to Supreme Court
precedent, require “‘three airtight departments of
government.’” App. 49a. The Court has employed, at
times, a more “flexible understanding of separation of
powers,” Mistretta v. United States, 488 U.S. 361, 381
(1989), under which laws eroding presidential control
have been upheld so long as they do not “involve an
attempt by Congress to increase its own powers at the
expense of the Executive Branch,” Morrison, 487 U.S.
at 694. Still, the Court has been firm when there is a
“serious threat” to the constitutional balance. PCAOB,
561 U.S. at 502. A law requiring the President to
disclose his personal finances falls into the latter
category.
The separation-of-powers concern here is not
over diffusing presidential responsibility for oversight
of Executive Branch functions. The concern is instead
over Congress’s attempt to exercise control over the
President himself through legislation. That difference
makes this case uncharted territory. The D.C. Circuit
pointed to the Presidential Records Act as analogous.
App. 46a-47. But the PRA left “custody of the
materials in officials of the Executive Branch” and
“screening of the materials” for preservation was
tasked to “the Executive Branch itself” rather than
“have Congress or some outside agency perform the
screening function.” GSA, 433 U.S. at 443-44. Given
that it left “implementation ... in the President’s
hands,” Armstrong v. Bush, 924 F.2d 282, 290 (D.C.
Cir. 1991), the PRA did not “trigger separation of
powers analysis,” Duplantier v. United States, 606
F.2d 654, 667 n.27 (5th Cir. 1979). Imposing financial

28

disclosure requirements on the President intrudes
into an area that the Constitution fences off.6
Such legislation also would change or expand
the enumerated qualifications for serving a President.
Just as Congress lacks the authority “to add to or alter
the qualifications of its Members,” U.S. Term Limits,
Inc. v. Thornton, 514 U.S. 779, 787 (1995), it cannot
add or alter the presidency’s qualifications, id. at 803;
see also id. at 861-62 (Thomas, J., dissenting). Because
Congress cannot adjust “the standing qualifications
prescribed in the Constitution,” Powell v. McCormack,
395 U.S. 486, 550 (1969), requiring the President to
disclose his personal finances as a condition of holding
office is unconstitutional.
The D.C. Circuit disagreed because, in its view,
such requirements “exclude precisely zero individuals
from running for or serving as President; regardless of
their financial holdings, all constitutionally eligible
candidates may apply.” App. 51a. But this Court has
rejected that theory of the Qualifications Clause. In
Thornton, Arkansas defended its term-limits rule by
arguing that its law barred no one from running for
office or serving in Congress; it just barred long-term
The D.C. Circuit also pointed to the obligations that The
Foreign Gifts and Decorations Act and the STOCK Act impose on
the President. App. 46a. But neither of those laws has been
tested in court. The D.C. Circuit’s reliance on the history of
presidential compliance is no stronger. This history is quite
recent, and, regardless, “the separation of powers does not
depend on the views of individual Presidents, nor on whether the
encroached-upon branch approves the encroachment.” PCAOB,
561 U.S. at 497 (cleaned up).
6

29

incumbents from appearing on the ballot. As
Arkansas put it: “[t]hey may run as write-in
candidates and, if elected, they may serve.” 514 U.S.
at 828. The Court responded that because
“constitutional rights would be of little value if they
could be indirectly denied,” the Qualifications Clause
prohibits “indirect attempt[s] to accomplish what the
Constitution prohibits [parties] from accomplishing
directly.” Id. at 829 (cleaned up). For that reason, the
Constitution proscribes not only absolute bars on
certain individuals from running for or serving in
office, but also laws with “the likely effect of
handicapping a class of candidates” in running for
office. Id. at 836.
Courts applying Thornton thus have held that
the ability to comply with the obligation or hold office
is immaterial. Campbell v. Davidson, for example,
invalidated a state law making candidates for federal
office register to vote in order to run for office. 233
F.3d 1229, 1236 (10th Cir. 2000). Schaefer v.
Townsend similarly invalidated a state law that
required candidates to be residents of the State when
filing nomination papers. 215 F.3d 1031, 1039 (9th
Cir. 2000). In both of these cases, the state argued that
the statute did not bar anyone from running for office.
The argument was rejected both times. Campbell, 233
F.3d at 1234; Schaefer, 215 F.3d at 1037. On that
understanding, a court recently held that a California
law similar to the one Congress is pursuing likely
“imposes an additional substantive qualification
beyond the exclusive confines of the Qualifications
Clause and is likely invalid.” Griffin v. Padilla, 2019
WL 4863447, at **6-7 (E.D. Cal. Oct. 2, 2019).

30

Finally, any suggestion that the Emoluments
Clauses provide a foundation for legislation requiring
presidents to disclose their finances is erroneous. The
Domestic Emoluments Clause bars “the President
from receiving ‘any ... Emolument’ from the federal or
state
governments
other
than
a
fixed
“‘Compensation’” “‘for his Services.’” App. 45a (quoting
U.S. Const. art. II, § 1, cl. 7). The Foreign Emoluments
Clause “prohibits any federal official ‘holding any
Office of Profit or Trust’ ... from ‘accept[ing] ... any
present, Emolument, Office, or Title, of any kind
whatever, from any King, Prince, or foreign State’
without ‘the Consent of the Congress.’” App. 46a
(quoting U.S. Const. art. I, § 9, cl. 8). “If the President
may accept no domestic emoluments and must seek
Congress’s permission before accepting any foreign
emoluments,” the D.C. Circuit posited, “a statute
facilitating the disclosure of such payments lies
within constitutional limits.” App. 46a.
But such laws would not avoid the separationof-powers problem that arises when Congress seeks to
directly control the President. In fact, relying on the
Emoluments Clauses raises additional constitutional
doubts. The D.C. Circuit does not explain how the
Domestic Emoluments Clause—a provision in Article
II that states what “[t]he President … shall not” do,
U.S. Const. art. II, § 1, cl. 7—is an affirmative grant
of power for Congress to enact legislation. It bypassed
whether the Foreign Emoluments Clause even applies
to the President. App. 143a (Rao, J., dissenting). And,
the D.C. Circuit ignored that the Foreign Emoluments
Clause applies to millions of federal workers who hold

31

an “Office of Profit or Trust under [the United
States].” U.S. Const. art. I, § 9; see 5 U.S.C. § 7342(a);
6 O.L.C. Op. 156, 156-59 (1982). Under the logic of the
D.C. Circuit, Congress could obtain the personal
records of all these workers to see if they have
accepted foreign emoluments without approval. This
cannot be a legitimate legislative purpose if we are to
remain “a government of limited powers.” NFIB, 567
U.S. at 552 (Roberts, C.J.).
B.

The Committee lacks the statutory
authority to issue a subpoena to the
President.

The D.C. Circuit should not have decided these
constitutional issues. The Committee’s statutory
jurisdiction must “first be settled,” Rumely, 345 U.S.
at 43, and the House Rules did not authorize the
Committee to issue this subpoena.
“Congressional committees are themselves the
offspring of Congress; they have only those powers
authorized by law.” In re Beef Industry Antitrust
Litig., 589 F.2d 786, 787-88 (5th Cir. 1979). “To issue
a valid subpoena,” then, a committee “must conform
strictly to the resolution establishing its investigatory
powers.” Exxon Corp. v. FTC, 589 F.2d 582, 592 (D.C.
Cir. 1978); see Yellin v. United States, 374 U.S. 109,
114 (1963). The Committee’s “instructions are
embodied in the authorizing resolution. That
document is the committee’s charter.” Watkins, 354
U.S. at 201. The House Rules, which were adopted on
January 9, 2019, thus establish the Committee’s
jurisdiction and define its investigative powers.

32

The House Rules do not expressly authorize the
Committee to subpoena the President—let alone for
personal records. App. 67a. That should have decided
the case.7 For at least two reasons, the D.C. Circuit
should have interpreted “the House Rules narrowly to
deny the Committee the authority it claims.” App.
63a.
First, “‘where a statute is susceptible of two
constructions, by one of which grave and doubtful
constitutional questions arise and by the other of
which such questions are avoided,’” the Court’s “‘duty
is to adopt the latter.’” Jones v. United States, 529 U.S.
848, 857 (2000). That rule applies with equal force to
the House Rules. See Rumely, 345 U.S. at 46-48. The
D.C. Circuit held that this case does not raise any
constitutional issues weighty enough to invoke it.
App. 69a-70a. That is indefensible given the serious
“threat to presidential autonomy and independence”
the subpoena poses, App. 216a (Katsas, J., dissenting
from denial of rehearing en banc), and the “difficult
Resolution 507, which the House approved while this
case was on appeal, purports to “affirm[] the validity” of the
subpoena. App. 73a. But because “the delegation of power to the
committee must be clearly revealed in its charter,” Watkins 354
U.S. at 198, the “scope” of its statutory authority must “be
ascertained as of th[e] time” of the request and “cannot be
enlarged by subsequent action of Congress,” Rumely, 345 U.S. at
48. The D.C. Circuit did not reach this issue because it rejected a
narrowing construction and held that the “text of the House
Rules” already “authorizes the subpoena.” App. 74a. But if
Petitioners are right that the Committee needs express authority
to subpoena the President, Resolution 507 does not solve the
issue. It “purports neither to enlarge the Committee’s
jurisdiction nor to amend the House Rules.” App. 73a.
7

33

questions it raises for the separation of powers,” App.
218a (Rao, J., dissenting from denial of rehearing en
banc). As explained above, whether this subpoena has
a legitimate legislative purpose raises grave
constitutional issues the court should have been
reluctant to decide. That is especially true “where, as
here, they concern the relative powers of coordinate
branches of government.” Public Citizen v. U.S. Dept.
of Justice, 491 U.S. 440, 466 (1989).
Second, the clear-statement rule also requires
a narrowing interpretation. “‘In traditionally sensitive
areas, ... the requirement of clear statement assures
that the legislature has in fact faced, and intended to
bring into issue, the critical matters involved in the
judicial decision.’” Gregory v. Ashcroft, 501 U.S. 452,
461 (1991). That is particularly important when the
political branches clash. See Franklin, 505 U.S. at
800-01; Fitzgerald, 457 U.S. at 748 n.27. Thus, laws
must be “‘construed not to include the President
unless there is a specific indication that Congress
intended to cover the Chief Executive.’” 19 O.L.C. Op.
350, 351-52 (1995) (quoting Memorandum of William
H. Rehnquist to Egil Krogh (Apr. 1, 1969)).
In the D.C. Circuit’s view, no clear statement is
needed here because “the House Rules have no effect
whatsoever on the balance between Congress and the
President.” App. 68a. That is incorrect. “Whenever
constitutional limits upon the investigative power of
Congress have to be drawn by this Court, it ought only
to be done after Congress has demonstrated its full
awareness of what is at stake by unequivocally
authorizing an inquiry of dubious limits.” Rumely, 345

34

U.S. at 46. Forcing Congress to be fully aware of the
consequences of giving every committee the
unrestricted power to subpoena the President, and to
unequivocally approve it, vindicates important
separation-of-powers principles. App. 139a-40a (Rao,
J., dissenting).
The D.C. Circuit confused two distinct issues in
assuming that just because the House, as a statutory
matter, “could have either issued the challenged
subpoena by a vote of the full chamber or, via express
statement, authorized the Committee to issue the
subpoena on its behalf,” App. 68a, it could take that
step without creating a serious constitutional issue.
The majority bypassed the constitutional issue
because, in its view, “Congress already possesses—in
fact, has previously exercised—the authority to
subpoena Presidents and their information.” App. 69a
(citation omitted). But there is every reason to doubt
that Congress’s power to issue subpoenas in aid of
legislation extends to the President. History, in fact,
points clearly in the opposite direction. App. 99a-119a
(Rao, J., dissenting).
But even if the full House could subpoena the
President under its legislative powers, that does not
mean that authorizing every committee to do so would
be constitutional. Investigative demands like this one
can “distract a President from his public duties, to the
detriment of not only the President and his office but
also the Nation that the Presidency was designed to
serve.” Fitzgerald, 457 U.S. at 753; see id. at 760-61
(Burger, C.J., concurring) (“The essential purpose of
the separation of powers is to allow for independent

35

functioning of each coequal branch of government
within its assigned sphere of responsibility, free from
risk of control, interference, or intimidation by other
branches.”). The full House should have to expressly
delegate authority to its standing committees before
they are unleashed to “issue successive subpoenas in
waves, making far-reaching demands that harry the
President and distract his attention.” U.S. Amicus Br.,
CADC Doc. 1800932 at 11.
The D.C. Circuit concluded that these concerns
are hypothetical “because the only subpoena” at issue
“is the one directed at Mazars,” and no argument has
been made that “compliance with that subpoena risks
unconstitutionally burdening the President’s core
duties.” App. 75a. But that misunderstood Petitioners’
argument and the legal framework upon which it is
built. App. 152a-56a (Rao, J., dissenting). This Court
takes a categorical approach to issues of this sort. See
Fitzgerald, 457 U.S. at 751-53. The issue is whether
“this particular [subpoena]—as well as the potential
additional [subpoenas] that an affirmance of the Court
of Appeals judgment might spawn—may impose an
unacceptable burden on the … office.” Clinton, 520
U.S. at 701-02 (emphasis added). It would clearly
distract the President from his official duties if every
standing committee of Congress had the power to
“compel” him “to disclose personal records that might
inform the legislation” it is considering. App. 216a
(Katsas, J., dissenting from denial of rehearing en
banc).
The D.C. Circuit’s rejection of these concerns is
emblematic of a misguided approach to separation-of-

36

powers questions. To be certain, “separation of powers
does not mean that the branches ‘ought to have no
partial agency in, or no controul over, the acts of each
other.’” App. 50a (quoting Clinton, 520 U.S. at 702-03).
The Court vigilantly shields the President, however,
from “interfere[nce] with the ... discharge of his public
duties” in light of “Article II’s vesting of the entire
‘executive Power’ in a single individual, implemented
through the Constitution’s structural separation of
powers, and revealed both by history and case
precedent.” Clinton, 520 U.S. at 710-11 (Breyer, J.,
concurring). There is thus every reason to be wary of
the D.C. Circuit’s decision and the flood of presidential
subpoenas it will inevitably trigger. “With regard to
the threat to the Presidency, ‘this wolf comes as a
wolf.’” App. 217a (Katsas, J., dissenting from denial of
rehearing en banc) (quoting Morrison, 487 U.S. at 699
(Scalia, J., dissenting)).
III.

There are no vehicle issues.

In opposing a stay, the Committee made three
arguments why review should be denied apart from
its defense of the decision below. None of them justify
denying certiorari.
First, the Committee incorrectly pointed to the
ongoing impeachment as a reason to deny review. But
the Committee concedes it “has relied consistently and
exclusively on the legislative power to justify this
subpoena.” App. 219a (Rao, J., dissenting from denial
of rehearing en banc). Nor does the Committee dispute
that transitioning to an impeachment-based defense
would raise retroactivity problems, since it is doubtful

37

that “a defective subpoena can be revived by after-thefact approval.” App. 220a; see supra 32 n.7. Instead,
the House claims that it might issue a new subpoena
if certiorari is granted. If the Committee took that
step, however, the petition would need to be granted,
and the decision below would need to be vacated. See
United States v. Munsingwear, Inc., 340 U.S. 36, 39
(1950). The Court should reject any attempt by the
Committee to avoid review while preserving the D.C.
Circuit’s decision as precedent. Congress should not
be allowed to benefit from such gamesmanship.
Second, the Committee argues that this case is
a poor vehicle to decide whether Congress may validly
require the President to disclose his personal finances.
But the Committee fails to see that its concession—
i.e., deciding “broad questions of civil law” through a
subpoena dispute is “not the most practical method of
inducing courts to answer broad questions broadly,”
Tobin v. United States, 306 F.2d 270, 274 (D.C. Cir.
1962)—cuts against it. The concern should have led
the D.C. Circuit to narrowly interpret the
Committee’s statutory authority. But it crossed the
Rubicon and became the first court to hold that such
regulations are constitutional. Whether it was correct
to do so is, in and of itself, an important issue that
warrants this Court’s review.
Finally, the Committee argued that its pressing
need for these documents counsels against the delay
that review would entail. The argument is meritless.
The Committee has voluntarily stayed enforcement of
the subpoena for more than six months, and it cannot
identify any potential or pending legislation to which

38

the records are relevant—let alone urgently needed.
Regardless, the Committee’s stay opposition notified
the Court that any harm will be mitigated by deciding
the case by the end the Term. To that end, Petitioners
are prepared to proceed on any schedule the Court
deems appropriate should it grant certiorari and hear
this important case.
CONCLUSION
The Court should grant the petition for a writ
of certiorari.
Respectfully submitted,
Jay Alan Sekulow
Stuart J. Roth
Jordan Sekulow
CONSTITUTIONAL LITIGATION
AND ADVOCACY GROUP, P.C.
1701 Pennsylvania Ave, NW,
Ste. 200
Washington, DC 20006
(202) 546-8890
jsekulow@claglaw.com

William S. Consovoy
Counsel of Record
Jordan M. Call
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
Patrick Strawbridge
CONSOVOY MCCARTHY PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
patrick@consovoymccarthy.com

Stefan C. Passantino
Michael Best & Friedrich LLP
1000 Maine Ave. SW, Ste. 400
Washington, DC 20024
(202) 747-9582
spassantino@michaelbest.com
Counsel for Petitioners

APPENDIX

1a
Appendix A — Appendix
opinionAof the UNITED
STATES COURT OF APPEALS FOR THE
DISTRICT OF COLUMBIA CIRCUIT, DATED
October 11, 2019
UNITED STATES COURT OF APPEALS FOR
THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-5142
DONALD J. TRUMP, et al.,
Appellants,
v.
MAZARS USA, LLP AND COMMITTEE
ON OVERSIGHT AND REFORM OF THE
U.S. HOUSE OF REPRESENTATIVES,
Appellees.
July 12, 2019, Argued
October 11, 2019, Decided
Appeal from the United States District
Court for the District of Columbia.
(No. 1:19-cv-01136).
Before: Tatel, Millett and Rao, Circuit Judges.
Opinion for the Court filed by Circuit Judge Tatel.
Dissenting opinion filed by Circuit Judge Rao.

2a
Appendix A
Tatel, Circuit Judge: On April 15, 2019, the House
Committee on Oversight and Reform issued a subpoena to
the accounting firm Mazars USA, LLP for records related
to work performed for President Trump and several of
his business entities both before and after he took office.
According to the Committee, the documents will inform
its investigation into whether Congress should amend
or supplement current ethics-in-government laws. For
his part, the President contends that the Committee’s
investigation into his financial records serves no legitimate
legislative purpose, and he has sued to prevent Mazars
from complying with the subpoena. The district court
granted summary judgment in favor of the Committee,
and we affirm. Contrary to the President’s arguments,
the Committee possesses authority under both the House
Rules and the Constitution to issue the subpoena, and
Mazars must comply.
I.
Shortly after the 116th Congress convened on January
3, 2019, the new U.S. House of Representatives debated
and adopted a set of rules to govern its proceedings. See
H.R. Res. 6, 116th Cong. (2019). Like previous Congresses,
the 116th established an oversight committee, the
Committee on Oversight and Reform, which it charged
with “review[ing] and study[ing] on a continuing basis
the operation of Government activities at all levels”
and which it permitted to “conduct investigations” “at
any time . . . of any matter,” “without regard to” other
standing committees’ jurisdictions. Rules of the House
of Representatives, 116th Cong., Rule X, cls. 3(i), 4(c)(2)

3a
Appendix A
(2019) (“House Rules”); see also id., cl. 1(n) (establishing
the Committee on Oversight and Reform). To “carry[] out
. . . [these] functions and duties,” the Oversight Committee
may “require, by subpoena or otherwise . . . the production
of such . . . documents as it considers necessary.” House
Rule XI, cl. 2(m).
This case concerns one such subpoena. Issued on
April 15 by the chairman of the House Committee on
Oversight and Reform, Representative Elijah Cummings,
to President Trump’s accounting firm, the subpoena
requests financial documents concerning the President
and his companies covering years both before and during
his presidency.
In order to explain the impetus behind the subpoena,
we must go back to the Ethics in Government Act of 1978.
Enacted in the wake of the Watergate scandal, that statute
requires many aspiring and current government officials,
including presidential candidates and sitting Presidents,
to file financial disclosure reports at various times during
their candidacies and incumbencies. See 5 U.S.C. app. 4
§ 101(a), (c), (d), (f) (requiring “a candidate . . . for nomination
or election to the office of President” and “the President”
to “file a report containing the information described” in
section 102 of the Act). In their initial reports, presidential
candidates and new Presidents must provide information
concerning their income, assets, liabilities, and employers.
See id. § 102(b) (requiring “[e]ach report filed pursuant
to subsections (a), (b), and (c) of section 101” to contain
such information). Once in office, sitting Presidents must
file annual reports disclosing that same information plus

4a
Appendix A
details about any covered gifts, real estate and securities
transactions, and blind trusts. See id. § 102(a) (requiring
“[e]ach report filed pursuant to section 101(d) and (e)” to
contain such information). Presidential candidates submit
their reports to the Federal Election Commission, see id.
§ 103(e), while incumbent Presidents file with the Office
of Government Ethics, an “executive agency” tasked
with “interpreting rules and regulations . . . governing .
. . the filing of financial statements,” id. §§ 103(b), 401(a),
402(b)(3), 402(b)(6).
Last year, the Office of Government Ethics announced
that it had identified an error in one of the several
reports that President Trump had filed since he became
a presidential candidate in 2015. Specifically, by letter
dated May 16, 2018, the Acting Director of the Office of
Government Ethics advised the Deputy Attorney General
that, “based on the information provided” in President
Trump’s 2018 financial disclosure report (covering calendar
year 2017), he had determined that the President’s 2017
financial disclosure (covering calendar year 2016) omitted
“a reportable liability under the Ethics in Government
Act,” namely, “a payment made by Mr. Michael Cohen,”
President Trump’s former personal lawyer, “to a third
party.” Letter from David J. Apol, Acting Director, Office
of Government Ethics, to Rod J. Rosenstein, Deputy
Attorney General, Department of Justice 1 (May 16, 2018)
(“Apol Letter”). Because President Trump’s 2018 filing
disclosed that in 2017 the President had reimbursed Cohen
for the 2016 payment, the Acting Director concluded that
“the payment made by Mr. Cohen [was] required to be
reported as a liability” before it was reimbursed. Id. at 1;

5a
Appendix A
see also OGE Form 278e, 2017 Annual Report for Donald
J. Trump, Part 8 n.3 (May 15, 2018), https://oge.app.box.
com/v/Trump2018Annual278 (disclosing that “Mr. Trump
fully reimbursed Mr. Cohen in 2017”).
Several months later, then-Rank ing Member
Cummings wrote to White House Counsel seeking
documents related to President Trump’s payments to
Cohen. See Letter from Elijah E. Cummings, Ranking
Member, House Committee on Oversight and Reform, to
Donald F. McGahn II, Counsel to the President, The White
House, and George A. Sorial, Executive Vice President
of the Trump Organization 4-5 (Sept. 12, 2018). That
letter remained unanswered as of January 2019, when
Representative Cummings, who in the intervening months
had become Chairman Cummings, reiterated his request
in a second letter. See Letter from Elijah E. Cummings,
Chairman, House Committee on Oversight and Reform,
to Pat Cipollone, Counsel to the President, The White
House 1-2 (Jan. 8, 2019). Chairman Cummings also wrote
to the new Director of the Office of Government Ethics,
asking him, too, for “documents related to President
Donald Trump’s reporting of debts and payments to his
personal attorney, Michael Cohen.” Letter from Elijah E.
Cummings, Chairman, House Committee on Oversight
and Reform, to Emory A. Rounds III, Director, Office of
Government Ethics 1 (Jan. 22, 2019).
In February, White House Counsel responded that
the President would consider permitting the Committee
to review, on a limited basis, a subset of the requested
documents, but Chairman Cummings rejected this

6a
Appendix A
proposal as inadequate. See Letter from Elijah E.
Cummings, Chairman, House Committee on Oversight
and Reform, to Pat Cipollone, Counsel to the President,
The White House 1 (Feb. 15, 2019) (“Cummings Feb. 15
Letter”) (stating that the President’s offer to “consider
providing Committee staff with the ability to review
limited portions of two of the six categories of documents
in camera” would “not obviate the need . . . to fully comply”
(internal quotation marks omitted)). Citing the Oversight
Committee’s status as “the authorizing Committee
for the Office of Government Ethics,” the President’s
statutory obligation to “file . . . public financial disclosure
report[s],” and Congress’s “plenary authority to legislate
and conduct oversight regarding compliance with ethics
laws and regulations,” Chairman Cummings urged the
White House “to provide documents relevant to the
Committee’s investigation of these matters.” Id. at 7-8.
“These documents will help the Committee determine,”
he explained, “why the President failed to report . . .
payments and whether reforms are necessary to address
deficiencies with current laws, rules, and regulations.”
Id. at 9.
Two weeks later, Michael Cohen appeared at a
hearing before the Oversight Committee. See Hearing
with Michael Cohen, Former Attorney to President
Donald Trump: Hearing Before the House Committee
on Oversight and Reform, 116th Cong. (Feb. 27, 2019).
He testified that he believed, based on his experience
working for President Trump, that the President had
“inflated his total assets when it served his purposes” in
some situations and had “deflated his assets” in others.

7a
Appendix A
Id. at 13 (testimony of Michael D. Cohen). Several
Committee Members questioned Cohen’s credibility; he
had, after all, recently pleaded guilty to various crimes,
including lying to Congress. See, e.g., id. at 7 (statement
of Ranking Member Jim Jordan) (“This might be the
first time someone convicted of lying to Congress has
appeared again so quickly in front of Congress.”); id.
at 57 (statement of Rep. Michael Cloud) (asking Cohen
to “state what you’ve been convicted of”). Seeking to
support his testimony, Cohen produced to the Committee
several accounting documents, all of which predated Mr.
Trump’s presidency. Two of these documents—2011 and
2012 “Statements of Financial Condition” for Donald J.
Trump—were prepared by Mazars. See “Donald J. Trump
Statement of Financial Condition” dated June 30, 2011;
“Donald J. Trump Statement of Financial Condition”
dated June 30, 2012.
Chairman Cummings next wrote to Mazars. In a
March 2019 letter, he explained that the statements of
financial condition prepared by the firm and supplied
by Cohen had “raise[d] questions about the President’s
representations of his financial affairs,” “particularly [his]
debts,” “on these forms and on other disclosures.” Letter
from Elijah E. Cummings, Chairman, House Committee
on Oversight and Reform, to Victor Wahba, Chairman and
Chief Executive Officer, Mazars USA, LLP 1 (Mar. 20,
2019) (“Cummings Mar. 20 Letter”). Chairman Cummings
highlighted several “specific concerns,” including: (1) that
“[t]he 2012 Statement of Financial Condition prepared
by [Mazars]” intentionally omitted over $50 million in
assets and $75 million in liabilities that “then-Candidate

8a
Appendix A
Trump” later disclosed on his “first publicly filed financial
disclosure made . . . in 2015,” (2) that read together, the
2012 statement of financial condition and 2015 financial
disclosure indicated that Deutsche Bank had reduced
the interest rate it was charging on a $125 million loan
to then-Candidate Trump, potentially saving him “about
$625,000” each year, and (3) that “both the 2011 and
2012 financial statements” noted that, before becoming
a presidential candidate, Mr. Trump “ha[d] pledged”
almost $20 million to a “former partner in the Trump
World Tower at United Nations Plaza,” who, “[a]ccording
to contemporaneous reports,” was possibly “the Korean
conglomerate Daewoo” or a “German financial institution.”
Id. at 2-3. “To assist [its] review of these issues,” the
Committee requested several categories of documents
relating to President Trump’s accounts going back to
January 2009. Id. at 4.
Mazars responded that it could not provide the
requested documents voluntarily. See Letter from
Jerry D. Bernstein, Partner, Blank Rome LLP, to
Elijah E. Cummings, Chairman, House Committee on
Oversight and Reform 1 (Mar. 27, 2019). So, on April
12, Chairman Cummings sent a memorandum to his
fellow committee members explaining his intention to
issue, pursuant to the Committee’s authority under
House Rule X to “investigate ‘any matter at any time,’”
a subpoena to Mazars. Memorandum from Chairman
Elijah E. Cummings to Members of the Committee on
Oversight and Reform 3 (Apr. 12, 2019) (“Cummings
Memo”). The Chairman identified four subject matters
that, in his view, “[t]he Committee has full authority to

9a
Appendix A
investigate”: (1) “whether the President may have engaged
in illegal conduct before and during his tenure in office,”
(2) “whether [the President] has undisclosed conflicts of
interest that may impair his ability to make impartial
policy decisions,” (3) “whether [the President] is complying
with the Emoluments Clauses of the Constitution,” and
(4) “whether [the President] has accurately reported his
finances to the Office of Government Ethics and other
federal entities.” Id. at 4. “The Committee’s interest in
these matters,” he stated, “informs its review of multiple
laws and legislative proposals under [its] jurisdiction.” Id.
The subpoena issued three days later. It requested,
“[w]ith respect to Donald J. Trump” and several of his
affiliated businesses—including the Trump Organization,
the Trump Corporation, and the Trump Old Post Office
LLC—”[a]ll statements of financial condition, annual
statements, periodic financial reports, and independent
auditors’ reports prepared, compiled, reviewed, or audited
by Mazars . . . or its predecessor.” Subpoena to Mazars
USA, LLP, Apr. 15, 2019 (“Subpoena”). Furthermore, with
respect to Mazars’s “preparation, compilation, review, or
auditing” of those documents, the subpoena requested
all related “engagement agreements or contracts”
“[w]ithout regard to time”; “[a]ll underlying, supporting,
or source documents and records . . . or any summaries
of such documents”; and all related “memoranda, notes,
and communications,” including “communications related
to potential concerns that . . . information . . . provided by
Donald J. Trump or . . . the Trump Organization[] [was]
incomplete, inaccurate, or otherwise unsatisfactory.” Id.
Narrowed somewhat from the Chairman’s initial request

10a
Appendix A
to Mazars, the subpoena sought documents from “calendar
years 2011 through 2018” “[u]nless otherwise noted.” Id.
The subpoena instructed Mazars to comply by April 29.
Before that date arrived, however, President
Trump and several of his business entities (collectively,
the “Trump Plaintiffs”) filed this lawsuit seeking a
declaratory judgment invalidating the subpoena and a
permanent injunction prohibiting its enforcement. See
Complaint at 13, Trump v. Committee on Oversight &
Reform of U.S. House of Representatives, 380 F. Supp.
3d 76 (D.D.C. 2019) (No. 19-cv-01136) (“Complaint”). The
Trump Plaintiffs also moved for a preliminary injunction,
and while that motion was pending, the Committee agreed
to defer Mazars’s deadline to comply with the subpoena.
The district court worked quickly to provide the
parties with an answer. Following the Supreme Court’s
direction to “give[] the most expeditious treatment” to
suits seeking to enjoin congressional subpoenas, Eastland
v. United States Servicemen’s Fund, 421 U.S. 491, 511,
95 S. Ct. 1813, 44 L. Ed. 2d 324 n.17 (1975), the court
“consolidate[d] [its] hearing on the preliminary injunction”
with a resolution of the merits by “treat[ing] the parties’
briefing”—which raised no disputes of material fact—”as
cross-motions for summary judgment,” Trump, 380
F. Supp. 3d at 88, 90; see also Fed. R. Civ. P. 65(a)(2)
(permitting the court, “[b]efore or after beginning the
hearing on a motion for a preliminary injunction,” to
“advance the trial on the merits and consolidate it with
the hearing”). Then, after explaining that its “analysis
must be highly deferential to the legislative branch,”

11a
Appendix A
Trump, 380 F. Supp. 3d at 91, the court concluded that
each of the four investigative topics set forth in Chairman
Cummings’s April 12 memorandum represents “a subject
‘on which legislation could be had,’” id. at 94 (quoting
McGrain v. Daugherty, 273 U.S. 135, 177, 47 S. Ct. 319,
71 L. Ed. 580 (1927)). The court thus granted summary
judgment in favor of the Oversight Committee. See id. at
105.
The Trump Plaintiffs now appeal, challenging the
district court’s grant of summary judgment to the
Committee (though not its decision to treat the briefs as
cross-motions for summary judgment). By agreement of
the parties, Mazars need not comply with the subpoena
during the pendency of this expedited appeal. See Oral Arg.
Tr. 129. After oral argument, and at the court’s invitation,
the Department of Justice filed an amicus brief, and the
Trump Plaintiffs and Committee responded. Our review
is de novo. See Teva Pharms. USA. Inc. v. FDA, 441 F.3d
1, 3, 370 U.S. App. D.C. 192 (D.C. Cir. 2006) (reviewing de
novo “the district court’s legal determination” made after
“consolidat[ing] [a] motion for a preliminary injunction
with a final decision on the merits”).
II.
This is hardly the first subpoena Congress has
issued—legislative subpoenas are older than our country
itself—and the parties draw upon the historical record
to support their claims. Accordingly, before digging into
the details of this case, we think it necessary to place the
challenged subpoena in historical context.

12a
Appendix A
The story of legislative subpoenas extends all the
way back to the “emergence of [the English] Parliament,”
when that body, as part of its campaign to “challenge
the absolute power of the monarch,” asserted “plenary
authority” to hold offending parties in contempt. Watkins
v. United States, 354 U.S. 178, 188, 77 S. Ct. 1173, 1 L.
Ed. 2d 1273, 76 Ohio Law Abs. 225 (1957). Beginning in
the late seventeenth century, Parliament armed “a host
of committees” with the “powers to send for persons
and papers” in aid of their “investigat[ions] . . . [into] the
operations of government”—from “the conduct of the war
in Ireland” to “[t]he unwarranted proclamation of martial
law . . . by a commissioner of the East India Company”
to “the State of the Gaols of [the] Kingdom.” James M.
Landis, Constitutional Limitations on the Congressional
Power of Investigation, 40 Harv. L. Rev. 153, 162-63 (1926).
Across the Atlantic, too, “[t]he privileges and powers of
the [House of] Commons were naturally assumed to be an
incident of the representative assemblies of the Thirteen
Colonies.” Id. at 165.
After the Revolutionary War and the Constitutional
Convention, the U.S. Congress wasted little time
in asserting its power to use compulsory process
to investigate matters of national—and potentially
legislative—importance. The House of Representatives
opened the first such investigation in 1792, when it passed
a resolution appointing a committee “to inquire into the
causes of the failure of the late expedition under Major
General St. Clair,” whose troops had recently suffered
an embarrassing defeat in the Northwest Territory, and
“empowered” that committee “to call for such persons,

13a
Appendix A
papers, and records, as may be necessary to assist [its]
inquiries.” 3 Annals of Congress 493 (1792); see also
George C. Chalou, General St. Clair’s Defeat, 1792-93, in
1 Congress Investigates: A Critical and Documentary
History 1, 2 (Roger A. Bruns et al. eds., rev. ed. 2011).
More investigatory committees, similarly empowered to
issue subpoenas, followed. For example, in 1814, the House
directed an inquiry “into the causes of the success of the
enemy”—that is, the British—”in his late enterprises”
in burning the Capitol, 28 Annals of Congress 310 (1814),
and, in 1859, the Senate established a select committee
to “inquire into the facts attending” John Brown’s
raid on Harpers Ferry and to “report whether . . . and
what legislation may . . . be necessary . . . for the future
preservation of the peace,” Cong. Globe, 36th Cong., 1st
Sess. 141 (1859).
But not until 1880 did “the first case reach[] [the
Supreme] Court to challenge the use of compulsory
process as a legislative device.” Watkins, 354 U.S. at
193. In that case, Kilbourn v. Thompson, 103 U.S. 168,
26 L. Ed. 377 (1881), the Court held that the House
had exceeded its investigatory authority by opening an
inquiry into the bankruptcy proceedings of a firm into
which the United States had invested money. The Court
explained that Congress’s sole route to a remedy in that
bankruptcy proceeding, like that of all other dissatisfied
creditors, was “by a resort to a court of justice.” Id. at
193. Accordingly, because under those circumstances the
House’s investigation “could result in no valid legislation,”
id. at 195, the Court concluded that the House had
impermissibly “assumed a power which could only be

14a
Appendix A
properly exercised by another branch of the government,”
id. at 192.
If Kilbourn created any doubt about Congress’s
power to conduct legislative investigations, the Supreme
Court dispelled that cloud in a pair of cases arising out
of alleged corruption in the administration of President
Warren G. Harding. In the first, McGrain v. Daugherty,
the Court considered a subpoena issued to the brother of
then-Attorney General Harry Daugherty for bank records
relevant to the Senate’s investigation into the Department
of Justice. Concluding that the subpoena was valid, the
Court explained that Congress’s “power of inquiry . . . is
an essential and appropriate auxiliary to the legislative
function,” as “[a] legislative body cannot legislate wisely
or effectively in the absence of information respecting
the conditions which the legislation is intended to affect
or change.” 273 U.S. at 174-75. It mattered not that the
Senate’s authorizing resolution lacked an “avow[al] that
legislative action was had in view” because, said the
Court, “the subject to be investigated was . . . [p]lainly
[a] subject . . . on which legislation could be had” and such
legislation “would be materially aided by the information
which the investigation was calculated to elicit.” Id. at 17677 (internal quotation marks omitted). That was enough.
Although “[a]n express avowal” of the Senate’s legislative
objective “would have been better,” the Court admonished
that “the presumption should be indulged that [legislation]
was the real object.” Id. at 178.
Two years later, in Sinclair v. United States, 279 U.S.
263, 49 S. Ct. 268, 73 L. Ed. 692 (1929), the Court echoed

15a
Appendix A
many of the same refrains. In this second case, Harry
Sinclair, the president of an oil company, appealed his
conviction for refusing to answer a Senate committee’s
questions regarding his company’s allegedly fraudulent
lease on federal oil reserves at Teapot Dome in Wyoming.
The Court, acknowledging individuals’ “right to be
exempt from all unauthorized, arbitrary or unreasonable
inquiries and disclosures in respect of their personal
and private affairs,” id. at 292, nonetheless explained
that because “[i]t was a matter of concern to the United
States,” “the transaction purporting to lease to [Sinclair’s
company] the lands within the reserve cannot be said to
be merely or principally . . . personal,” id. at 294. The
Court also dismissed the suggestion that the Senate was
impermissibly conducting a criminal investigation. “It may
be conceded that Congress is without authority to compel
disclosures for the purpose of aiding the prosecution of
pending suits,” explained the Court, “but the authority of
that body, directly or through its committees, to require
pertinent disclosures in aid of its own constitutional
power is not abridged because the information sought to
be elicited may also be of use in such suits.” Id. at 295.
The Court returned to the question of Congress’s
investigative author ity dur ing the Cold War, as
“investigations into the threat of subversion of the United
States Government” began to raise “novel questions
[about] the appropriate limits of congressional inquiry”
“into the lives and affairs of private citizens.” Watkins, 354
U.S. at 195. At first, the Court avoided these thorny First
Amendment issues by resolving cases on other grounds.
In United States v. Rumely, the Court overturned a

16a
Appendix A
defendant’s contempt-of-Congress conviction for refusing
to answer a congressional committee’s request for “the
names of those who made bulk purchases” of “books of a
particular political tendentiousness.” 345 U.S. 41, 42, 73
S. Ct. 543, 97 L. Ed. 770 (1953). Rather than reach the
“[g]rave” First Amendment question posed by such an
inquiry, the Court interpreted the House’s authorizing
resolution, which instructed the committee to study
“lobbying activities,” as failing to permit an investigation
into the sale of books. Id. at 45, 48. And a few years later,
in Watkins v. United States, the Court overturned another
contempt conviction, this time holding that the defendant,
a labor organizer who had refused “to testify about
persons who may in the past have been Communist Party
members,” 354 U.S. at 185, had received insufficient notice
of “the ‘question under inquiry’” at his congressional
hearing, id. at 214 (quoting 2 U.S.C. § 192). In that case,
the Court took the opportunity to emphasize that although
“there is no congressional power to expose for the sake
of exposure,” courts should avoid “testing the motives of
committee members for this purpose.” Id. at 200. Rather,
the crucial inquiry is whether a “legislative purpose is
being served.” Id.
The Court soon reached the First Amendment issue
it had been avoiding. In Barenblatt v. United States,
the Court considered the case of a teacher convicted of
criminal contempt for refusing, when testifying before a
Subcommittee of the House Committee on Un-American
Activities, to answer questions about his “past or present
membership in the Communist Party.” 360 U.S. 109,
126, 79 S. Ct. 1081, 3 L. Ed. 2d 1115 (1959). Unlike the

17a
Appendix A
Watkins defendant, the Barenblatt defendant had been
“sufficiently apprised of the topic under inquiry” by “other
sources of . . . information,” such as the Subcommittee
“Chairman’s statement as to why he had been called” to
testify and the questions posed by the Subcommittee to
previous witnesses. Id. at 124-25 (internal quotation marks
omitted). Proceeding, then, to the “precise constitutional
issue”—namely, “whether the Subcommittee’s inquiry
. . . transgressed the provisions of the First Amendment”—
the Court explained that although “Congress may not
constitutionally require an individual to disclose his . . .
private affairs except in relation to” “a valid legislative
purpose,” such a purpose was present in that case. Id.
at 127. Congress’s “wide power to legislate in the field
of Communist activity . . . and to conduct appropriate
investigations in aid thereof[] is hardly debatable,” said
the Court, and “[s]o long as Congress acts in pursuance
of its constitutional power, the Judiciary lacks authority
to intervene on the basis of the motives which spurred the
exercise of that power.” Id. at 127, 132. Thus, given “the
governmental interests . . . at stake,” the Court concluded
that “the First Amendment [had] not been offended” and
affirmed the defendant’s conviction. Id. at 134.
Presidents, too, have often been the subjects of
Congress’s legislative investigations, though fewer of
these have required judicial intervention. Historical
examples stretch far back in time and broadly across
subject matters. In 1832, for example, the House vested
a select committee with subpoena power “to inquire
whether an attempt was made by the late Secretary
of War . . . [to] fraudulently [award] . . . a contract for

18a
Appendix A
supplying rations” to Native Americans and to “further
. . . inquire whether the President . . . had any knowledge
of such attempted fraud, and whether he disapproved or
approved of the same.” H.R. Rep. No. 22-502, at 1 (1832)
(internal quotation marks omitted). Shortly after World
War II, Congress’s Pearl Harbor Committee published a
joint report exonerating the President of “charges” that he
had “tricked, provoked, incited, cajoled, or coerced Japan
into attacking this Nation.” S. Doc. No. 79-244, at xiii,
251 (1946). In 1987, the House established a committee to
investigate the Iran-Contra Affair, including “the role of
the President.” H.R. Rep. No. 100-433, at 21 (1987). During
that investigation, President Reagan declined to assert
executive privilege, going so far as to furnish “relevant
excerpts of his personal diaries” to Congress. Morton
Rosenberg, Congressional Research Service, RL 30319,
Presidential Claims of Executive Privilege: History, Law,
Practice and Recent Developments 14 (Aug. 21, 2008)
(internal quotation marks omitted). And in the 1990s, first
the House and Senate Banking Committees and then a
Senate special committee investigated President and Mrs.
Clinton’s involvement in the Whitewater land deal and
related matters. See Douglas L. Kriner & Eric Schickler,
Investigating the President 56-62 (2016) (describing the
“three-year congressional investigation of Whitewater”);
see also S. Res. 120, 104th Cong. (1995) (establishing the
Senate Special Committee to Investigate Whitewater
Development Corporation and Related Matters). Thanks
to a last-minute compromise between the White House
and the Senate, the courts were kept out of a dispute over
whether the special committee could subpoena meeting
notes taken by President Clinton’s former lawyer. See

19a
Appendix A
Louis Fisher, Congressional Research Service, RL 31836,
Congressional Investigations: Subpoenas and Contempt
Power 16-18 (Apr. 2, 2003).
Of all the historical examples, perhaps the most highprofile congressional investigation into a President—and
the only one we have found that produced an appellatelevel judicial opinion—was Congress’s investigation into
President Nixon. The Senate created the Senate Select
Committee on Presidential Campaign Activities, better
known as the Senate Watergate Committee, to investigate
“illegal, improper, or unethical activities engaged in
by any persons” involved in a campaign “conducted by
. . . any person seeking nomination or election . . . for the
office of the President of the United States” during the
“Presidential election of 1972.” S. Res. 60, 119 Cong. Rec.
3255, 93rd Cong. § 1(a) (1973) (emphasis added). In Senate
Select Committee on Presidential Campaign Activities v.
Nixon, our court was asked to decide whether President
Nixon had “a legal duty to comply with” a subpoena issued
by the Senate Watergate Committee for “taped recordings
of five conversations . . . discussing alleged criminal acts.”
498 F.2d 725, 726-27, 162 U.S. App. D.C. 183 (D.C. Cir.
1974) (en banc). President Nixon, apparently taking no
issue with the general power of congressional committees
to subpoena sitting Presidents, instead asserted executive
privilege over the individual tapes requested, arguing
that they “[could] []not be made public consistent with
the confidentiality essential to the functioning of the
Office of the President.” Id. at 727 (internal quotation
marks omitted). In the end, we agreed with the President:
although the “presumptive[] privilege[]” protecting

20a
Appendix A
“presidential conversations” could “be overcome . . . by an
appropriate showing of public need,” id. at 730 (internal
quotation marks omitted), we explained, the Committee
had failed to make such a showing “in the peculiar
circumstances of [that] case,” id. at 733. But even though
the Senate Watergate Committee ultimately lost, Senate
Select Committee strongly implies that Presidents enjoy
no blanket immunity from congressional subpoenas. After
all, if such immunity exists, it would have been wholly
unnecessary for the court to explore the subpoena’s
particulars and to weigh “the public interest [in] favor[]
[of] confidentiality” against a “showing of need by another
institution of government”—that is, Congress. Id. at 730.
All told, from Congress’s centuries-long experience
issuing legislative subpoenas, and the courts’ (somewhat
less frequent) experience reviewing them, a few principles
emerge—principles that control our resolution of this case.
As an initial matter, “whether [a] committee [is]
authorized [to] exact the information” it has subpoenaed
“must first be settled before . . . consider[ing] whether
Congress had the [constitutional] power to confer upon
the committee the authority which it claim[s].” Rumely,
345 U.S. at 42-43. In other words, it matters not whether
the Constitution would give Congress authority to issue
a subpoena if Congress has given the issuing committee
no such authority.
That said, once a committee has been delegated
“[t]he power of the Congress to conduct investigations,”
that constitutional authority “is broad.” Watkins, 354

21a
Appendix A
U.S. at 187; accord Eastland, 421 U.S. at 504 n.15 (“[T]he
power to investigate is necessarily broad.”); Barenblatt,
360 U.S. at 111 (describing Congress’s investigative power
as “broad”); Quinn v. United States, 349 U.S. 155, 160, 75
S. Ct. 668, 99 L. Ed. 964 (1955) (same); McGrain, 273 U.S.
at 173-74 (same). “It encompasses inquiries concerning
the administration of existing laws as well as proposed
or possibly needed statutes,” “[i]t includes surveys of
defects in our social, economic or political system for the
purpose of enabling the Congress to remedy them,” and
“[i]t comprehends probes into departments of the Federal
Government to expose corruption, inefficiency or waste.”
Watkins, 354 U.S. at 187. In short, “[a] legislative inquiry
may be as broad, as searching, and as exhaustive as is
necessary to make effective the constitutional powers of
Congress.” Townsend v. United States, 95 F.2d 352, 361
(D.C. Cir. 1938). Expansive as it is, however, Congress’s
subpoena power is subject to several key constraints.
First, because “the power of Congress . . . to
investigate” is “co-extensive with [its] power to legislate,”
Quinn, 349 U.S. at 160, Congress may in exercising its
investigative power neither usurp the other branches’
constitutionally designated functions nor violate
individuals’ constitutionally protected rights. Congress
may not conduct itself as “a law enforcement or trial
agency,” as “[t]hese are functions of the executive and
judicial departments.” Watkins, 354 U.S. at 187. And
Congress lacks any “general power to expose where the
predominant result can only be an invasion of the private
rights of individuals.” Id. at 200.

22a
Appendix A
Next, precisely because “[t]he scope of [Congress’s]
power of inquiry . . . is as penetrating and far-reaching
as the potential power to enact and appropriate under the
Constitution,” Barenblatt, 360 U.S. at 111, Congress may
investigate only those topics on which it could legislate, see
Quinn, 349 U.S. at 161 (stating that Congress’s “power to
investigate” does not “extend to an area in which Congress
is forbidden to legislate”). If no constitutional statute may
be enacted on a subject matter, then that subject is offlimits to congressional investigators.
And finally, congressional committees may subpoena
only information “calculated to” “materially aid[]” their
investigations. McGrain, 273 U.S. at 177. Even a valid
legislative purpose cannot justify a subpoena demanding
irrelevant material.
With these principles in mind, we proceed to the
particulars of this case. The Trump Plaintiffs dispute both
the Committee’s authority from the House to issue the
subpoena and the House’s authority under the Constitution
to confer the same. For reasons that shall become clear
later, we address these questions in reverse order.
III.
At the outset, we emphasize that to resolve this case
we need not decide whether the Constitution permits
Congress, in the conduct of a legislative—that is, nonimpeachment—investigation, to issue subpoenas to
a sitting President. That issue is not presented here
because, quite simply, the Oversight Committee has not

23a
Appendix A
subpoenaed President Trump. Rather, the Committee
has issued its subpoena to Mazars, an accounting firm
with whom President Trump has voluntarily shared
records from his time as a private citizen, as a candidate,
and as President. Neither the Trump Plaintiffs nor the
Department of Justice argues that the Constitution
denies Congress authority to subpoena non-governmental
custodians of the President’s financial information. Cf.
Oral Arg. Tr. 50 (stating that assuming a committee has
authority from the House to issue a subpoena, the relevant
inquiry is whether “the subpoena ha[s] a legitimate
legislative purpose”); id. at 68 (denying that the President
is “absolutely immune from any oversight whatsoever”);
Department Br. 7-8. Nor do the Trump Plaintiffs assert
any property rights in, or executive or other recognized
evidentiary privilege over, the subpoenaed information.
See Complaint (failing to assert any claim of privilege or
property right in the subpoenaed materials); Oral Arg.
Tr. 15 (confirming that the President asserts no claim of
executive privilege or immunity); see also Couch v. United
States, 409 U.S. 322, 335, 93 S. Ct. 611, 34 L. Ed. 2d 548
(1973) (recognizing that “no confidential accountantclient privilege exists under federal law, and no statecreated privilege has been recognized in federal cases”);
Peerenboom v. Marvel Entertainment, LLC, 148 A.D.3d
531, 532, 50 N.Y.S.3d 49 (N.Y. App. Div. 1st Dep’t 2017)
(holding that “[t]here is no accountant-client privilege in
[New York]”). Instead, the Trump Plaintiffs ask us to do
what courts have done ever since Kilbourn: to determine
“[w]hether the Committee’s subpoena . . . is ‘related to,
and in furtherance of, a legitimate task of the Congress.’”
Appellants’ Br. 5 (quoting Watkins, 354 U.S. at 187); see
also Department Br. 10 (quoting same).

24a
Appendix A
Taking up that question, we consider whether the
Oversight Committee is pursuing a legislative, as opposed
to a law-enforcement, objective; whether the Committee is
investigating a subject on which constitutional legislation
“could be had,” McGrain, 273 U.S. at 177; and whether
the challenged subpoena seeks information sufficiently
relevant to the Committee’s legislative inquiry.
A.
While “[t]he power of the Congress to conduct
investigations is inherent in the legislative process,”
Watkins, 354 U.S. at 187, that authority “must not be
confused with any of the powers of law enforcement,” which
“are assigned under our Constitution to the Executive
and the Judiciary,” Quinn, 349 U.S. at 161. The Trump
Plaintiffs contend that the Committee has crossed this
constitutional line, veering from permissible legislative
investigation into impermissible law enforcement. In
assessing whether Congress has strayed outside its
legislative lane, we face two analytical hurdles.
First, the case law is quite stingy in describing what
impermissible congressional law enforcement might
look like in practice. The Supreme Court has framed its
primary instruction on this point in the negative: the fact
that an investigation might expose criminal conduct does
not transform a legislative inquiry into a law-enforcement
endeavor. As the Court explained in Sinclair, Congress’s
“authority . . . to require pertinent disclosures in aid
of its own constitutional power is not abridged” merely
“because the information sought to be elicited may also

25a
Appendix A
be of use” in criminal prosecutions. 279 U.S. at 295.
“Nor [is] it a valid objection,” said the Court in McGrain,
that an investigation “might possibly disclose crime or
wrongdoing.” 273 U.S. at 179-80. Indeed, thanks to the
Court’s clarity on this matter, all parties here agree that
“a permissible legislative investigation does not become
impermissible merely because it might expose law
violations.” Appellants’ Br. 33 (internal quotation marks
omitted); see also Appellee’s Br. 44 (“The fact that the
. . . underlying conduct might also be unlawful . . . does
not invalidate the inquiry.”).
Second, the Supreme Court has made plain that “in
determining the legitimacy of a congressional act,” courts
may “not look to the motives alleged to have prompted it.”
Eastland, 421 U.S. at 508; see also Watkins, 354 U.S. at
200 (stating that “a solution to our problem is not to be
found in testing the motives of committee members for
[legislative] purpose”); Barenblatt, 360 U.S. at 132 (“So
long as Congress acts in pursuance of its constitutional
power, the Judiciary lacks authority to intervene on the
basis of the motives which spurred the exercise of that
power.”). This is true both because “it is not for [the
courts] to speculate as to the motivations that may have
prompted the decision of individual [committee] members,”
Wilkinson v. United States, 365 U.S. 399, 412, 81 S. Ct.
567, 5 L. Ed. 2d 633 (1961), and because, in any event,
those “motives alone would not vitiate an investigation
which had been instituted by a House of Congress if that
assembly’s legislative purpose is being served,” Watkins,
354 U.S. at 200. On this point, too, the parties agree.
See Appellants’ Reply Br. 11 (“To determine whether a

26a
Appendix A
subpoena is pursuing [the] impermissible goal” of law
enforcement, “courts . . . cannot delve into legislators’
hidden motives . . . .”); Appellee’s Br. 43 (“[C]ourts cannot
examine Congress’s motives to determine the validity of
a subpoena.”).
Thus stranded between Charybdis and Scylla, we
must determine whether Congress’s “legislative purpose
is being served,” Watkins, 354 U.S. at 200, without
taking into account either whether the investigation will
reveal, or whether the investigators are motivated to
reveal, criminal conduct. According to the Committee,
the way out of this dilemma is simple: just “‘presume
Congress is acting in furtherance of its constitutional
responsibility to legislate and . . . defer to congressional
judgments about what Congress needs to carry out that
purpose.’” Appellee’s Br. 46 (quoting Trump, 380 F. Supp.
3d at 82). In most cases, such a presumption would be
entirely appropriate. As the Court instructed in Tenney
v. Brandhove, “[t]o find that a committee’s investigation
has exceeded the bounds of legislative power it must
be obvious that there was a usurpation of functions
exclusively vested in the Judiciary or the Executive,” 341
U.S. 367, 378, 71 S. Ct. 783, 95 L. Ed. 1019 (1951) (emphasis
added); or, as it said in McGrain, even absent an “express
avowal” by Congress that the purpose of an “investigation
was to aid it in legislating,” “the presumption should be
indulged that this was the real object,” 273 U.S. at 178.
The trouble, however, is that this deferential
presumption finds its roots in the principle that “every
reasonable indulgence of legality must be accorded to

27a
Appendix A
the actions of a coordinate branch of our Government,”
Watkins, 354 U.S. at 204, and here, we arguably
confront not one but two “coordinate branch[es] of our
Government”—Congress and the President. We say
“arguably” because it is far from obvious that President
Trump, proceeding in his individual capacity, carries
the mantle of the Office of the President in this case.
The challenged subpoena seeks financial records totally
unrelated to any of the President’s official actions; indeed,
for six of the eight years covered by the subpoena, President
Trump was merely Mr. Trump or Candidate Trump. Cf.
Clinton v. Jones, 520 U.S. 681, 697, 117 S. Ct. 1636, 137 L.
Ed. 2d 945 (1997) (“[W]e have never suggested that the
President . . . has an immunity that extends beyond the
scope of any action taken in an official capacity.”). That
said, the fact remains that the constitutional authority
assigned to the Office of the President can be exercised
only by the flesh-and-blood human occupying that office,
so as a practical matter, a restriction on the person might
constrain the branch of government. Cf. In re Lindsey,
158 F.3d 1263, 1286, 332 U.S. App. D.C. 357 (D.C. Cir.
1998) (“Because the Presidency is tied so tightly to the
persona of its occupant[,] . . . official matters . . . often have
personal implications for a President” and vice versa.)
(Tatel, J., concurring in part and dissenting in part). In
short, although the challenged subpoena, which seeks
financial documents related to President Trump in his
pre-presidential, private capacities, presents no direct
inter-branch dispute, separation-of-powers concerns still
linger in the air. Cf. United States v. Nixon, 418 U.S. 683,
702, 94 S. Ct. 3090, 41 L. Ed. 2d 1039 (1974) (explaining
that where a pretrial “subpoena is directed to a President

28a
Appendix A
of the United States, appellate review, in deference to a
coordinate branch of Government, should be particularly
meticulous”).
Assuming for the moment that we owe Congress no
deference, we must figure out how to assess whether
the subpoena serves “a valid legislative purpose,”
Barenblatt, 360 U.S. at 127, without resorting to the
“presumption” “that [legislation] was the real object” of
Congress’s investigation, McGrain, 273 U.S. at 178. The
Trump Plaintiffs, arguing that “‘purpose’ and ‘motive’”
are different, suggest that we may rely upon “available
evidence”—that is, “what [the Committee] is doing and
what it has stated publicly”—to “discern for [ourselves]
what the Committee’s actual purpose is.” Appellants’
Br. 29-30. Following that course, we conclude that the
public record reveals legitimate legislative pursuits, not
an impermissible law-enforcement purpose, behind the
Committee’s subpoena. As a result, we need not decide
precisely what deference we owe Congress, as we would
reach the same conclusion absent any deference at all.
We start with Chairman Cummings’s April 12
memorandum, in which he laid out the “need for [the]
subpoena” issued to Mazars. Cummings Memo 1. As the
document most closely tied in time and subject matter to
the subpoena, that memorandum offers a natural starting
point for our analysis. Cf. Shelton v. United States, 404
F.2d 1292, 1297, 131 U.S. App. D.C. 315 (D.C. Cir. 1968)
(identifying “the opening statement of the Chairman at
[committee] hearings” and the “statements of the members
of the committee” as “‘sources [that might] indicate the

29a
Appendix A
existence of a legislative purpose’” (quoting Wilkinson,
365 U.S. at 410)). The Trump Plaintiffs and the Committee
appear to agree, as does the dissent. See Appellee’s Br.
30-31 (relying on Chairman Cummings’s memorandum
to supply a list of the subjects of the Committee’s
investigations); Appellants’ Reply Br. 20-21 (dismissing
as “retroactive rationalizations” potential legislative
purposes that did not “appear[] in the Chairman’s
memorandum” (alterations and internal quotation marks
omitted)); Dissenting Op. at 2 (tracing the “reasons” for
the subpoena to Chairman Cummings’s Memo).
Chairman Cummings’s memorandum identifies four
questions that the subpoena will help answer: “whether
the President may have engaged in illegal conduct before
and during his tenure in office,” “whether [the President]
has undisclosed conflicts of interest that may impair his
ability to make impartial policy decisions,” “whether [the
President] is complying with the Emoluments Clauses of the
Constitution,” and “whether [the President] has accurately
reported his finances to the Office of Government Ethics
and other federal entities.” Cummings Memo 4. But even
more important than this list, the Chairman’s very next
sentence explains that “[t]he Committee’s interest in these
matters informs [the Committee’s] review of multiple laws
and legislative proposals under [its] jurisdiction.” Id. Such
an “express avowal of the [Committee’s] object” offers
strong evidence of the Committee’s legislative purpose.
McGrain, 273 U.S. at 178.
The April memorandum does not stand alone. Just two
months earlier, Chairman Cummings articulated the same

30a
Appendix A
remedial legislative objective in his letter to White House
Counsel. In that letter, he explained that obtaining the
requested financial documents would “help the Committee
determine why the President failed to report . . . payments
and whether reforms are necessary to address deficiencies
with current laws, rules, and regulations.” Cummings Feb.
15 Letter 9. “Since the earliest days of our republic,” the
Chairman emphasized, “Congress has investigated how
existing laws are being implemented and whether changes
to the laws are necessary.” Id. And “[f]or decades,” he
concluded, “this has included laws relating to financial
disclosures required of the President.” Id.
What’s more, although the House is under no obligation
to enact legislation after every investigation, the fact
that the House has pending several pieces of legislation
related to the Committee’s inquiry offers highly probative
evidence of the Committee’s legislative purpose. See In re
Chapman, 166 U.S. 661, 670, 17 S. Ct. 677, 41 L. Ed. 1154
(1897) (“[I]t is certainly not necessary” to identify future
legislation “in advance.”); see also Eastland, 421 U.S. at
509 (“The very nature of the investigative function—like
any research—is that it takes the searchers up some
‘blind alleys’ and into nonproductive enterprises.”). The
House has already passed one such bill, H.R. 1, which
requires Presidents to list on their financial disclosures
the liabilities and assets of any “corporation, company,
firm, partnership, or other business enterprise in which”
they or their immediate family have “a significant financial
interest.” H.R. 1, 116th Cong. § 8012 (2019). Another bill
currently pending, H.R. 706, would require both sitting
Presidents and presidential candidates to “submit to the

31a
Appendix A
Federal Election Commission a copy of the individual’s
income tax returns” for the preceding nine or ten years,
respectively. H.R. 706, 116th Cong. § 222 (2019). And still
another, H.R. 745, would amend the Ethics in Government
Act to make the Director of the Office of Government
Ethics removable only for cause. See H.R. 745, 116th Cong.
§ 3 (2019) (making the Director “subject to removal only
for inefficiency, neglect of duty, or malfeasance in office”).
Despite these indicia of legislative purpose, the Trump
Plaintiffs contend that “[t]he subpoena’s actual purpose
is law enforcement.” Appellants’ Reply Br. 9 (emphasis
added). They make four principal arguments.
First, the Trump Plaintiffs question whether the
Committee’s avowals of legislative purpose are genuine.
Quoting our court’s opinion in Shelton v. United States,
they argue that “Congress cannot cure [a] constitutional
violation through ‘the mere assertion of a need to consider
remedial legislation.’” Appellants’ Br. 34 (quoting Shelton,
404 F.2d at 1297). But the Trump Plaintiffs stop at a
key conjunction. “[T]he mere assertion of a need to
consider ‘remedial legislation’ may not alone justify an
investigation,” we explained in Shelton. 404 F.2d at 1297.
“[B]ut,” we continued, “when the purpose asserted is
supported by references to specific problems which in
the past have been or which in the future could be the
subjects of appropriate legislation, then we cannot say that
a committee of the Congress exceeds its broad power.” Id.
(emphasis added).

32a
Appendix A
That is just this case. We do not confront an
insubstantial, makeweight asser tion of remedial
purpose. To the contrary, Chairman Cummings’s April
12 memorandum to his colleagues lists four investigative
topics; his March 20 letter to Mazars details several
“specific concerns raised by the [firm’s] financial
statements,” Cummings Mar. 20 Letter 2; and his
February 15 letter to White House Counsel states his
intent to assess whether “changes to the laws . . . relating
to financial disclosures required of the President” “are
necessary,” Cummings Feb. 15 Letter 9. These “references
to specific problems,” Shelton, 404 F.2d at 1297, together
with actual legislation now pending, see supra at 26-27,
are more than sufficient to demonstrate the Committee’s
interest in investigating possible remedial legislation.
Second, the Trump Plaintiffs contend that, far from
“avow[ing]” a legislative intent, McGrain, 273 U.S. at 178,
Chairman Cummings’s memorandum and statements by
other Representatives have “affirmatively and definitely
avowed an unlawful law-enforcement purpose,” Appellants’
Reply Br. 13 (internal quotation marks omitted); see also
Dissenting Op. at 43. In particular, the Trump Plaintiffs
take issue with the first investigative rationale offered
in Chairman Cummings’s memorandum: “to investigate
whether the President may have engaged in illegal conduct
before and during his tenure in office.” Cummings Memo
4. But even if such an investigation would not by itself
serve a legitimate legislative purpose, we can easily reject
the suggestion that this rationale spoils the Committee’s
otherwise valid legislative inquiry. Simply put, an interest
in past illegality can be wholly consistent with an intent
to enact remedial legislation.

33a
Appendix A
Take Hutcheson v. United States, in which the Court
considered the activities of a Senate committee tasked
with “investigat[ing] . . . the extent to which criminal
. . . practices or activities” were occurring “in the field of
labor-management relations” and “determin[ing] whether
any changes [were] required in the laws . . . to protect
. . . against . . . such practices or activities.” 369 U.S. 599,
600-01, 82 S. Ct. 1005, 8 L. Ed. 2d 137 (1962) (quoting S.
Res. 74, 85th Cong. (1957)). The president of the United
Brotherhood of Carpenters and Joiners of America, called
before the committee to testify regarding whether he had
used “union funds . . . to ‘fix’ a 1957 criminal investigation
. . . by a state grand jury,” id. at 603, refused to answer
such questions and was convicted of criminal contempt,
see id. at 605. Even though “[t]he Committee’s concern . . .
was to discover whether . . . [union] funds . . . had been used
. . . to bribe a state prosecutor,” and even though “[i]f these
suspicions were founded, they might . . . have warranted
a separate state prosecution for obstruction of justice,”
the Supreme Court nonetheless affirmed the contempt
conviction. Id. at 617-18. What mattered to the Court
was that the committee’s investigation into the details
of the defendant’s illegal conduct “would have supported
remedial federal legislation for the future.” Id. at 617.
“[S]urely,” the Court concluded, “a congressional
committee . . . engaged in a legitimate legislative
investigation need not grind to a halt whenever . . . crime
or wrongdoing is disclosed.” Id. at 618 (internal citations
omitted).
Sinclair teaches a similar lesson. Shortly before
the Senate summoned the oil tycoon Sinclair to testify,
it had passed a joint resolution “recit[ing] that [his
company’s] leases . . . were executed under circumstances

34a
Appendix A
indicating fraud and corruption” and “direct[ing] the
President . . . to prosecute such . . . proceedings, civil and
criminal, as were warranted by the facts.” 279 U.S. at
289. When Sinclair appeared for the hearing, the Senate
committee considered but rejected a motion that would
have prohibited “inquir[ies] . . . relat[ing] to pending
controversies before any of the Federal courts in which
Mr. Sinclair [was] a defendant.” Id. at 290. “If we do not
examine Mr. Sinclair about those matters,” one committee
member lamented, “there is not anything else to examine
him about.” Id. Despite all this, the Court held that
“[t]he record [did] not sustain [Sinclair’s] contention that
the investigation was avowedly not in aid of legislation.”
Id. at 295. The failed motion and the member’s statement
were “not enough to show that the committee intended to
depart from the purpose to ascertain whether additional
legislation might be advisable,” explained the Court,
because “[i]t [was] plain that investigation of the matters
involved in” pending or future “suits . . . might directly
aid in respect of legislative action.” Id.
So too here. Like the committees in Hutcheson and
Sinclair, the Oversight Committee has expressed an
interest in determining whether and how illegal conduct
has occurred. But also like the committees in Hutcheson
and Sinclair—indeed, even more so—the Oversight
Committee has repeatedly professed that it seeks to
investigate remedial legislation. In fact, the House has
even put its legislation where its mouth is: it has passed one
bill pertaining to the information sought in the subpoenas
and is considering several others. See supra at 26-27. The
Committee’s interest in alleged misconduct, therefore, is
in direct furtherance of its legislative purpose.

35a
Appendix A
Third, the Trump Plaintiffs argue that the subpoena’s
“laser-focus[] on the businesses and finances of one
person” evinces “a particularity that is the hallmark
of executive and judicial power.” Appellants’ Br. 35.
But again, Supreme Court precedent forecloses this
contention. In McGrain, for example, the Senate
authorized a select committee “to investigate . . . the
alleged failure of Harry M. Daugherty, Attorney General
of the United States, to prosecute properly violators of”
anti-trust laws and “further directed [the committee] to
inquire into, investigate and report . . . the activities of
the said Harry M. Daugherty, Attorney General, and any
of his assistants . . . which would in any manner tend to
impair their efficiency or influence as representatives of
the government of the United States.” 273 U.S. at 15152 (internal quotation marks omitted). Untroubled by
the resolution’s “direct reference to the then Attorney
General by name,” the Court held that “the resolution
and proceedings” of the investigatory committee
“g[a]ve no warrant for thinking the Senate was attempting
or intending to try the Attorney General . . . before its
committee for any crime or wrongdoing.” Id. at 179.
The lesson of McGrain is that an investigation may
properly focus on one individual if that individual’s conduct
offers a valid point of departure for remedial legislation.
Again, such is the case here. It is not at all suspicious
that the Committee would focus an investigation into
presidential financial disclosures on the accuracy and
sufficiency of the sitting President’s filings. That the
Committee began its inquiry at a logical starting point
betrays no hidden law-enforcement purpose.

36a
Appendix A
Finally, the Trump Plaintiffs detect something
untoward in the Committee’s interest in the President’s
finances. “If this subpoena is valid,” they argue, “then
Congress is free to investigate every detail of a President’s
personal life, with endless subpoenas to his accountants,
bankers, lawyers, doctors, family, friends, and anyone
else with information that a committee finds interesting.”
Appellants’ Reply Br. 24.
But unlike a subpoena to, say, a doctor or an attorney,
the congressional request at issue in this case implicates
no material subject to a recognized legal privilege or an
asserted property interest. See supra at 20. Moreover,
as the Court explained in Sinclair, although Congress
may not make “unauthorized, arbitrary or unreasonable
inquiries” into individuals’ “personal and private affairs,”
Congress most assuredly does possess authority “to
require pertinent disclosures in aid of its . . . constitutional
power” when those affairs become a “matter of [public]
concern” amenable to a legislative solution. 279 U.S. at 292,
294-95; see also Barenblatt, 360 U.S. at 127 (explaining
that “Congress may . . . constitutionally require an
individual to disclose his political relationships or other
private affairs” if “in relation to” “a valid legislative
purpose”). The same rationale applies here. Whether
current financial disclosure laws are successfully eliciting
the right information from the sitting President, occupant
of the highest elected office in the land, is undoubtedly
“a matter of concern to the United States.” Sinclair, 279
U.S. at 294; cf. Washington Post Co. v. U.S. Department
of Health & Human Services, 690 F.2d 252, 265, 223
U.S. App. D.C. 139 (D.C. Cir. 1982) (“[T]he [Ethics in

37a
Appendix A
Government] Act shows Congress’ general belief that
public disclosure of conflicts of interest is desirable despite
its cost in loss of personal privacy.”).
In its amicus brief, the Justice Department argues
that the subpoena is invalid for still another reason, namely
that the House (or at least the Committee) failed to offer
a “clear, specific statement . . . of the legislative purpose
that it believes justifies its subpoena.” Department Br.
12 (emphasis added). In the Department’s view, general
indicia of legislative purpose are not enough; the House
must identify “with sufficient particularity the subject
matter of potential legislation.” Id. at 14. In support,
the Department cites Watkins, where, it argues, “the
Supreme Court demanded just such a clear statement of
purpose.” Id. at 13. But the Watkins Court demanded no
such thing. That case concerned not the legitimacy of an
investigative subpoena, but rather an appeal of a criminal
conviction for contempt of Congress under 2 U.S.C. § 192,
which makes it a misdemeanor to refuse to answer any
question posed by a member of Congress “pertinent to the
question under inquiry.” Watkins, 354 U.S. at 207 (quoting
2 U.S.C. § 192). Because the committee’s “authorizing
resolution, the remarks of the chairman or members of
the committee, [and] even the nature of the proceedings
themselves,” id. at 209, failed to articulate “the ‘question
under inquiry,’” id. at 214, the Court reversed the
conviction, holding that an individual risking criminal
contempt must “have knowledge of the subject to which
the interrogation is deemed pertinent . . . with the same
degree of explicitness and clarity that the Due Process
Clause requires in the expression of any element of a

38a
Appendix A
criminal offense.” Id. at 208-09. The fact that the Watkins
Court probed the committee’s statements in an attempt
to remedy “the vice of vagueness”—present for criminal
contempt of Congress, “as in all other crimes,” id. at
209—provides no support for the Department’s contention
that Congress must identify its legislative purpose “with
sufficient particularity” in order to justify an investigative
subpoena. See Barenblatt, 360 U.S. at 123 (explaining
that in Watkins, the Court “rest[ed] [its] decision on [the]
ground” that “a conviction for contempt under 2 U.S.C.
§ 192 cannot stand unless the questions asked are
pertinent to the subject matter of the investigation”).
Far from finding support in Watkins, the Department’s
arg ument conf licts w ith binding Supreme Court
precedent. Over a century ago, the Court made clear in
In re Chapman that it is “certainly not necessary that the
resolutions should declare in advance what the [Congress]
meditate[s] doing when the investigation [i]s concluded.”
166 U.S. at 670. The Court has twice reiterated this
holding, stating in McGrain that “it was not essential that
the Senate declare in advance what it meditated doing,”
273 U.S. at 172, and then in Eastland—issued nearly two
decades after Watkins—that “to be a valid legislative
inquiry there need be no predictable end result,” 421 U.S.
at 509. After all, the purpose of an investigation, as the
Court explained in McGrain, is to gather “information
respecting the conditions which the legislation is intended
to affect or change,” 273 U.S. at 174-75; it is, as the Court
added in Eastland, “research” that informs future
Congressional action, 421 U.S. at 509. Congress’s decision
whether, and if so how, to legislate in a particular area

39a
Appendix A
will necessarily depend on what information it discovers
in the course of an investigation, and its preferred path
forward may shift as members educate themselves on the
relevant facts and circumstances. Requiring Congress
to state “with sufficient particularity” the legislation it
is considering before it issues an investigative subpoena
would turn the legislative process on its head.
Moreover, it is not at all clear what such a statement
would accomplish. The Department suggests that a
clear statement rule is “mandate[d]” by the “particular
separation-of-powers issues that arise when Congress
attempts to compel the President to produce information.”
Department Br. 9. Setting aside the fact that this
subpoena, which is addressed to Mazars, “compel[s] the
President to produce” nothing, we still see no justification
in the Department’s brief for why specificity is required
in this scenario as opposed to any other. To be sure, “[t]he
President occupies a unique position in the constitutional
scheme.” Nixon v. Fitzgerald, 457 U.S. 731, 749, 102 S.
Ct. 2690, 73 L. Ed. 2d 349 (1982). But that unique position
has little bearing on our ability to determine whether
Congress has strayed from the realm of legitimate
legislation into improper law enforcement—an inquiry
that, as we have just demonstrated, we can meaningfully
conduct without the specific articulation the Department
seeks. Nor does the Department explain how specificity
would meaningfully protect the President beyond simply
burdening Congress’s exercise of its own Article I power.
The Department’s argument also ignores how much
Congress has already revealed about its legislative

40a
Appendix A
objectives. In his February 15 letter and April 12
memorandum, Chairman Cummings explained that the
Committee was reviewing “multiple laws and legislative
proposals under [its] jurisdiction,” Cummings Memo
4, including whether “changes . . . are necessary” to
“laws relating to financial disclosures required of the
President,” Cummings Feb. 15 Letter 9. The House has
already passed H.R. 1, which would require Presidents
to disclose businesses in which they or their immediate
families have significant interests, and is considering
legislation which would require Presidential candidates
and Presidents to submit their income tax returns to the
Federal Election Commission and make the Director of
the Office of Government Ethics removable only for cause.
See supra at 26-27. To be sure, as the Department points
out, the House passed H.R. 1 without the information the
subpoena seeks. But House passage is far from the end
of the legislative process. Information revealed by the
subpoena could inform the Senate as it considers the bill,
as well as any subsequent conference committee or the
House itself, should it reconsider the bill post-conference.
Based on all the foregoing, we conclude that in issuing
the challenged subpoena, the Committee was engaged in
a “legitimate legislative investigation,” Hutcheson, 369
U.S. at 618, rather than an impermissible law-enforcement
inquiry. We next assess whether that leg islative
investigation concerned a subject “on which legislation
could be had.” McGrain, 273 U.S. at 177.

41a
Appendix A
B.
Because “Congress may only investigate into those
areas in which it may potentially legislate or appropriate,”
Barenblatt, 360 U.S. at 111, a congressional committee
may issue only those subpoenas that are “intended to
gather information about a subject on which legislation
may be had,” Eastland, 421 U.S. at 508; see also McGrain,
273 U.S. at 177 (stating that “the subject” of investigation
“was one on which legislation could be had”). The Trump
Plaintiffs argue that the challenged subpoena fails this
test because, in their view, “[t]he subpoena could not result
in valid legislation regarding the President.” Appellants’
Reply Br. 17.
In addressing this argument, we emphasize that the
relevant inquiry is whether legislation “may be had,”
Eastland, 421 U.S. at 508 (emphasis added), not whether
constitutional legislation will be had. Accordingly, we
first define the universe of possible legislation that the
subpoena provides “information about,” id., and then
consider whether Congress could constitutionally enact
any of those potential statutes.
We must, however, tread carefully. As the Committee
points out, our limited judicial role gives us no authority
to reach out and “[s]trik[e] down a statute before it is
even enacted.” Appellee’s Br. 41; see also Nashville,
Chattanooga & St. Louis Railway v. Wallace, 288 U.S.
249, 262, 53 S. Ct. 345, 77 L. Ed. 730 (1933) (explaining
that courts may not make “abstract determination[s] . . .
of the validity of a statute” or issue “decision[s] advising

42a
Appendix A
what the law would be on an uncertain or hypothetical
state of facts”). That said, as the Trump Plaintiffs observe,
see Appellants’ Br. 21 (“[b]ecause valid legislation could
not ‘be had’ if it would be unconstitutional, the court
ha[s] to decide whether this subpoena is designed to
advance unconstitutional legislation”), the only way
to determine whether the Committee’s investigation
informs “a subject on which legislation may be had” is to
ask, abstract as the inquiry may be, whether “legislation
may be had” on that “subject,” Eastland, 421 U.S. at 508
(emphasis added). Although we must avoid passing on the
constitutionality of hypothetical statutes, we must also
fulfill our responsibility to decide the case in front of us,
even if the road to resolution passes through an issue of
constitutional law. See Cohens v. Virginia, 19 U.S. 264,
404, 5 L. Ed. 257 (1821) (“The judiciary cannot, as the
legislature may, avoid a measure because it approaches
the confines of the [C]onstitution. . . . [W]e must decide [a
case] if it be brought before us.”). Accordingly, in order to
resolve this case, we need to identify a statutory litmus
test. The Committee and the Trump Plaintiffs each offer
one, but neither quite fits our needs.
The Committee urges us to consider whether any
law “concerning government ethics and conflicts of
interest affecting Executive Branch officials” could
pass constitutional muster. Appellee’s Br. 30. But this
test is too broad. The challenged subpoena—or, more
specifically, the portion of the subpoena that seeks a
sitting President’s financial information—would produce
no relevant “information about,” id., laws that apply to
ordinary Executive Branch employees. Because “[t]he

43a
Appendix A
President occupies a unique position in the constitutional
scheme,” Fitzgerald, 457 U.S. at 749, Congress’s
constitutional authority to regulate the President’s
conduct is significantly more circumscribed than its power
to regulate that of other federal employees, see supra
at 35-36. Just as a congressional committee could not
subpoena the President’s high school transcripts in service
of an investigation into K-12 education, nor subpoena his
medical records as part of an investigation into public
health, it may not subpoena his financial information
except to facilitate an investigation into presidential
finances. Thus, to determine whether the records of preCandidate, Candidate, and President Trump provide
“information about a subject on which legislation may
be had,” Eastland, 421 U.S. at 508, we must train our
attention on laws that apply to Presidents (and presidential
hopefuls).
In that vein, the Trump Plaintiffs urge us to focus on the
constitutionality of laws that “impose conflict-of-interest
restrictions on the President.” Appellants’ Br. 37. As the
Trump Plaintiffs point out, such restrictions raise difficult
constitutional questions. Statutes mandating divestment
from financial interests or recusal from conf licted
matters might impermissibly “disempower [Presidents]
from performing some of the functions prescribed [by]
the Constitution or . . . establish a qualification for . . .
serving as President . . . beyond those contained in the
Constitution.” Memorandum from Laurence H. Silberman,
Deputy Attorney General, to Richard T. Burress, Office of
the President, Re: Conflict of Interest Problems Arising
out of the President’s Nomination of Nelson A. Rockefeller

44a
Appendix A
to be Vice President Under the Twenty-Fifth Amendment
to the Constitution 5 (Aug. 28, 1974) (“Silberman Memo”).
But we need not grapple with those constitutional issues
because the Mazars subpoena seeks information related
to a class of statutes that impose far fewer burdens than
laws requiring Presidents to change their behavior based
on their financial holdings. This less burdensome species of
law would require the President to do nothing more than
disclose financial information. Such statutes might amend
the Ethics in Government Act, for example, to require
Presidents and presidential candidates to file reports
more frequently, to include information covering a longer
period of time, or to provide new kinds of information
such as past financial dealings with foreign businesses
or current liabilities of closely held companies. We take
this category of statutes as the appropriate object of our
litmus test in this case.
The Trump Plaintiffs argue that the Constitution
prohibits even these. Relying on Chief Justice Burger’s
concurrence in Nixon v. Fitzgerald, they contend that
financial disclosure laws unconstitutionally “‘impinge[]
on and hence interfere[] with the independence that is
imperative to the functioning of the office of a President.’”
Appellants’ Br. 44 (quoting Fitzgerald, 457 U.S. at 761
(Burger, C.J., concurring)).
But that is not the rule—at least not quite. As the Court
explained in Nixon v. Administrator of General Services
(Nixon II), the mere act of “regulat[ing] . . . Presidential
materials,” “without more,” does not “constitute[] . . . a
violation of the principle of separation of powers.” 433

45a
Appendix A
U.S. 425, 441, 97 S. Ct. 2777, 53 L. Ed. 2d 867 (1977).
Instead, rejecting “the argument that the Constitution
contemplates a complete division of authority between
the three branches,” the Court reaffirmed its reliance
on “the more pragmatic, flexible approach of Madison in
the Federalist[] Papers.” Id. at 442-43. “In . . . dividing
and allocating the sovereign power among three coequal
branches,” the Court explained, “the Framers of the
Constitution” did not intend “the separate powers . . . to
operate with absolute independence.” Id. at 443 (internal
quotation marks and emphasis omitted). The Court
therefore announced the following test: “in determining
whether [a statute] disrupts the proper balance between
the coordinate branches, the proper inquiry focuses on
the extent to which it prevents the Executive Branch from
accomplishing its constitutionally assigned functions.” Id.
Applying this rule, we have no basis for concluding that
complying with financial disclosure laws would in any
way “prevent[] the [President] from accomplishing [his]
constitutionally assigned functions.” Id.
The most persuasive evidence on this score comes
from the Constitution itself. The very same document that
“vest[s]” “[t]he executive Power . . . in [the] President,”
U.S. Const. art. II, § 1, cl. 1, and directs him to “take
Care that the Laws be faithfully executed,” id. art. II,
§ 3, also imposes two separate requirements pertaining
to the President’s private finances. The first, the so-called
Domestic Emoluments Clause, prohibits the President
from receiving “any . . . Emolument” from the federal or
state governments other than a fixed “Compensation”
“for his Services.” Id. art. II, § 1, cl. 7. And the second,

46a
Appendix A
the so-called Foreign Emoluments Clause, prohibits any
federal official “holding any Office of Profit or Trust”—the
President included—from “accept[ing] . . . any present,
Emolument, Office, or Title, of any kind whatever, from
any King, Prince, or foreign State” without “the Consent
of the Congress.” U.S. Const. art. I, § 9, cl. 8; see also
Applicability of the Emoluments Clause & the Foreign
Gifts & Decorations Act to the President’s Receipt of the
Nobel Peace Prize, O.L.C., 2009 OLC LEXIS 18, 2009
WL 6365082, at *4 (Dec. 7, 2009) (“The President surely
‘hold[s] an[] Office of Profit or Trust’ . . . .” (alterations
in original) (quoting U.S. Const. art. I, § 9, cl. 8)). If
the President may accept no domestic emoluments and
must seek Congress’s permission before accepting any
foreign emoluments, then surely a statute facilitating
the disclosure of such payments lies within constitutional
limits.
The United States Code, too, provides ample precedent
for laws that regulate Presidents’ finances and records.
Cf. Nixon II, 433 U.S. at 445 (noting the “abundant
statutory precedent for the regulation and mandatory
disclosure of documents in the possession of the Executive
Branch”). The Foreign Gifts and Decorations Act requires
all federal employees, including the President, to “file
a statement” regarding any gift they receive “of more
than minimal value.” 5 U.S.C. § 7342(c). The STOCK Act
prohibits all “executive branch employees,” including the
President, from “us[ing] nonpublic information derived
from such person’s position . . . as a means for making
a private profit.” Pub. L. No. 112-105, §§ 2, 9, 126 Stat.
291, 291, 297. And the Presidential Records Act—whose

47a
Appendix A
constitutionality the Trump Plaintiffs readily concede—
establishes a whole statutory scheme for “categoriz[ing],”
“fil[ing],” “dispos[ing]” of, and “manag[ing]” “Presidential
records.” 44 U.S.C. § 2203; see Appellants’ Br. 40 (“The
Presidential Records Act . . . did not cause a disruption
of executive functions significant enough to trigger
separation of powers analysis” (internal quotation marks
omitted)). History discloses no evidence that these statutes
have disrupted presidential functions.
The history of past Presidents’ financial disclosures
offers a particularly useful guide. As explained above,
see supra at 3-4, the Ethics in Government Act requires
Presidents to file periodic reports detailing, among other
things, “[t]he source, type, and [approximate] amount
or value of income . . . from any [non-federal] source,”
“[t]he identity and [approximate] value of . . . total
liabilities owed,” and “the date . . . and [approximate]
value of any purchase, sale or exchange [of real property
and securities] during the preceding calendar year.” 5
U.S.C. app. 4 § 102(a). Every President to have served
since the Ethics in Government Act became law in
1978—Presidents Carter, Reagan, H.W. Bush, Clinton, W.
Bush, Obama, and now Trump—has complied with these
disclosure requirements. See, e.g., Philip Taubman, Carter
Drops ‘Blind Trust’ Secrecy and Divulges Finances
for 1978-9, N.Y. Times, May 31, 1979, at A1; Edward T.
Pound, Reagan’s Worth Put at $4 Million, N.Y. Times,
Feb. 23, 1981, at A1; Associated Press, President’s
Trust Grows in Value, N.Y. Times, May 15, 1992, at A17;
Stephen Labaton, Most of Clintons’ Wealth Held by Mrs.
Clinton, Disclosure Form Shows, N.Y. Times, May 18,

48a
Appendix A
1994, at A20; Richard W. Stevenson, Bushes’ Assets Put
at $8.8 Million in Filing, N.Y. Times, May 16, 2003, at
A22; U.S. Office of Government Ethics, Presidential and
Vice Presidential Financial Disclosure Reports, https://
extapps2.oge.gov/201/Presiden.nsf/President%20and%20
Vice%20President%20Index (financial disclosure reports
of Presidents Obama and Trump); see also Appellants’
Br. 44 (acknowledging that “President [Trump] has
voluntarily complied with those statutory requirements”).
In fact, Presidents Carter, Reagan, H.W. Bush, Clinton,
W. Bush, and Obama exceeded statutory disclosure
requirements by releasing their personal federal income
tax returns to the public. See Presidential Tax Returns,
Ta xNotes, ta xnotes.com /presidential-ta x-returns
(collecting presidential tax records).
Of course, as the Trump Plaintiffs point out,
“compliance is not the measure of constitutionality.”
Appellants’ Br. 44. But when asked to decide whether an
act of Congress “disrupts the proper balance between the
coordinate branches,” Nixon II, 433 U.S. at 443, a court
would be foolish to ignore those branches’ prior pattern of
conflict—or, as here, cooperation. See id. at 441 (finding
it significant that “[n]either President Ford nor President
Carter support[ed] [former-President Nixon’s] claim” that
the challenged statute’s “regulation of the disposition of
Presidential materials . . . constitutes, without more, a
violation of the principle of separation of powers”); cf.
Zivotofsky v. Kerry, 135 S. Ct. 2076, 2091, 192 L. Ed. 2d
83 (2015) (“In separation-of-powers cases this Court has
often ‘put significant weight upon historical practice.’”
(quoting NLRB v. Noel Canning, 573 U.S. 513, 524, 134 S.

49a
Appendix A
Ct. 2550, 189 L. Ed. 2d 538 (2014))). Though not dispositive,
the fact that every President during the last four decades
has filed financial disclosures offers persuasive evidence
that such disclosures neither “prevent[]” nor “disrupt[],”
Nixon II, 433 U.S. at 443, the President’s efforts to “take
Care that the Laws be faithfully executed,” U.S. Const.
art. II, § 3.
To be sure, it is possible that some hypothetical statute
could go too far. One could certainly imagine disclosure
mandates so onerous that they begin to “prevent[] the
Executive Branch from accomplishing its constitutionally
assigned functions.” Nixon II, 433 U.S. at 443; see, e.g., Oral
Arg. Tr. 17 (positing “a statute [requiring] the President
. . . to submit 100,000 pages of financial disclosures and [to]
meet with Congress once a month to discuss them”). But
to accept the Trump Plaintiffs’ suggestion that Congress
may impose no disclosure requirements whatsoever on
the President, see Oral Arg. Tr. 51-52 (stating it is “very
difficult to think of” a constitutional law Congress “could
pass” with respect to the President)—or, put another
way, that the challenged subpoena could result in no valid
legislation—would be to return to an “archaic view of
the separation of powers” that “requir[es] three airtight
departments of government,” Nixon II, 433 U.S. at 443
(internal quotation marks omitted). That is not the law.
Instead, “our constitutional system imposes upon
the Branches a degree of overlapping responsibility, a
duty of interdependence as well as independence[,] the
absence of which ‘would preclude the establishment of a
Nation capable of governing itself effectively.’” Mistretta

50a
Appendix A
v. United States, 488 U.S. 361, 381, 109 S. Ct. 647, 102 L.
Ed. 2d 714 (1989) (quoting Buckley v. Valeo, 424 U.S. 1,
121, 96 S. Ct. 612, 46 L. Ed. 2d 659 (1976)). As the Supreme
Court has observed, “separation of powers does not mean
that the branches ‘ought to have no partial agency in, or
no controul over, the acts of each other.’” Clinton, 520 U.S.
at 702-03 (quoting The Federalist No. 47, at 325-326 (J.
Cooke ed.1961) (emphasis in original)); see also Nixon II,
433 U.S. at 442-43 & n.5 (affirming “the more pragmatic,
flexible approach of Madison in the Federalist Papers and
later of Mr. Justice Story” to the separation of powers);
Nixon, 418 U.S. at 703 (“In designing the structure of our
Government and dividing and allocating the sovereign
power among three coequal branches, the Framers of
the Constitution sought to provide a comprehensive
system, but the separate powers were not intended to
operate with absolute independence.”). As the Nixon
cases teach, the “proper inquiry focuses on the extent to
which [another branch’s actions] prevent[] the Executive
branch from accomplishing its constitutionally assigned
functions.” Nixon II, 433 U.S. at 443 (citing Nixon, 418
U.S. at 711-712). Congress can require the President to
make reasonable financial disclosures without upsetting
this balance.
The Trump Plaintiffs challenge the constitutionality of
legislation that “may be had” on another basis. Eastland,
421 U.S. at 508. Drawing on the principle announced in
Powell v. McCormack, 395 U.S. 486, 89 S. Ct. 1944, 23 L.
Ed. 2d 491 (1969), and United States Term Limits, Inc. v.
Thornton, 514 U.S. 779, 115 S. Ct. 1842, 131 L. Ed. 2d 881
(1995), that “[n]either Congress nor the states can add to

51a
Appendix A
the constitutional qualifications for holding federal elective
office,” Walker v. United States, 800 F.3d 720, 723-24 (6th
Cir. 2015), they argue that imposing conflict-of-interest
laws on the President would impermissibly “change
or expand the qualifications for serving as President,”
Appellants’ Br. 38 (citing Powell and Thornton). But once
again, we need not reach this issue. Regardless of whether
Congress may require Presidents to “eliminat[e] [their]
financial conflicts” through divestment or recusal, the
Trump Plaintiffs offer no reason to suspect that a statute
requiring nothing more than disclosure of such conflicts
might also “‘establish a qualification for . . . serving as
President.’” Appellants’ Br. 38 (quoting Silberman Memo
5). Financial disclosure laws would not, as in Powell,
prevent a “duly elected” official from assuming office,
395 U.S. at 550, nor, as in U.S. Term Limits, add a term
limit to “the exclusive qualifications set forth in the text
of the Constitution,” 514 U.S. at 827; cf. Appellants’ Br. 39
(conceding that “[t]he Presidential Records Act does not
add or alter the qualifications for office”). In the end, laws
requiring disclosure exclude precisely zero individuals
from running for or serving as President; regardless
of their financial holdings, all constitutionally eligible
candidates may apply.
In sum, we detect no inherent constitutional flaw in
laws requiring Presidents to publicly disclose certain
financial information. And that is enough. Without
treading onto any other potentially fertile grounds from
which constitutional legislation could flower, we conclude
that given the constitutionally permissible options open to
Congress in the field of financial disclosure, the challenged

52a
Appendix A
subpoena seeks “information about a subject on which
legislation may be had.” Eastland, 421 U.S. at 508.
To the dissent, however, this makes no difference.
Although acknowledging that the Committee is pursuing
a “valid legislative inquiry,” the dissent insists that the
Mazars subpoena is nonetheless invalid because it “seeks
to investigate individual suspicions of criminality against
the President,” an inquiry that “may be pursued only
through impeachment.” Dissenting Op. at 44. In support,
the dissent claims to rely on the “text and structure of
the Constitution, its original meaning and longstanding
practice.” Id. at 3.
Of course, the Constitution always serves as our
starting point, and particularly in separation-of-powers
disputes, we “put significant weight upon historical
practice.” Zivotofsky, 135 S. Ct. at 2091 (internal
quotations omitted). Indeed, this is a path the Supreme
Court and this court have already trod. Nearly a century
of precedent has laid out an established test that resolves
this inter-branch dispute in a way that, unlike the
dissent, respects the co-equal status and roles of both
the legislative and executive branches. Settled Supreme
Court precedent teaches that—at least where, as here,
no party argues that compliance with the subpoena would
impair the President’s execution of the Article II power—
the Constitution protects both branches’ prerogatives
by determining whether the subpoena serves “a valid
legislative purpose.” Barenblatt, 360 U.S. at 127. Both the
Trump Plaintiffs and the Department of Justice agree that
this is the relevant inquiry. See Appellants’ Br. 16 (“When

53a
Appendix A
Congress issues subpoenas in aid of valid legislation, it
needs a legitimate legislative purpose”); Department Br.
10. (“The court must first determine whether the subpoena
serves a ‘valid legislative purpose.’”).
To be sure, a Congress pursuing a legitimate
legislative objective may, as the many examples recounted
in the dissent demonstrate, choose to move from legislative
investigation to impeachment. But the dissent cites nothing
in the Constitution or case law—and there is nothing—
that compels Congress to abandon its legislative role at
the first scent of potential illegality and confine itself
exclusively to the impeachment process. Nor does anything
in the dissent’s lengthy recitation of historical examples
dictate that result. All involved investigations targeted
at individual conduct; none involved a Congressional
effort to investigate the need to amend existing laws
or enact remedial legislation. Instead, those examples
merely demonstrate that Congress has, at various points
throughout our history, debated and decided when it
wishes to shift from legislating to impeaching. Where
legislation may be had—and especially here, where bills
are pending and no intrusion on the President’s execution
of his official duties is alleged—the Constitution assigns
that decision to Congress.
Unable to prevail under the test the Supreme Court
has enforced for more than a century, the dissent moves the
goalposts. The dissent proposes a brand-new test for the
President (and other “impeachable officials,” Dissenting
Op. at 44) that would enfeeble the legislative branch.
According to the dissent, once some Members—or perhaps

54a
Appendix A
just one Member—raise “suspicions of criminality” by an
impeachable official, Congress must “end[]” all legislative
investigation and either do nothing at all or “move[] that
part of the investigation into impeachment.” Dissenting
Op. at 19.
In other words, Congress must either initiate the
grave and weighty process of impeachment or forgo any
investigation in support of potential legislation. Under
the dissent’s novel test, “even a valid legislative purpose”
cannot “justify” the investigation. Id. at 19. The dissent
identifies nothing in the text, structure, or original
meaning of Article I or Article II of the Constitution to
support such a sweeping rule of legislative paralysis.
As the Trump Plaintiffs and the Department of Justice
agree, the Supreme Court has said just the opposite: “a
congressional committee which is engaged in a legitimate
legislative investigation need not grind to a halt whenever
. . . crime or wrongdoing is disclosed.” Hutcheson, 369
U.S. at 618.
The dissent tries to house its theory in the Supreme
Court’s decision in McGrain. Quoting the Court’s
observation that an investigation would be invalid “if the
Senate was ‘attempting or intending to try the Attorney
General at its bar or before its committee for crime or
wrongdoing,’” the dissent insists that “[i]t was essential
to the Court’s decision that the investigation did not
target the unlawful behavior of the Attorney General,”
Dissenting Op. at 49 (quoting McGrain, 273 U.S. at 17980) (emphasis added). But as the sentence quoted by the
dissent reveals, the Court said nothing about “targeting”

55a
Appendix A
specific conduct. Instead, the Court made clear that the
investigation was not invalid because the authorizing
“resolution, like the charges which prompted its adoption
. . . [made] reference to [the Attorney General] by name,”
nor was it “a valid objection to the investigation that it
might possibly disclose crime or wrongdoing on his part.”
McGrain, 273 U.S. at 179-80. Indeed, the district court
in McGrain had adopted the dissent’s view, invalidating
the subpoena because the authorizing resolution alleged
“specific instances of . . . neglect” and the Senate was
“proposing . . . to determine the guilt of the Attorney
General of the shortcomings and wrongdoings set forth
in th[ose] resolutions.” Id. at 177. The Senate was, as the
district court saw it, “exercising the judicial function,”
a power “impliedly negatived by th[e] Constitution, in
its provision conferring the sole power of impeachment
on the House of Representatives.” Ex parte Daugherty,
299 F. 620, 639, 2 Ohio Law Abs. 708 (S.D. Ohio 1924).
The Supreme Court labeled this reasoning “wrong,”
explaining “that the object of the investigation . . . was to
obtain information for legislative purposes.” McGrain,
273 U.S. at 177.
The dissent points to McGrain’s language that
“[i]t [wa]s not as if an inadmissible or unlawful object
were affirmatively and definitely avowed,” arguing that,
here, the subpoena is invalid because “[t]he Committee
has ‘affirmatively and definitely avowed’ its suspicions
of criminality against the President.’” Dissenting Op. at
50-51 (quoting McGrain, 273 U.S. at 180). The dissent
misreads that sentence. According to the Court, the
Senate resolution in McGrain sought “information

56a
Appendix A
necessary as a basis for such legislative and other action
as the Senate may deem necessary and proper.” 273 U.S.
at 179 (emphasis added). But there was “no other action,”
the Court explained, “which would be within the power
of the Senate.” Id. It was the Senate’s “indefinite and
untenable suggestion” of non-legislative action—not an
avowal of suspicions of individual wrongdoing—that the
Court held did not “invalidate[] the entire proceeding.”
Id. McGrain thus squarely forecloses the dissent’s theory.
It is unsurprising that no case law supports the
dissent. Under its view, Congress’s power to investigate,
when it comes to the President and all other impeachable
officials, would no longer be “co-extensive with [its] power
to legislate.” Quinn, 349 U.S. at 160. The dissent would
reorder the very structure of the Constitution. Throughout
history, the Constitution has left to Congress the judgment
whether to commence the impeachment process. But
the dissent’s approach would not even allow Congress
to make the quintessentially legislative judgment that
some concerns about potential misconduct or illegality are
better addressed through oversight and legislation than
impeachment. Worse still, the dissent’s novel approach
would now impose upon the courts the job of ordering the
cessation of the legislative function and putting Congress
to the Hobson’s Choice of impeachment or nothing.
To be sure, the dissent would still allow Congress
to “enact legislation.” Dissenting Op. at 64. But it would
have to do so uninformed and with its oversight function
informationally crippled. This would mean that, at times
when oversight and legislation are most urgent, such as

57a
Appendix A
to prevent executive branch overreach or to keep officials’
behavior within ethical boundaries going forward,
Congress would be legislatively hamstrung unless it
were to pull the impeachment trigger. And if Congress
chooses not to pursue impeachment, or if impeachment
is unavailable because Congress believes the alleged
misconduct falls short of a high crime or misdemeanor,
then there can be no investigation of—and thus no viable
legislative check on—the President at all. A proposition
that so strips Congress of its power to legislate would
enforce only the Executive’s arrogation of power, not the
separation of powers.
At bottom, this subpoena is a valid exercise of the
legislative oversight authority because it seeks information
important to determining the fitness of legislation to
address potential problems within the Executive Branch
and the electoral system; it does not seek to determine
the President’s fitness for office.
C.
Thus far we have concluded that the Committee is
pursuing a legislative, non-law-enforcement purpose and
that at least one kind of constitutional legislation may be
had on the subject matter of the Committee’s investigation.
What is left to decide is whether the documents requested
in this subpoena are relevant to that investigation. The
Trump Plaintiffs insist that at least some are not.
As the Watkins Court described it, the requirement
that a subpoena request only those documents that are

58a
Appendix A
relevant to a committee’s legitimate investigation “is a
jurisdictional concept of pertinency drawn from the nature
of a congressional committee’s source of authority.” 354
U.S. at 206. Though complex sounding, the relevancy
requirement functions merely as a corollary to the other
restraints on congressional committees’ investigative
powers: if a committee could subpoena information
irrelevant to its legislative purpose, then the Constitution
would in practice impose no real limit on congressional
investigations.
The Supreme Court has used various formulations
to describe the relevancy standard that applies to
congressional subpoenas. In McGrain, the Court held
that Congress could subpoena any information that would
“materially aid[]” a legitimate investigation. 273 U.S. at 177.
In Watkins, it explained that committees may subpoena
information “to be used . . . in coping with a problem that
falls within [their] legislative sphere.” 354 U.S. at 206. And
in McPhaul v. United States, the Court offered not one but
two explanations, validating a subpoena because, in the
Court’s words, the subcommittee had requested records
that “were not plainly incompetent or irrelevant to any
lawful purpose . . . , but, on the contrary, were reasonably
relevant to the inquiry.” 364 U.S. 372, 381-82, 81 S. Ct. 138,
5 L. Ed. 2d 136 (1960) (alterations, citations, and internal
quotation marks omitted). We read all these statements,
varied as they are, as conveying essentially the same
straightforward proposition: Congress may subpoena
only that information which is “reasonably relevant” to its
legitimate investigation. Id.; accord Appellants’ Br. 19 (“If
the congressional subpoena is not ‘reasonably relevant to

59a
Appendix A
the inquiry,’ then it lacks a legitimate purpose.” (quoting
McPhaul, 364 U.S. at 381-82)).
With this standard in mind, we turn to the challenged
subpoena. Recall that it seeks four categories of
documents: for “calendar years 2011 through 2018,” (1)
“statements of financial condition, annual statements,
periodic financial reports, and independent auditors’
reports,” (2) “underlying, supporting, or source documents
and records,” and (3) related “memoranda, notes, and
communications;” and, (4) “[w]ithout regard to time,” all
related “engagement agreements or contracts.” Subpoena.
For clarity, we label these four categories Accounting
Records, Source Documents, Related Communications,
and Engagement Agreements, respectively. In our
view, all are reasonably relevant to remedial legislation
addressing at least two of the topics listed in Chairman
Cummings’s Memo: the President’s potential “undisclosed
conflicts of interest” and the President’s “report[s]
. . . to the Office of Government Ethics and other federal
entities.” Cummings Memo 4.
We begin with Accounting Records and Source
Documents for calendar years 2014 through 2018. Because
then-Candidate and now-President Trump filed financial
disclosure reports covering these years, financial records
from this period are highly relevant to the Committee’s
inquiry into whether Candidate and President Trump
“accurately reported his finances to . . . federal entities,”
id., and, by extension, “whether reforms are necessary
to address deficiencies with current laws, rules, and
regulations,” Cummings Feb. 15 Letter 9. A clear line

60a
Appendix A
connects the Office of Government Ethics’s May 2018
determination that President Trump’s financial disclosure
form failed to list “a reportable liability” to Michael Cohen,
Apol Letter 1; to Chairman Cummings’s January 2019
requests to the White House and the Office of Government
Ethics for further information on President Trump’s
payments to Cohen; to Cohen’s February 2019 production
of Mazars accounting documents revealing financial
information different from and additional to Candidate
and President Trump’s financial disclosures; and finally
to the Committee’s March 2019 request and April 2019
subpoena to Mazars. From this logical progression we
discern “no indication” that the subpoena “follow[ed] from
indiscriminate dragnet procedures, lacking in probable
cause for belief that” Mazars “possesse[s] information
which might be helpful to the” Committee. Barenblatt,
360 U.S. at 134. Tellingly, the Trump Plaintiffs raise
no relevance objection to this subset of subpoenaed
documents.
We next consider the same two categories of records—
Accounting Records and Source Documents—for years
2011 through 2013. According to the Trump Plaintiffs,
these documents are irrelevant to the Committee’s
investigation because they “reach[] back many years
before the President was even a candidate for public
office.” Appellants’ Reply Br. 16-17. This is true, but beside
the point. The fact that the Ethics in Government Act
currently requires candidates and Presidents to disclose
information for “the preceding calendar year,” e.g., 5
U.S.C. app. 4 § 102(b)(1)(A), hardly forecloses Congress
from amending the Act to require filers to go back a

61a
Appendix A
reasonable amount of additional time to provide a more
accurate financial picture. That is especially true here
because the sitting President possesses financial holdings
that are arguably more complex than past Presidents
held, has elected while in office to handle his finances
differently than past Presidents did, and has declined to
voluntarily release the sorts of tax-return information that
past Presidents disclosed. See, e.g., H.R. 1: Strengthening
Ethics: Hearing Before the House Committee on Oversight
and Reform, 116th Cong. 125 (Feb. 6, 2019) (statement of
Walter M. Shaub, Jr.) (describing the President’s decision
not “to divest his conflicting financial interests” as a
“radical departure” from previous Presidents).
Congress might therefore reasonably wonder whether
the Ethics in Government Act needs an update, and even
pre-candidacy documents from the President would shed
light on that inquiry. Requiring presidential candidates
and Presidents to disclose earlier years’ information might,
for example, reveal forgiven debts, financial partnerships,
or favorable deals that Congress determines should be
disclosed to the public—that is, “undisclosed conflicts
of interest.” Cummings Memo 4. In fact, at least one bill
now pending before the House would require presidential
candidates to “submit to the Federal Election Commission
a copy of [their] income tax returns for the 10 most recent
taxable years.” H.R. 706, 116th Cong. § 222(b)(1)(A) (2019).
Of course, the Committee may discover nothing
notable in Mazars’s 2011 through 2013 records. But
that is not the test for relevancy. As the Supreme Court
has explained, “[t]he very nature of the investigative

62a
Appendix A
function—like any research—is that it takes the searchers
up some ‘blind alleys’ and into nonproductive enterprises.”
Eastland, 421 U.S. at 509; see also Appellants’ Br. 32
(conceding that “Congress cannot be penalized if an
otherwise valid investigation turns out to be a dead end”).
To be sure, information from the past may at some point
become so stale as to be irrelevant to present inquiries,
but the eight-year mark falls comfortably on the relevant
side of the line.
We last turn to the Committee’s request for Related
Communications and Engagement Agreements. According
to the Trump Plaintiffs, these documents “have nothing
to do with the financial statements the Committee
says it needs.” Appellants’ Reply Br. 17. But again,
we think the records’ relevancy is quite clear. As the
Committee explains, the import of the Mazars accounting
documents hinges on the conditions under which they
were prepared—for example, whether Mazars accepted
documents “as a given,” whether Mazars prepared its
reports intending third parties to rely upon them, and
whether Mazars had the “power[] or responsibilit[y]” to
conduct independent audits. Oral Arg. Tr. 108. Obviously
not every “agreement[]” or “note[]” will provide this
information. Subpoena. But absent foreknowledge of the
documents’ contents, congressional investigators have
no way to reliably determine before issuing a subpoena
which specific communications might reveal relevant
information. It is enough that the categories of information
sought are “reasonably relevant” to the Committee’s
legitimate legislative inquiry.

63a
Appendix A
IV.
Hav ing found no constitutional defect in the
Committee’s subpoena to Mazars, we at last arrive at
the question of authority: “whether the committee [is]
authorized” by the full House “to exact the information”
it seeks. Rumely, 345 U.S. at 42-43; see also Exxon Corp.
v. Federal Trade Com., 589 F.2d 582, 592, 191 U.S. App.
D.C. 59 (D.C. Cir. 1978) (“To issue a valid subpoena, . . .
a committee or subcommittee must conform strictly to
the resolution establishing its investigatory powers.”).
The Trump Plaintiffs urge us to interpret the House
Rules narrowly to deny the Committee the authority it
claims. But we have no need—and most important, no
authority—to do so.
A.
We start with the proposition, undisputed by the
Trump Plaintiffs, that under the most natural reading
of the House Rules, the full chamber has authorized the
Committee to issue the challenged subpoena. See Oral
Arg. Tr. 38-39 (Trump Plaintiffs conceding that the Rules,
under a “normal reading,” authorize the subpoena). A brief
tour through the Rules confirms as much.
To begin with, the Rules vest the Oversight Committee
with standing authority to institute investigations
and issue subpoenas without first “obtain[ing] such
authority . . . by a separate resolution.” House Rules and
Manual, 115th Cong., § 788 note (2017); see also Morton
Rosenberg, When Congress Comes Calling: A Study on

64a
Appendix A
the Principles, Practices, and Pragmatics of Legislative
Inquiry 33-34 & 34 n.5 (2017) (explaining that although
“[t]he required authorization from the full House . . . may
take the form of a statute, a resolution, or a standing rule
of the House,” “[t]his [last] mode is the most common
today” (footnotes omitted)). Clause 1(b)(1) of House Rule
XI permits “[e]ach committee [to] conduct at any time such
investigations and studies as it considers necessary.” And
Clause 2(m) of the same Rule authorizes committees—or,
when the committees so choose, their chairs—”to require,
by subpoena or otherwise, . . . the production of such
books, records, correspondence, memoranda, papers,
and documents as [they] consider[] necessary” “[f]or the
purpose of carrying out any of [their] functions and duties
under . . . rule X.” House Rule XI, cl. 2(m)(1); see also id.
cl. 2(m)(3)(A)(i) (permitting committees to “delegate[]
to the[ir] chair” “[t]he power to authorize and issue
subpoenas”); Rules of the House Committee on Oversight
and Reform, 116th Cong., Rule 12(g) (2019) (authorizing
the Oversight Committee Chair to “issue subpoenas as
provided in House Rule XI, clause 2(m), in the conduct
of any investigation or activity or series of investigations
or activities within the jurisdiction of the Committee”).
Rule X, in turn, establishes the Oversight Committee’s
jurisdiction, which unquestionably includes financialdisclosure and other ethics-in-government laws. Rule
X, clause 1(n) assigns the Committee jurisdiction over
the “[f]ederal civil service . . . and the status of officers
and employees of the United States,” “[g]overnment
management and accounting measures generally,” and
“[p]ublic information and records.” Pursuant to this

65a
Appendix A
clause, the Oversight Committee has for decades exercised
jurisdiction over the Ethics in Government Act and served
as the authorizing committee for the Office of Government
Ethics. See, e.g., 165 Cong. Rec. H1209 (daily ed. Jan. 24,
2019) (referring H.R. 745, a “bill to amend the Ethics
in Government Act of 1978 to provide for reform in the
operations of the Office of Government Ethics, . . . to the
Committee on Oversight and Reform”); Letter from Jason
Chaffetz, Chairman, House Committee on Oversight and
Government Reform, to Walter M. Shaub, Jr., Director,
Office of Government Ethics 2 (Jan. 12, 2017) (stating
that the Oversight Committee “has jurisdiction in the
House of Representatives for reauthorizing the [O]ffice”
of Government Ethics); see also H.R. Rep. No. 95-642,
pt. 1 (1977) (report of the Committee on Post Office and
Civil Service, predecessor to the Oversight Committee,
on H.R. 6954, predecessor to the Ethics in Government
Act of 1978). Furthermore, Rule X, clause 3(i) directs
the Oversight Committee to “review and study on a
continuing basis the operation of Government activities at
all levels, including the Executive Office of the President.”
And lest any confusion remain regarding the Oversight
Committee’s authority to oversee, Rule X, clause 4(c)
(2) states that the Committee “may at any time conduct
investigations of any matter without regard to [any other]
clause conferring jurisdiction over the matter to another
standing committee.”
Having placed “any matter” within the Oversight
Committee’s wide purview, the Rules nowhere disclose
an intent to carve out the President. It would be quite
strange for the Rules to permit the Oversight Committee

66a
Appendix A
to “review and study,” House Rule X, cl. 3(i), financial
disclosure laws in all their applications save for one—their
application to the President. See 5 U.S.C. app. 4 §§ 101(a),
(f)(1), 102 (requiring the President to file financial reports).
So, too, would it be strange to direct the Committee to
oversee “the operation of Government activities at all
levels,” House Rule X, cl. 3(i), if the Rules really meant
“at all levels except the President.” And although we do
not read the second half of clause 3(i), which specifies that
“Government . . . at all levels . . . includ[es] the Executive
Office of the President,” to refer to the President himself,
cf. Kissinger v. Reporters Committee for Freedom of the
Press, 445 U.S. 136, 156, 100 S. Ct. 960, 63 L. Ed. 2d 267
(1980) (holding that in the Freedom of Information Act,
the term “‘Executive Office’ does not include the Office
of the President”), neither do we take the “including”
phrase to imply that “Government activities at all levels”
means something less than “all,” see Federal Land Bank
of St. Paul v. Bismarck Lumber Co., 314 U.S. 95, 100, 62
S. Ct. 1, 86 L. Ed. 65 (1941) (“[T]he term ‘including’ is not
one of all-embracing definition, but connotes simply an
illustrative application of the general principle.”). Indeed,
the Trump Plaintiffs urge us to draw no such negative
inference. See Appellants’ Reply Br. 6 (“Plaintiffs do not
claim that [adding the] new language [‘Executive Office
of the President’] narrowed the Committee’s authority.”).
B.
Acknowledging that literally read, the Rules permit
the Committee to issue the challenged subpoena, see supra
at 49, the Trump Plaintiffs insist that a literal reading is

67a
Appendix A
not enough. In their view, the Mazars subpoena alters
the separation of powers and raises serious constitutional
questions, so nothing less than an “unequivocal[] grant”
by the House of “jurisdiction to subpoena the President’s
accountant for his private financial records” could
authorize the Committee to issue it. Appellants’ Reply
Br. 2; see also Dissenting Op. at 52-58. In support, they
raise three related arguments.
First, the Trump Plaintiffs contend that because “a
‘clear statement rule’ applies ‘to statutes that significantly
alter the balance between Congress and the President,’”
Appellants’ Br. 16 (quoting Armstrong v. Bush, 924 F.2d
282, 289, 288 U.S. App. D.C. 38 (D.C. Cir. 1991)), the
House could have “authorized the Committee to embark
on [the instant] investigation” only through “an express
statement,” Appellants’ Reply Br. 3 (internal quotation
marks omitted); see also Dissenting Op. at 54-55. For this
proposition, they rely primarily on two decisions, both of
which held that the President is not an “agency” subject
to judicial review under the Administrative Procedure
Act (APA). In the first case, Armstrong v. Bush, our court
held that “[w]hen Congress decides purposefully to enact
legislation restricting or regulating presidential action,
it must make its intent clear.” 924 F.2d at 289. “Although
the ‘clear statement’ rule was originally articulated to
guide interpretation of statutes that significantly alter
the federal-state balance,” we explained, “there are
similar compelling reasons to apply the rule to statutes
that significantly alter the balance between Congress
and the President.” Id. And in the second case, Franklin
v. Massachusetts, the Supreme Court confirmed that

68a
Appendix A
“[o]ut of respect for the separation of powers and the
unique constitutional position of the President,” the Court
“would require an express statement by Congress before
assuming it intended the President’s performance of his
statutory duties to be reviewed for abuse of discretion”
under the APA. 505 U.S. 788, 800-01 (1992).
This case is nothing like Armstrong and Franklin
for a simple reason: the House Rules have no effect
whatsoever on “the balance between Congress and the
President.” Armstrong, 924 F.2d at 289 (emphasis added).
What Rules X and XI have done is delegate from the House
to the Oversight Committee the authority to exercise
Congress’s subpoena power without first “obtain[ing] such
authority . . . by a separate resolution” of the full House.
House Rules and Manual, 115th Cong., § 788 note (2017).
The Trump Plaintiffs nowhere dispute that, assuming
a legitimate legislative purpose exists, the House could
have either issued the challenged subpoena by a vote of
the full chamber or, via express statement, authorized
the Committee to issue the subpoena on its behalf. See
Oral Arg. Tr. 5 (conceding that the House has the power
to issue the subpoena itself and arguing that the question
is “whether [it] gave [that authority] to [the] Committee”);
id. at 6 (stating that it is “a question of clarity and not a
question of power”); id. at 130-31 (stating that, although
it would be “better” for the subpoena to come from “the
full House,” the full House could pass a rule that “says
. . . the committee could do it”). The Rules, which establish
a mechanism for exercising the House’s subpoena power,
thus deal exclusively with the allocation of authority
within the legislative branch, leaving unaltered the

69a
Appendix A
House’s subpoena power vis-à-vis the President. Because
Congress already possesses—in fact, has previously
exercised, see supra at 16-17—the authority to subpoena
Presidents and their information, nothing in the House
Rules could in any way “alter the balance between” the
two political branches of government. Armstrong, 924
F.2d at 289.
The Trump Plaintiffs’ second argument, containing
many ingredients of their first, is similarly unavailing.
Observing that “[t]he parties seriously dispute whether
the subpoena has a legitimate legislative purpose,”
Appellants’ Reply Br. 3—and, consequently, whether
the subpoena exceeds constitutional limits on Congress’s
subpoena power—the Trump Plaintiffs urge us to
“resolve[] this case in a way that avoid[s] deciding”
constitutional questions “by quashing the subpoena as
beyond the Committee’s . . . jurisdiction,” Appellants’ Br.
23; see also Department Br. 14; Dissenting Op. at 52-58.
They call our attention to two cases in particular: the
Supreme Court’s decision in United States v. Rumely
and ours in Tobin v. United States, 306 F.2d 270, 113
U.S. App. D.C. 110 (D.C. Cir. 1962). In Rumely, the Court
“g[a]ve” the authorizing resolution at issue “a more
restricted scope” because the government’s favored
interpretation, which would have permitted it “to inquire
into all efforts of private individuals to influence public
opinion through books and periodicals,” raised “doubts
of constitutionality in view of the prohibition of the First
Amendment” and thus presented a “[g]rave constitutional
question[].” Rumely, 345 U.S. at 46-48. And in the latter,
we “constru[ed] [a] resolution[] of authority narrowly

70a
Appendix A
. . . in order to obviate the necessity of passing on” the
“serious and difficult constitutional question[]” presented
by that case, Tobin, 306 F.2d at 274-75—namely, whether
Congress has “the power, under the compact clause of
the Constitution, to ‘alter, amend or repeal’ its consent
to an interstate compact,” id. at 272. Concerned that
“the suspicion of even potential impermanency would be
damaging to the very concept of interstate compacts,”
id. at 273, we observed that the argument against
recognizing such an implied power to alter or repeal “is
not unpersuasive,” id. at 274.
In contrast to Rumely and Tobin, the constitutional
questions raised here are neither “[g]rave,” Rumely, 345
U.S. at 48, nor “serious and difficult,” Tobin, 306 F.2d at
275. We harbor no doubts that the subpoena to Mazars
comports with constitutional limits, as it seeks documents
reasonably relevant to a legitimate legislative inquiry into
“a subject on which legislation may be had.” Eastland, 421
U.S. at 508; see supra Parts III.A-C. We therefore have no
cause to invoke the canon of constitutional avoidance. See
Empresa Cubana Exportadora de Alimentos y Productos
Varios v. U.S. Department of Treasury, 638 F.3d 794, 801,
395 U.S. App. D.C. 19 (D.C. Cir. 2011) (“A clear statute and
a weak constitutional claim are not a recipe for successful
invocation of the constitutional avoidance canon.”).
That is not to say the issues presented here are
unimportant—far from it. But the canon of constitutional
avoidance “is not a license for the judiciary to rewrite
language enacted by the legislature.” United States v.
Albertini, 472 U.S. 675, 680, 105 S. Ct. 2897, 86 L. Ed.

71a
Appendix A
2d 536 (1985). To adopt a restrictive interpretation of
the Rules when uncompelled by constitutional concerns,
“while purporting to be an exercise in judicial restraint,”
would in fact be to “trench upon the legislative powers
vested in Congress by [Article I] of the Constitution.” Id.
We have no authority to avoid questions—even important
ones—simply because we might prefer not to answer
them. Cf. United States v. American Tel. & Tel. Co., 567
F.2d 121, 126, 185 U.S. App. D.C. 254 (D.C. Cir. 1977)
(“The simple fact of a conflict between the legislative and
executive branches over a congressional subpoena does
not preclude judicial resolution.”).
Finally, the Trump Plaintiffs argue that even if no
separation-of-powers concerns demand application of
the clear statement rule, and even if no constitutional
questions rise to the level of serious, it would, given the
“sensitive” nature of the Committee’s request, Appellants’
Reply Br. 2 (internal quotation marks omitted), still be
“better,” Oral Arg. Tr. 130, for the full House to grant the
Committee “express authority to subpoena the President
for his personal financial records,” Appellants’ Reply
Br. 5. We, however, have no authority to impose such a
requirement on the House. The Constitution gives “[e]ach
House” of Congress authority to “determine the Rules of
its Proceedings,” U.S. Const. art. I, § 5, cl. 2, meaning
that courts lack the power to invalidate a duly authorized
congressional subpoena merely because it might have
been “better [if] . . . the full House” had specifically
authorized or issued it, Oral Arg. Tr. 130. See Eastland,
421 U.S. at 509 (“The wisdom of congressional approach or
methodology is not open to judicial veto.”). To be sure, “the

72a
Appendix A
courts will intervene to protect constitutional rights from
infringement by Congress, including its committees and
members.” Exxon Corp., 589 F.2d at 590. But unless and
until Congress adopts a rule that offends the Constitution,
the courts get no vote in how each chamber chooses to run
its internal affairs. See id. (“[W]here constitutional rights
are not violated, there is no warrant for the judiciary to
interfere with the internal procedures of Congress.”).
The trouble with clear statement rules, then, is that
they both “involve[] an unwillingness to give full effect
to [Congress’s] unambiguous text” as it exists now,
Owner-Operator Independent Drivers Ass’n v. U.S.
Department of Transportation, 724 F.3d 230, 237, 406
U.S. App. D.C. 299 (D.C. Cir. 2013), and offer a not-sosubtle encouragement to Congress to alter its rules in the
future. Without some constitutionally compelled reason,
we may do neither. As our court recently explained,
“interpreting a congressional rule ‘differently than
would the Congress itself,’ is tantamount to ‘making the
Rules—a power that the Rulemaking Clause reserves to
each House alone.’” Barker v. Conroy, 921 F.3d 1118, 1130
(D.C. Cir. 2019) (quoting United States v. Rostenkowski,
59 F.3d 1291, 1306-07, 313 U.S. App. D.C. 303 (D.C. Cir.
1995)). Accordingly, absent a substantial constitutional
question pertaining to the House’s legislative power, we
have no more authority to give a cramped interpretation
to a House Rule via a clear statement requirement or the
constitutional avoidance canon than we do to take out our
red pens and edit the Rules ourselves.

73a
Appendix A
But the House may. And indeed it has. On July 24,
several weeks after oral argument in this case and
several months after the Oversight Committee issued the
challenged subpoena to Mazars, the full House adopted
a resolution that in no uncertain terms “ratifie[d] and
affirm[ed]” the Oversight Committee’s authority under
House Rules X and XI to issue subpoenas “concerning
. . . the President in his personal or official capacity [and]
his immediate family, business entities, or organizations.”
H.R. Res. 507, 116th Cong. (2019). Resolution 507—a
resolution “[a]ffirming the validity of subpoenas duly
issued and investigations undertaken by . . . committee[s]
of the House . . . pursuant to authorities delegated by . . .
the [House] Rules,” id.—purports neither to enlarge the
Committee’s jurisdiction nor to amend the House Rules.
Instead, the Resolution clarifies the authority that the
Committee had on the day it issued the subpoena. It is
“plainly incorrect,” the Resolution states, to assert that
previously issued subpoenas “seeking personal, financial,
banking, and tax information related to the President”
“were not authorized by the full House.” Id.
Because the Trump Plaintiffs concede, as they must,
that “[t]he Resolution does not expand the Committee’s
jurisdiction,” Appellants’ July 31 Letter 1; see also
Dissenting Op. at 55 n.18, we need not address their
argument that “the ‘scope’ of a committee’s jurisdiction
must ‘be ascertained as of th[e] time’ of the request,”
id. (alteration in original) (quoting Rumely, 345 U.S. at
48). The Trump Plaintiffs may very well be right that
the authority of a congressional committee to issue
subpoenas “‘cannot be enlarged by subsequent action of

74a
Appendix A
Congress.’” Id. (quoting Rumely, 345 U.S. at 48); but cf.
Dombrowski v. Burbank, 358 F.2d 821, 825, 123 U.S. App.
D.C. 190 (D.C. Cir. 1966), aff’d in part, rev’d in part on
other grounds sub nom. Dombrowski v. Eastland, 387
U.S. 82, 87 S. Ct. 1425, 18 L. Ed. 2d 577 (1967) (holding
that for purposes of establishing immunity from suit, a
subcommittee could ratify a subpoena previously issued
“without prior authorization from the [s]ubcommittee”).
Resolution 507, however, “enlarges” nothing. It merely
confirms what the Trump Plaintiffs admit—that the
plain text of the House Rules authorizes the subpoena,
see supra at 46, and merely provides what the Trump
Plaintiffs request—that the House “‘spell[] out [its]
intention’” by “‘adopt[ing] a resolution which in express
terms authorizes’” the challenged subpoena. Appellants’
Reply Br. 8-9 (quoting Tobin, 306 F.2d at 275-76). Because
the House has “clearly manifest[ed] its intention of putting
such a decisional burden upon us,” we have no choice but
to “meet and decide” the issues presented by this case.
Tobin, 306 F.2d at 276.
The Justice Department adds one final objection.
A lthough conceding that the Resolution “clearly
authorizes the Committee’s subpoena[,]” Department
Br. 16, the Department warns that because Resolution
507 also authorizes future subpoenas, there is a “serious
risk” that “[C]ongressional committees may issue
successive subpoenas in waves, making far-reaching
demands that harry the President and distract his
attention.” Department Br. 6. Time will tell whether the
Department’s prediction is accurate. At present, however,
we have no need to consider that hypothetical scenario

75a
Appendix A
because the only subpoena currently before us is the one
directed at Mazars. And to be clear, neither the Trump
Plaintiffs nor the Department has argued that compliance
with that subpoena risks unconstitutionally burdening the
President’s core duties.
Nor could they. It is Mazars, a third-party, that
will retrieve and organize the relevant information; the
subpoena seeks non-confidential records in which the
President has asserted no proprietary or evidentiary
protections; and Mazars, not the President, risks contempt
through non-compliance. To be sure, monitoring Mazars’s
compliance with the subpoena might require some
presidential time and attention. But as the Supreme Court
made clear in Clinton v. Jones, a “burden [on] the time
and attention of the Chief Executive,” standing alone, “is
not sufficient to establish a violation of the Constitution.”
520 U.S. at 703.
V.
Though our journey has been long, we find ourselves
at the end of a familiar tale. A congressional committee,
as committees have done repeatedly over the past two
centuries, issued an investigative subpoena, and the target
of that subpoena, questioning the committee’s legislative
purpose, has asked a court to invalidate it. The fact that
the subpoena in this case seeks information that concerns
the President of the United States adds a twist, but not
a surprising one: disputes between Congress and the
President are a recurring plot in our national story. And
that is precisely what the Framers intended. As Justice

76a
Appendix A
Brandeis wrote, “[t]he doctrine of the separation of
powers was adopted . . . not to promote efficiency but to
preclude the exercise of arbitrary power.” Myers v. United
States, 272 U.S. 52, 293, 47 S. Ct. 21, 71 L. Ed. 160 (1926)
(Brandeis, J., dissenting). “The purpose,” he explained,
“was not to avoid friction, but, by means of the inevitable
friction incident to the distribution of the governmental
powers among three departments, to save the people from
autocracy.” Id.
Having considered the weighty interests at stake in
this case, we conclude that the subpoena issued by the
Committee to Mazars is valid and enforceable. We affirm
the district court’s judgment in favor of the Oversight
Committee and against the Trump Plaintiffs.
So ordered.

77a
Appendix A
R ao , Circuit Judge, dissenting: The majority
breaks new ground when it determines Congress is
investigating allegations of illegal conduct against the
President, yet nonetheless upholds the subpoena as part
of the legislative power. The Committee on Oversight
and Reform has consistently maintained that it seeks
to determine whether the President broke the law, but
it has not invoked Congress’s impeachment power to
support this subpoena. When Congress seeks information
about the President’s wrongdoing, it does not matter
whether the investigation also has a legislative purpose.
Investigations of impeachable offenses simply are not,
and never have been, within Congress’s legislative power.
Throughout our history, Congress, the President, and
the courts have insisted upon maintaining the separation
between the legislative and impeachment powers of the
House and recognized the gravity and accountability
that follow impeachment. Allowing the Committee to
issue this subpoena for legislative purposes would turn
Congress into a roving inquisition over a co-equal branch
of government. I respectfully dissent.
I.
We are asked to determine whether the Committee’s
subpoena is within the legislative power, a question that
raises serious separation of powers concerns about how
a House committee may investigate a sitting president.
The constitutional questions only hinted at by the majority
become clearer when the proper framework is applied.
First, the Committee’s subpoena and investigation
explicitly state a purpose of investigating illegal conduct

78a
Appendix A
of the President, including specific violations of ethics
laws and the Constitution. Second, Congress’s power to
investigate for legislative purposes, although broad, is not
unlimited and cannot circumvent the distinct power to
investigate for purposes of impeachment. Allegations that
an impeachable official acted unlawfully must be pursued
through impeachment. Finally, the subpoena targets
the President and raises implications for the separation
of powers that the majority cannot brush aside simply
because the subpoena is addressed to the President’s
accountants, Mazars USA, LLP. These preliminary
matters place this novel investigation in context and frame
the analysis of the substantial constitutional questions
presented in this case.
The Committee, the Trump plaintiffs, and the majority
all agree that the most relevant document for assessing
the Committee’s reasons for issuing the subpoena is
Chairman Elijah E. Cummings’s April 12 Memorandum.
See Memorandum from Chairman Elijah E. Cummings
to Members of the Committee on Oversight and Reform
(Apr. 12, 2019) (“Cummings Memorandum”); Appellant
Br. 32-33; Maj. Op. 25; cf. Wilkinson v. United States,
365 U.S. 399, 410, 81 S. Ct. 567, 5 L. Ed. 2d 633 (1961)
(looking to the “Chairman’s statement at the opening of
the hearings” for signs of legislative purpose); Shelton v.
United States, 404 F.2d 1292, 1297, 131 U.S. App. D.C.
315 (D.C. Cir. 1968). The Cummings Memorandum states
the Committee is investigating “whether the President
may have engaged in illegal conduct” and notes that this
information will “inform[] its review of multiple laws and
legislative proposals under our jurisdiction.” Cummings

79a
Appendix A
Memorandum at 4. The Committee also makes an “express
avowal” to investigate alleged violations of ethics laws
and the Constitution by the President. See McGrain v.
Daugherty, 273 U.S. 135, 178, 47 S. Ct. 319, 71 L. Ed. 580
(1927) (noting that “[a]n express avowal of the object” of
an investigation would aid the courts in reviewing the
Senate’s purpose); see also infra Part III.A (discussing
Committee’s purposes in detail).
The Committee announces two distinct investigations:
one to explore allegations of illegal conduct by the
President; and another to review multiple laws and
legislative proposals within the Committee’s jurisdiction.
The Committee justifies both inquiries under the
legislative power, and the majority accepts this framework
when it examines the legislative power in isolation to
determine whether this investigation falls within its scope.
Maj. Op. 20-54. Yet the Constitution vests the House
of Representatives with more than one investigative
power. Most frequently, the House investigates and
issues subpoenas ancillary to its legislative powers. That
investigative power is “co-extensive with the power to
legislate.” Quinn v. United States, 349 U.S. 155, 160, 75 S.
Ct. 668, 99 L. Ed. 964 (1955); see also Watkins v. United
States, 354 U.S. 178, 187, 77 S. Ct. 1173, 1 L. Ed. 2d 1273,
76 Ohio Law Abs. 225 (1957) (“The power of the Congress
to conduct investigations is inherent in the legislative
process. That power is broad.”).
The House, however, has a separate power to
investigate pursuant to impeachment, which has always
been understood as a limited judicial power to hold certain

80a
Appendix A
impeachable officials accountable for wrongdoing.1 See
Kilbourn v. Thompson, 103 U.S. 168, 191, 26 L. Ed. 377
(1880) (“The Senate also exercises the judicial power
of trying impeachments, and the House of preferring
articles of impeachment.”). The text and structure of
the Constitution, its original meaning, and longstanding
practice demonstrate that Congress’s legislative and
judicial powers are distinct and exercised through
separate processes, for different purposes, and with
entirely different protections for individuals targeted for
investigation. See infra Part II.
The Committee’s investigation into alleged illegal
actions of the President naturally raises the specter of
impeachment. Although the Trump plaintiffs maintain that
“[t]he one thing the parties agree on is that this case is not
about impeachment,” Appellants Br. 14, the impeachment
power unmistakably sits in the background of the legal
arguments. 2 The Trump plaintiffs and the Department of
1. In addition to the legislative and impeachment powers,
the House and the Senate have other investigative powers, not
relevant here, to maintain the integrity of their proceedings and
members against bribery, nuisance, and violence. See Anderson v.
Dunn, 19 U.S. (6 Wheat.) 204, 228-30, 5 L. Ed. 242 (1821); Barry
v. United States ex rel. Cunningham, 279 U.S. 597, 613, 49 S. Ct.
452, 73 L. Ed. 867 (1929) (the Senate has “certain powers, which
are not legislative, but judicial, in character. Among these is the
power to judge of the elections, returns, and qualifications of its
own members.” (citing U.S. Const. art. I, § 5, cl. 1)).
2. Notably, the district court concluded that the impeachment
and removal powers of the House and the Senate somehow bolster
Congress’s ability to investigate the President through the

81a
Appendix A
Justice have suggested that the impeachment power might
provide a different source of authority for this subpoena,
even though it was not invoked here. See Appellants Br. 45
(noting with regard to impeachment that “[w]hile Congress
could presumably use subpoenas to advance these nonlegislative powers, the Committee has not invoked them”);
DOJ Br. 15 n.1 (“The House’s impeachment power is
an express authority whose exercise does not require
a connection to valid legislation. But the Committee
has asserted neither jurisdiction over, nor an objective
of pursuing, impeachment.”). Furthermore, one of the
primary legal arguments raised by the Trump plaintiffs
is that the Committee’s investigation is an impermissible
form of “law enforcement.” Appellants Br. 33-37. While
law enforcement is normally the province of the executive
branch, the House has a narrowly circumscribed power
to serve as the “NATIONAL INQUEST” when it acts
pursuant to the impeachment power. The Federalist No.
65, at 338 (Alexander Hamilton) (George W. Carey &
James McClellan eds., 2001). The Committee is “not here
relying on impeachment power.” Oral Arg. at 1:34:19-22.
Nevertheless, understanding the impeachment power is
essential to identifying the limits of the legislative power
when Congress seeks to investigate allegations of specific
unlawful actions by the President.
legislative power. See Trump v. Comm. on Oversight & Reform,
380 F. Supp. 3d 76, 95 (D.D.C. 2019) (“It is simply not fathomable
that a Constitution that grants Congress the power to remove
a President for reasons including criminal behavior would deny
Congress the power to investigate him for unlawful conduct—
past or present—even without formally opening an impeachment
inquiry.”).

82a
Appendix A
Constitutional powers do not stand in isolation, but
rather are part of a complex structure in which each power
acquires specific content and meaning in relation to the
others. The Supreme Court often locates the limits of one
constitutional power by identifying what is at the core of
another. See, e.g., Zivotofsky ex rel. Zivotofsky v. Kerry,
135 S. Ct. 2076, 2096, 192 L. Ed. 2d 83 (2015) (“Congress
has substantial authority over passports . . . . [But] [t]o
allow Congress to control the President’s communication
in the context of a formal recognition determination is to
allow Congress to exercise that exclusive power itself.”);
Bowsher v. Synar, 478 U.S. 714, 722, 106 S. Ct. 3181, 92 L.
Ed. 2d 583 (1986) (“The Constitution does not contemplate
an active role for Congress in the supervision of officers
charged with the execution of the laws it enacts.”);
Youngstown Sheet & Tube Co. v. Sawyer, 343 U.S. 579, 587,
72 S. Ct. 863, 96 L. Ed. 1153, 62 Ohio Law Abs. 417 (1952)
(“In the framework of our Constitution, the President’s
power to see that the laws are faithfully executed refutes
the idea that he is to be a lawmaker.”); Myers v. United
States, 272 U.S. 52, 164, 47 S. Ct. 21, 71 L. Ed. 160 (1926)
(“[A]rticle 2 excludes the exercise of legislative power
by Congress to provide for appointments and removals,
except only as granted therein to Congress in the matter
of inferior offices.”); Kilbourn, 103 U.S. at 192 (the House
“not only exceeded the limit of its own authority, but
assumed a power which could only be properly exercised
by another branch of the government, because it was in its
nature clearly judicial”). This method helps illuminate the
scope of the legislative power to investigate. Comparing
Congress’s legislative power with its wholly distinct
judicial power of impeachment demonstrates the essential
difference between these powers when Congress seeks to
investigate the wrongdoing of the President.

83a
Appendix A
As explained below, allegations of illegal conduct
against the President cannot be investigated by Congress
except through impeachment. The House may impeach
for “ Treason, Bribery, or other high Crimes and
Misdemeanors,” U.S. Const. art. II, § 4, and has substantial
discretion to define and pursue charges of impeachment.
See The Federalist No. 65, at 338 (impeachable offenses
“are of a nature which may with peculiar propriety
be denominated POLITICAL, as they relate chiefly
to injuries done immediately to the society itself”).
While it is unnecessary here to determine the scope of
impeachable offenses, Congress has frequently treated
violations of statutes or the Constitution as meeting this
threshold. 3 Impeachment provides the exclusive method
for Congress to investigate accusations of illegal conduct
by impeachable officials, particularly with the aid of
compulsory process. 4 Thus, the key determination is
3. This discussion of the impeachment power proceeds only in
relation to understanding the scope of the legislative power. As the
Committee has not raised the impeachment power as a basis for
this subpoena, questions regarding whether such a subpoena could
issue under the impeachment power are outside the scope of this
opinion, as are other questions regarding the justiciability of the
impeachment power or the specific scope of impeachable offenses.
Recognizing the political nature of impeachable offenses, I refer
to them throughout the opinion by various terms to reflect that
such offenses may include wrongdoing or illegal conduct deemed
by the House to be a high crime or misdemeanor.
4. Voluntary compliance with congressional investigations is
commonplace. Different concerns arise, however, when one branch
invokes power over the other through compulsory process. See, e.g.,
Watkins, 354 U.S. at 215 (“It is only those investigations that are
conducted by use of compulsory process that give rise to a need
to protect the rights of individuals against illegal encroachment.

84a
Appendix A
whether this investigation targets allegations Congress
might treat as “high Crimes” or “Misdemeanors.” To
make this determination requires no search for hidden
motives, but simply crediting the Committee’s consistently
stated purpose to investigate “illegal conduct” of the
President. Cummings Memorandum at 4; cf. Eastland v.
United States Servicemen’s Fund, 421 U.S. 491, 508, 95
S. Ct. 1813, 44 L. Ed. 2d 324 (1975) (“[I]n determining
the legitimacy of a congressional act we do not look to the
motives alleged to have prompted it.”).
The Committee’s stated interest in remedial legislation
may support any number of investigations, including into
the conduct of agencies and how officials administer the
laws. Yet a legislative purpose cannot whitewash this
subpoena, which—by the Committee’s own description—
targets allegations of illegal conduct by the President.
The most important question is not whether Congress
has put forth some legitimate legislative purpose, but
rather whether Congress is investigating suspicions of
criminality or allegations that the President violated a law.
Such investigations may be pursued exclusively through
impeachment. The House may not use the legislative
power to circumvent the protections and accountability
that accompany the impeachment power.
The majority recognizes this subpoena concerns
the Committee’s “interest in determining whether and
how illegal conduct has occurred,” Maj. Op. 30, but
That protection can be readily achieved through procedures which
prevent the separation of power from responsibility and which
provide the constitutional requisites of fairness for witnesses.”).

85a
Appendix A
nonetheless concludes that it is a valid exercise of the
legislative power. This marks a sharp break with the few
judicial precedents in this area. The Supreme Court has
consistently maintained that Congress cannot undertake
a legislative investigation of an impeachable official if the
“gravamen” of the investigation rests on “suspicions of
criminality.” Kilbourn, 103 U.S. at 193, 195. In Senate
Select Committee on Presidential Campaign Activities
v. Nixon, our court refused to enforce a legislative
subpoena to President Richard Nixon by the Senate
Select Committee tasked with investigating the Watergate
break-in. 498 F.2d 725, 162 U.S. App. D.C. 183 (D.C. Cir.
1974) (en banc). The tapes sought by the subpoena were
too “tangential” to the Committee’s asserted legislative
purposes, especially because the House had commenced
impeachment proceedings to ascertain the President’s
role in these events. Id. at 733.
The major ity ’s holding also breaks w ith the
longstanding historical practice of Congress and the
Executive. Without analyzing the Constitution or
responding to the consistent historical understanding
presented below, the majority simply asserts that
Congress must be able “to make the quintessentially
legislative judgment that some concerns about potential
misconduct or illegality are better addressed through . . .
legislation than impeachment.” Maj. Op. 49. The majority’s
novel holding, however, fails to explain how specific
accusations of wrongdoing by impeachable officials can be
pursued through legislation. The Constitution, historical
practice, and our cases prohibit rolling this investigation
of illegal conduct of the President into a legislative

86a
Appendix A
investigation. Allowing Congress to use the legislative
power to circumvent the impeachment process disrupts
the separation of powers. By simply invoking a need for
remedial legislation, Congress may now expand its control
over the other branches and avoid the accountability and
responsibility inherent in the impeachment power.
Finally, the inter-branch conflict in this case does not
dissipate simply because the subpoena for the President’s
papers is strategically directed to Mazars rather than the
President. In an attempt to sidestep thorny separation of
powers questions, the majority reduces the conflict to a
merely personal one involving the President’s accountants:
“[T]o resolve this case, we need not decide whether
the Constitution permits Congress, in the conduct of a
legislative—that is, non-impeachment—investigation, to
issue subpoenas to a sitting President.” Id. at 20. By the
majority’s account, the subpoena does not transgress any
constitutionally prescribed boundaries between co-equal
branches in part because “quite simply, the Oversight
Committee has not subpoenaed President Trump.” Id. The
majority thus concludes that concerns about the relative
powers of the President and Congress do not come into
play. Yet this claim belies both precedent and common
sense. Indeed, by the end of its opinion, the majority
abandons even this reservation and simply asserts,
“Congress already possesses . . . the authority to subpoena
Presidents and their information.” Id. at 59.
The official actions of the Chief Executive are
essentially bound up in the Mazars subpoena. A subpoena’s
force extends beyond its recipient, which the majority has

87a
Appendix A
implicitly acknowledged by declining to question President
Trump’s standing to challenge the subpoena’s validity.
As we have previously explained: “[T]he fortuity that
documents sought by a congressional subpoena are not in
the hands of a party claiming injury from the subpoena
should not immunize that subpoena from challenge by that
party . . . . The fact that the Executive is not in a position
to assert its claim of constitutional right by refusing to
comply with a subpoena does not bar the challenge.” United
States v. American Tel. & Tel. Co., 567 F.2d 121, 129, 185
U.S. App. D.C. 254 (D.C. Cir. 1977) (citing Eastland, 421
U.S. at 513 (Marshall, J., concurring)). Moreover, we have
recognized that congressional subpoenas may create a
“portentous clash between the executive and legislative
branches” notwithstanding the fact that the subpoena was
issued against a private party. United States v. AT&T,
551 F.2d 384, 385, 179 U.S. App. D.C. 198 (D.C. Cir. 1976);
accord Eastland, 421 U.S. at 498, 501 n.14 (reviewing
challenge to third-party subpoena because otherwise
“compliance by the third person could frustrate any
judicial inquiry”).
The Committee’s subpoena is directed to Mazars but
targets the President’s papers. The form of the subpoena
cannot mask the inter-branch conflict between Congress
and the President. Cf. Judicial Watch, Inc. v. U.S. Secret
Serv., 726 F.3d 208, 225-26, 406 U.S. App. D.C. 440
(D.C. Cir. 2013) (refusing to allow “end runs” around
“separation-of-powers concerns” by subpoenaing the
Secret Service instead of the President for presidential
calendars). Despite the majority’s skepticism, President
Trump necessarily “carries the mantle of the Office of

88a
Appendix A
the President in this case.” Maj. Op. 24; cf. In re Lindsey,
158 F.3d 1263, 1286, 332 U.S. App. D.C. 357 (D.C. Cir.
1998) (Tatel, J., concurring in part and dissenting in part)
(“Because the Presidency is tied so tightly to the persona
of its occupant . . . the line between official and personal
can be both elusive and difficult to discern.”).5
The basic contours of the problem are straightforward—
the Committee’s subpoena seeks information regarding
alleged unlawful actions of the President. The direct
conflict between Congress and the President cannot be
evaded by treating this as an ordinary legislative inquiry
involving a subpoena to an accounting firm. In pursuit
of remedial legislation, the Committee may investigate
broadly, but this subpoena goes too far because the
legislative power cannot target whether the President
violated the law.
II.
The question of whether the House may issue this
subpoena for a legislative purpose presents a serious
5. As the Department of Justice points out, it is also possible
that judicial resolution would not be necessary if the Committee
had issued the subpoena to the President directly. DOJ Br. 7-8.
Instead, the President and the House would negotiate in the
“hurly-burly, the give and take of the political process between
the legislative and the executive,” likely raising a mix of legal
and political arguments and appealing to the public for support.
Executive Privilege - Secrecy in Government: Hearings Before
the Subcomm. on Intergovernmental Relations of the S. Comm.
on Government Operations, 94th Cong. 87 (1975) (statement of
Antonin Scalia, Assistant Att’y Gen., Office of Legal Counsel).

89a
Appendix A
conflict between Congress and the President. While
the question has never been squarely addressed by the
Supreme Court, Congress and the executive branch have
regularly confronted similar problems. Accordingly, I
start at the beginning. The text and structure of the
Constitution are best read to provide for impeachment
as the exclusive mechanism for reaching the wrongdoing
of the President and other impeachable officials. The
original understanding of Congress’s separate legislative
and impeachment powers, as well as consistent historical
practice since the Founding, confirms that congressional
investigations of the alleged unlawful actions of the
President cannot be pursued through the legislative
power. Cf. NLRB v. Noel Canning, 573 U.S. 513, 524-26,
134 S. Ct. 2550, 189 L. Ed. 2d 538 (2014) (“‘[L]ong settled
and established practice is a consideration of great weight
in a proper interpretation of constitutional provisions’
regulating the relationship between Congress and the
President.” (quoting The Pocket Veto Case, 279 U.S. 655,
689, 49 S. Ct. 463, 73 L. Ed. 894, 68 Ct. Cl. 786 (1929))).
Targeting an individual officer for suspicions of
criminality requires proceeding through the impeachment
power, with its attendant procedural protections and
accountability. The majority claims to recount a “familiar
tale” of congressional subpoenas and investigations,
Maj. Op. 65; however, its story covers only legislative
investigations that involve no allegations of wrongdoing
against an impeachable official. The majority’s cursory
and selective use of history glosses over important
distinctions carefully maintained by all three branches
between Congress’s legislative and judicial powers of
investigation.

90a
Appendix A
A.
The text and structure of the Constitution set out
with precision the process for Congress to investigate the
unlawful actions of the President—namely, impeachment
by the House followed by a trial in the Senate. The
distinctions between the legislative and judicial powers of
Congress are firmly rooted in the Constitution and reflect
the fundamental differences between these powers in our
system of government. The original meaning confirms that
Congress acts in an exceptional judicial capacity when
exercising impeachment powers. Investigating unlawful
actions by impeachable officials is outside the legislative
power because impeachment provides the exclusive
mechanism for Congress to investigate such conduct.
Congress is vested with limited and enumerated
legislative powers, and while the power to investigate
is not in the text of the Constitution, it has long been
recognized that Congress may investigate and issue
subpoenas necessary and proper to the exercise of the
legislative power. U.S. Const. art. I, § 8, cl. 18. As the
Court has explained, “the power of inquiry—with process
to enforce it—is an essential and appropriate auxiliary to
the legislative function.” McGrain, 273 U.S. at 174. Such
investigations are part of the legislative power and may
extend no farther than that power permits. See Quinn,
349 U.S. at 161.
In the United States, however, the legislative power
does not include the exercise of judicial power to determine

91a
Appendix A
the guilt or innocence of individuals.6 The Constitution
prohibits bills of attainder. U.S. Const. art. I, § 9, cl. 3;
art. I, § 10, cl. 1; see also United States v. Brown, 381 U.S.
437, 442, 85 S. Ct. 1707, 14 L. Ed. 2d 484 (1965) (“[T]he
Bill of Attainder Clause was intended not as a narrow,
technical . . . prohibition, but rather as an implementation
of the separation of powers, a general safeguard against
legislative exercise of the judicial function, or more
simply—trial by legislature.”). The Framers understood
the importance of prohibiting Congress from turning its
substantial powers against an individual and possessed
a “sense of a sharp necessity to separate the legislative
from the judicial power.” Plaut v. Spendthrift Farm,
Inc., 514 U.S. 211, 219, 115 S. Ct. 1447, 131 L. Ed. 2d 328
(1995); see also Calder v. Bull, 3 U.S. (3 Dall.) 386, 389, 1
L. Ed. 648, 3 Dall. 386 (1798) (reviewing parliamentary
abuses of bills of attainder and noting “the Federal and
State Legislatures, were prohibited from passing any
bill of attainder; or any ex post facto law” to prevent
6. By contrast, at the time of the Founding, the British
House of Commons possessed broad powers to “impeach” not
only officials but individual citizens, who could be tried by the
House of Lords in a judicial capacity for any criminal offense. 4
William Blackstone, Commentaries *259-61. As such, Parliament
could not only remove an official but also assess a broad range
of punishments at the discretion of “the wisdom of the peers.”
Id. at *121-22. Against the abuses of this practice, the Founders
limited the scope of impeachable offenses and punishments for
conviction. See Peter Hoffer & N.E.H. Hull, Impeachment in
America, 1635-1805, at 96-98 (1984); see also Akhil R. Amar,
America’s Constitution: A Biography 199-203 (2005) (describing
how the “system of federal impeachment broke decisively with
English impeachment practice”).

92a
Appendix A
“acts of violence and injustice” against individuals). As
Montesquieu warned, if the judicial powers were “joined
with the legislative, the life and liberty of the subject would
be exposed to arbitrary control; for the judge would then
be the legislator.” Montesquieu, The Spirit of the Laws
157 (A. Cohler et al. eds., 1989).
Vested with the power to make the laws, Congress
cannot also execute and adjudicate them. See Fletcher v.
Peck, 10 U.S. (6 Cranch) 87, 136, 3 L. Ed. 162 (1810) (“It
is the peculiar province of the legislature to prescribe
general rules for the government of society; the application
of those rules to individuals in society would seem to be
the duty of other departments.”). Exercising the legislative
power, Congress may enact general, prospective rules
for the whole of society. Yet Congress cannot prosecute
and decide specific cases against individuals. Such
powers properly belong to the executive branch and the
independent judiciary—a division essential to maintaining
fundamental aspects of our separation of powers and
protecting the rights of individuals accused of illegal
actions.
As an exception to this separation, the Constitution
confers upon the House and Senate limited judicial
powers over impeachable officials. The Constitution
vests the House of Representatives with the “sole Power
of Impeachment,” U.S. Const. art. I, § 2, cl. 5, and the
Senate with the “sole Power to try all Impeachments,”
U.S. Const. art. I, § 3, cl. 6. The Constitution creates a
two-tier system, dividing limited judicial power between
the House and the Senate to target individual cases

93a
Appendix A
of wrongdoing by impeachable officials. These judicial
powers were understood as exceptions to the legislative
power vested in Congress. See Kilbourn, 103 U.S. at
190-91 (noting impeachment and removal as exceptions
to the separation of powers because they place judicial
power in Congress); Hayburn’s Case, 2 U.S. (2 Dall.) 409,
410 (1792) (“[N]o judicial power of any kind appears to be
vested [in the legislature], but the important one relative
to impeachments.”).
In the context of an impeachment inquiry, the
House serves as a kind of grand jury, investigating
public officials for misconduct. As Hamilton noted, the
“delicacy and magnitude of [this] trust” transforms the
House into a “NATIONAL INQUEST.” The Federalist
No. 65, at 338. The Senate acts as a “court for the trial of
impeachments,” exercising the “awful discretion which a
court of impeachments must necessarily have, to doom to
honour or to infamy the most confidential and the most
distinguished characters of the community.” Id. at 339.
Trial by the Senate in cases of impeachment is part of
the “judicial character of the Senate.” Id. at 337; see also
Jefferson’s Manual of Parliamentary Practice § 619 (“The
trial, though it varies in external ceremony, yet differs not
in essentials from criminal prosecutions before inferior
courts.”). The Constitution requires senators trying an
impeachment to be on “Oath or Affirmation” and for
the Chief Justice to preside when the President is tried;
conviction requires “two thirds of the Members present.”
U.S. Const. art. I, § 3, cl. 6. The Constitution refers to
“Judgment in Cases of Impeachment.” U.S. Const. art.
I, § 3, cl. 7.

94a
Appendix A
As an exercise of judicial power, the impeachment
process targets the individual. The Constitution’s
text confirms this understanding: “no Person shall be
convicted,” and “the Party convicted” shall be liable
according to the law. U.S. Const. art. I, § 3, cls. 6-7. “The
President, Vice President, and all civil Officers of the
United States” are subject to impeachment. U.S. Const.
art. II, § 4. Article I makes clear that in this role, the
Senate acts as a court trying impeachable offenses and
renders judgment that could result in removal from office
and disqualification from holding any “Office of honor,
Trust, or Profit under the United States.” U.S. Const. art.
I, § 3, cl. 6. The impeachable offenses enumerated in the
Constitution specifically target individual wrongdoing,
namely “Treason, Bribery, or other high Crimes and
Misdemeanors.” U.S. Const. art. II, § 4; see also The
Federalist No. 65, at 339 (observing the Senate was the
only body with “confidence enough in its own situation,
to preserve, unawed and uninfluenced, the necessary
impartiality between an individual accused, and the
representatives of the people, his accusers”).
The Founders treated impeachable offenses as
wholly distinct from the subjects of investigation for
legislative purposes, such as maladministration. The
exact phrasing of an impeachable offense was debated
at the Philadelphia Convention. After the Convention
settled on “Treason, or bribery,” George Mason moved
to include “maladministration” as an additional ground
for impeachment. 2 Records of the Federal Convention
550 (Max Farrand ed., 1937). James Madison objected,
arguing that “[s]o vague a term will be equivalent to a

95a
Appendix A
tenure during pleasure of the Senate,” and Gouverneur
Morris argued that “[a]n election of every four years will
prevent maladministration.” Id. Conceding the point,
Mason withdrew “maladministration” and submitted
the text eventually enacted: “other high crimes &
misdemeanors.” Id. Thus, impeachment addresses a
public official’s wrongdoing—treason, bribery, and high
crimes or misdemeanors—while problems of general
maladministration are left to the political process.
In addition, impeachment by the House and trial by
the Senate were understood to include constitutional
rights normally afforded to the accused in a criminal trial.
After examining English, colonial, and early constitutional
practice, Justice Story concluded that the common law
rights of criminal defendants apply in the exercise of the
impeachment power. See 3 Joseph Story, Commentaries
on the Constitution of the United States § 796 (1833)
(“[I]n trials by impeachment the law differs not in
essentials from criminal prosecutions before inferior
courts. The same rules of evidence, the same legal notions
of crimes and punishments prevail.”); see also 3 Asher C.
Hinds, Hinds’ Precedents of the House of Representatives
§ 2486 (“Hinds”) (“In the prosecution of an impeachment,
such rules must be observed as are essential to justice;
and, if not exactly the same as those which are practiced
in ordinary courts, they must be analogous, and as nearly
similar to them as forms will permit.” (quoting Op. Att’y
Gen. of May 9, 1796)).
The Supreme Court has long recognized the enhanced
protections required by impeachment’s judicial function,

96a
Appendix A
even if such matters are generally not justiciable. See
Nixon v. United States, 506 U.S. 224, 238, 113 S. Ct. 732,
122 L. Ed. 2d 1 (1993) (concluding that judicial review
of impeachment procedures would be inconsistent with
the text and structure of the Constitution); Marshall v.
Gordon, 243 U.S. 521, 547, 37 S. Ct. 448, 61 L. Ed. 881
(1917) (noting that when the congressional contempt
power is “transformed into judicial authority” as when a
“committee contemplate[es] impeachment,” the authority
becomes “subject to all the restrictions and limitations
imposed by the Constitution”); Kilbourn, 103 U.S. at 190
(impeachment proceedings assume “the same manner”
and employ the “same means that courts of justice can
in like cases”).
Moreover, impeachment and removal ensu re
accountability to Congress but are not designed to give
Congress direct control over the executive branch. The
President is the head of a co-equal and independent branch
of government. The impeachment power raised concerns
for Gouverneur Morris and other Framers who feared “the
prospect of impeachment would make the chief executive
dependent upon the legislature.” Peter Hoffer & N.E.H.
Hull, Impeachment in America, 1635-1805, at 100 (1984);
see also The Federalist No. 65, at 341 (noting the risk of
“persecution of an intemperate or designing majority in
the House of Representatives”).
Because of the weighty responsibility of investigating
and trying public officers, “the Constitution structured
impeachment as a system of national accountability.” Akhil
R. Amar, America’s Constitution: A Biography 201 (2005).

97a
Appendix A
The Framers established a mechanism for Congress
to hold even the highest officials accountable, but also
required the House to take responsibility for invoking
this power. See 3 Annals of Cong. 903 (1793) (statement of
Rep. Smith) (describing the “solemnities and guards” the
impeachment process offers to public officers “accused of
a breach of duty”); H.R. Rep. No. 93-1305, at 182 (1974)
(describing the House’s “responsibility as representatives
of the people” in the Nixon impeachment process). By
vesting this visible and solemn power in one institution, the
Constitution forces the House to take accountability for its
actions when investigating the President’s misconduct. See
Michael J. Gerhardt, The Federal Impeachment Process:
A Constitutional and Historical Analysis 110 (1996)
(“[M]embers of Congress seeking reelection have a political
incentive to avoid any abuse of the impeachment power
. . . . [T]he cumbersome nature of the impeachment process
makes it difficult for a faction guided by base personal or
partisan motives to impeach and remove someone from
office.”); Julie R. O’Sullivan, The Interaction Between
Impeachment and the Independent Counsel Statute, 86
GEO. L.J. 2193, 2229-30 (1998) (“[E]lectoral accountability
is the ultimate check by which Congress’s abuse of its
otherwise externally unchecked power of impeachment
may be constrained.”).
In light of the text, structure, and original meaning,
the Constitution is best read to provide for impeachment
as the exclusive mechanism for Congress to investigate
the wrongdoing of the President and other impeachable
officials. See Kendall v. United States ex rel. Stokes, 37
U.S. (12 Pet.) 524, 610, 9 L. Ed. 1181 (1838) (“The executive

98a
Appendix A
power is vested in a President; and as far as his powers
are derived from the constitution, he is beyond the reach
of any other department, except in the mode prescribed
by the constitution through the impeaching power.”). It
would be wholly inconsistent with this exacting structure
and its explicit safeguards if Congress could target
unlawful actions by impeachable officials simply through
its legislative power, thereby encroaching on the Executive
without the processes, protections, and accountability of
impeachment.
B.
Because “the interpretive questions before us concern
the allocation of power between two elected branches of
Government,” Noel Canning, 573 U.S. at 524, I proceed to
consider the historical practice regarding congressional
investigations of the executive branch and executive
officials. Cf. Zivotofsky, 135 S. Ct. at 2084 (“To determine
whether the President possesses the exclusive power of
recognition the Court examines the Constitution’s text
and structure, as well as precedent and history bearing
on the question.”). While historical practice is relevant,
it does not alter the original meaning of the Constitution.
See McIntyre v. Ohio Elections Comm’n, 514 U.S. 334,
370, 115 S. Ct. 1511, 131 L. Ed. 2d 426 (1995) (Thomas, J.,
concurring in the judgment) (recognizing the concern with
overturning longstanding state practice, but concluding
that “the historical evidence from the framing outweighs
recent tradition”).

99a
Appendix A
With respect to Congress’s investigative powers,
the original meaning and historical practice align—all
three branches have consistently distinguished between
investigations for legislative purposes and investigations
targeting w rongdoing by an impeachable official.
Moreover, the historical evidence demonstrates that
Congress often begins an investigation into the executive
branch with general questions properly pertaining to
legislation; however, if an inquiry turns to suspicions of
criminality, Congress moves that part of the investigation
into impeachment or ends the inquiry into the impeachable
official. Thus, even a valid legislative purpose has never
been thought to justify probing specific accusations of
wrongdoing by impeachable officials. Exercising their
independent duty to interpret the Constitution, the
political branches have maintained that impeachment is
the exclusive mechanism for investigating impeachable
offenses. This historical practice reflects and reinforces
the Constitution’s text, structure, and original meaning,
and is consistent with the Supreme Court’s precedents.
1.
Founding Era practice confirms the Constitution’s
original meaning—investigations of unlawful actions
by an impeachable official cannot proceed through the
legislative power. For instance, in 1793 the House passed
a broad resolution to investigate the administration of
the Department of the Treasury. See 3 Annals of Cong.
835-40 (1793). Representative William Giles subsequently
introduced a string of resolutions alleging wrongdoing and
lawbreaking by Secretary Alexander Hamilton. Id. at 900

100a
Appendix A
(alleging, inter alia, “[t]hat the Secretary of the Treasury
has violated the law”). Responding to Representative
Giles’s resolution, Representative William Smith argued
that an investigation of whether “the Secretary violated a
law” could not proceed under the guise of “an investigation
of theoretic principles of Government.” Id. at 901. Instead,
the Constitution “directs” that Congress must confront
“great public functionaries . . . accused of a breach of duty”
through the impeachment process, with its attendant
“solemnities and guards.” Id. at 903; see also id. at 903-04
(statement of Rep. Murray); id. at 947-48 (statement of
Rep. Boudinot) (“[The Committee] were no longer acting
in a Legislative capacity, but were now exercising the
important office of the grand inquest of the Nation . . . .
The honor and reputation of the officer thus charged . . .
required a steady, uniform, and disinterested examination
of every question from us.”). Representative Giles’s
resolutions were decisively defeated. See id. at 955-63.
Similarly, in 1796 the House requested from
President George Washington documents and diplomatic
correspondence related to the Jay Treaty and its
ratification in order to determine whether to appropriate
the funds necessary to implement the Treaty. President
Washington argued that because the House could not
compel him to disclose the documents through an exercise
of its legislative powers, it could demand the documents
only through an exercise of its impeachment power: “It
does not occur that the inspection of the papers asked for
can be relative to any purpose under the cognizance of the
House of Representatives, except that of an impeachment;
which the resolution has not expressed.” See 5 Annals

101a
Appendix A
of Cong. 760-62 (1796). The House passed a resolution
disapproving of President Washington’s message, but
eventually appropriated the funds necessary to implement
the Treaty without receiving the papers it demanded from
the President. See id. at 1291.
Moreover, during the early years of the Republic, when
the House sought to target individual, official misconduct,
it proceeded through the impeachment power, not the
legislative power. In the high profile 1805 impeachment
of Associate Justice Samuel Chase, the investigation
into his misconduct proceeded unambiguously under the
impeachment power. See 3 Hinds §§ 2342-46. The House
specifically defined its role as that of a grand jury and
voted to authorize an impeachment investigation by a
committee vested with subpoena powers. See id. § 2342.7
One early impeachment illustrates the line between
general investigation and impeachment particularly well.
During an investigation of the “disposition of the funds
of the district court,” “the conduct of the judge of the
district had been somewhat implicated.” 32 Annals of
Cong. 1715-16 (1818) (discussing Judge William P. Van
Ness of the Southern District of New York). The Judiciary
Committee thought it improper to proceed under the
7. Congress conducted such investigations exclusively
through the impeachment power throughout the Founding Era.
See 3 Hinds §§ 2294-2302 (impeachment of Senator William
Blount, 1797); §§ 2319-23 (impeachment of Judge John Pickering,
1803); §§ 2364-67 (impeachment of Judge James Peck, 1830,
highlighting the importance of protections for the accused before
the Senate trial).

102a
Appendix A
existing resolution and sought specific authority from the
House to transfer from a legislative investigation to an
investigation of the judge’s “official conduct.” Id. After
such authority was granted, the Committee conducted
an impeachment inquiry and found no “ground for the
constitutional interposition of the House.” 3 Hinds § 2489.
Ignoring these Founding Era precedents, the majority
touches briefly on investigations for legislative purposes
that concerned only general maladministration. None of
the majority’s examples involve an allegation of individual
wrongdoing or unlawful activity by an impeachable officer.
Indeed, the majority’s examples help to demonstrate the
original understanding that such investigations proceed
exclusively through the impeachment power.
The majority begins with the House’s 1792 investigation
into the failure of the expedition under General Arthur
St. Clair in the Northwestern Territory. Maj. Op. 11.
This investigation did not single out any particular officer
for misconduct; instead, it was a general investigation
into “the causes of the late defeat of the army under the
command of Major-General St. Clair” and associated
problems of logistics and supply. 3 Hinds § 1725. The
investigation did not focus on General St. Clair, who
was in any event not an impeachable officer because the
impeachment power extends only to “civil Officers.” U.S.
Const. art. II, § 4. Rather, the House sought to study
the problems of execution in the expedition as a whole.
Furthermore, at the Washington Administration’s urging,
Congress amended its resolution of inquiry to disclaim any
intention of seeking private papers. See Thomas Jefferson,

103a
Appendix A
Memoranda of Consultations with the President (11 Mar.
to 9 Apr. 1792); 3 Hinds § 1726 (calling for papers only
“of a public nature”). Contrast this general investigation
with the investigation of Secretary Hamilton: when the
inquiry began to focus on whether Hamilton had violated
the law, the House insisted such inquiries could not
proceed through the ongoing legislative investigation.
The investigation of the St. Clair expedition never turned
toward an impeachable official, and therefore remained
within Congress’s legislative powers. See 3 Annals of
Cong. 490-94 (1792).
Similarly, the majority’s reference to Congress’s
investigation of the burning of Washington in 1814 offers
a useful example of the line maintained throughout
the Founding Era between general investigation and
impeachment. Maj. Op. 12. This legislative investigation
focused on the general causes of the military disaster
without targeting any individual officer. See Herman J.
Viola, “The Burning of Washington, 1814,” in Congress
Investigates: A Critical and Documentary History 41-45
(Roger A. Bruns et al. eds., 2011). The majority’s Founding
Era precedents thus buttress the rule that investigations
into the causes of maladministration may proceed under
the legislative power; however, the legislative power cannot
support an investigation into whether an impeachable
official has violated the laws. Such congressional inquiry
must proceed, if at all, through the impeachment process.

104a
Appendix A
2.
The Founding Era practice continued into the
Jacksonian Era. For example, in 1832, Representative
John Quincy Adams defeated a resolution seeking to
conduct a legislative investigation into charges of public
misconduct against a federal land commissioner. The
matter was referred to the House Judiciary Committee
after Adams argued that “[t]he resolution contained a
matter of charge against a public officer. Prima facie it
would lead to an expectation of an impeachment. It was
alike due to the character of the officer in question, and
to the reputation of the House, to investigate the matter
solemnly and effectually.” 8 Reg. Deb. 2198-99 (1832).
In 1836, the House appointed a select committee to
conduct a broad investigation of all departments of the
Jackson Administration, empowering the committee to
call for persons and papers. 3 Hinds § 1737. When the
Committee’s investigation focused on particular officials,
President Andrew Jackson intervened in protest of
the Committee’s “illegal and unconstitutional calls for
information.” Id. The President argued that he would
fully cooperate with an investigation conducted “in the
accustomed mode,” impeachment, but would not subject
himself to “the establishment of a Spanish inquisition.”
Letter from President Andrew Jackson to Rep. Henry
A. Wise, Chairman, H. Select Comm. (Jan. 26, 1837).
Chairman Wise resisted and submitted a resolution
disagreeing with the doctrine expounded by the President,
providing a rare contrary understanding of the scope of
the legislative power to investigate. But the Chairman’s

105a
Appendix A
position was soundly defeated by his committee, which
issued a report endorsing President Jackson’s position and
noting that the investigation amounted to charges “against
the individual officers for ‘corrupt violation’ of existing
laws.” 3 Hinds § 1740. The Committee further concluded
that “the only constitutional power under which the
House of Representatives, as a coordinate branch of the
Government, could constitute a committee to inquire into
alleged ‘corrupt violations of duty’ by another coordinate
branch of the Government (the Executive) is the ‘power
of impeachment.’” Id.
Indeed, Congress reaffirmed that it could not censure
President Jackson outside the context of impeachment.
After initially voting to censure, the Senate later
expunged the censure from the record on the grounds
that “President Jackson was adjudged and pronounced to
be guilty of an impeachable offence, and a stigma placed
upon him, as a violator of his oath of office, and of the
laws and constitution which he was sworn to preserve,
protect, and defend, without going through the forms of
an impeachment, and without allowing him the benefits of
a trial, or the means of defence.” 12 Reg. Deb. 878 (1836). 8
8. The majority asserts that “Presidents, too, have often
been the subject of Congress’s legislative investigations.” Maj.
Op. 15. Its one example from the Jacksonian Era, however, fails to
support its conclusion. The majority refers to the select committee
appointed to investigate former Representative Samuel Houston
and whether he received money from the Secretary of War with
the President’s knowledge. Id. at 15-16. Far from an investigation
of the President’s wrongdoing, this inquiry was part of a broader
investigation of Houston’s assault on a member of Congress for

106a
Appendix A
Presidents James Polk, Ulysses Grant, and Grover
Cleveland continued to vigorously defend the line between
legislative and impeachment investigations, maintaining
the latter included legal protections for the officer
accused. In 1846, the House formed a select committee to
investigate the possibility of impeaching Daniel Webster,
the former Secretary of State (and then-Senator), with
the power to send for papers. Cong. Globe, 29th Cong., 1st
Sess. 945 (1846). While the Select Committee conducted
its investigation, the House debated a resolution calling
for the State Department to produce documents tending
to incriminate Webster. Id. at 636. Some members argued
that only the duly authorized Select Committee could
make such a request. Id. at 636-43. Representative Adams
maintained that an impeachable official “may not be
reached by side-blows.” Id. at 641. The resolution passed,
but President Polk refused to turn over the requested
documents because the resolution did not clearly spell out
Congress’s intent to obtain the documents pursuant to its
impeachment power.
President Polk emphasized, however, that he would
fully cooperate with a duly authorized impeachment
investigation. See 2 Hinds § 1561 (“[T]he power of
statements made on the floor. The Committee Report never
mentions the President, nor does it indicate the Committee took
any steps to investigate the President. See 2 Hinds §§ 1616-19; 8
Reg. Deb. 2591-92 (1832) (context of inquiry); id. at 2595 (thenRep. Polk proposing inquiry); id. at 2853 (need for resolution was
to determine veracity of statement made on floor that provoked
Houston’s attack); id. at 3022-33 (resolution forming select
committee).

107a
Appendix A
impeachment belongs to the House of Representatives,
and that with a view to the exercise of this power, that
House has the right to investigate the conduct of all public
officers under the government.” (quoting President James
K. Polk, Message to the House of Representatives, April
20, 1846)). The Select Committee “entirely concur[red]
with the President of the United States” and his decision
not to “communicate or make public, except with a view
to an impeachment” the document sought. Cong. Globe,
29th Cong. 1st Sess. 946-48, 988 (1846); see also H.R.
Rep. No. 29-684, at 4 (1846). The House approved the
Select Committee’s proposal and took no further action
on the matter. See 2 George Ticknor Curtis, The Life of
Daniel Webster 283 (1870). President Polk and the House
agreed that the House may call for documents seeking
evidence of a public officer’s wrongdoing only pursuant
to an impeachment investigation.9
This issue was raised again by the 1860 House
Select Committee to Investigate Alleged Corruptions in
Government (“Covode Committee”) when it investigated
“whether the President of the United States, or any other
officer of the Government, has, by money, patronage, or
other improper means, sought to influence the action of
Congress.” 2 Hinds § 1596. President Buchanan protested
9. Presidents adhered to this position throughout the
Nineteenth Century without pushback from Congress. See, e.g.,
17 Cong. Rec. 1903 (1886) (statement of President Cleveland) (“I
am also led unequivocally to dispute the right of the Senate, by
the aid of any documents whatever, or in any way save through the
judicial process of trial on impeachment, to review or reverse the
acts of the Executive in the suspension . . . of Federal officials.”).

108a
Appendix A
the attempt to circumvent the impeachment process, noting
that while the House has the “wholesome prerogative”
of examining administration of the departments of the
government:
Should [the House] find reason to believe in the
course of their examinations that any grave
offense had been committed by the President . . .
rendering it proper, in their judgment, to resort
to impeachment, their course would be plain.
They would then transfer the question from
their legislative to their accusatory jurisdiction,
and take care that . . . the accused should enjoy
the benefit of cross-examining the witnesses
and all the other safeguards with which the
Constitution surrounds every American citizen.
President James Buchanan, Addendum to March 28
Message to Congress (June 22, 1860). The House asserted
its power to investigate generally, but issued no subpoena
seeking evidence of unlawful conduct by the President.
See 2 Hinds § 1596; 3 Hinds § 1683.
Even the Civil War and Reconstruction Congresses,
which strongly asserted congressional power, adhered
to the distinction between investigations for legislative
purposes and investigations of illegal conduct by an
impeachable official. For example, the Joint Committee
on the Conduct of the War harangued non-impeachable
military officers and articulated broad theories of
congressional power, but never issued compulsory process
to the President or sought to determine if particular

109a
Appendix A
civil officers violated the law. See generally Elizabeth
Joan Doyle, “The Conduct of the Civil War, 1861-65” in
Congress Investigates at 160-89. The majority’s reference
to the Harpers Ferry investigation, Maj. Op. 12, similarly
misses the mark because that investigation never focused
on the unlawful conduct of an impeachable official, but
instead sought facts about the raid generally in order to
determine whether legislation was necessary. See Roger
A. Bruns, “John Brown’s Raid on Harpers Ferry, 185960” in Congress Investigates at 127-28.
The impeachment of President Andrew Johnson
demonstrates the strength of the rule against using
legislative inquiries to circumvent the impeachment
process. The House rebuffed early attempts to initiate
an inquiry into President Johnson’s wrongdoing under
the auspices of an investigation into the executive
branch’s administration. See Michael Les Benedict, “The
Impeachment of President Andrew Johnson, 1867-68”
in Congress Investigates at 263-64. While a minority of
representatives would have favored using the legislative
power to address President Johnson’s abuses, “the tedious
job of taking testimony and searching through documents”
did not begin until after a formal impeachment process
was initiated. Id.; see also 3 Hinds §§ 2399-2400.
President Grant maintained the line against aggressive
congressional requests in the midst of Reconstruction. The
House requested detailed information regarding President
Grant’s whereabouts while performing executive functions
to determine whether the President was in violation of
the Act of 16 July 1790, which established the District of

110a
Appendix A
Columbia as the seat of government. See 3 Hinds § 1889.
President Grant refused to comply with the request on
separation of powers grounds. See 4 Cong. Rec. 29993000 (1876). As he explained, the investigation did not
“belong to the province of legislation,” nor did it bear
on any impeachment proceeding. Id. He therefore felt
obliged under the Constitution to refuse the request in
order to prevent “encroachments upon the proper powers
of the office which the people of the United States have
confided to me.” Id.; see also 3 Hinds § 1889 (“What the
House of Representatives may require as a right in its
demand upon the Executive for information is limited to
what is necessary for the proper discharge of its powers
of legislation or of impeachment.”). The House took no
further action. See 3 Hinds § 1889.
In the 1879 investigation of United States Consul
George Seward, the House again reaff irmed the
separation between leg islative and impeachment
investigations. Acting under its legislative authority,
the House Committee on Expenditures in the State
Department attempted to hold Seward in contempt for
failing to comply with a subpoena seeking certain official
papers. Id. § 1699. Seward argued that the Committee was
not authorized to conduct an impeachment inquiry and
could not investigate his alleged misconduct pursuant to
the legislative power. Agreeing with Seward, the House
referred the matter to the Judiciary Committee. Id. The
Judiciary Committee’s report “distinguished[ed] this case
from the case of an ordinary investigation for legislative
purposes,” and held that the Committee on Expenditures
had acted beyond its legislative powers by attempting to
circumvent the protections of the impeachment process:

111a
Appendix A
The Executive is as independent of either House
of Congress as either House of Congress is
independent of him, and they cannot call for the
records of his action or the action of his officers
against his consent, any more than he can call
for any of the journals or records of the House
or Senate.
Id. §§ 1700, 2514. The Judiciary Committee maintained
that the House had no right to issue compulsory process
against the executive branch outside the impeachment
process.10
3.
Continuing into the Twentieth Century, presidents
have been vigilant against congressional attempts to
circumvent the impeachment process. In 1909, the Senate
attempted to subpoena documents from the Attorney
General regarding the Department of Justice’s failure to
act against U.S. Steel Corporation. President Theodore
Roosevelt refused to comply, so the Senate subpoenaed
the Commissioner of Corporations, an officer within
the Department of Commerce and Labor, for the same
documents. See Commissioner of Corporations—Right
of Senate Committee to Ask for Information, 27 Op.
10. The Judiciary Committee recognized that Seward could
not be compelled to produce either private or public papers.
His private papers were protected by the right against selfincrimination and his title to his private property, which could
not be collaterally stripped by Congress. As for public papers, the
Committee recognized them as within the province of executive
privilege. 3 Hinds §§ 1700, 2514.

112a
Appendix A
Att’y Gen. 150 (1909). After ordering the Commissioner
to withhold the documents, the President informed the
Senate that he would turn over the documents only if the
Senate was acting in its capacity as an impeachment court.
See History of Refusals by Executive Branch Officials
to Provide Information Demanded by Congress, 6 Op.
O.L.C. 751, 769 (1982) (citing Edward S. Corwin, The
President: Office and Powers 429-30 (1957)). The Senate
took no further action.11
Investigations of Secretary of the Treasury Andrew
Mellon similarly demonstrate the executive branch’s
resistance to releasing documents demanded for
legislative purposes in relation to an impeachable official’s
wrongdoing. In 1925, President Calvin Coolidge refused
to hand over Mellon’s tax returns to a Senate committee
tasked with a legislative investigation of the Bureau
of Internal Revenue, noting that “the attack which is
being made on the Treasury Department goes beyond
any . . . legitimate requirements.” 65 Cong. Rec. 608788 (1924).12 In 1929, the Senate Judiciary Committee
11. President Roosevelt’s handling of the matter was recorded
by his personal aide: “I told [Senator Clark] that the Senate should
not have those papers and that [the Commissioner] turned them
over to me. The only way the Senate or the committee can get those
papers now is through my impeachment.” Archibald Willingham
Butt & Lawrence F. Abbott, The Letters of Archie Butt, Personal
Aide to President Roosevelt 305-06 (1924).
12. Congress did not attempt to enforce the subpoena in court
but instead engaged in negotiations with the executive branch,
which resulted in a compromise and Congress passing legislation
regarding the disclosure of tax returns. See George K. Yin, James

113a
Appendix A
investigated Mellon’s alleged violations of financial
conflicts of interest laws. The Committee determined
it did not have the power to issue compulsory process
because “it would be a judicial inquiry and [] not in aid
of any legislative function of the Senate” and could be
reached only through “duly instated criminal proceedings
or impeachment proceedings originating in the House of
Representatives.” S. Rep. No. 71-7, at 3 (1929). In 1932, the
House Judiciary Committee was authorized to conduct a
formal impeachment investigation, with subpoena power,
into the same allegations of Mellon’s alleged lawbreaking.
3 Deschler’s Precedents, Ch. 14, § 14.1 (“Deschler”).13
4.
In the modern era, Congress has investigated
allegations of illegal conduct by Presidents Richard
Nixon, Ronald Reagan, and Bill Clinton. The majority
cites these as examples of presidents being “the subject
of Congress’s legislative investigations.” Maj. Op. 1618. Contrary to the majority’s characterization, these
investigations reinforce that Congress may launch
Couzens, Andrew Mellon, the ‘Greatest Tax Suit in the History
of the World,’ and Creation of the Joint Committee on Taxation
and Its Staff, 66 Tax L. Rev. 787, 857 (2013).
13. The majority’s citation to the Pearl Harbor investigation,
Maj. Op. 16, is of limited value, as President Franklin Roosevelt
passed away on April 12, 1945, nearly five months before Congress
authorized the investigation on September 6, 1945, placing the
former President beyond the reach of Congress’s subpoena power.
See Wayne Thompson, “The Pearl Harbor Committee, 1945-46”
in Congress Investigates at 670.

114a
Appendix A
legislative investigations into administration generally,
including the President’s involvement in discretionary
decisionmaking and purported scandals, but when
wrongdoing by the President is targeted or uncovered
the House transfers allegations of such conduct to an
impeachment inquiry.
For example, the congressional inquiry into the breakin at the Democratic National Committee’s headquarters
in the Watergate Hotel began with the creation of a
Senate Select Committee to investigate the incident and
determine whether new legislation on electoral safeguards
might be needed. See S. Res. 60, 93d Cong. § 1(a) (1973).
The inquiry centered on whether any actions—“illegal,
improper, or unethical”—took place, but the inquiry did not
target any specific persons. Id. President Nixon initially
rebuffed the Select Committee’s informal requests for
information. See Letter from President Richard M. Nixon
to Sen. Sam J. Ervin Jr., Chairman, Sen. Select Comm.
on Presidential Campaign Activities (July 6, 1973). The
Committee, acting pursuant to its legislative power, later
issued two subpoenas to the President. Those subpoenas
were eventually quashed by this court. See Senate Select,
498 F.2d at 733.14

14. When the Supreme Court upheld the grand jury request
for President Nixon’s tapes, it specifically confined its decision
to the context of criminal investigations and noted it was not
concerned with how these issues might be resolved in the context of
“congressional demands for information.” United States v. Nixon,
418 U.S. 683, 712 n.19, 94 S. Ct. 3090, 41 L. Ed. 2d 1039 (1974).

115a
Appendix A
While litigation was pending, the House Judiciary
Committee determined that the evidence gathered
through both the Senate and special counsel investigations
had shifted the focus so heavily toward allegations of
wrongdoing by President Nixon that a formal impeachment
investigation was necessary to proceed any further:
We have reached the point when it is important
t hat t he House e x pl ic it ly con f i r m ou r
responsibility under the Constitution.
We are asking the House of Representatives,
by this resolution, to authorize and direct the
Committee on the Judiciary to investigate the
conduct of the President of the United States,
to determine whether or not evidence exists
that the President is responsible for any acts
that in the contemplation of the Constitution
are grounds for impeachment . . . .
[W]e are asking the House to give the Judiciary
Committee the power of subpoena in its
investigations. Such a resolution has always
been passed by the House. . . . It is a necessary
step if we are to meet our obligations.
3 Deschler Ch. 14, § 6.2. Only after the House passed
a resolution explicitly invoking its authority under
the impeachment power did the Judiciary Committee
subpoena the President. See H.R. Res. 803, 93d Cong.
(1974); H.R. Rep. No. 93-1305, at 6 (1974).

116a
Appendix A
The House Judiciary Committee took responsibility
for commencing an impeachment investigation and
thereafter accorded robust procedural protections to
ensure that documents obtained in the course of that
process remained confidential. H.R. Rep. No. 93-1305, at
8-9. The Committee also determined that the President
must comply only with subpoenas issued “relative to the
impeachment inquiry.” 3 Deschler Ch. 14, § 6.12. Notably,
one of the grounds in the resulting articles of impeachment
was President Nixon’s failure to comply with subpoenas,
but only those issued after formal authorization of the
impeachment investigation. Id. § 15.13. The majority
neglects this institutional history and focuses only on the
Select Committee’s unsuccessful attempt to subpoena
the President for legislative purposes. Maj. Op. 17-18.
In the 1970s, as in the 1790s, the House recognized the
importance of invoking the impeachment power when
an investigation shifts from a legislative inquiry to an
investigation of the illegal action of an impeachable official.
Regarding the Iran-Contra Affair in 1987, the
majority asserts that the House committee established
to inquire into illegal arms sales to Iran to finance
Nicaraguan rebels sought to “investigate . . . the role of the
President” in those events. Id. at 16. This misrepresents
the broad scope of the investigation, which inquired into
whether and how the National Security Council staff and
other agency officials were involved. The House resolution
forming the Select Committee to Investigate Covert Arms
Transactions with Iran refers to the President only in
relation to assessing the need for legislation regarding
“authorization and supervision or lack thereof of the

117a
Appendix A
matters in this section by the President and other White
House personnel.” H.R. Res. 12, 100th Cong. § 1(e) (1987).
The corresponding Senate resolution does not mention
the President at all. See S. Res. 23, 100th Cong. (1987).
Reflecting the general focus on the process of national
security decisionmaking, the joint report issued by the
House and Senate select committees sought to “explain
what happened in the Iran-Contra Affair” rather than
target the actions of any individual official. H.R. Rep.
No. 100-433, at xv-xvi (1987). The Committees obtained
over one million pages of documents, in part through
subpoenas, but only accessed the President’s personal
papers through his voluntary cooperation.
Similarly, the majority mischaracterizes the lessons of
Congress’s investigation of the Whitewater Development
Corporation and the eventual impeachment trial of
President Clinton. Congressional involvement began
several years after a United States Attorney forwarded a
criminal investigation of the failure of Madison Guaranty
Savings and Loan Association to the Department of
Justice and, ultimately, an independent counsel. From
1994 to 1998, various House and Senate committees
gathered facts on Madison Guaranty’s failure and whether
agencies and administration officials cooperated with
the independent counsel. See S. Res. 120, 104th Cong.
(1995). The committees investigated with a wide lens,
but stopped well short of targeting offenses by particular
officers. See, e.g., S. Rep. No. 104-191, at 1-3 (1995).
Then-Governor Clinton’s involvement in Whitewater was
parsed in relation to public ethics, good governance, and
the regulation of financial institutions. See The Failure

118a
Appendix A
of Madison Guaranty Savings and Loan Association
and Related Matters: Hearing Before the H. Comm. on
Banking and Fin. Servs., 104th Cong. 1-5 (1995) (opening
statement of Rep. James A. Leach, Chairman) (purpose of
Whitewater hearings was to “shed light on the character
of modern political leadership rather than simply spotlight
flaws in a particular leader; . . . [and] to draw lessons
for oversight of our banking laws rather than simply
critique what went wrong with one institution”). While
the President received subpoenas from the independent
counsel, other federal investigators, and a federal grand
jury, the majority points to no examples of either house
of Congress issuing a subpoena to the President prior to
impeachment.
Once President Clinton’s alleged misconduct became
the target, the House, citing much of the history discussed
above, formally invoked the impeachment power. See H.R.
Rep. No. 105-795, at 24 (1998) (“Because impeachment is
delegated solely to the House of Representatives by the
Constitution, the full House of Representatives should
be involved in critical decision making regarding various
stages of impeachment.”). The House proceeded to a full
floor vote to authorize an impeachment inquiry. See H.R.
Res. 581, 105th Cong. (1998) (authorizing the Judiciary
Committee to subpoena persons and things).
The House also declined to issue a censure resolution
because it would circumvent the Impeachment and Bill
of Attainder Clauses. See H.R. Rep. No. 105-830, at 137
(1998) (“[F]or the President or any other civil officer,
censure as a shaming punishment by the legislature is
precluded by the Constitution, since the impeachment

119a
Appendix A
provisions permit Congress only to remove an officer . . .
and disqualify him from office. Not only would [censure]
undermine the separation of powers by punishing the
President . . . in a manner other than expressly provided for
in the Constitution, but it would violate the Constitution’s
prohibition on Bills of Attainder.”).
***
The text, structure, and orig inal meaning of
the Constitution are best understood to provide for
impeachment as the exclusive mechanism for Congress
to investigate the illegal conduct of the President and
other impeachable officials. The majority presents
no evidence from the Constitution, our cases, or the
consistent interpretation of the political branches to refute
these conclusions. From the Founding to the present,
interactions between the political branches demonstrate
a consistent practice that confirms the original meaning
regarding the separation of the legislative and judicial
powers of the House. The Constitution and our history
reinforce several principles. First, the House cannot
investigate the illegal conduct of an impeachable officer
pursuant to the legislative power. Second, the investigation
of the illegal conduct of an impeachable officer can be
pursued only under the impeachment power, which
transforms the House from a legislative body into the
grand inquest of the nation and affords procedural and
constitutional protections to the accused. Third, the
House may not circumvent the weighty accountability of
the impeachment process simply by proceeding through
a legislative investigation.

120a
Appendix A
III.
With these constitutional and historical principles
as guideposts, I reach the question at hand: whether the
Committee’s subpoena is a valid exercise of the legislative
power. I examine the subpoena and conclude that it
seeks to investigate illegal conduct of the President by
reconstructing past actions in connection with alleged
violations of ethics laws and the Emoluments Clauses.
Such an inquiry exceeds Congress’s legislative power. The
remedial legislative purposes offered by the Committee
might authorize any number of other investigations, but
cannot authorize this subpoena, which seeks to determine
whether the President violated the law. Moreover, this
subpoena represents an unprecedented assertion of
legislative power and is readily distinguished from our
previous cases. Neither the Constitution, nor longstanding
interpretation by all three branches, supports the
majority’s conclusion, which upholds—for the first time—a
targeted investigation of the President’s alleged unlawful
conduct under the legislative power.
A.
As the above history makes clear, the House’s legislative
and judicial powers are wholly distinct and the House
cannot target conduct that could constitute a high crime
or misdemeanor through the legislative power. Discerning
the line between the legislative and impeachment powers
does not require a search for the Committee’s motives
because the Committee has emphasized repeatedly and
candidly its interest in investigating allegations of illegal

121a
Appendix A
conduct by the President. In general, courts properly
refrain from questioning legislative motive when assessing
the legitimacy of congressional investigations, accord
Maj. Op. 22, but this does not excuse us from the judicial
duty to assure Congress is acting “in pursuance of its
constitutional power.” Barenblatt v. United States, 360
U.S. 109, 132, 79 S. Ct. 1081, 3 L. Ed. 2d 1115 (1959); see
also Eastland, 421 U.S. at 508-09 (upholding subpoenas
“about a subject on which legislation may be had”);
Watkins, 354 U.S. at 200 (“[M]otives alone would not
vitiate an investigation . . . if that assembly’s legislative
purpose is being served.”). An inquiry into motive involves
looking behind the stated reasons for a Committee’s
actions. In the Committee’s investigation, however, the
“suspicions of criminality” are quite clearly articulated
in the subpoena, the Cummings Memorandum, and other
documents: the Committee seeks evidence of alleged
unlawful actions by the President. See Shelton, 404 F.2d
at 1297 (noting that sources for determining “[t]he object
of the particular inquiry” include “the resolution of the
Congress authorizing the inquiry,” “the opening statement
of the Chairman,” and “statements of the members of
the committee” (citing Watkins, 354 U.S. at 209)); see
also Barenblatt, 360 U.S. at 117 (“[T]he nature of the
proceedings themselves, might sometimes make the topic
(under inquiry) clear.” (quoting Watkins, 354 U.S. at 209)).
First, and most overtly, the subpoena seeks to
uncover “whether the President may have engaged in
illegal conduct before and during his tenure in office.”
Cummings Memorandum at 4. This inquiry relates in part
to unofficial wrongdoing—i.e., events that occurred before

122a
Appendix A
President Trump’s tenure in office—but also to actions
during his tenure in office. The investigation specifically
targets the President. It is not about administration of the
laws generally or the President’s incidental involvement
in or knowledge of any alleged unlawful activity within
the executive branch. Instead the topics of investigation
exclusively focus on the President’s possible engagement
in “illegal conduct.”
Second, the subpoena seeks to help the Committee
understand “whether [the President] has undisclosed
conflicts of interest that may impair his ability to make
impartial policy decisions.” Id.; see also Appellee Br. 32
(“These documents may illuminate whether and to what
extent [President] Trump misrepresented his liabilities
on federal disclosure forms and has undisclosed conflicts
of interest.”). Again, this inquiry seeks to uncover alleged
wrongdoing—undisclosed conflicts of interest may violate
the statutory reporting requirements applicable to the
President. See Appellee Br. 33 (“[E]xposing conflicts
of interest is one of the core objectives of the Ethics in
Government Act.” (quoting Trump v. Comm. on Oversight
& Reform, 380 F. Supp. 3d 76, 95 (D.D.C. 2019))).
Third, the subpoena seeks to investigate “whether
[the President] is complying with the Emoluments Clauses
of the Constitution.” Cummings Memorandum at 4; see
also Appellee Br. 34-35 (discussing “[t]he Oversight
Committee’s related investigations into [President]
Trump’s potential violations of the Emoluments Clauses”).
On the Committee’s own terms, it is investigating whether
the President is in violation of the constitutional bar on
public officials “accept[ing] . . . any present, Emolument,

123a
Appendix A
Office, or Title.” U.S. Const. art. I, § 9, cl. 8 (Foreign
Emoluments Clause); see also U.S. Const. art. II, § 1,
cl. 7 (Domestic Emoluments Clause). Quite simply the
Committee seeks information about whether the President
is violating the Constitution.
Fourth, the Committee seeks to inquire about
“whether [the President] has accurately reported his
finances to the Office of Government Ethics and other
federal entities.” Cummings Memorandum at 4; see also
Appellee Br. 31 (“[The Committee’s] investigations include
. . . whether [President] Trump . . . submitted inaccurate
financial disclosure forms to the Ethics Office.”). Again,
the Committee seeks to uncover whether the President
has violated the law in his official capacity—namely, the
Ethics in Government Act of 1978, 5 U.S.C. app. 4 § 101 et
seq., which imposes financial disclosure requirements on
the President. The Committee’s jurisdiction includes the
authority to conduct oversight of the Office of Government
Ethics and how it implements various ethics requirements
for federal officials. See Letter from Appellee Regarding
Oral Argument Matter at 3-4 (July 16, 2019) (asserting
that the Oversight Committee has jurisdiction over
the Ethics in Government Act under House Rule X,
cl. 1(n)(1)). Yet this particular inquiry is not about the
administration of the Office of Government Ethics or of
the laws it administers, but rather about reconstructing
suspected violations of ethics laws by the Chief Executive.
The Committee seeks information about past transactions
related to the President’s financial reporting—which,
if found inaccurate or incomplete, may carry civil and
criminal penalties. See 5 U.S.C. app. 4 § 104(a).

124a
Appendix A
T he fou r i nqu i r ies st at ed i n the Cu m m i ng s
Memorandum are more than political flourish—they
unambiguously set out the nature of this investigation.
These inquiries are repeated throughout statements and
letters of the Chairman on behalf of the Committee. See,
e.g., Letter from Rep. Elijah E. Cummings, Chairman,
H. Comm. on Oversight and Reform, to Pat Cipollone,
Counsel to the President (Jan. 8, 2019) (request for
“documents related to President Trump’s reporting of
debts and payments to his personal attorney, Michael
Cohen”); Letter from Rep. Elijah E. Cummings,
Chairman, H. Comm. on Oversight and Reform, to Emory
A. Rounds III, Director of Office of Gov’t Ethics (Jan.
22, 2019) (request for “documents relating to President
Donald Trump’s reporting of debts and payments to
his personal attorney, Michael Cohen, to silence women
alleging extramarital affairs”); Letter from Rep. Elijah
E. Cummings, Chairman, H. Comm. on Oversight and
Reform, to Pat Cipollone, Counsel to the President (Feb.
15, 2019) (demanding answers to “significant questions
about why some of the President’s closest advisors made
[] false claims [about alleged payments] and the extent
to which they too were acting at the direction of, or in
coordination with, the President”); Letter from Rep. Elijah
E. Cummings, Chairman, H. Comm. on Oversight and
Reform, to Victor Wahba, Chairman and Chief Executive
Officer, Mazars USA, LLP (Mar. 20, 2019) (request for
documents citing accusation by Cohen that “President
Trump changed the estimated value of his assets and
liabilities on financial statements . . . including inflating or
deflating the value of assets depending on the purpose for
which he intended to use the statements”). The Cummings

125a
Appendix A
Memorandum also relies on the February 27, 2019, hearing
testimony of Michael Cohen, Cummings Memorandum at
1-2, during which the Chairman and Oversight Committee
members repeatedly invoked allegations of criminality by
the President. See Appellant Br. 7-8 (collecting statements
from Cohen hearing). In this subpoena, the Committee
has made clear that it seeks to investigate illegal conduct
of the President. Indeed, the majority acknowledges that
the Committee has an “interest in determining whether
and how illegal conduct has occurred.” Maj. Op. 30.
The subpoena itself focuses on information that closely
tracks the Committee’s stated object of investigating
illegal conduct. It seeks, “with respect to Donald J.
Trump” and his organizations, “[a]ll memoranda, notes,
and communications” and “[a]ll underlying, supporting,
or source documents and records” relating to multiple
categories of financial statements going back to 2011, as
well as “all engagement agreements or contracts” “without
regard to time.” In addition, the subpoena specifically
demands “all communications” between President Trump
and his accountants and “all communications related
to” any “potential concerns” that President Trump’s
records “were incomplete, inaccurate, or otherwise
unsatisfactory.”
The subpoena thus seeks to recreate, in exhaustive
detail, the exact processes, discussions, and agreements
that went into preparing the President’s financial records
over a multi-year period in order to determine whether
there is anything misleading or problematic in those
records. Such requests are akin to a criminal grand jury

126a
Appendix A
subpoena, designed to “inquire into all information that
might possibly bear on [the] investigation until it has
identified an offense or has satisfied itself that none has
occurred.” United States v. R. Enters., Inc., 498 U.S. 292,
297, 111 S. Ct. 722, 112 L. Ed. 2d 795 (1991). By contrast,
“legislative judgments normally depend more on the
predicted consequences of proposed legislative actions .
. . than on precise reconstruction of past events.” Senate
Select, 498 F.2d at 732.
Moreover, the Committee’s litigating position in this
case continues to emphasize the importance of the four
inquiries, each of which target the President’s alleged
wrongdoing and potential violations of statutes and the
Constitution: “The Oversight Committee is investigating
whether [President] Trump inaccurately represented
liabilities on his statutorily mandated financial disclosures,
impermissibly benefited from a lease with a government
agency, and violated the Constitution.” Appellee Br. 44;
see also id. at 8-17, 21, 22-23, 31-35, 42, 44-45. Thus, we
need not peer behind the curtain to find the Committee’s
suspicions of wrongdoing—the Committee has explicitly
and consistently avowed the purpose of investigating
alleged illegal activities of the President.
The Committee also offers a legislative purpose. The
Cummings Memorandum concludes with the statement
that “[t]he Committee’s interest in these matters
informs [the Committee’s] review of multiple laws and
legislative proposals under [its] jurisdiction.” Cummings
Memorandum at 4; see also Letter from Rep. Elijah
E. Cummings, Chairman, H. Comm. on Oversight and

127a
Appendix A
Reform, to Pat Cipollone, Counsel to the President (Feb.
15, 2019) (“Congress has investigated how existing laws
are being implemented and whether changes to the laws
are necessary.”). Thus, even though the legislative purpose
appears in a single sentence, the Committee states a double
purpose—to investigate “criminal conduct by [President]
Trump” and also to pursue remedial legislation relating
to government ethics. Appellee Br. 44.
Given the broad power to investigate in aid of
legislation, remedial legislative purposes will often be
sufficient to uphold an investigation and accompanying
subpoena. See Quinn, 349 U.S. at 160-61 (investigative
power co-extensive with legislative power). The majority
finds the Committee’s assertion of a legislative purpose
sufficient because “[s]uch an ‘express avowal of the
[Committee’s] object’ offers strong evidence of the
Committee’s legislative purpose.” Maj. Op. 26 (quoting
McGrain, 273 U.S. at 178). “The Committee’s interest in
alleged misconduct, therefore, is in direct furtherance
of its legislative purpose.” Id. at 31. In other words,
the majority acknowledges that the Committee seeks
to investigate illegal conduct of the President, but then
states it is “even more important” that the Committee is
seeking to “review multiple laws and legislative proposals
under [its] jurisdiction.” Id. at 26 (quoting Cummings
Memorandum at 4). Because the Constitution provides
only one way for Congress to investigate illegal conduct
by the President, the mere statement of a legislative
purpose is not “more important” when a committee also
plainly states its intent to investigate such conduct. The
legislative power cannot support this subpoena.

128a
Appendix A
The majority ignores the essential constitutional
distinction between the different investigative powers
of Congress and turns longstanding practice on its head
by concluding dismissively that “we can easily reject the
suggestion that this rationale [of investigating whether
the ‘President may have engaged in illegal conduct’] spoils
the Committee’s otherwise valid legislative inquiry.” Id. at
29. The valid legislative inquiry is not entirely spoiled—
the Committee’s inquiry into legislative proposals
may continue in any number of legitimate directions.
Yet the Committee’s specific investigation targeting
the President, if it is to continue, may be pursued only
through impeachment. Since the Republic’s beginning, the
President, Congress, and the courts have recognized that
when Congress seeks to investigate individual suspicions
of criminality against the President (or other impeachable
officials), it cannot rely on its legislative powers. The
legislative power being more general and expansive, it
cannot trump, so to speak, the more specific impeachment
power, which is necessary for an investigation of the illegal
conduct of the President.
B.
This is the first time a court has recognized that a
congressional investigation pertains to “whether and
how illegal conduct has occurred,” Maj. Op. 30, but then
upholds that investigation under the legislative power.
The majority attempts to rely on our precedents to
justify this subpoena by focusing on whether it is an
impermissible exercise of “law enforcement” power. Id.
at 21-22 (responding to appellants). The majority relies

129a
Appendix A
on cases that deal with private citizens and problems of
administration—but a subpoena against the President
that investigates allegations of illegal conduct cannot be
shoehorned into this framework. A review of the cases
demonstrates the novelty of the majority’s holding.
The majority maintains that “an interest in past
illegality can be wholly consistent with an intent to
enact remedial legislation.” Id. at 29. To the extent the
precedents support this general principle, however, it has
been applied only in the context of private individuals.
It is well established that Congress cannot exercise the
executive or judicial powers, which are vested in the
other departments of the government. “[T]he power to
investigate must not be confused with any of the powers
of law enforcement; those powers are assigned under our
Constitution to the Executive and the Judiciary.” Quinn,
349 U.S. at 161. The Court made this general observation
with respect to private individuals, not impeachable public
officials. As far as private individuals are concerned,
Congress emphatically has no law enforcement powers—
no power to indict, to try, or to convict—and cannot
enact a bill of attainder that would single out a person for
punishment through legislation. U.S. Const. art. I, § 9,
cl. 3; art. I, § 10, cl. 1; see also Brown, 381 U.S. at 445-46
(“[T]he Legislative Branch is not so well suited as politically
independent judges and juries to the task of ruling
upon the blameworthiness of, and levying appropriate
punishment upon, specific persons. . . . By banning bills
of attainder, the Framers of the Constitution sought to
guard against such dangers by limiting legislatures to
the task of rule-making.”).

130a
Appendix A
The cases cited by the majority demonstrate that
during an investigation of private activity, the incidental
revelation of criminal activity is tolerated when Congress
has a legitimate legislative purpose,15 precisely because
Congress cannot take any action against a private
person for lawbreaking. In Hutcheson v. United States,
the Supreme Court permitted a Senate committee to
investigate the unlawful activity of a union president
despite the fact that, if any wrongdoing was uncovered,
the evidence might have “warranted a separate state
prosecution.” 369 U.S. 599, 617, 82 S. Ct. 1005, 8 L. Ed.
2d 137 (1962) (emphasis added). The union president was,
of course, not amenable to prosecution by Congress.
Similarly, in Sinclair v. United States, the Court allowed
a committee to question an oil executive, including on
matters pertaining to pending criminal proceedings
involving that executive. 279 U.S. 263, 290-91, 294-95,
49 S. Ct. 268, 73 L. Ed. 692 (1929). The proceedings
determining the oil executive’s liability or innocence,
however, were being conducted by an entirely separate
branch: the Article III judiciary.
15. Even when a valid legislative purpose exists, the Court
has been vigilant in guarding the constitutional rights of private
citizens. See Watkins, 354 U.S. at 198-99 (courts cannot “abdicate
the responsibility placed by the Constitution upon the judiciary
to insure that the Congress does not unjustifiably encroach upon
an individual’s right to privacy nor abridge his liberty of speech,
press, religion or assembly”); Quinn, 349 U.S. at 161; United States
v. Rumely, 345 U.S. 41, 44, 73 S. Ct. 543, 97 L. Ed. 770 (1953)
(“[W]e would have to be that ‘blind’ Court . . . not to know that there
is wide concern, both in and out of Congress, over some aspects of
the exercise of the congressional power of investigation.” (quoting
Child Labor Tax Case, 259 U.S. 20, 37, 42 S. Ct. 449, 66 L. Ed.
817, 1922-2 C.B. 337, T.D. 3346 (1922))).

131a
Appendix A
The Court has upheld some congressional investigations
that incidentally uncover unlawful action by private citizens
in part because private individuals cannot be punished by
Congress, but may be prosecuted by the executive branch
and then face trial before an independent judiciary. Cf.
Kilbourn, 103 U.S. at 182 (the Constitution requires that
prosecutions of private individuals proceed by “a trial in
which the rights of the party shall be decided by a tribunal
appointed by law, which tribunal is to be governed by
rules of law previously established”). The majority does
not explain why precedents about union presidents and
oil executives would apply to the President when the
Constitution provides a wholly separate mechanism for
Congress to impeach, to try, and, if convicted, to remove
the President from office.
Importantly, the majority does not cite a single case in
which the Court has upheld a congressional committee’s
investigation into the past illegality of an impeachable
official for a legislative purpose. In sharp contrast
to private individuals, Congress possesses not only
legislative but also judicial powers over officials amenable
to impeachment. This is a notable and important exception
to the separation of powers—vesting non-legislative
powers in the House and Senate for the limited purpose
of checking the actions of certain high officials. When a
legislative investigation turns toward the wrongdoing of
the President or any impeachable official, it has never been
treated as merely incidental to a legislative purpose. Such
investigations require the House to exercise the solemn
powers of the “NATIONAL INQUEST,” The Federalist
No. 65, at 338, with all of the procedural protections and
accountability that accompany the decision to target a
high official.

132a
Appendix A
Indeed, in the one case dealing with a subpoena to
the President for legislative purposes, our court did
not ask whether the Senate Select Committee had a
valid legislative purpose in investigating the events
surrounding the Watergate break-in. See Senate Select,
498 F.2d at 732 (“[T]he need for the tapes premised solely
on [Congress’s] asserted power to investigate and inform
cannot justify enforcement of the [Select] Committee’s
subpoena.”). We concluded instead that a legislative
purpose could not justify demanding the President’s
materials “in the peculiar circumstances of this case,
including the subsequent and on-going investigation of
the House Judiciary Committee.” Id. at 733. As our court
explained:
[T]he House Committee on the Judiciary has
begun an inquiry into presidential impeachment
....
The sufficiency of the [Select] Committee’s
show i ng of need ha s come t o dep end,
therefore, entirely on whether the subpoenaed
materials are critical to the performance of its
legislative functions. There is a clear difference
between Congress’s legislative tasks and the
responsibility of a grand jury, or any institution
engaged in like functions. While fact-finding
by a legislative committee is undeniably a part
of its task, legislative judgments normally
depend more on the predicted consequences of
proposed legislative actions and their political
acceptability, than on precise reconstruction of
past events.

133a
Appendix A
Id. at 732. Thus, we carefully distinguished legislative
tasks from grand jury or similar functions. When
the House had already authorized and was pursuing
impeachment proceedings, we found that the Senate
Select Committee’s legislative need was “too attenuated
and too tangential to its functions to permit a judicial
judgment that the President is required to comply with
the Committee’s subpoena.” Id. at 733.
Similarly here, the questions of illegal conduct and
interest in reconstructing specific financial transactions
of the President are “too attenuated and too tangential”
to the Oversight Committee’s legislative purposes. Id. The
parallels between our case and Senate Select continue to
unfold, as some type of “impeachment inquiry” against
the President has been invoked in the House. See, e.g.,
Letter from Rep. Adam B. Schiff, Chairman, H. Perm.
Select Comm. on Intelligence et al., to Rudolph Giuliani
(Sept. 30, 2019) (transmitting subpoena for the President’s
papers “[p]ursuant to the House of Representatives’
impeachment inquiry”).
Other cases involving congressional investigations
of public officials confirm the distinction between
impeachment and legislative purposes and demonstrate
the caution with which the Court has ensured Congress
is not pursuing impeachable offenses in a legislative
inquiry. For example, in McGrain, the Supreme Court
upheld an investigation of the Department of Justice only
after determining that there was no targeted inquiry into
unlawful action or allegations of impeachable offenses.
The Senate resolution sought information about “the
administration of the Department of Justice—whether its

134a
Appendix A
functions were being properly discharged or were being
neglected or misdirected, and particularly whether the
Attorney General and his assistants were performing or
neglecting their duties.” McGrain, 273 U.S. at 177. While
the resolution mentioned Attorney General Daugherty, the
Court emphasized that the Senate was not “attempting
or intending to try the Attorney General at its bar or
before its committee for any crime or wrongdoing.” Id. at
179-80. It was essential to the Court’s decision that the
investigation did not target the unlawful behavior of the
Attorney General. See id. at 178-80.
The majority draws a different “lesson” from McGrain:
“that an investigation may properly focus on one individual
if that individual’s conduct offers a valid point of departure
for remedial legislation.” Maj. Op. 31. The majority places
emphasis on the Court’s statement, “[n]or do we think it a
valid objection to the investigation that it might possibly
disclose crime or wrongdoing on [the Attorney General’s]
part.” McGrain, 273 U.S. at 179-80. Yet the Court also
stressed that Congress was not targeting the unlawful
behavior of an impeachable official and that “[i]t is not as
if an inadmissible or unlawful object were affirmatively
and definitely avowed.” Id. at 180. In McGrain, the Court
determined that the inquiry at issue was a legislative one,
and specifically did not target “crime or wrongdoing.”16 Id.
16. The Supreme Court in McGrain did not question the legal
principle articulated by the district court that to investigate the
illegal conduct of the Attorney General would be an exercise of
the judicial power. But see Maj. Op. 48 (contending the Supreme
Court rejected the district court’s reasoning in McGrain). Instead,
the Supreme Court simply disagreed with the district court’s

135a
Appendix A
Thus, the majority cannot rely on McGrain for its novel
holding that Congress can investigate illegal conduct of
an impeachable official pursuant to the legislative power.
Similarly, in Kilbourn, the Court invalidated a
subpoena against the Secretary of the Navy because it
lacked a legitimate legislative purpose, while noting that
“the whole aspect of the case would have been changed”
if the investigation related to impeachment. 103 U.S. at
193. No purpose of impeachment could be found, however,
from the preamble characterizing the Secretary of the
Navy’s conduct as “improvident.” Id. The Court concluded
that “the absence of any words implying suspicion of
criminality repel the idea of such [impeachment] purpose,
for the secretary could only be impeached for ‘high crimes
and misdemeanors.’” Id. In McGrain and Kilbourn, the
Court allows Congress some leeway in its legislative
investigations so long as it is not seeking to use the
legislative power to circumvent the impeachment process.
By contrast , the g ravamen of the O versight
Committee’s investigation in this case is the President’s
wrongdoing. The Committee has “affirmatively and
definitely avowed,” McGrain, 273 U.S. at 180, its
suspicions of criminality against the President. As we
recognized in Senate Select, such inquiries are outside the
characterization of the proceedings, which were not about the
wrongdoing of the Attorney General but the administration of
the Department of Justice as a whole. “[W]hen the proceedings
are rightly interpreted, [ ] the object of the investigation . . . was
to obtain information for legislative purposes.” McGrain, 273
U.S. at 177.

136a
Appendix A
legislative power in part because they pertain to subjects
proper to an impeachment proceeding in the House, which
like a grand jury must assess whether “certain named
individuals did or did not commit specific crimes.” 498
F.2d at 732. The majority’s conclusion is inconsistent
with our precedents, which confirm that investigations
of the illegal conduct of an impeachable official cannot be
pursued through the legislative power.
***
This subpoena goes beyond the legislative power
precisely because it seeks to reconstruct whether the
President broke the law. The Constitution creates a wholly
separate impeachment power for such inquiries. The
majority implicitly collapses these distinct powers when it
concludes that the Committee’s “interest in determining
whether and how illegal conduct has occurred . . . is in
direct furtherance of its legislative purpose.” Maj. Op.
31. Yet the legislative and impeachment powers are not
interchangeable. Congress, the President, and the courts
have consistently maintained a careful line between these
distinct powers. Thus, I would find that this subpoena
exceeds the legislative power of Congress because it seeks
to uncover wrongdoing by the President.
IV.
By collapsing the distinction between Congress’s
legislative and impeachment powers, the majority’s
decision has serious consequences for the separation
of powers. The decision today expands the legislative

137a
Appendix A
power beyond constitutional boundaries, calling into
question our precedents for reviewing the scope of
congressional investigations; interpreting the legislative
power of Congress to subsume the impeachment power;
and permitting serious encroachments on the executive
branch. For the majority, the fact that Congress seeks
the President’s papers is just a “twist” on the history
of congressional investigations. Maj. Op. 65. In our
government of three separate and co-equal departments,
the targeting of the President in a congressional subpoena
seeking evidence of illegal conduct is no mere “twist,” but
the whole plot.
A.
At bottom, the majority and I disagree about the
meaning of the legislative power and whether Congress
can use this power to conduct investigations of illegal
conduct by the President. Yet the framework employed
by the majority both decides too little and too much. To
begin with, even though the majority determines that
the House has the power to issue this subpoena, our
precedents require making a separate inquiry regarding
the scope of the Committee’s delegated authority.17 The
17. Because I conclude that Congress lacks the authority to
issue this subpoena pursuant to the legislative power, it follows
that the House could not delegate such authority to the Oversight
Committee. See, e.g., Rumely, 345 U.S. at 42-43 (in assessing
validity of congressional investigation, court must determine
“whether Congress had the power to confer upon the committee
the authority which it claimed”); Kilbourn, 103 U.S. at 196
(committee has “no lawful authority” to investigate if authorizing

138a
Appendix A
majority begins by recognizing as much: “it matters not
whether the Constitution would give Congress authority
to issue a subpoena if Congress has given the issuing
committee no such authority.” Maj. Op. 18. The majority,
however, collapses this two-part inquiry by concluding
that “[b]ecause Congress already possesses—in fact, has
previously exercised, see supra at 16-17—the authority to
subpoena Presidents and their information, nothing in the
House Rules could in any way ‘alter the balance between’
the two political branches of government.” Id. at 59-60
(quoting Armstrong v. Bush, 924 F.2d 282, 289, 288 U.S.
App. D.C. 38 (D.C. Cir. 1991)). The only evidence presented
to support the conclusion that Congress possesses this
authority is a citation to the majority’s analysis—which,
as discussed above, fails to provide a single historical
example of a successful subpoena to investigate a
president for legislative purposes. Instead, the majority
stitches together a few examples of subpoenas that issued
to other officials, investigations of agency administration,
presidents voluntarily sharing information with Congress,
and one case from our court invalidating the only similar
subpoena, which was issued to President Nixon during
the Watergate investigations. Id. at 16-17; see also Senate
Select, 498 F.2d at 733. On this flimsy foundation, the
majority concludes that it cannot scrutinize the House
Rules “absent a substantial constitutional question
pertaining to the House’s legislative power.” Maj. Op. 63.

resolution is “in excess of the power conferred on [the House] by
the Constitution”).

139a
Appendix A
This conclusion is unsupported by the Supreme
Court’s decisions in this area, which have required
courts not only to consider the scope of legislative power
possessed by the House or Senate as a whole, but to
inquire specifically whether that power has been delegated
to a particular Committee. See United States v. Rumely,
345 U.S. 41, 42-43, 73 S. Ct. 543, 97 L. Ed. 770 (1953)
(“This issue—whether the committee was authorized to
exact the information which the witness withheld—must
first be settled before we may consider whether Congress
had the power to confer upon the committee the authority
which it claimed.”); Watkins, 354 U.S. at 201 (“An essential
premise . . . is that the House or Senate shall have
instructed the committee members on what they are to
do with the power delegated to them.”). This delegation of
authority has separate importance because, as the Court
has admonished, Congress should not separate power
from responsibility. Watkins, 354 U.S. at 215.
The scope of delegation particularly matters when
Congress seeks to investigate a co-equal branch of
government. Requiring a clear statement creates an
important form of accountability by giving notice to the
executive branch. Accordingly, “[w]henever constitutional
limits upon the investigative power of Congress have to
be drawn by this Court, it ought only to be done after
Congress has demonstrated its full awareness of what
is at stake by unequivocally authorizing an inquiry of
dubious limits.” Rumely, 345 U.S. at 46. We have applied
this rule with special force in oversight investigations:
“[T]he courts have adopted the policy of construing such
resolutions of authority narrowly, in order to obviate the

140a
Appendix A
necessity of passing on serious constitutional questions.”
Tobin v. United States, 306 F.2d 270, 274-75, 113 U.S. App.
D.C. 110 (D.C. Cir. 1962).
Moreover, “[o]ut of respect for the separation of
powers and the unique constitutional position of the
President,” the Court requires “an express statement by
Congress” before subjecting the President to legislative
restrictions and oversight. Franklin v. Massachusetts,
505 U.S. 788, 800-01, 112 S. Ct. 2767, 120 L. Ed. 2d
636 (1992); see also Armstrong, 924 F.2d at 289. These
longstanding interpretive principles recognize that
congressional encroachments upon the President raise
serious constitutional questions, and courts should not
reach out to decide such questions unless Congress
squarely raises the issue.18 One might say Congress does
18. The ordinary analysis of congressional authorization is
somewhat complicated in this case because, after oral argument,
the House enacted a resolution ratifying “all current and future
investigations, as well as all subpoenas previously issued or to be
issued . . . to [inter alia] the President in his personal or official
capacity.” H.R. Res. 507, 116th Cong. (July 24, 2019). The majority,
however, does not rely on this Resolution to provide a clear
statement, but merely to “confirm” the plain meaning of the House
Rules, because all the parties agree that the Resolution does not
expand the Committee’s jurisdiction. Importantly, the majority
properly expresses skepticism and leaves open the question of
whether such a resolution can indeed provide a post hoc expansion
of a committee’s subpoena authority. Maj. Op. 63-64. I similarly
decline to speculate about the validity of a resolution that reaches
both forwards and backwards in time to authorize investigations
of the President. See Dombrowski v. Burbank, 358 F.2d 821, 825,
123 U.S. App. D.C. 190 (D.C. Cir. 1966) (“Whether this apparently

141a
Appendix A
not hide presidents in mouseholes. Cf. Whitman v. Am.
Trucking Ass’ns, Inc., 531 U.S. 457, 468, 121 S. Ct. 903,
149 L. Ed. 2d 1 (2001).
Thus, even on the majority’s assertion that the House
possesses the legislative power to issue this subpoena,
the Committee might not. The House Rules may upset
the balance of power by failing to provide notice to the
President.19 While courts should properly refrain from
micromanaging the House Rules, our precedents require
reviewing whether Congress has taken responsibility
for pushing up against constitutional limitations. See
Watkins, 354 U.S. at 205-06. In the novel circumstances
approving action by the full Subcommittee would serve as a nunc
pro tunc ratification and consequent validation of the subpoena for
all purposes, we need not decide.”), rev’d in part on other grounds
sub nom. Dombrowski v. Eastland, 387 U.S. 82, 87 S. Ct. 1425,
18 L. Ed. 2d 577 (1967).
19. Even without applying the clear statement rule, the
majority’s “natural reading” of the House Rules to include this
subpoena is hardly natural, given that for over 200 years the
House has declined to investigate the wrongdoing of the President
without clearly designating a special committee or resolution for
that purpose. That historical backdrop casts significant doubt
on the majority’s interpretation that a rule making no reference
to the President should be read to encompass the President. See
Tobin, 306 F.2d at 275 (“[I]f Congress had intended the Judiciary
Committee to conduct such a novel investigation it would have
spelled out this intention in words more explicit than the general
terms found in the authorizing resolutions under consideration.”);
Barenblatt, 360 U.S. at 117-18 (noting that a vague House rule
may acquire content through its “long history” and the “course
of congressional actions”).

142a
Appendix A
of this case, the majority has eviscerated this longstanding
principle and essentially collapsed the broader question
of constitutional power and the question of a committee’s
delegated authority.
Another difficulty with the majority’s approach is
that it focuses on the legislative power in isolation, and
therefore proceeds to determine the contours of what
legislation could be had in an area rife with constitutional
concerns. See, e.g., Letter From Laurence H. Silberman,
Acting Att’y Gen., to Rep. Howard W. Cannon, Chairman,
H. Comm. on Rules and Administration 4-5 (Sept. 20,
1974) (construing conflicts of interest legislation governing
the “executive branch” to apply to the President raises
“serious questions of constitutionality” as such legislation
could “disable him from performing some of the functions
required by the Constitution or [] establish a qualification
for his serving as President (to wit, elimination of financial
conflicts) beyond those contained in the Constitution”).
Responding in part to arguments from the appellants, the
majority marches through a very detailed and, in my view,
unnecessary analysis of what specific forms of legislation
might be possible in this area. Maj. Op. 36-45.
The majority concludes that amendments to “the
Ethics in Government Act . . . to require Presidents and
presidential candidates to file reports more frequently, to
include information covering a longer period of time, or
to provide new kinds of information such as past financial
dealings with foreign businesses or current liabilities of
closely held companies” would pass constitutional muster.
Id. at 38-39. The majority also affirms that some category

143a
Appendix A
of theoretical laws requiring presidents to disclose
evidence of potential conflicts of interest and other financial
matters constitute a “less burdensome species of laws”
than similarly hypothetical laws requiring presidents to
divest assets or recuse from conflicted matters. Id. at 38.
Based on this analysis of the relative constitutionality of
as-yet-unenacted laws, the majority informs us that we
can comfortably conclude such financial disclosure laws
of the future would not “prevent[] the [President] from
accomplishing [his] constitutionally assigned functions.”
Id. at 39-40 (alterations in original) (quoting Nixon v.
Administrator of General Services, 433 U.S. 425, 443,
97 S. Ct. 2777, 53 L. Ed. 2d 867 (1977)). More troubling
still, the majority declares that a statute “facilitating the
disclosure of” any payment of “foreign emoluments” to
the President would “surely . . . lie[] within constitutional
limits,” id. at 40, notwithstanding the fact that the scope
of the Foreign Emoluments Clause is an unresolved
question that is currently pending before this court. See
Blumenthal v. Trump, No. 19-5237, filed Sept. 4. 2019
(D.C. Cir.). The majority passes on the constitutionality
of a range of different legislative possibilities without a
single enacted statute before us.
In the absence of any statute that has run the Article
I, section 7, gauntlet, such determinations are advisory at
best. The Article III judicial power extends to deciding
cases, not applying “statutory litmus test[s],” Maj. Op. 37.
From the Founding Era to the present, our courts have
refrained from opining on the constitutionality of legal
issues outside of a live case or controversy. See Chamber
of Commerce v. EPA, 642 F.3d 192, 208, 395 U.S. App.

144a
Appendix A
D.C. 193 (D.C. Cir. 2011) (“To seek judicial review of . . . a
contemplated-but-not-yet-enacted [statute] is to ask the
court for an advisory opinion in connection with an event
that may never come to pass.”); Letter from Chief Justice
John Jay and the Associate Justices of the Supreme Court
to President George Washington (Aug. 8, 1793) (declining
the President’s request to issue an advisory opinion).
I would avoid passing on such questions and simply
recognize that an investigation into the illegal conduct of
the President is outside the legislative power altogether
because it belongs to the House’s power of impeachment
for high crimes and misdemeanors.
B.
By allowing the Oversight Committee to use the
legislative power to circumvent the impeachment
power, the majority substantially disrupts the careful
balance between Congress and the other departments.
The text and structure of the Constitution, along with
unbroken historical practice, make plain the importance
of maintaining a line between these distinct investigative
powers—one ancillary to the legislative power, and
the other an exercise of the House’s judicial power of
impeachment. The concerns underlying the distinction
are fundamental and no mere anachronism.
To begin with, permitting this subpoena allows
Congress to use its substantial legislative power to gather
information that may be used for impeachment without
the protections inherent in an impeachment investigation
or proceeding. Impeachable officials are protected from

145a
Appendix A
ill-considered exercises of this power through careful
constitutional design. The Constitution divides the
impeachment and removal powers between the House and
Senate, U.S. Const. art. I, § 2, cl. 5; art. I, § 3, cl. 6; limits
the scope of impeachable offenses, U.S. Const. art. II,
§ 4; and provides for limited punishments upon conviction
by the Senate, U.S. Const. art. I, § 3, cl. 7. Senate trials
of impeachment are an exercise of judicial power and
have always been understood to include constitutional
and common law protections similar to what might be
available in the judicial context. Marshall, 243 U.S. at
546-48; Kilbourn, 103 U.S. at 191; Jefferson’s Manual
§§ 592, 619 (“The trial . . . differs not in essentials from
criminal prosecutions before inferior courts.”); 3 Hinds
§ 2486 (“[S]uch rules must be observed as are essential to
justice.” (quoting Op. Att’y Gen. of May 9, 1796)); 2 Story
§ 796 (“[T]he same rules of evidence, the same legal
notions of crimes and punishments prevail.”).
Allowing the use of legislative power to reach illegal
conduct undermines the protections afforded to officials
being investigated for impeachable offenses. These
protections are essential given the obvious harms to the
reputation and honor of officials targeted through the very
public process of impeachment. See The Federalist No. 65,
at 338 (“The delicacy and magnitude of a trust which so
deeply concerns the political reputation and existence of
every man engaged in the administration of public affairs,
speak for themselves.”).
Moreover, expanding the legislative power to include
investigations of illegal conduct eviscerates Congress’s

146a
Appendix A
accountability for impeachment. Such accountability
is an essential protection for the People, who elect the
President as well as Members of Congress, and thus have
an undeniable stake in any congressional targeting of the
Chief Executive and his chosen officers. The majority allows
Congress to evade public accountability by permitting
investigations of the President for illegal conduct outside
the “grave and weighty” impeachment process. See
Maj. Op. 47. With impeachment, the Constitution unites
power with responsibility. Impeachment and removal
are Congress’s “sword of Damocles,” but the House and
Senate must pay a political price for using these powers.
William H. Rehnquist, Grand Inquests 270 (1992); see
also Gerhardt, The Federal Impeachment Process 57
(“[T]he framers deliberately made the impeachment
process cumbersome in order to make impeachment
difficult to achieve.”); O’Sullivan, Impeachment and the
Independent Counsel Statute, 86 GEO. L.J. at 2229-30
(“The Framers intentionally designed the impeachment
device to make its successful invocation difficult in order
to ensure that civil officers would not be unduly dependent
upon the legislative branch.”).
The House and Senate have consistently maintained
the importance of this responsibility and explicitly
invoked the impeachment power when pursuing official
wrongdoing. See, e.g., 3 Hinds § 2400 (opening Johnson
impeachment inquiry); H.R. Res. 803, 93d Cong. (opening
Nixon impeachment inquiry); H.R. Res. 581, 105th Cong.
(opening Clinton impeachment inquiry). Presidents since
George Washington have declined demands to produce
documents for legislative purposes, while acknowledging

147a
Appendix A
that the same request pursuant to the impeachment
power might be treated differently. See supra Part II;
see also Position of the Executive Department Regarding
Investigative Reports, 40 Op. Att’y Gen. 45, 51 (1941)
(Attorney General Robert Jackson declining to provide
information to Congress about pending FBI investigations,
but noting that “pertinent information would be supplied
in impeachment proceedings”). 20
Overlooking the special procedures and accountability
attendant to an impeachment proceeding, the district
court conflated the legislative and judicial powers of the
House. With no support in the text, structure, or history of
the Constitution, the district court cited the impeachment
power to bootstrap a more expansive legislative power
to investigate individual wrongdoing: “It is simply not
fathomable that a Constitution that grants Congress
the power to remove a President for reasons including
criminal behavior would deny Congress the power to
investigate him for unlawful conduct—past or present—
even without formally opening an impeachment inquiry.”
Trump, 380 F. Supp. 3d at 95.

20. As the Committee has not relied on the impeachment
power for this subpoena, I do not consider whether or how this
court would assess such a demand for documents under the
impeachment power. I simply note that Congress, the Executive,
and the courts have maintained that requests under the legislative
and impeachment powers may be treated differently. See, e.g.,
Kilbourn, 103 U.S. at 193 (were the investigation related to
impeachment, “the whole aspect of the case would have been
changed”).

148a
Appendix A
The district court suggests that the greater power
of impeachment and removal must include the lesser
legislative power to investigate illegal actions by the
President. Yet the Constitution is not designed this
way. The greater power does not include the lesser in a
Constitution that explicitly vests Congress with limited
and enumerated legislative powers and then provides
for a wholly separate impeachment power with different
objects, processes, and limits. It is not only fathomable,
but essential, that the impeachment and legislative powers
remain distinct. The power of impeachment does not
somehow expand the power to investigate for legislative
purposes.
The majority similarly recognizes no separation
between the House’s judicial and legislative powers. But
once the boundary between the legislative and judicial
powers is breached, it is hard to discern any limit to the
reach of the legislative power of investigation. Perhaps
the functionalist approach to reading the Constitution has
obscured the essential core of the constitutional powers
vested in each of the three branches. The legislative power
focuses on prospective, general rules for governing society.
One thing it has never been is the power to reconstruct and
punish individual actions, whether of private individuals
or public officials. Private and public individuals are
protected by the Bill of Attainder Clauses, U.S. Const.
art. I, § 9, cl. 3; art. I, § 10, cl. 1, and Congress may pursue
the high crimes and misdemeanors of impeachable officials
exclusively through the impeachment power, U.S. Const.
art. I, § 2, cl. 5; art. I, § 3, cl. 6.

149a
Appendix A
Thus, it should be startling when the majority asserts
it is a “quintessentially legislative judgment that some
concerns about potential misconduct are better addressed
through . . . legislation than impeachment.” Maj. Op. 49.
The majority argues in effect that Congress must be
able to choose to target the wrongdoing of the President
through its legislative powers, instead of impeachment.
If this does not quite sanction a bill of attainder, it comes
awfully close. The majority’s assertions that Congress can
simply choose between legislation and impeachment when
the President’s wrongdoing is at issue are unsupported
by any constitutional provision and provide no rebuttal
to the remarkably consistent historical understanding,
which demonstrates that both the executive branch
and Congress, despite their conf licting interests,
have steadfastly maintained the necessity of pursuing
wrongdoing of public officials through impeachment.
The majority attempts to bolster its argument by
referencing a functional separation of powers and citing
to interpretations of Madison’s statement in Federalist
47 that the separation of powers “do[es] not mean that
these departments ought to have no partial agency in, or
no control over, the acts of each other.” Id. at 43 (citing
Clinton v. Jones, 520 U.S. 681, 702-03, 117 S. Ct. 1636,
137 L. Ed. 2d 945 (1997), and Nixon v. Adm’r of Gen.
Servs., 433 U.S. at 442-43). Yet Madison’s words are being
taken out of context. In Federalist 47, Madison makes
this statement when interpreting Montesquieu’s theory
of separation of powers. See The Federalist No. 47, at 251
(James Madison). Madison’s primary point is that “[n]o
political truth is certainly of greater intrinsic value, or is

150a
Appendix A
stamped with the authority of more enlightened patrons
of liberty,” than the maxim that “the legislative, executive,
and judiciary departments, ought to be separate and
distinct.” Id. at 249. The general rule of the Constitution
is separation of powers—but the Constitution includes
certain specific exceptions to the general rule, such as
requiring the advice and consent of the Senate in the
appointment of executive officers, or placing the judicial
power of impeachment in the House and Senate. These
exceptions reinforce the system of checks and balances
and “provide some practical security for each, against
the invasion of the others.” The Federalist No. 48, at
256-58 (James Madison). Madison explains at length the
deliberate structure of the Constitution, which permits
overlap or sharing of powers for limited purposes without
collapsing any one branch into dependence on another.
The exceptions to the separation of powers, however,
have never been mistaken as a rule of flexible blending of
powers for the sake of convenience or expediency. To the
contrary, the Court has read the exceptions narrowly and
interpreted them to reinforce the constitutional limits that
separate the three powers of the federal government. See
Myers, 272 U.S. at 116 (“[T]he reasonable construction of
the Constitution must be that the branches should be kept
separate in all cases in which they were not expressly
blended, and the Constitution should be expounded to
blend them no more than it affirmatively requires.”). The
majority alleges that this dissent “would reorder the very
structure of the Constitution,” Maj. Op. 49, but provides
no analysis of the Constitution to support its assertion.
Similarly, the majority offers no evidence from the original

151a
Appendix A
meaning, historical practice, or our judicial precedents
for its contrived claim that Congress can simply choose
to use either the legislative or impeachment powers when
investigating the President for violations of the law.
Instead, the majority chooses to march out a parade
of horribles about what might happen if Congress
were unable to investigate illegal conduct under its
legislative power. Id. at 46-47, 48-49. Contrary to the
majority’s ahistorical alarm, maintaining the separation
of the legislative and impeachment powers will in no way
prevent the House from continuing to pursue remedial
legislation. I do not question the longstanding recognition
that Congress possesses the ability to investigate as
necessary and proper to effectuate the legislative power.
Such investigations can provide important and salutary
oversight of administration of the laws and study the basis
for new legislation. Yet targeting officials for impeachable
offenses must proceed, and always has proceeded, through
the impeachment power.
Thus, there is no “Hobson’s Choice” here between
impeachment or nothing, id. at 49, because whether the
House moves forward with impeachment or not, Congress
retains all of the legislative powers it has under the
Constitution to introduce and enact legislation. The fact
that Congress cannot reconstruct “whether and how” the
President violated the law as part of the legislative power
does not “strip[] Congress of its power to legislate.” Id.
Indeed, frustration with lack of access to documents might
prompt Congress to attempt legislation that requires
such disclosure in the future, and similar legislation has

152a
Appendix A
already been proposed. See, e.g., H.R. 1, 116th Cong.,
§§ 8012, 8013 (2019) (increasing stringency of presidential
corporate financial disclosure requirements). To treat
an inquisitorial power as essential to legislation is to
misunderstand the legislative power in the context of our
constitutional system of separated powers. The Committee
cannot use a legislative purpose to circumvent the House’s
power to serve as the grand inquest of the nation when
investigating the illegal conduct of the President.
C.
Allowing the legislative power to reach investigation
of impeachable offenses provides Congress with a new
bludgeon against the Executive, making it all too easy
for Congress to encroach on the executive branch by
targeting the President and his subordinates through
legislative inquiries. See Nixon v. Fitzgerald, 457 U.S. 731,
743, 102 S. Ct. 2690, 73 L. Ed. 2d 349 (1982) (a “special
solicitude [is] due to claims alleging a threatened breach
of essential Presidential prerogatives under the separation
of powers”). The majority incorrectly asserts “no party
argues that compliance with the subpoena would impair
the President’s execution of the Article II power.” Maj. Op.
46; see also id. at 64-65. To the contrary, both the Trump
plaintiffs and the Department of Justice argue that this
subpoena may “distract a President from his public duties,
to the detriment of not only the President and his office
but also the Nation that the Presidency was designed
to serve.” Appellants Reply Br. 3 (quoting Fitzgerald,
457 U.S. at 753); see also DOJ Br. 6 (“[C]ongressional
committees may issue successive subpoenas in waves,

153a
Appendix A
making far-reaching demands that harry the President
and distract his attention.” (citing Rumely, 345 U.S. at
46)). The majority repeatedly states that the precedents
allow Congress to choose between the legislative and
impeachment powers, but only where “no intrusion on the
President’s execution of his official duties is alleged.” Maj.
Op. 46; see also id. at 45. Yet contrary to the majority’s
assertions, both the Department of Justice and the
President have alleged that the subpoena encroaches on
the executive power, which substantially undermines the
majority’s premise.
By allowing any claim of a remedial legislative purpose
to justify an investigation into the “illegal conduct” of the
President, the majority effectively expands the already
expansive legislative power. Cf. Brewster v. United States,
255 F.2d 899, 901, 103 U.S. App. D.C. 147 (D.C. Cir.
1958) (rejecting an interpretation that “for all practical
purposes, would give the Committee on Government
Operations jurisdiction to investigate virtually every
activity engaged in by every person in the land”).
Pursuant to its legislative powers, Congress already has
substantial leeway to investigate how executive officers
are administering their duties. Yet allowing Congress to
use the legislative power to investigate individual officials
for unlawful conduct takes “oversight” to a whole new
level. The Constitution provides in effect that Congress
cannot reach such allegations by “side-blows,” Cong.
Globe, 29th Cong., 1st Sess. 641 (1846) (statement of Rep.
Adams), but must instead proceed through impeachment.
Cf. Morrison v. Olson, 487 U.S. 654, 713, 108 S. Ct. 2597,
101 L. Ed. 2d 569 (1988) (Scalia, J., dissenting) (“How much

154a
Appendix A
easier it is for Congress, instead of accepting the political
damage attendant to the commencement of impeachment
proceedings against the President on trivial grounds . . .
simply to trigger a debilitating criminal investigation of
the Chief Executive.”).
Unhindered by the constitutional mechanisms of
accountability, Congress can expand its incursions
against the Executive. As Madison cautioned, Congress’s
“constitutional powers being at once more extensive, and
less susceptible of precise limits, it can, with the greater
facility, mask under complicated and indirect measures,
the encroachments which it makes on the co-ordinate
departments.” The Federalist No. 48, at 257; see also
Zivotofsky, 135 S. Ct. at 2096 (“It was an improper act
for Congress to ‘aggrandize its power at the expense of
another branch.’” (quoting Freytag v. Commissioner, 501
U.S. 868, 878, 111 S. Ct. 2631, 115 L. Ed. 2d 764 (1991))).
The majority takes a narrow view of potential harms
to the executive branch—suggesting that such harms
result largely from the inconvenience of the President
having to produce documents or make copies himself.
Maj. Op. 34-35, 65. Yet using the legislative power to
target and uncover illegal conduct by executive officials
provides Congress with an additional form of control
over executive officials who otherwise must be within the
direction and control of the President. See U.S. Const. art.
II, § 1, cls. 1, 8; art. II, § 3; Free Enter. Fund v. Pub. Co.
Accounting Oversight Bd., 561 U.S. 477, 493, 130 S. Ct.
3138, 177 L. Ed. 2d 706 (2010) (invalidating restrictions on
the removal power that would “impair[]” the President’s

155a
Appendix A
“ability to execute the laws [] by holding his subordinates
accountable for their conduct”); Myers, 272 U.S. at 163-64
(“[A]rticle 2 grants to the President the executive power
of the government, i. e., the general administrative control
of those executing the laws.”). The President cannot “take
Care that the Laws be faithfully executed,” U.S. Const.
art. II, § 3, if his subordinates are exposed to inquisitorial
jeopardy through the ordinary legislative power.
Under the majority’s decision, Congress may choose
to launch investigations of illegal conduct under the
legislative power—a choice that under the current rules
may be implemented by a single committee chairman
without the accountability and deliberation that precede
impeachment. And while this case deals only with a single
subpoena, the recognition of a wholly unprecedented
power to investigate shifts the balance between the
branches and may unleash additional subpoenas against
the President or his subordinates, which “may, like a
flicking left jab, confound the Executive Branch in dealing
with Congress.” In re Sealed Case, 838 F.2d 476, 508, 267
U.S. App. D.C. 178 (D.C. Cir. 1988) (Silberman, J.), rev’d
sub nom. Morrison v. Olson, 487 U.S. 654, 108 S. Ct. 2597,
101 L. Ed. 2d 569 (1988).
While congressional oversight investigations may
probe a wide range of matters and often are no picnic
for executive officials, such investigations may proceed
ancillary to the legislative power. Allegations and
reconstructions of illegal conduct, however, are an entirely
different matter. If a congressional committee can invoke
a legislative purpose to subpoena information targeting

156a
Appendix A
unlawful actions by the President, imagine the peril for
other officers who lack the ability to fend off such requests
and cannot depend on the visibility and public mandate
that follow the President. Cf. Morrison, 487 U.S. at 713
(Scalia, J., dissenting) (“[A]s for the President’s high-level
assistants, who typically have no political base of support,
it is [] utterly unrealistic to think that they will not be
intimidated by this prospect [of an independent counsel],
and that their advice to him and their advocacy of his
interests before a hostile Congress will not be affected
. . . . It deeply wounds the President, by substantially
reducing the President’s ability to protect himself and
his staff.”). The prospect of a Congress that can use the
legislative power, rather than impeachment, to reach
illegal conduct of executive officers could very well
“weaken the Presidency by reducing the zeal of his staff.”
Id.
***
Allowing Congress to investigate impeachable officials
for suspicions of criminality pursuant to the legislative
power has serious consequences for the separation
of powers because it allows Congress to escape the
responsibility and accountability inherent in impeachment
proceedings. Congressional aggrandizement in this case
comes at the expense of the Executive, which no longer can
rely on procedural protections when Congress, or a single
committee chairman, determines to investigate unlawful
activity of the President. The House’s overreaching also
comes at the expense of the People, who established a
Constitution with specific processes for electing both

157a
Appendix A
Members of Congress and the President and which
provides only one way for Congress to punish and remove
the President.
V.
The familiar tale recounted by the majority describes
a general arc of expanding legislative powers and the
accompanying recognition of Congress’s power to
investigate ancillary to those powers. Yet the more
specific story here pertains to the fundamental separation
between the legislative and judicial powers of Congress.
When the House chooses to investigate the President
for alleged violations of the laws and the Constitution, it
must proceed through impeachment, an exceptional and
solemn exercise of judicial power established as a separate
check on public officials. This constitutional principle
was articulated by George Washington in 1796 and by
the House in 1998: “The Constitution contains a single
procedure for Congress to address the fitness for office of
the President of the United States—impeachment by the
House, and subsequent trial by the Senate.” H.R. Rep. No.
105-830, at 137 (report of the House Judiciary Committee
recommending articles of impeachment).
The Constitution and our historical practice draw a
consistent line between the legislative and judicial powers
of Congress. The majority crosses this boundary for the
first time by upholding this subpoena investigating the
illegal conduct of the President under the legislative
power. I respectfully dissent.

158a
Appendix B
APPENDIX B — MEMORANDUM
OPINION OF
THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA,
DATED MAY 20, 2019
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Case No. 19-cv-01136 (APM)
DONALD J. TRUMP, et al.,
Plaintiffs,
v.
COMMITTEE ON OVERSIGHT AND REFORM OF
THE U.S. HOUSE OF REPRESENTATIVES, et al.,
Defendants.
May 20, 2019, Decided
May 20, 2019, Filed
MEMORANDUM OPINION
I.

INTRODUCTION
I d o , th erefo re , . . . sol emnly p r ot est
against these proceedings of the House
of Representatives, because they are in
violation of the rights of the coordinate
executive branch of the Government, and
subversive of its constitutional independence;

159a
Appendix B
because they are calculated to foster a band
of interested parasites and informers, ever
ready, for their own advantage, to swear before
ex parte committees to pretended private
conversations between the President and
themselves, incapable, from their nature, of
being disproved; thus furnishing material for
harassing him, degrading him in the eyes of
the country . . .
- President James Buchanan1
These words, written by President James Buchanan
in March 1860, protested a resolution adopted by the U.S.
House of Representatives to form a committee—known
as the Covode Committee—to investigate whether the
President or any other officer of the Executive Branch had
sought to influence the actions of Congress by improper
means. See Buchanan at 218-21. Buchanan “cheerfully
admitted” that the House of Representatives had the
authority to make inquiries “incident to their legislative
duties,” as “necessary to enable them to discover and
to provide the appropriate legislative remedies for any
abuses which may be ascertained.” Id. at 221. But he
objected to the Covode Committee’s investigation of his
conduct. He maintained that the House of Representatives
possessed no general powers to investigate him, except
when sitting as an impeaching body. Id. Buchanan feared
that, if the House were to exercise such authority, it “would
1. James Buchanan, The Works Of James Buchanan Volume
XII 225-26 (John Bassett Moore ed., J.B. Lippincott Company) (1911)
[hereinafter Buchanan].

160a
Appendix B
establish a precedent dangerous and embarrassing to all
my successors, to whatever political party they might be
attached.” Id. at 226.
Some 160 years later, President Donald J. Trump has
taken up the fight of his predecessor. On April 15, 2019,
the Committee on Oversight and Reform of the House of
Representatives issued a subpoena for records to Mazars
USA LLP, a firm that has provided accounting services
to President Trump. The subpoena called for Mazars to
produce financial records and other documents relating to
President Trump personally as well as various associated
businesses and entities dating back to 2011—years before
he declared his candidacy for office. The decision to issue
the subpoena came about after the President’s former
lawyer and confidant, Michael Cohen, testified before the
House Oversight Committee that the President routinely
would alter the estimated value of his assets and liabilities
on financial statements, depending on the purpose for
which a statement was needed. For instance, Cohen said
that the President provided inflated financial statements
to a bank to obtain a loan to purchase a National Football
League franchise. But when it came time to calculate his
real estate taxes, the President would deflate the value
of certain assets. To support his accusations, Cohen
produced financial statements from 2011, 2012, and 2013,
at least two of which were prepared by Mazars.
Echoing the protests of President Buchanan, President
Trump and his associated entities are before this court,
claiming that the Oversight Committee’s subpoena to
Mazars exceeds the Committee’s constitutional power to

161a
Appendix B
conduct investigations. The President argues that there
is no legislative purpose for the subpoena. The Oversight
Committee’s true motive, the President insists, is to
collect personal information about him solely for political
advantage. He asks the court to declare the Mazars
subpoena invalid and unenforceable.
Courts have grappled for more than a century with
the question of the scope of Congress’s investigative
power. The binding principle that emerges from these
judicial decisions is that courts must presume Congress
is acting in furtherance of its constitutional responsibility
to legislate and must defer to congressional judgments
about what Congress needs to carry out that purpose.
To be sure, there are limits on Congress’s investigative
authority. But those limits do not substantially constrain
Congress. So long as Congress investigates on a subject
matter on which “legislation could be had,” Congress acts
as contemplated by Article I of the Constitution.
Applying those principles here compels the conclusion
that President Trump cannot block the subpoena to
Mazars. According to the Oversight Committee, it believes
that the requested records will aid its consideration
of strengthening ethics and disclosure laws, as well
as amending the penalties for violating such laws. The
Committee also says that the records will assist in
monitoring the President’s compliance with the Foreign
Emoluments Clauses. These are facially valid legislative
purposes, and it is not for the court to question whether
the Committee’s actions are truly motivated by political
considerations. Accordingly, the court will enter judgment
in favor of the Oversight Committee.

162a
Appendix B
II. BACKGROUND
A.

The 116th Congress and the House Oversight
Committee

On January 3, 2019, the 116th Congress began with
the Democratic Party controlling a majority of seats in
the U.S. House of Representatives. One of the House’s
first actions was to adopt the “Rules of the House of
Representatives,” which govern proceedings during the
two-year term. This vote took place on January 9, 2019. 2
Rule X of the adopted House Rules, titled “Organization
of Committees,” establishes various standing committees
and their respective jurisdictions. 3 Among the standing
committees with the broadest purview is the Committee
on Oversight and Reform (“Oversight Committee”). Its
subject areas of primary jurisdiction range from the
lofty—”[o]verall economy, efficiency, and management
of government operations”—to the mundane—”[f]ederal
paperwork reduction.” House Rules at 8. If there is a
common thread running through the subjects within the
Oversight Committee’s jurisdiction, it is the oversight
of the operations and administration of the Executive
Branch.
2. Final Vote Results for Roll Call 19, Adopting the Rules of
the House of Representatives for the One Hundredth Sixteenth
Congress, http://clerk.house.gov/evs/2019/roll019.xml (last visited
May 20, 2019).
3. Rules of the House of Representatives, 116th Congress at 6
(Jan. 11, 2019), https://rules.house.gov/sites/democrats rules house.
gov/files/116-1/116-House-Rules-Clerk.pdf (last visited May 20, 2019)
[hereinafter House Rules].

163a
Appendix B
Each of the House’s standing committees possess
“[g]eneral oversight responsibilities.” Id. at 9. Those
responsibilities are meant to assist the House in (1) “its
analysis, appraisal, and evaluation of” “the application,
administration, execution, and effectiveness of Federal
laws” and (2) “conditions and circumstances that may
indicate the necessity or desirability of enacting new
or additional legislation,” and (3) “its formulation,
consideration, and enactment of changes in Federal laws,
and of such additional legislation as may be necessary
or appropriate.” Id. Some of the House’s standing
committees have “[s]pecial oversight functions.” Id.
at 10. The Oversight Committee is one of them. Its
“special oversight function” is described as involving the
“review and study on a continuing basis the operation of
Government activities at all levels, including the Executive
Office of the President.” Id. The Executive Office of the
President consists of a small group of federal agencies
that most immediately aid the President on matters of
policy, politics, administration, and management. The
President’s closest advisors typically are situated in the
Executive Office.4
Rule X also vests the Oversight Committee with
special authority to conduct investigations. According to
the Rule, “the Committee on Oversight and Reform may
at any time conduct investigations of any matter without
regard to [other rules] conferring jurisdiction over the
4. See generally Congressional Research Service, “The
Executive Office of the President: An Historical Overview,” Nov.
26, 2008, https://fas.org/sgp/crs/misc/98-606.pdf (last visited May
20, 2019).

164a
Appendix B
matter to another standing committee.” House Rules
at 11 (emphasis added). In other words, the Oversight
Committee is empowered to investigate as to any subject
matter, even in those areas that are expressly assigned
to other committees. No other committee possesses such
sweeping investigative authority.
The Oversight Committee’s broad investigative power
is not new. In each of the four preceding Congresses—all
controlled by the Republican Party, including during the
final six years of the Obama Administration—the House
Oversight Committee enjoyed the same power “at any
time [to] conduct investigations of any matter.”5
B. The Oversight Committee’s Investigation
From the start of the 116th Congress, the Oversight
Committee, now led by a Democrat, moved aggressively to
use its investigative powers. It did not adopt a resolution
or issue a public statement defining the scope of what it
intended to investigate. Instead, it sent a series of letters
to the White House and elsewhere seeking various records
5. Rules of the House of Representatives, 115th Congress at
505 (2017), https://www.govinfo.gov/content/pkg/HMAN-115/pdf/
HMAN-115.pdf , (last visited May 20, 2019); Rules of the House of
Representatives, 114th Congress at 497 (2015), https://www.govinfo.
gov/content/pkg/HMAN-114/pdf/HMAN-114.pdf (last visited May
20, 2019); Rules of the House of Representatives, 113th Congress at
496 (2013), https://www.govinfo.gov/content/pkg/HMAN-113/pdf/
HMAN-113-houserules.pdf (last visited May 20, 2019); Rules of the
House of Representatives, 112th Congress at 492 (2011), https://
www.govinfo.gov/content/pkg/HMAN-112/pdf/HMAN-112.pdf (last
visited May 20, 2019).

165a
Appendix B
regarding the President’s personal finances, as well as
records concerning his businesses and related entities.
For instance, days before the new Congress started,
the incoming Chairman of the Oversight Committee,
Representative Elijah Cummings, wrote the President’s
personal lawyer, Sheri Dillon, and the Executive Vice
President and Chief Compliance Counsel of the Trump
Organization, George Sorial, asking them to produce
previously requested “documents regarding the Trump
Organization’s process for identifying payments from
foreign governments and foreign-government controlled
entities . . .”6 In a different letter, the Chairman asked
the General Services Administration (“GSA”), the agency
that manages federally owned and leased buildings, to
produce records concerning the federal government’s
lease with the Trump Organization for the Old Post Office
Building, which houses the Trump International Hotel in
Washington, D.C.7 Chairman Cummings indicated that
he sought these records for multiple reasons, including
the concern that the lease might violate the Constitution’s
Emoluments Clauses. Cummings’ April 12th GSA Letter
6. Letter from the Honorable Elijah E. Cummings, Ranking
Member, House Comm. on Oversight & Reform, to Sheri A. Dillon,
Counsel to Donald Trump, and George A. Sorial, Exec. Vice
President and Chief Compliance Counsel, Trump Org. (Dec. 19,
2018), https://tinyurl.com/Dec19CummingsDillonLetter (last visited
May 20, 2019).
7. Letter from the Honorable Elijah E. Cummings, Chairman,
House Comm. on Oversight & Reform, et al., to Emily Murphy,
Administrator, Gen. Servs. Admin. (Apr. 12, 2019), https://tinyurl.
com/Apr12CummingsHorneLetter (last visited May 20, 2019)
[hereinafter Cummings’ April 12th GSA Letter].

166a
Appendix B
at 1. 8 These are but two examples of the types of records
requests made by the Oversight Committee at the start
of the 116th Congress.
The investigative demand that sparked this lawsuit
was issued on January 8, 2019. On that day, Chairman
Cummings wrote to Pat Cipollone, the White House
Counsel, asking the President to produce “documents
related to President Trump’s reporting of debts and
payments to his personal attorney, Michael Cohen, to
silence women alleging extramarital affairs with the
President before the election.” 9 The prior year, in May
8. This request for documents was not new. During the early
months of the Trump Administration, Representative Cummings,
who was then the Ranking Member on the Oversight Committee,
along with other Democratic members, asked GSA to produce records
regarding the Old Post Office lease. See Cummings v. Murphy, 321
F. Supp. 3d 92, 97-99 (D.D.C. 2018). When GSA did not cooperate,
the Members brought a lawsuit to force it to disclose the records.
See generally id. This judge handled that very matter and ruled that
the Democratic members lacked standing to bring the case. See id.
at 101-17. That decision is pending before the D.C. Circuit.
9. Let t er f rom t he Honor able El ija h E. Cu m m i ng s ,
Cha i r man, House Comm. on O versight & Refor m, to Pat
Cipollone, White House Counsel (Jan. 8, 2019), https://tinyurl.
com/Jan8CummingsCipolloneLetter (last visited May 20, 2019)
[hereinafter Cummings’ January 8th Letter]. Then-Ranking
Member Cummings made a request for similar records in September
2018, which went unanswered. See Letter from the Honorable Elijah
E. Cummings, Ranking Member, House Comm. on Oversight &
Reform, to Donald F. McGahn II, White House Counsel, and George
A. Sorial, Exec. Vice President and Chief Compliance Counsel,
Trump Org. (September 12, 2018), https://oversighthouse.gov/sites/
democrats.oversight.house.gov/files/documents/2018-09-12.EEC%20

167a
Appendix B
2018, the Office of Government Ethics had concluded that
the President should have disclosed a payment made by
Cohen as a liability on the President’s public financial
disclosure report.10 Chairman Cummings noted in the
January 8th letter that the Oversight Committee “has
jurisdiction over a wide range of matters, including the
Ethics in Government Act of 1978,” a law that requires
“all federal officials, including the President, to publicly
disclose financial liabilities that could impact their
decision-making.” Cummings’ January 8th Letter at 1. On
February 1, 2019, the White House Counsel responded to
Chairman Cummings that the President was prepared to
consider making some documents available for review.11
Chairman Cummings wrote the White House Counsel
again on February 15, 2019. See Cummings’ February
15th Letter. He opened by stating that, by his January
8th letter, “the Committee launched an investigation into
the failure of President Donald Trump to report hundreds
of thousands of dollars in payments and liabilities to
to%20McGahn-WH%20Sorial-TrumpOrg%20re%20Financial%20
Disclosures%20Cohen%20Payments.pdf (last visited May 20, 2019).

10. Letter from David J. Apol, Acting Dir., Office of Gov’t
Ethics, to Rod J. Rosenstein, Deputy Att’y Gen., Dep’t of Justice
(May 16, 2018), https://oge.gov/web/OGE.nsf/0/D323FD5ABB1FD
2358525828F005F4888/$FILE/OGE%20Letter%20to%20DOJ%20
(posting).pdf (last visited May 20, 2019).
11. Lett er f rom the Honorable El ija h E. Cumm i ngs,
Chairman, House Comm. on Oversight & Reform, to Pat Cipollone,
White House Counsel at 1 (Feb. 15, 2019), https://tinyurl.com/
Feb15CummingsCipolloneLetter [hereinafter Cummings’ February
15th Letter].

168a
Appendix B
his former attorney, Michael Cohen, to silence women
alleging extramarital affairs during the 2016 presidential
campaign.” Id. at 1. Chairman Cummings explained that
“[t]he Committee’s interest in obtaining these documents
is even more critical in light of new documents obtained
by the Committee from the Office of Government Ethics
(OGE) that describe false information provided by lawyers
representing President Trump . . . “ Id. The letter went
on to detail a timeline of recent events starting with
statements made by the President’s lawyers to the
Office of Government Ethics and to the public about a
supposed purpose of the Cohen payments unrelated to
the election; followed by the President’s disclosure of the
Cohen payments on his 2017 Financial Disclosure form
as a liability of less than $250,000; and then revelations
by federal prosecutors that the Cohen payments in fact
exceeded the $250,000 reported by the President. Id. at
2-6. In the end, Chairman Cummings cited Congress’s
“plenary authority to legislate and conduct oversight
regarding compliance with ethics laws and regulations”
as the source of its authority to make the records demand,
as well as its “broad authority to legislate and conduct
oversight on issues involving campaign finance.” Id. at 7.
C.

Subpoena to Mazars USA LLP

On February 27, 2019, Michael Cohen appeared for a
public hearing before the House Oversight Committee.12
12. Hearing with Michael Cohen, Former Attorney to President
Donald Trump: Hearing Before the H. Comm. on Oversight &
Reform, 116th Cong. (2019), https://tinyurl.com/CohenHearing (last
visited May 20, 2019) [hereinafter Cohen Testimony].

169a
Appendix B
By this time, Cohen had pleaded guilty to a host of federal
felony charges, including tax evasion, campaign finance
violations, and making false statements to Congress.13
During his testimony, Cohen alleged that financial
statements prepared by the President’s accountants
falsely represented the President’s assets and liabilities.
See Cohen Testimony at 13, 19. Specifically, Cohen stated
that, in his experience, “Mr. Trump inflated his total
assets when it served his purposes . . . and deflated his
assets to reduce his real estate taxes.” Id. Cohen supplied
the Oversight Committee with portions of the President’s
Statements of Financial Condition from 2011, 2012, and
2013, some of which were signed by Mazars.14
Following Cohen’s testimony, Chairman Cummings
wrote to Mazars on March 20, 2019. The letter first
summarized aspects of Cohen’s testimony accusing the
President of manipulating financial statements to suit
his purposes; it then identified a half-dozen questions
about assets and liabilities reflected in the President’s
Statements of Financial Condition that Cohen had
provided to the Oversight Committee. See Cummings’
13. See Mark Mazzetti, et al., Cohen Pleads Guilty and Details
Trump’s Involvement in Moscow Tower Project, N.Y. TIMES, Nov.
29, 2018, https://www.nytimes.com/2018/11/29/nyregion/michaelcohen-trump-russia-mueller.html (last visited May 20, 2019).
14. See Letter from the Honorable Elijah E. Cummings,
Chairman, House Comm. on Oversight & Reform, to Victor Wahba,
Chairman and Chief Exec. Officer, Mazars USA LLP (Mar. 20, 2019),
https://tinyurl.com/Mar20CummingsLetter (last visited May 20,
2019) [hereinafter Cummings’ March 20th Letter]; see also Cohen
Testimony at 13.

170a
Appendix B
March 20th Letter at 1-3. Chairman Cummings stated
that these financial statements “raise questions about
the President’s representations of his financial affairs
on these forms and on other disclosures, particularly
relating to the President’s debts.” Id. at 1. The letter
concluded by asking Mazars to produce four categories
of documents with respect to not just the President, but
also several affiliated organizations and entities, including
the Trump Organization Inc., the Donald J. Trump
Revocable Trust, the Trump Foundation, and the Trump
Old Post Office LLC. See id. at 4. The records requested
included statements of financial condition, audited
financial statements, documents relied upon to prepare
any financial statements, engagement agreements, and
communications between Mazars and the President or
employees of the Trump Organization. See id. The relevant
time period identified for the requested records was
“January 1, 2009, to the present.” Id. In his initial letter
to Mazars, Chairman Cummings did not articulate any
legislative purpose for the records requested.
A week later, on March 27, 2019, Mazars responded
that it “cannot voluntarily turn over documents sought
in the Request.” 15 Mazars cited various federal and
state regulations and professional codes of conduct that
prevented it from doing so. See Mazars March 27th Letter
at 1.
15. Letter from Jerry D. Bernstein, BlankRome LLP, Outside
Counsel to Mazars USA LLP, to the Honorable Elijah E. Cummings,
Chairman, House Comm. on Oversight & Reform (Mar. 27, 2019),
https://tinyurl.com/Mar27MazarsLetter (last visited May 20, 2019)
[hereinafter Mazars March 27th Letter].

171a
Appendix B
On April 12, 2019, Chairman Cummings distributed
a memorandum to Members of the Oversight Committee
(“Memorandum”), advising them of his intent to issue
a subpoena to Mazars.16 Under a section titled “Need
for Subpoena,” Chairman Cummings cited to Cohen’s
testimony that the President had “altered the estimated
value of his assets and liabilities on financial statements,”
as well as to the records Cohen had provided to support
these claims. Cummings’ April 12th Mem. at 1-2. He also
referenced “[r]ecent news reports” raising “additional
concerns regarding the President’s financial statements
and representations.” Id. at 1. In the “Conclusion” section
of the Memorandum, Chairman Cummings listed the
purposes for seeking the Mazars-held records:
The Committee has full authority to investigate
whether the President may have engaged in
illegal conduct before and during his tenure in
office, to determine whether he has undisclosed
conflicts of interest that may impair his ability
to make impartial policy decisions, to assess
whether he is complying with the Emoluments
Clauses of the Constitution, and to review
whether he has accurately reported his finances
to the Office of Government Ethics and other
federal entities. The Committee’s interest in
these matters informs its review of multiple
16. Memorandum from Honorable Elijah E. Cummings,
Chairman, House Comm. on Oversight & Reform, to Members of
the Committee on Oversight and Reform (April 12, 2019), https://
www.politico.com/f/?id=0000016a-131f-da8e-adfa-3b5f319d0001
(last visited May 20, 2019) [hereinafter Cummings’ April 12th Mem.].

172a
Appendix B
laws and legislative proposals under our
jurisdiction, and to suggest otherwise is both
inaccurate and contrary to the core mission
of the Committee to serve as an independent
check on the Executive Branch.
Id. at 4. Chairman Cummings allowed 48 hours for
Members to offer their views on issuing the subpoena.
See id . The Committee’s new Rank ing Member,
Congressman Jim Jordan, responded, declaring the action
“an unprecedented abuse of the Committee’s subpoena
authority to target and expose the private financial
information of the President of the United States.”17
Notwithstanding the Ranking Member’s objection,
on April 15, 2019, the Oversight Committee issued the
subpoena to Mazars that is the subject of this lawsuit.
The subpoena sought the same four categories of records
identified in the March 20th letter relating to the President
and his affiliated organizations and entities. See Subpoena,
ECF No. 9-2, Ex. A, at 3 [hereinafter Subpoena]; see
also Cummings’ March 20th Letter at 4. The subpoena,
however, differed in one respect—it narrowed the relevant
time period by two years to “calendar years 2011 through
2018.”18 Subpoena at 3.
17. Letter from the Honorable Jim Jordan, Ranking Member,
House Comm. on Oversight & Reform, to the Honorable Elijah E.
Cummings, Chairman, House Comm. on Oversight & Reform at 1
(April 15, 2019), https://republicans-oversight.house.gov/wp-content/
uploads/2019/04/2019-04-15-JDJ-to-EEC-re-Mazars-Subpoena.pdf
(last visited May 20, 2019).
18. At oral argument, Plaintiffs stated that paragraph 2 of
the subpoena applies “without regard to time.” Hr’g Tr. at 69. That

173a
Appendix B
D.

Procedural History
1.

Plaintiffs Seek Injunctive Relief

On April 22, 2019, President Trump, along with
his affiliated organizations and entities (collectively
“Plaintiffs”), 19 filed this lawsuit. See Compl., ECF
No. 1 [hereinafter Compl.]. They originally named as
defendants Chairman Cummings; Peter Kenny, the Chief
Investigative Counsel of the Oversight Committee; and
Mazars. Plaintiffs asked the court, among other things,
to declare that the Oversight Committee’s subpoena to
Mazars “is invalid and unenforceable” and to issue a
“permanent injunction quashing Chairman Cummings’
subpoena.” Compl. at 13. With their Complaint, Plaintiffs
filed an Application for a Temporary Restraining Order
and Motion for Preliminary Injunction. See Pls.’ App. for
a TRO, ECF No. 9; Pls.’ Mot. for Prelim. Inj., ECF No.
11; Stmt. of P&A in Support of Pls.’ App. for a TRO and
Mot. for Prelim. Inj., ECF Nos. 9-1, 11-1 [hereinafter Pls.’
Stmt.]. The Application asked the court to enter an order
“prohibiting Defendants from enforcing or complying
with Chairman Cummings’ subpoena so that the Court
can decide Plaintiffs’ motion for a preliminary injunction.”
Pls.’ Stmt. at 14.
paragraph, however, is for all engagement agreements or contracts
related to items “described in Item Number 1,” which is time-limited
from 2011 to 2018. See Subpoena at 3.

19. The complete list of affiliated organizations and entities
includes: The Trump Organization, Inc.; Trump Organization LLC;
The Trump Corporation; DJT Holdings LLC; The Donald J. Trump
Revocable Trust; and the Trump Old Post Office LLC.

174a
Appendix B
Following discussions with the Oversight Committee,
Plaintiffs consented to the Committee’s intervention as a
defendant in this matter and agreed to dismiss Chairman
Cummings and Kenny as defendants. See Consent Mot.
of the Oversight Committee to Intervene, ECF No. 12;
Joint Stip., ECF No. 15. The parties settled on a briefing
schedule on Plaintiffs’ motion for preliminary injunction,
which the court entered. Minute Order, Apr. 23, 2019. The
Oversight Committee also agreed to postpone the date
for Mazars to produce records until seven days after the
court ruled on Plaintiffs’ motion. See id. That agreement
made it unnecessary for the court to enter a temporary
restraining order.
2.

Consolidation under Rule 65(a)(2)

Under the entered schedule, the parties were to
appear before the court for oral argument on May 14,
2019. Five days before the hearing and one day after the
parties had completed briefing, the court entered an order
announcing its intention to consolidate the hearing on the
preliminary injunction with the “trial on the merits,” as
is permitted under Federal Rule of Civil Procedure 65(a)
(2). See Order, ECF No. 25 [hereinafter Order]. The court
explained the reason for consolidation as follows:
The sole question before the court—Is the
House Oversight Committee’s issuance of a
subpoena to Mazars USA LLP for financial
records of President Donald J. Trump and
various associated entities a valid exercise of
legislative power?—is fully briefed, and the

175a
Appendix B
court can discern no benefit from an additional
round of legal arguments. Nor is there an
obvious need to delay ruling on the merits to
allow for development of the factual record.
Id. The court made the decision to consolidate conscious of
the need to expedite these types of cases. In Eastland v.
U.S. Servicemen’s Fund, the Supreme Court stated that
motions to enjoin a congressional subpoena “be given the
most expeditious treatment by district courts because
one branch of Government is being asked to halt the
functions of a coordinate branch.” 421 U.S. 491, 511 n.17,
95 S. Ct. 1813, 44 L. Ed. 2d 324 (1975); see also Exxon
Corp. v. Federal Trade Com., 589 F.2d 582, 589, 191 U.S.
App. D.C. 59 (D.C. Cir. 1978) (describing Eastland as
emphasizing “the necessity for courts to refrain from
interfering with or delaying the investigatory functions
of Congress”). The court also was cognizant of the fact
that the Constitution’s Speech or Debate Clause forecloses
Plaintiffs from compelling discovery from the Oversight
Committee, its Members, or staff. See Eastland, 421 U.S.
at 503 (stating that “a private civil action, whether for an
injunction or damages, creates a distraction and forces
Members to divert their time, energy, and attention from
their legislative tasks to defend the litigation”); see also
Gravel v. United States, 408 U.S. 606, 616-22, 92 S. Ct.
2614, 33 L. Ed. 2d 583 (1972). Relatedly, the D.C. Circuit
has recognized that evidence relevant to determining
whether Congress has acted in its legislative capacity
is likely to come largely, if not exclusively, from public
sources. See Shelton v. United States, 404 F.2d 1292, 1297,
131 U.S. App. D.C. 315 (D.C. Cir. 1968) (observing that

176a
Appendix B
relevant sources of evidence include “the resolution of the
Congress authorizing the inquiry,” “the opening statement
of the Chairman at the hearings,” and “statements of the
members of the committee . . . or of the Staff Director”)
(citations omitted). The court ordered the parties to
submit any additional evidence to the court or lodge an
objection to consolidation by May 13, 2019. Order at 2.
Plaintiffs protested the court’s consolidation order,
but the Oversight Committee did not. See Pls.’ Objections
to Rule 65(a)(2) Consolidation, ECF No. 29 [hereinafter
Pls.’ Objections]; see also Oversight Committee’s Resp.
to the Court’s May 9, 2019 Order, ECF No. 31. Plaintiffs
asserted that, in briefing only a motion for preliminary
injunction, they were constrained in their arguments
on the merits. See Pls.’ Objections at 4 (“Nor have the
parties had the opportunity to fully brief the important
constitutional questions that this case presents.”). They
also maintained that they needed more time to obtain
additional evidence, specifically (1) a memorandum of
understanding negotiated between Chairman Cummings
and a Chair of a different House Committee, which they
believed the Ranking Member of the Oversight Committee
would voluntarily disclose to them, and (2) communications
between Mazars and the Oversight Committee. Id. at 6-7.
Plaintiffs did not assert that they could obtain discovery
from the Oversight Committee. See generally id.
At the May 14th hearing, the court heard further
argument from Plaintiffs on consolidation, and overruled
their objection. The court found that no additional
briefing would aid in its decision-making, as the parties

177a
Appendix B
had comprehensively presented the issues and cited all
applicable precedent. See Hr’g Tr. at 34. Indeed, Plaintiffs
could identify no new argument that they would make
if given the chance to do so. Id. at 34-36. To allow for
Plaintiffs’ asserted need to gather additional evidence,
the court left the record open until May 18, 2019. Id.
at 75. Plaintiffs already had submitted some additional
evidence after the consolidation order, which consisted of
news reports of public statements of various Members of
Congress. See Supp. Decl. of William S. Consovoy, ECF
No. 30 [hereinafter First Supp. Decl.]. Plaintiffs added two
more letters from the Ranking Member before the record
closed. See Second Supp. Decl. of William S. Consovoy,
ECF No. 34. 20
E. Cross-Motions for Summary Judgment
The legal issues presented do not require the court to
resolve any fact contests because the material facts are
not in dispute. 21 Accordingly, having ordered consolidation
20. Plaintiffs did not offer any evidence from Mazars; nor did
they submit the memorandum of understanding that they claimed
in their Opposition was critical evidence. The Oversight Committee,
however, did submit that memorandum of understanding to the court
in camera. The court has considered the contents of the agreement
in rendering its judgment.
21. Although the Oversight Committee’s “motive” for issuing
the subpoena to Mazars is a disputed fact, as discussed further
below, it is not a “material” fact that would prevent deciding the
case on cross-motions for summary judgment. See Watkins v. United
States, 354 U.S. 178, 200, 77 S. Ct. 1173, 1 L. Ed. 2d 1273, 76 Ohio
Law Abs. 225 (1957). In addition, the Committee admitted “there

178a
Appendix B
under Rule 65(a)(2), the court treats the parties’ briefing as
cross-motions for summary judgment. See Mar. for Life v.
Burwell, 128 F. Supp. 3d 116, 124 (D.D.C. 2015) (reviewing
case consolidated under Rule 65(a)(2) as cross-motions
for summary judgment); Indep. Bankers Ass’n of Am. v.
Conover, 603 F. Supp. 948, 953 (D.D.C. 1985) (same).
III. LEGAL PRINCIPLES
A.

Congress’s Broad Investigative Authority

Article I of the Constitution grants Congress all
“legislative Powers.” U.S. Const. art. I, § 1. Although
Article I does not say so expressly, the power to secure
“needed information . . . has long been treated as an
attribute of the power to legislate.” McGrain v. Daugherty,
273 U.S. 135, 161, 47 S. Ct. 319, 71 L. Ed. 580 (1927). As
the Supreme Court observed in McGrain, the power to
investigate is deeply rooted in the nation’s history: “It was
so regarded in the British Parliament and in the colonial
Legislatures before the American Revolution, and a like
view has prevailed and been carried into effect in both
houses of Congress and in most of the state Legislatures.”
Id. “There can be no doubt as to the power of Congress,
by itself or through its committees, to investigate matters
and conditions relating to contemplated legislation.”
Quinn v. United States, 349 U.S. 155, 160, 75 S. Ct. 668,
99 L. Ed. 964 (1955).
is no legitimate dispute about the facts here. We’re not saying that
Congressman Cummings didn’t say the things that he’s quoted as
saying . . .” Hr’g Tr. at 61-62.

179a
Appendix B
Related to Congress’s legislative function is its
“informing function.” The Supreme Court has understood
that function to permit “Congress to inquire into and
publicize corruption, maladministration or inefficiency in
agencies of the Government.” Watkins v. United States,
354 U.S. 178, 200 n.33, 77 S. Ct. 1173, 1 L. Ed. 2d 1273,
76 Ohio Law Abs. 225 (1957). “From the earliest times in
its history, the Congress has assiduously performed an
‘informing function’ of this nature.” Id. (citing James M.
Landis, Constitutional Limitations on the Congressional
Power of Investigation, 40 HARV. L. REV. 153, 168-194
(1926)). The informing function finds its roots in the
scholarship of President Woodrow Wilson, which the Court
first cited in United States v. Rumely:
It is the proper duty of a representative
body to look diligently into every affair of
government and to talk much about what it
sees. It is meant to be the eyes and the voice,
and to embody the wisdom and will of its
constituents. Unless Congress have and use
every means of acquainting itself with the
acts and the disposition of the administrative
agents of the government, the country must
be helpless to learn how it is being served; and
unless Congress both scrutinize these things
and sift them by every form of discussion, the
country must remain in embarrassing, crippling
ignorance of the very affairs which it is most
important that it should understand and direct.
The informing function of Congress should be
preferred even to its legislative function.

180a
Appendix B
345 U.S. 41, 43, 73 S. Ct. 543, 97 L. Ed. 770 (1953) (quoting
Woodrow Wilson, Congressional Government: A Study in
A merican Politics, 303). Thus, though not wholly distinct
from its legislative function, the informing function is
a critical responsibility uniquely granted to Congress
under Article I. See Landis, 40 HARV. L. REV. at 205
n.227 (describing the informing function as “implied and
inherent” within the legislative function).
In furtherance of these duties, Congress’s power
to investigate is “broad.” Watkins, 354 U.S. at 187. “It
encompasses inquiries concerning the administration
of existing laws as well as proposed or possibly needed
statutes. It includes surveys of defects in our social,
economic or political system for the purpose of enabling
the Congress to remedy them.” Id. In short, “[t]he scope of
the power of inquiry . . . is as penetrating and far-reaching
as the potential power to enact and appropriate under the
Constitution.” Barenblatt v. United States, 360 U.S. 109,
111, 79 S. Ct. 1081, 3 L. Ed. 2d 1115 (1959).
But Congress’s investigatory power is not unbounded.
The Constitution’s very structure puts limits on it. For
instance, the power to investigate may not “extend to an
area in which Congress is forbidden to legislate.” Quinn,
349 U.S. at 161. Nor may Congress “trench upon Executive
or judicial prerogatives.” McSurely v. McClellan, 521 F.2d
1024, 1038, 172 U.S. App. D.C. 364 (D.C. Cir. 1975). A prime
example of such overreach is exercising the “powers of
law enforcement; those powers are assigned under our
Constitution to the Executive and the Judiciary.” Quinn,
349 U.S. at 161. The Supreme Court has recognized other

181a
Appendix B
limits. Congress cannot “inquire into private affairs
unrelated to a valid legislative purpose.” Id. Nor is there a
“congressional power to expose for the sake of exposure.”
Watkins, 354 U.S. at 200. “The public is, of course, entitled
to be informed concerning the workings of its government.
That cannot be inflated into a general power to expose
where the predominant result can only be an invasion of
the private rights of individuals.” Id.22
B. Determining Whether Congress Has Acted
Legislatively
When a court is asked to decide whether Congress has
used its investigative power improperly, its analysis must
be highly deferential to the legislative branch. A number
of guideposts mark the way forward.
To start, the court must proceed from the assumption
“that the action of the legislative body was with a
legitimate object, if it is capable of being so construed, and
[the court] ha[s] no right to assume that the contrary was
intended.” McGrain, 273 U.S. at 178 (citation omitted). It
also “must presume that the committees of Congress will
exercise their powers responsibly and with due regard for
the rights of affected parties.” Exxon Corp., 589 F.2d at
589. So, when it appears that Congress is investigating
on a subject-matter in aid of legislating, “the presumption
22. Other limitations on Congress’s investigative powers can
be found in the Bill of Rights. See Quinn, 349 U.S. at 161. Plaintiffs
have not asserted that disclosure of the records sought from Mazars
would implicate any “specific individual guarantees of the Bill of
Rights.” Id.; see generally Pls.’ Stmt.

182a
Appendix B
should be indulged that this was the real object.” McGrain,
273 U.S. at 178.
An important corollary to this presumption of
regularity is that courts may not “test[] the motives of
committee members” to negate an otherwise facially
valid legislative purpose. Watkins, 354 U.S. at 200; see
also Eastland, 421 U.S. at 508 (“Our cases make clear
that in determining the legitimacy of a congressional act
we do not look to the motives alleged to have prompted
it.”) (citation omitted). “So long as Congress acts in
pursuance of its constitutional power, the Judiciary lacks
authority to intervene on the basis of the motives which
spurred the exercise of that power.” Barenblatt, 360
U.S. at 132 (citation omitted). Thus, it is not the court’s
role to decipher whether Congress’s true purpose in
pursuing an investigation is to aid legislation or something
more sinister such as exacting political retribution. See
McSurely, 521 F.2d at 1038. If there is some discernable
legislative purpose, courts shall not impede Congress’s
investigative actions. See Watkins, 354 U.S. at 200 (“Their
motives alone would not vitiate an investigation which had
been instituted by a House of Congress if that assembly’s
legislative purpose is being served.”).
Although Congress’s motives are off limits, courts can
consider what Congress has said publicly to decide whether
it has exceeded its authority. See Shelton, 404 F.2d at 1297.
Relevant evidence includes the resolution authorizing the
investigation, statements by Committee members, and
questions posed during hearings. See id. At the same time,
the mere absence of public statements identifying the

183a
Appendix B
investigation’s purpose or subject matter is not, by itself,
conclusive proof of an invalid purpose. See McGrain, 273
U.S. at 176-78. Congress is not required to announce its
intentions in advance. See id. at 178. Similarly, it does not
matter if the investigation does not produce legislation.
See Eastland, 421 U.S. at 509. “The very nature of the
investigative function—like any research—is that it takes
the searchers up some ‘blind alleys’ and into nonproductive
enterprises. To be a valid legislative inquiry there need
be no predictable end result.” Id.; see also Townsend v.
United States, 95 F.2d 352, 355 (D.C. Cir. 1938) (Congress’s
“power to conduct a hearing for legislative purposes is
not to be measured by recommendations for legislation or
their absence.”). The critical inquiry then is not legislative
certainty, but legislative potential: If the subject matter of
the investigation is “one on which legislation could be had,”
Congress acts within its legislative function. McGrain, 273
U.S. at 177 (emphasis added); see also Eastland, 421 U.S.
at 504 n.15 (“The subject of any inquiry always must be one
‘on which legislation could be had.’”) (quoting McGrain,
273 U.S. at 177).
Once a court finds that an investigation is one upon
which legislation could be had, it must not entangle
itself in judgments about the investigation’s scope or the
evidence sought. Only an investigative demand that is
“plainly incompetent or irrelevant to any lawful purpose
of the [committee] in the discharge of its duties” will fail
to pass muster. McPhaul v. United States, 364 U.S. 372,
381, 81 S. Ct. 138, 5 L. Ed. 2d 136 (1960) (citation omitted)
(cleaned up). Importantly, in making this assessment, it
is not the judicial officer’s job to conduct a “line-by-line

184a
Appendix B
review of the Committee’s requests.” Bean LLC v. John
Doe Bank, 291 F. Supp. 3d. 34, 44 (D.D.C. 2018). “There is
no requirement that every piece of information gathered
in such an investigation be justified before the judiciary.”
McSurely, 521 F.2d at 1041.
And, finally, courts must take care not to be swayed
by the political conflicts of the day. Its role is not to act
as a political referee. As the Supreme Court cautioned in
Tenney v. Brandhove:
In times of political passion, dishonest or
vindictive motives are readily attributed to
legislative conduct and as readily believed.
Courts are not the place for such controversies.
Self-discipline and the voters must be the
ultimate reliance for discouraging or correcting
such abuses. The courts should not go beyond
the narrow confines of determining that a
committee’s inquiry may fairly be deemed
within its province.
341 U.S. 367, 378, 71 S. Ct. 783, 95 L. Ed. 1019 (1951).
IV. ANALYSIS
With these principles in mind, the court proceeds to
consider whether the Oversight Committee’s subpoena to
Mazars is “facially legislative in character,” McSurely,
521 F.2d at 1038, or whether it exceeds Congress’s power
to investigate. To answer that question, the court first
considers the legislative reasons offered by the Oversight

185a
Appendix B
Committee to justify the subpoena. It then addresses
Plaintiffs’ contentions why those reasons are invalid.
A.

Legislative Purpose for Issuing the Subpoena
to Mazars

Had the Oversight Committee adopted a resolution
that spells out the intended legislative purpose and
scope of its investigation, the court would have begun its
inquiry there. Indeed, the Supreme Court has considered
congressional resolutions as a primary source from which
to glean whether information “was sought . . . in aid of
the legislative function.” McGrain, 273 U.S. at 176; see
also Shelton, 404 F.2d at 1297 (observing that relevant
sources of evidence to “ascertain whether [an inquiry]
is within the broad investigative authority of Congress”
include “the resolution . . . authorizing the inquiry”).
However, the Committee never adopted one. While a
clearly drafted resolution would have made this court’s
task easier or might have preempted the challenge now
brought altogether, it is not a constitutional prerequisite
to start an investigation. Cf. McGrain, 273 U.S. at 178.
Without a resolution as a point of reference, the
logical starting point for identifying the purpose of the
Mazars subpoena is the memorandum to Members of the
Oversight Committee written by Chairman Cummings
on April 12, 2019. Chairman Cummings penned that
Memorandum in anticipation of issuing the subpoena. It
is therefore the best evidence of the Committee’s purpose.
The Memorandum lists four areas of investigation: (1)
“whether the President may have engaged in illegal

186a
Appendix B
conduct before and during his tenure in office,” (2)
“whether he has undisclosed conflicts of interest that may
impair his ability to make impartial policy decisions,” (3)
“whether he is complying with the Emoluments Clauses
of the Constitution,” and (4) “whether he has accurately
reported his finances to the Office of Government Ethics
and other federal entities.” Cummings’ April 12th Mem.
at 4. Each of these is a subject “on which legislation could
be had.” McGrain, 273 U.S. at 177.
Taking the reasons in reverse order, the accuracy of
the President’s financial reporting relates directly to the
law that requires it: The Ethics in Government Act of
1978. See 5 U.S.C. App. 4 § 101 et seq. In his letter to the
White House Counsel dated February 15, 2019, Chairman
Cummings alluded to how documents relating to the
accuracy of the President’s disclosures fell within the
legislative purview of Congress: “Since the earliest days
of our republic, Congress has investigated how existing
laws are being implemented and whether changes to the
laws are necessary. For decades, this has included laws
relating to financial disclosures required of the President.”
Cummings’ February 15th Letter at 9. As to the specific
demand made on February 15th, which related to the
payments by Michael Cohen and the President’s failure to
publicly report them as a liability, Chairman Cummings
explained that “[t]hese documents will help the Committee
determine why the President failed to report these
payments and whether reforms are necessary to address
deficiencies with current laws, rules, and regulations.” Id.
(emphasis added). This legislative rationale applies equally
to the financial records requested by the Mazars subpoena.

187a
Appendix B
Congress reasonably might consider those documents in
connection with deciding whether to legislate on federal
ethics laws and regulations. For example, the discovery
of additional disclosure violations by the President could
influence whether Congress strengthens public reporting
requirements or enhances penalties for non-compliance.
Thus, there can be little doubt that Congress’s interest in
the accuracy of the President’s financial disclosures falls
within the legislative sphere.
Investigating whether the President is abiding by
the Foreign Emoluments Clause is likewise a subject
on which legislation, or similar congressional action,
could be had. The Foreign Emoluments Clause prohibits
the President from “accept[ing]” any “Emolument”
from “any King, Prince, or foreign State” without the
“Consent of the Congress.” U.S. Const. art. I, § 9, cl. 8.
The Constitution thus expressly vests in Congress the
unique authority to approve the President’s acceptance
of “Emoluments,” however one defines that term. See
generally Blumenthal v. Trump, No. 17-1154 (EGS), 373
F. Supp. 3d 191, 2019 U.S. Dist. LEXIS 72431, 2019 WL
1923398 (D.D.C. Apr. 30, 2019). Even under the President’s
favored interpretation, the Clause, at a minimum, “was
intended to combat corruption and foreign influence . . .”
2019 U.S. Dist. LEXIS 72431, [WL] at *8. Surely, incident
to Congress’s authority to consent to the President’s
receipt of Emoluments is the power to investigate the
President’s compliance with the Clause. Without such
power, Congress’s constitutional function to approve or
disapprove Emoluments would be severely and unduly
constrained. The Founders could not have intended that

188a
Appendix B
result. A congressional investigation to carry out an
expressly delegated Article I function, in addition to any
legislation that might be had relating to that function, is
plainly valid. 23
So, too, is an investigation to determine whether
the President has any conflicts of interest. As already
discussed, it lies within Congress’s province to legislate
regarding the ethics of government officials. Indeed,
exposing conflicts of interest is one of the core objectives
of the Ethics in Government Act. As the D.C. Circuit has
observed, “the Act shows Congress’[s] general belief that
public disclosure of conflicts of interest is desirable despite
its cost in loss of personal privacy.” Washington Post Co. v.
U.S. Dep’t of Health & Human Servs., 690 F.2d 252, 265,
223 U.S. App. D.C. 139 (D.C. Cir. 1982). Obtaining records
to shed light on whether the President has undisclosed
conflicts of interests is therefore entirely consistent with
potential legislation in an area where Congress already
has acted and made policy judgments.
23. To be clear, even if Congress’s authority to approve the
President’s receipt of Emoluments is technically not a “legislative”
act, the court doubts that the Supreme Court would read its precedent
to foreclose Congress from investigating an Emoluments Clause
violation based on a semantic distinction. The fact is, no court has
ever been asked to address the extent of Congress’s power to police
the Emoluments Clause. Therefore, it should come as no surprise
that there is no case holding that Congress may exercise its power to
investigate in relation to that Clause. But just as Congress’s authority
to legislate is expressly rooted in Article I, so too is its power to
consent to presidential receipt of Emoluments. If Congress’s power
to investigate is incidental to its legislative function, it likewise must
be incidental to carry out its Foreign Emoluments Clause function.

189a
Appendix B
Finally, a congressional investigation into “illegal
conduct before and during [the President’s] tenure in
office,” Cummings’ April 12th Mem. at 4, fits comfortably
within the broad scope of Congress’s investigative powers.
At a minimum, such an investigation is justified based
on Congress’s “informing function,” that is, its power
“to inquire into and publicize corruption,” Watkins, 354
U.S. at 200 n.33. 24 It is simply not fathomable that a
Constitution that grants Congress the power to remove a
President for reasons including criminal behavior would
deny Congress the power to investigate him for unlawful
conduct —past or present — even w ithout formally
opening an impeachment inquiry. On this score, history
provides a useful guide. Cf. Tobin v. United States, 306
F.2d 270, 275-76, 113 U.S. App. D.C. 110 (D.C. Cir. 1962)
(relying on historical practice to determine the scope
of a congressional investigation). Twice in the last 50
24. Plaintiffs suggested at oral argument that Congress’s
informing function was limited to rooting out corruption only in
“agencies” of the Government, and the President is not an “agency”
of the government. See Hr’g Tr. at 9, 75. Although footnote 33 in
Watkins refers to the informing function in connection with “agencies
of the Government,” Watkins, 354 U.S. at 200 n.33, the original
conception of that function as embraced by the Court in Rumely was
not so limited, see Rumely, 345 U.S. 41, 73 S. Ct. 543, 97 L. Ed. 770.
Rumely spoke more generally of shining a light on “every affair of
government” and “the acts and the disposition of the administrative
agents of the government,” without qualification. Id. at 43. Watkins’
reference to administrative agencies is therefore better understood
as a case-specific statement—the investigation there involved the
Attorney General—rather than a limiting principle. Plaintiffs’
artificial line-drawing is antithetical to the checks and balances
inherent in the Constitution’s design.

190a
Appendix B
years Congress has investigated a sitting President for
alleged law violations, before initiating impeachment
proceedings. It did so in 1973 by establishing the Senate
Select Committee on Presidential Campaign Activities,
better known as the Watergate Committee, and then did
so again in 1995 by establishing the Special Committee
to Investigate Whitewater Development Corporation and
Related Matters. See S. Res. 60 (93rd Cong., 1st Session)
(Feb. 7, 1973) [hereinafter Watergate Res.]; see also S.
Res. 120 (104th Cong., 1st Session) (May 17, 1995). The
former investigation included within its scope potential
corruption by President Nixon while in office, while the
latter concerned alleged illegal misconduct by President
Clinton before his time in office. Congress plainly views
itself as having sweeping authority to investigate illegal
conduct of a President, before and after taking office. This
court is not prepared to roll back the tide of history. 25
Before moving on to Plaintiffs’ arguments, the court
notes that the Oversight Committee has identified several
pieces of actual legislation that, it asserts, are related to
its overall investigation of the President. See Oversight
Committee’s Opp’n to Pls.’ Mot. for Prelim. Injunction,
ECF No. 20, at 5-6. The House has passed H.R. 1, which
requires, among other things, the President and Vice
25. Even if an investigation into a sitting President’s past or
present illegal conduct lies beyond the Oversight Committee’s reach,
its investigation here still would be legitimate because the Committee
identified three other justifications with a valid legislative purpose.
See McGrain, 273 U.S. at 176-77 (rejecting lower court’s opinion
striking down a congressional investigation because the investigation
“contemplat[ed] the taking of action other than legislative”).

191a
Appendix B
President to file new financial disclosure forms within 30
days of taking office, and to divest all financial interests
that would pose a conflict of interest by “either converting
those interests to cash or investments that satisfy ethics
rules or placing those interests in a qualified blind trust
or disclosing information about business interests.” Id.
at 6 (citing H.R. 1, 116th Cong., Title VIII (2019)). Other
bills cited by the Oversight Committee include H.R.
745, which would strengthen the Office of Government
Ethics, and H.R. 706, which would prohibit the President
and Vice President from conducting business directly
with the Federal Government. See id. (citing H.R. 745,
116th Cong. (2019); H.R. 706, 116th Cong. (2019)). There
is no mention of any of these bills in any written request
from the Oversight Committee, let alone the April 12th
Memorandum justifying the Mazars subpoena. That
absence is not fatal, however. Again, the question for the
court is whether the congressional investigation pertains
to a subject matter on which legislation could be had,
so Congress need not proactively identify any specific
legislation to justify its activities. Here, the bills identified
by the Oversight Committee demonstrate Congress’s
intent to legislate, at the very least, in the areas of
ethics and accountability for Executive Branch officials,
including the President. These are subjects, therefore, on
which legislation could be had.
B. Plaintiffs’ Contentions
The court now turns to Plaintiffs’ contentions.
Each of Plaintiffs’ arguments for why the Mazars
subpoena exceeds Congress’s Article I investigative

192a
Appendix B
power fall into one of three general categories. First, by
characterizing the Oversight Committee’s investigation
as one delving “into the accuracy of a private citizen’s
past financial statements,” Plaintiffs contend that the
Oversight Committee is engaged in “a quintessential law
enforcement task reserved to the executive and judicial
branches.” Pls.’ Stmt. at 11. Plaintiffs similarly contend
that an investigation into the accuracy of the President’s
financial disclosures, his adherence to the Emoluments
Clauses, and his present or past compliance with the
law is “law enforcement” activity that encroaches on the
prerogatives of the coordinate branches. Hrg. Tr. at 7,
13-18, 25. Second, Plaintiffs charge that the Oversight
Committee’s investigation “has nothing to do with
government oversight,” but is instead intended to expose
for the mere sake of exposure “the conduct of a private
citizen years before he was even a candidate for public
office . . .” Pls.’ Stmt. at 11. Finally, Plaintiffs maintain
that the Oversight Committee has exceeded its authority,
insofar as it is doing nothing more than “conduct[ing]
roving oversight of the President,” and the records
sought from Mazars are not “pertinent” to any legitimate
legislative purpose. Pls.’ Reply in Support of Pls.’ Mot. for
Prelim. Injunction, ECF No. 24 [hereinafter Pls.’ Reply],
at 11-12. The court addresses each of these arguments
in turn.
1.

Usurpation of Executive and Judicial
Functions

Plaintiffs first assert that each of the four justifications
for the Mazars subpoena identified by Chairman Cummings

193a
Appendix B
in the April 12th Memorandum falls outside the bounds
of legislative power, because each seeks to determine
whether the President broke the law, a function reserved
exclusively to the Executive and Judicial branches. See
id. at 13-14. That argument, however, rests on a false
premise. Just because a congressional investigation
has the potential to reveal law violations does not mean
such investigation exceeds the legislative function. The
Supreme Court’s understanding of a “legislative” purpose
is not so constrained.
To be certain, the Supreme Court has said that the
“power to investigate must not be confused with any
of the powers of law enforcement; those powers are
assigned under our Constitution to the Executive and the
Judiciary.” Quinn, 349 U.S. at 161; see also Watkins, 354
U.S. at 187 (“Nor is the Congress a law enforcement or
trial agency.”). But that limitation is not so absolute as to
foreclose Congress from investigating any law violation
by a private citizen, let alone a sitting President, so long
as Congress is operating with a legislative purpose. As
the Court explained in Sinclair v. United States:
It may be conceded that Congress is without
authority to compel disclosures for the purpose
of aiding the prosecution of pending suits; but
the authority of that body, directly or through
its committees, to require pertinent disclosures
in aid of its own constitutional power is not
abridged because the information sought to be
elicited may also be of use in such suits.

194a
Appendix B
279 U.S. 263, 295, 49 S. Ct. 268, 73 L. Ed. 692 (1929). Thus,
the Court has made clear that the mere prospect that a
congressional inquiry will expose law violations does not
transform a permissible legislative investigation into a
forbidden executive or judicial function. See McGrain,
273 U.S. at 179-80 (“Nor do we think it a valid objection to
the investigation that it might possibly disclose crime or
wrongdoing on [the Attorney’s General’s] part.”); see also
Townsend, 95 F.2d at 355 (describing McGrain as holding
that “the presumption should be indulged that the object
of the inquiry was to aid the Senate in legislating . . . even
though the investigation might possibly disclose crime
or wrongdoing on the part of the then Attorney General,
whose name was expressly referred to in the resolution”).
Moreover, appellate courts have demanded exacting
proof before declaring that Congress has impermissibly
intruded into exclusive executive or judicial territories.
According to the Supreme Court, “[t]o find that a
committee’s investigation has exceeded the bounds of
legislative power it must be obvious that there was a
usurpation of functions exclusively vested in the Judiciary
or the Executive.” Tenney, 341 U.S. at 378 (emphasis
added). Similarly, the D.C. Circuit has said that Congress
avoids trenching upon executive or judicial prerogatives
“so long as [the investigative activity] remains facially
legislative in character.” McSurely, 521 F.2d at 1038.
Therefore, a congressional investigation that seeks to
uncover wrongdoing does not, without more, exceed the
scope of Congress’s authority.

195a
Appendix B
In this case, there is nothing “obvious” about
the Oversight Committee’s activities to support the
conclusion that the subpoena to Mazars is a usurpation
of an exclusively executive or judicial function. Nothing
“give[s] warrant for thinking the [Oversight Committee
is] attempting or intending to try [the President] at its
bar or before its committee for any crime or wrongdoing.”
McGrain, 273 U.S. at 179. Nor is there evidence before
the court that the Oversight Committee initiated its
investigative activities at the behest of federal or state law
enforcement officials, or is coordinating its actions with
such officials. If anything, the evidence is to the contrary.
The Executive Branch is clearly not coordinating with
Congress, as it continues to resist calls to disclose records
relating to the President’s actions in areas arguably well
within Congress’s investigative powers.26 The Committee’s
stated purposes, therefore, do not usurp judicial or
executive functions.
To support their position, Plaintiffs point out that
(1) the Mazars subpoena arose out of the testimony of
Michael Cohen—“an admitted perjurer,” Pls.’ Stmt. at 4;
(2) the records sought relate primarily to the President’s
personal and financial interests years before he became
26. See, e.g., Carol D. Leonnig, et al., No ‘Do-Over’ on
Mueller Probe, White House Lawyer Tells House Panel, Saying
Demands for Records, Staff Testimony Will be Refused, WASH.
POST, May 15, 2019, https://www.washingtonpost.com/politics/
no-do-over-on-mueller-probe-white-house-lawyer-tells-housepanel-say ing-demands-for-records-staff-testimony-w ill-berefused/2019/05/15/1ad19728-7715-11e9-b3f5-5673edf2d127_story_
html?utm_term=.b67bc595c86a (last visited May 20, 2019).

196a
Appendix B
a candidate, id. at 11; and (3) Chairman Cummings
admitted that the Mazars subpoena was intended to
“investigate whether the President may have engaged
in illegal conduct before and during his tenure in office,”
Cummings’ April 12th Mem. at 4. In addition, Plaintiffs
cite to statements made by Chairman Cummings before
he issued the Mazars subpoena. For instance, in his March
20th letter to Mazars, Chairman Cummings focused solely
on Michael Cohen’s allegations that President Trump
misrepresented his assets and liabilities and made no
mention of a legislative purpose for obtaining the records.
See Cummings’ March 20th Letter; see also First Supp.
Decl. at 5-9. Additionally, Plaintiffs offer a November 2018
Vox article that quotes Chairman Cummings as saying,
“[w]e’ve got to address this issue of exposing President
Trump and what he has done, and we’ve got to face the
truth . . . The [P]resident is a guy who calls truth lies and
lies truth. But at some point, he’s also creating policy,
and that’s affecting people’s day-to-day life.” First Supp.
Decl. at 42. Plaintiffs also provide a Politico article in
which Chairman Cummings is quoted as saying, “[o]ver
the last two years President Trump set the tone from
the top in his administration that behaving ethically and
complying with the law is optional . . . We’re better than
that.” Id. at 54. None of these facts, individually or taken
together, make for an “obvious” “usurpation of functions
exclusively vested in the Judiciary or the Executive.”
Tenney, 341 U.S. at 378.
History has shown that congressionally-exposed
criminal conduct by the President or a high-ranking
Executive Branch official can lead to legislation. The

197a
Appendix B
Senate Watergate Committee provides an apt example.
That Committee’s express mandate was to investigate
“the extent, if any, to which illegal, improper, or
unethical activities were engaged in by any persons,
acting either individually or in combination with others,
in the presidential election of 1972, or in any related
campaign or canvass conducted by or [o]n behalf of any
person seeking nomination or election as the candidate
. . . for the office of President . . .” Watergate Res. at 1-2.
As a consequence of the Committee’s work, Congress
passed numerous pieces of legislation—among them, the
Ethics in Government Act, the Congressional Budget
and Impoundment Control Act of 1974, the War Powers
Resolution, and the Independent Counsel Statute—with
objectives to “open up the operation of the presidency to
greater public oversight, subject[] the presidency to legal
checks by other branches or institutions of government
and, more generally, impose[] rule of law principles to
more and more types of presidential decision making.”
Michael A. Fitts, The Legalization of the Presidency:
A Twenty-Five Year Watergate Retrospective, 43 ST.
LOUIS UNIV. LAW J. 725, 726 (1999). The Teapot Dome
Scandal provides another illustration. That congressional
investigation concerned the award of a no-bid contract
to lease federal oil reserves in Wyoming. Congress’s
investigation revealed that the Secretary of Interior
had accepted bribes from the oil companies that were
awarded the leases. This discovery motivated Congress
to enact several good-government reforms, including the
Revenue Act of 1924 and the Federal Corrupt Practices
Act of 1925. See James Sample, The Last Rites of Public
Campaign Financing?, 92 NEB. L. REV. 349, 363 (2013).

198a
Appendix B
See also Lawrence A. Zelenak & Marjorie E. Kornhauser,
Shaping Public Opinion and the Law: How a “Common
Man” Campaign Ended a Rich Man’s Law, 73 LAW &
CONTEMP. PROBS. 123, 126 (2010). This court is in no
position to say that an equally ambitious legislative agenda
might not arise out of the current era of congressional
investigations of the presidency.
2.

Investigation of Private Affairs

Plaintiffs next accuse the Oversight Committee of
issuing the subpoena to Mazars simply to investigate the
private affairs of a citizen. See Pls.’ Stmt. at 9, 11. This
argument fares no better than Plaintiffs’ first.
More than a century ago, in Kilbourn v. Thompson,
the Supreme Court stated that Congress does not possess
“the general power of making inquiry into the private
affairs of the citizen.” 103 U.S. 168, 190, 26 L. Ed. 377
(1880). In the ensuing decades, the Supreme Court
repeatedly has affirmed that constraint on Congress’s
investigative powers. See, e.g., McGrain, 273 U.S. at
173-74; Quinn, 349 U.S. at 161; Eastland, 421 U.S. at
504 n.15. But Kilbourn is the high-water mark for that
limiting principle. In the nearly 140 years since Kilbourn,
neither the Supreme Court nor any circuit court has found
a congressional investigation unconstitutional because
it invades the “private affairs of the citizen.” Indeed,
years later, in the context of warning courts to be wary
of declaring a congressional inquiry unconstitutional, the
Supreme Court acknowledged Kilbourn’s shortcomings:

199a
Appendix B
Experience admonishes us to tread warily in
this domain. The loose language of Kilbourn
v. Thompson, 103 U.S. 168, 26 L. Ed. 377,
the weighty criticism to which it has been
subjected, see, e.g., Fairman, Mr. Justice
Miller and the Supreme Court, 332-334;
Landis, Constitutional Limitations on the
Congressional Power of Investigation, 40
Harv. L. Rev. 153, the inroads that have been
made upon that case by later cases, McGrain v.
Daugherty, 273 U.S. 135, 170-171, 47 S. Ct. 319,
71 L. Ed. 580, and Sinclair v. United States, 279
U.S. 263, 49 S. Ct. 268, 73 L. Ed. 692, strongly
counsel abstention from adjudication unless no
choice is left.
Rumely, 345 U.S. at 46 (alternations added). Accordingly,
although the notion from Kilbourn that Congress does
not have the general power to investigate into personal
affairs remains alive today, the case is largely impotent
as a guiding constitutional principle. See Landis, 40
HARV. L. REV. at 220 (“But no standard for judgment
can be developed from Kilbourn v. Thompson. Its
result contradicts an unbroken Congressional practice
continuing even after the decision, with the increasing
realization that committees of inquiry are necessary in
order to make government effectively responsible to the
electorate.”).
How then to measure whether Congress has ventured
into impermissible territory of investigating the personal
affairs of a private citizen? The Supreme Court has

200a
Appendix B
provided some guidance. In Quinn, the Court said that
Congress cannot use its investigative power “to inquire
into private affairs unrelated to a valid legislative
purpose.” 349 U.S. at 161 (emphasis added). Similarly, in
Watkins, the Court stated that: “The public is, of course,
entitled to be informed concerning the workings of its
government. That cannot be inflated into a general power
to expose where the predominant result can only be an
invasion of the private rights of individuals.” 354 U.S. at
200 (emphasis added). Thus, the question the court must
ask is whether the Oversight Committee’s investigation
into the President’s personal affairs is fully divorced from
any legislative purpose.
Indulging in the presumption that when Congress
acts it does so for a proper reason, the court cannot say
that the records sought from Mazars are “unrelated to
a valid legislative purpose” or that the “predominant
result can only be an invasion of” the President’s private
affairs. As discussed above, legislation could stem from
the Oversight Committee’s investigation of the President’s
personal and corporate finances and the possible conflicts
of interest under which he is operating. Thus, the potential
presence of some intent to “ridicule, harass, or punish” the
President cannot overcome this facially valid legislative
purpose. McSurely, 521 F.2d at 1038.
In their Complaint and in their supplemental
evidentiary submissions, Plaintiffs reference various
statements from Democratic Members of Congress and
congressional aides to the effect that Democrats are
intending to use their subpoena power to exact political

201a
Appendix B
retribution. See Compl. ¶¶ 27-30; see also First Supp. Decl.
at 35-79. For instance, one Congressman is quoted as
saying, “We’re going to have to build an air traffic control
tower to keep track of all the subpoenas flying from here
to the White House.” Compl. ¶ 29. Another unnamed
Democratic official said that House Democrats were
preparing a “subpoena cannon” to fire at the President.
Id. Plaintiffs urge that these and similar statements
reveal that the Democrats’ true motive is to embarrass
and harass the President, which cannot be cured by the
Committee’s “retroactive rationalizations” in the April
12th Memorandum. Hr’g Tr. at 8.
Even if the court were to take these statements at face
value—at best, a dubious evidentiary proposition given
that these individuals do not control the actions of the
Oversight Committee—they make no material difference.
The case law makes clear that “motives alone would not
vitiate an investigation which had been instituted by a
House of Congress if that assembly’s legislative purpose
is being served.” Watkins, 354 U.S. at 200. In Watkins,
the petitioner “marshalled an impressive array of evidence
that some Congressmen have believed that” their duty
“was to bring down upon himself and others the violence
of public reaction because of their past beliefs, expressions
and associations.” Id. at 199. This evidence did not,
however, carry the day with the Supreme Court because
Congress also had a legitimate legislative purpose for its
investigation. Id. at 200. Likewise, in McGrain, the Court
rejected a lower court’s decision echoing the arguments
Plaintiffs advance here: “The extreme personal cast of
the original resolutions; the spirit of hostility towards the

202a
Appendix B
then Attorney General which they breathe; that it was not
avowed that legislative action was had in view until after
the action of the Senate had been challenged; and that the
avowal then was coupled with an avowal that other action
was had in view—are calculated to create the impression
that the idea of legislative action being in contemplation
was an afterthought.” McGrain, 273 U.S. at 176. The
Court held that the lower court was “wrong,” because “the
subject [of the investigation] was one on which legislation
could be had.” Id. at 177. In short, as long as there is a
facially valid legislative purpose for the investigation,
Congress acts within its constitutional authority. That is
the case here. 27
3.

Pertinency of the Records Request

Plaintiffs’ third and final challenge rests on the
“pertinency” of the records requested from Mazars. See
Pls.’ Reply at 12-14. This argument takes multiple forms,
none of which are persuasive.
27. For this same reason, the forceful dissenting statements of
the Ranking Member of the Oversight Committee, Congressman Jim
Jordan, do not change the court’s calculus. The Ranking Member
views the Committee’s investigation as without legislative purpose,
and its sole design to harass and embarrass the President. See
Second Decl. of William S. Consovoy, ECF No. 34; Ex. B, Letter
from the Honorable Jim Jordan, Ranking Member, House Comm.
on Oversight & Reform, to the Honorable Elijah E. Cummings,
Chairman, House Comm. on Oversight & Reform (May 15, 2019).
But, again, so long as lawmaking could follow from the Committee’s
investigation, any attendant political purpose does not make the
inquiry unconstitutional.

203a
Appendix B
To begin, according to Plaintiffs, for the Mazars
subpoena to be valid the records sought must be
“‘reasonably relevant’ to [the subpoena’s] legitimate
legislative purpose,” and the records demanded fail
that test. Id. at 13 (citing McPhaul, 364 U.S. at 381-82).
This argument suffers from two problems. The first is
that Plaintiffs conflate the concept of “pertinency” with
the notion of “relevancy” as used in civil proceedings.
“Pertinency” does not require the court to ask, as it
would in a civil discovery dispute, whether the documents
requested are likely to yield useful evidence. Instead,
pertinency “is a jurisdictional concept . . . drawn from the
nature of a congressional committee’s source of authority.”
Watkins, 354 U.S. at 206. The concept appears most often
in the context of a criminal conviction for contempt of
Congress, in which a person has refused to comply with
a subpoena or answer questions posed at a hearing.
Pertinency, in this setting, is an element of criminal
contempt. See 2 U.S.C. § 192 (making it a misdemeanor for
a person summoned as a witness before Congress either to
not appear or, if “having appeared, [to] refuse[] to answer
any question pertinent to the question under inquiry
. . .”) (emphasis added). The pertinency inquiry therefore
asks whether the question posed to a witness is one that
fell within the scope of the Committee’s investigative
authority, which typically is defined by the resolution
authorizing the investigation. See Watkins, 354 U.S. at
207-10; Sinclair, 279 U.S. at 292 (stating that, under the
contempt statute, “a witness rightfully may refuse to
answer where the bounds of the power are exceeded or
where the questions asked are not pertinent to the matter
under inquiry”). This is not a contempt case and therefore

204a
Appendix B
the pertinency inquiry, properly understood, has no role
here.
But even if the court were to treat pertinency as akin
to a relevance determination, that test is satisfied here.
The standard adopted by the Supreme Court is a forgiving
one. The subpoenaed records need only be “not plainly
incompetent or irrelevant to any lawful purpose [of the
Committee] in the discharge of its duties.” McPhaul, 364
U.S. at 381 (cleaned up). Here, the Oversight Committee
has shown that it is not engaged in a pure fishing expedition
for the President’s financial records. It is undisputed that
the President did not initially identify as liabilities on
his public disclosure forms the payments that Michael
Cohen made to alleged mistresses during the presidential
campaign. 28 Furthermore, Michael Cohen has pleaded
guilty to campaign finance violations arising from those
payments. 29 These events, when combined with Cohen’s
testimony and the financial statements he supplied, make it
reasonable for the Oversight Committee to believe that the
records sought from Mazars might reveal other financial
transgressions or improprieties. As already discussed, it is
not unreasonable to think that the Mazars records might
assist Congress in determining whether ethics statutes or
regulations need updating to strengthen Executive Branch
accountability, promote transparency, and protect against
28. Letter from David J. Apol, supra n.10.
29. See Mark Mazzetti, et al., Cohen Pleads Guilty and Details
Trump’s Involvement in Moscow Tower Project, N.Y. TIMES, Nov.
29, 2018, https://www.nytimes.com/2018/11/29/nyregion/michaelcohen-trump-russia-mueller.html (last visited May 20, 2019).

205a
Appendix B
Executive Branch officials operating under conflicts of
interest. Additionally, the Mazars records could provide
the Oversight Committee with clues about the President’s
foreign interests or sources of foreign income, if any, which
would assist in determining Congress’s obligations under
the Foreign Emoluments Clause. This concern is not a
new one. In other letters seeking records, one sent to the
Trump Organization and the other to the GSA, Chairman
Cummings expressly stated that the records sought would
be useful in assessing the President’s compliance with
the Foreign Emoluments Clause. See n. 7 & 8, supra.
The records from Mazars likewise could advance this
legislative purpose. Pertinency, to the extent it may apply,
is thus satisfied.
Two more arguments remain. First, Plaintiffs
insist that the Oversight Committee cannot be seeking
pertinent material because the legislative actions
contemplated “extend to an area in which Congress is
forbidden to legislate,” Quinn, 349 U.S. at 161. See Pls.’
Reply at 15-16. For example, Plaintiffs argue that H.R.
1 is unconstitutional insofar as it adds qualifications for
the presidency beyond those contained in Article II of
the Constitution. See id. at 16. More broadly, Plaintiffs
maintain that any regulation of the “President’s finances
or conflicts of interest” would be unconstitutional for the
same reason. Id.
Plaintiffs’ contention flies in the face of decades of
legislation covering the President. For example, the
Ethics in Government Act requires the President to
report the source, type, and amount of certain income and

206a
Appendix B
assets to the Office of Government Ethics. See 5 U.S.C.
App. 4 §§ 101(a), (f); id. §§ 102(a), (b); id. § 103(b). The
Stop Trading on Congressional Knowledge Act of 2012
provides that no “executive branch employee,” including
the President, may use “nonpublic information derived
from such person’s position” “as a means for making a
private profit,” and further states that “executive branch
employees,” including the President, “owe[] a duty arising
from a relationship of trust and confidence to the United
States Government and the citizens of the United States
with respect to material, nonpublic information derived
from [their] position.” Pub. Law No. 112-105 § 9. And, the
Presidential Records Act “directs the President to ‘take
all such steps as may be necessary to assure that the
activities, deliberations, decisions, and policies that reflect
the performance of his constitutional, statutory, or other
official or ceremonial duties are adequately documented
and that such records are maintained as Presidential
records.’” Armstrong v. Bush, 924 F.2d 282, 285, 288 U.S.
App. D.C. 38 (D.C. Cir. 1991) (citing 44 U.S.C. § 2203).
Plaintiffs’ argument, if accepted, would wipe out some,
and perhaps all, of these statutes.
But there is an even more fundamental problem
with Plaintiffs’ position. It is not the court’s role in this
context to evaluate the constitutionality of proposed
or contemplated legislation. Doing so would go beyond
its limited powers. The Supreme Court said as much
in Rumely: “Whenever constitutional limits upon the
investigative power of Congress have to be drawn by
this Court, it ought only to be done after Congress has
demonstrated its full awareness of what is at stake by

207a
Appendix B
unequivocally authorizing an inquiry of dubious limits.
Experience admonishes us to tread warily in this domain.”
345 U.S. at 46. Consequently, courts must avoid declaring
an investigation by Congress unconstitutional, unless “no
choice is left.” See id. In this case, not only is there no need
to confront difficult constitutional questions, it would be
improper to do so. Federal courts do not “render advisory
opinions. For adjudication of constitutional issues ‘concrete
legal issues, presented in actual cases, not abstractions’
are requisite.” United Pub. Workers of Am. (C.I.O.),
et al., v. Mitchell, et al., 330 U.S. 75, 89, 67 S. Ct. 556, 91
L. Ed. 754 (1947) (citations omitted). The court here faces
only abstract constitutional questions about prospective
legislation that is not yet law. The court cannot declare
a congressional investigation unconstitutional in such illdefined circumstances. 30
Finally, Plaintiffs suggest that the court has
the authority to “narrow overbroad [congressional]
subpoenas,” and should consider doing so here. Pls.’
Reply at 13. But the federal courts enjoy no such power.
30. The D.C. Circuit’s decision in Tobin does not compel a
different result. 306 F.2d 270, 113 U.S. App. D.C. 110 (D.C. Cir. 1962).
If anything, Tobin advises courts to sidestep important constitutional
issues unless squarely presented and unavoidable. In Tobin, the
setting was review of a contempt conviction, which the Circuit found
“is not the most practical method of inducing courts to answer broad
questions broadly.” 306 F.2d at 274. This case is even less amenable
to resolving an important constitutional issue than Tobin. There
is no conviction or piece of legislation before the court to evaluate.
Assessing the constitutionality of a not-yet-enacted statute would be
the equivalent of answering a hypothetical question on a law school
exam. This court cannot engage in such an exercise.

208a
Appendix B
“A legislative inquiry may be as broad, as searching,
and as exhaustive as is necessary to make effective the
constitutional powers of Congress.” Townsend, 95 F.2d at
361 (citation omitted). “There is no requirement that every
piece of information gathered in such an investigation
be justified before the judiciary.” McSurely, 521 F.2d at
1041. The court therefore cannot “engage in a line-by-line
review” of the Mazars subpoena and narrow its demands.
Bean LLC, 291 F. Supp. 3d at 44; see also Senate Select
Committee on Ethics v. Packwood, 845 F. Supp. 17, 20
(D.D.C. 1994) (“This [c]ourt . . . has no authority to restrict
the scope of the Ethics Committee’s investigation.”).
V. REQUEST FOR STAY PENDING APPEAL
At the May 14th oral argument, Plaintiffs asked the
court to stay the return date of the subpoena beyond the
seven days already agreed upon by the parties, pending
final appellate review by the D.C. Circuit. See Hr’g Tr. at
77-78. The court declines to do so.
Federal Rule of Civil Procedure 62(c) authorizes a
district court to issue an injunction pending appeal. Fed.
R. Civ. P. 62(c). To obtain a stay pending appeal, the moving
party “must establish [1] that he is likely to succeed on
the merits, [2] that he is likely to suffer irreparable harm
in the absence of preliminary relief, [3] that the balance
of equities tips in his favor, and [4] that an injunction is in
the public interest.” See Winter v. NRDC, Inc., 555 U.S. 7,
20, 129 S. Ct. 365, 172 L. Ed. 2d 249 (2008); accord Cuomo
v. United States Nuclear Regulatory Com., 772 F.2d 972,
974, 249 U.S. App. D.C. 54 (D.C. Cir. 1985) (per curiam)

209a
Appendix B
(citing Wash. Metro. Area Transit Comm’n v. Holiday
Tours, Inc., 559 F.2d 841, 843, 182 U.S. App. D.C. 220
(D.C. Cir. 1977)). The court balances these factors on a
“sliding scale,” such that “a strong showing on one factor
could make up for a weaker showing on another.” Sherley
v. Sebelius, 644 F.3d 388, 392, 396 U.S. App. D.C. 1 (D.C.
Cir. 2011); see also Cigar Ass’n of Am. v. United States
FDA, 317 F. Supp. 3d 555, 560 (D.D.C. 2018).
As to the first factor, Plaintiffs have not shown that
their challenge to the Mazars subpoena presents “serious
legal questions going to the merits, so serious, substantial,
difficult as to make them a fair ground of litigation and
thus for more deliberative investigation.” Population Inst.
v. McPherson, 797 F.2d 1062, 1078, 254 U.S. App. D.C. 395
(D.C. Cir. 1986) (quoting Holiday Tours, 559 F.2d at 844).
None of the three grounds upon which Plaintiffs challenge
the subpoena rests on “potentially persuasive authority.”
John Doe Co. v. Consumer Financial Protection Bureau,
849 F.3d 1129, 1131, 428 U.S. App. D.C. 55 (D.C. Cir. 2017).
Indeed, Plaintiffs have cited no case since Kilbourn from
1880 in which the Supreme Court or the D.C. Circuit
has interfered with a congressional subpoena—because
it either intrudes on the law enforcement prerogatives
of the Executive or Judicial branches, seeks personal
information unrelated to a legislative purpose, or demands
records that lack “pertinency.” This case does not merit
becoming the first in nearly 140 years. 31
31. This case is unlike Eastland in which the D.C. Circuit by a
2-1 margin granted a stay to enforce subpoenas issued by Congress.
See United States Servicemen’s Fund v. Eastland, 488 F.2d 1252,
1256-57, 159 U.S. App. D.C. 352 (D.C. Cir. 1974), rev’d on other

210a
Appendix B
As for irreparable harm, this court has recognized
that “the disclosure of confidential information is, by its
very nature, irreparable ‘because such information, once
disclosed, loses its confidential nature.’” Robert Half Int’l
Inc. v. Billingham, 315 F. Supp. 3d 419, 433 (D.D.C. 2018)
(citations omitted). That concern is somewhat mitigated
here, however, because of the recipient of the records.
Unlike Robert Half Int’l, where the challenged disclosure
was to a market competitor, the disclosure here is made
to Congress, and the D.C. Circuit has held that “courts
must presume that the committees of Congress will
exercise their powers responsibly and with due regard
for the rights of affected parties.” Exxon, 589 F.2d at
589 (citation omitted). That said, the court is not naïve to
reality—a reality confirmed by the fact that the Oversight
Committee has said that the decision whether to make the
records public lies within its discretion. See Hr’g Tr. at 59.
Thus, there is a chance that some records obtained from
Mazars will become public soon after they are produced.
The second factor of irreparable harm therefore favors
a stay.
The final two factors—the balance of equities and the
public interest—merge when, as here, “the Government is
the opposing party.” Nken v. Holder, 556 U.S. 418, 435, 129
S. Ct. 1749, 173 L. Ed. 2d 550 (2009). These factors tip the
balance in favor of denying a stay. In Exxon, the plaintiff
had challenged Congress’s right to obtain records from
grounds, Eastland, 421 U.S. at 491. The court granted the stay
because the case presented “serious constitutional questions . . .”
Id. at 1256. No such “serious constitutional questions” are presented
here.

211a
Appendix B
the Federal Trade Commission that contained its trade
secrets. 589 F.2d at 586-87. The district court denied the
plaintiff’s request for injunctive relief. In affirming that
decision on appeal, the D.C. Circuit held that the public
interest favored Congress having access to the records.
The court stated that the plaintiff’s burden to obtain
injunctive relief was “considerably heightened by the
clear public interest in maximizing the effectiveness of
the investigatory powers of Congress . . . It would, then,
require an extremely strong showing by the appellants
to succeed in obtaining an injunction in light of the
compelling public interest in denying such relief.” Id. at
594 (emphasis added). The court concluded: “To grant
the injunction appellants request, this court would be
required to interfere with the operation of Congress, and
also to depart from traditional doctrine concerning the
availability of equitable relief.” Id. The same would be
true in this case. 32
The court is well aware that this case involves
records concerning the private and business affairs of
the President of the United States. But on the question
of whether to grant a stay pending appeal, the President
is subject to the same legal standard as any other litigant
that does not prevail. Plaintiffs have not raised a “serious
32. The court acknowledges that this case differs from Exxon
in one respect. Unlike Exxon, this case does involve records whose
public disclosure might give rise to “private injury.” 589 F.2d at
594. It is unclear, however, what proportion of the records at issue
in this case are truly “personal,” as opposed to corporate records.
The fact of some uncertain amount of private injury does not change
the court’s calculus.

212a
Appendix B
legal question[] going to the merits.” Population Inst., 797
F.2d at 1078. And, the balance of equities and the public
interest weigh heavily in favor of denying relief. The
risk of irreparable harm does not outweigh these other
factors. The court, therefore, will not stay the return date
of the subpoena beyond the seven days agreed upon by
the parties.
VI. CONCLUSION
For the foregoing reasons, the court will enter
judgment in favor of the House Oversight Committee and
against Plaintiffs. The court denies Plaintiffs’ request for
a stay pending appeal. A separate final order accompanies
this Memorandum Opinion.
Dated: May 20, 2019
/s/ Amit P. Mehta		
Amit P. Mehta
United States District Court Judge

213a
C THE UNITED
APPENDIX C —Appendix
ORDER OF
STATES COURT OF APPEALS FOR THE
DISTRICT OF COLUMBIA CIRCUIT,
DATED NOVEMBER 13, 2019
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-5142
DONALD J. TRUMP, et al.,
Appellants,
v.
MAZARS USA, LLP AND COMMITTEE ON
OVERSIGHT AND REFORM OF THE U.S. HOUSE
OF REPRESENTATIVES,
Appellees.
Filed on: November 13, 2019
Appeal from the United States District Court
for the District of Columbia
(No. 1:19-cv-01136)
On Petition for Rehearing En banc

214a
Appendix C
Before: Garland, Chief Judge; Henderson,* Rogers,
Tatel, Griffith, Srinivasan, Millett, Pillard,
Wilkins, K atsas,* and Rao,* Circuit Judges.
ORDER
Appellants’ petition for rehearing en banc and the
response thereto were circulated to the full court, and a
vote was requested. Thereafter, a majority of the judges
eligible to participate did not vote in favor of the petition.
Upon consideration of the foregoing, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Michael C. McGrail
Deputy Clerk

* Circuit Judges Henderson, Katsas, and Rao would grant the
petition.
A statement by Circuit Judge Katsas, with whom Circuit
Judge Henderson joins, dissenting from the denial of rehearing
en banc, is attached.
A statement by Circuit Judge Rao, with whom Circuit Judge
Henderson joins, dissenting from the denial of rehearing en banc,
is attached.

215a
Appendix C
K atsas , Circuit Judge, with whom Circuit Judge
Henderson joins, dissenting from the denial of rehearing
en banc:
If the competing opinions here demonstrate anything,
it is that this case presents exceptionally important
questions regarding the separation of powers among
Congress, the Executive Branch, and the Judiciary. For
the second time in American history, an Article III court
has undertaken to enforce a congressional subpoena for
the records of a sitting President. The first time that
was attempted, we took the case en banc, refused to
enforce the subpoena, and stressed that the availability of
impeachment foreclosed any conclusion that the records
at issue were “demonstrably critical to the responsible
fulfillment” of Congress’s legislative prerogatives, even
when Congress was investigating significant allegations
of presidential misconduct. Senate Select Comm. on
Presidential Campaign Activities v. Nixon, 498 F.2d 725,
731-33, 162 U.S. App. D.C. 183 (D.C. Cir. 1974) (en banc).
This case differs from Senate Select Committee in
two respects, but neither diminishes its comparative
importance. First, the subpoena at issue is directed not to
the President directly, but to an accounting firm holding
his personal financial records. Yet as Judge Rao has
explained, that difference in form does not matter, because
the subpoena in substance targets his records. Trump v.
Mazars USA, LLP, No. 19-5142, slip op. at 9-11 (Rao, J.,
dissenting). Second, Senate Select Committee involved
official communications over which the President had
asserted executive privilege, whereas this case involves

216a
Appendix C
personal records and no privilege assertion. But that
difference cuts in both directions. On the one hand, this
case does not implicate the President’s need to secure
candid advice from close governmental advisors—the
interest supporting a presidential communications
privilege covering various official-capacity records. See,
e.g., In re Sealed Case, 121 F.3d 729, 742-44, 326 U.S.
App. D.C. 276 (D.C. Cir. 1997). On the other hand, the
unavailability of that privilege creates an open season
on the President’s personal records. Under the panel’s
analysis, whenever Congress conceivably could pass
legislation regarding the President, it also may compel the
President to disclose personal records that might inform
the legislation. And precisely because such demands would
target his personal records, the President would have
no privilege-based ground for making the records even
“presumptively” unavailable. See id. at 744.
This threat to presidential autonomy and independence
is far greater than that presented by compulsory process
issued by prosecutors in criminal cases, as in United
States v. Nixon, 418 U.S. 683, 94 S. Ct. 3090, 41 L.
Ed. 2d 1039 (1974), or even by private plaintiffs in civil
cases, as in Clinton v. Jones, 520 U.S. 681, 117 S. Ct.
1636, 137 L. Ed. 2d 945 (1997). In those circumstances,
governing rules provide for trimming any requests to
avoid “embarrassment, oppression, or undue burden.”
Fed. R. Civ. P. 26(c)(1); see also Fed. R. Crim. P. 17(c)(2).
Moreover, the rules are applied by judges instructed that
avoiding “potential burdens on the President ... should
inform the conduct of the entire proceeding.” Clinton
v. Jones, 520 U.S. at 707. By contrast, under the panel’s

217a
Appendix C
uncompromising extension of McGrain v. Daugherty,
273 U.S. 135, 47 S. Ct. 319, 71 L. Ed. 580 (1927), and its
progeny to the President, the courts are powerless to
take comparable considerations into account. See Mazars
USA, LLP, slip op. at 23. Thus, the scope of required
disclosure is determined not by neutral judges applying
some form of rule-based interest balancing, but by the
whim of Congress—the President’s constitutional rival for
political power—or even, as in this case, by one committee
of one House of Congress. With regard to the threat to
the Presidency, “this wolf comes as a wolf.” Morrison v.
Olson, 487 U.S. 654, 699, 108 S. Ct. 2597, 101 L. Ed. 2d
569 (1988) (Scalia, J., dissenting).

218a
Appendix C
RAO, Circuit Judge, with whom Circuit Judge
Henderson joins, dissenting from the denial of rehearing
en banc:
I would grant rehearing en banc for the reasons
expressed in my dissent to the panel opinion. See Trump
v. Mazars USA, LLP, 940 F.3d 710, 748-84 (D.C. Cir. 2019)
(Rao, J., dissenting). The House Committee on Oversight
and Reform issued a subpoena to President Trump’s
accounting firm, Mazars USA, LLP, seeking evidence of
alleged illegal conduct by the President. The Committee has
relied throughout this litigation on Congress’s legislative
power as the authority for its subpoena. As I explained,
the Committee exceeded its constitutional authority when
it issued a legislative subpoena investigating whether the
President broke the law. See id. at 767-75. Investigations
of impeachable offenses simply are not, and never have
been, within the legislative power because impeachment is
a separate judicial power vested in Congress. The panel’s
analysis of these issues misapprehends the gravamen of
the Committee’s subpoena and glosses over the difficult
questions it raises for the separation of powers.
While Congress’s power to investigate as necessary
and proper to the legislative power is broad, this subpoena
is unprecedented. The Constitution and our historical
practice draw a sharp line between the legislative
and judicial powers of Congress. By upholding this
subpoena, the panel opinion has shifted the balance of
power between Congress and the President and allowed
a congressional committee to circumvent the careful
process of impeachment. The exceptionally important

219a
Appendix C
constitutional questions raised by this case justify
further review by our court. See generally Senate Select
Comm. on Presidential Campaign Activities v. Nixon,
498 F.2d 725, 162 U.S. App. D.C. 183 (D.C. Cir. 1974) (en
banc) (considering en banc the only case concerning the
propriety of a subpoena directed to a sitting President
pursuant to the legislative power and concluding that
the Senate committee responsible for investigating
the Watergate break-in lacked authority to subpoena
President Nixon).
Separately, I note that the Committee is wrong to
suggest that these questions are no longer of “practical
consequence” because the House has subsequently
authorized an impeachment inquiry. See Committee Br.
13 (citing H.R. Res. 660, 116th Cong. (Oct. 31, 2019)). From
the outset of its investigation, the Committee has relied
consistently and exclusively on the legislative power to
justify this subpoena. See Memorandum from Chairman
Elijah E. Cummings to Members of the Committee on
Oversight and Reform 4 (Apr. 12, 2019) (“The Committee’s
interest in these matters informs its review of multiple
laws and legislative proposals under our jurisdiction.”).
Throughout this litigation, the Committee has maintained
that it is “not here relying on impeachment power,”
Oral Arg. at 1:34:19-22, and both the panel opinion and
dissent agree that the Committee has never invoked
the impeachment power as the basis for this subpoena.
See Mazars, 940 F.3d at 726-27; id. at 767-71 (Rao, J.,
dissenting).

220a
Appendix C
The Committee’s suggestion that the current
impeachment inquiry somehow alters this case depends on
whether House Resolution 660 ratifies this subpoena. This
Circuit has not determined whether a defective subpoena
can be revived by after-the-fact approval. See Dombrowski
v. Burbank, 358 F.2d 821, 825, 123 U.S. App. D.C. 190 (D.C.
Cir. 1966) (“Whether this apparently approving action
by the full Subcommittee would serve as a nunc pro tunc
ratification and consequent validation of the subpoena for
all purposes, we need not decide.”), rev’d in part on other
grounds sub nom. Dombrowski v. Eastland, 387 U.S. 82,
87 S. Ct. 1425, 18 L. Ed. 2d 577 (1967). But we need not
confront that question here, because even assuming the
subpoena could be issued under the impeachment power,
the Committee has not reissued the subpoena pursuant to
that power and House Resolution 660 does not purport to
sweep previously issued subpoenas into the ambit of the
impeachment inquiry. Resolution 660 is explicitly forward
looking: it authorizes the Oversight Committee, inter alia,
to “continue [its] ongoing investigations as part of the
existing House of Representatives” impeachment inquiry.
H.R. Res. 660 § 1. In telling contrast, during the pendency
of this litigation, the House enacted Resolution 507, which
specifically claimed to ratify all “current and future
investigations, as well as all subpoenas previously issued”
relating to the President, pursuant to its “legislative
authority under Article I of the Constitution.” H.R. Res.
507, 116th Cong. (July 24, 2019). House Resolution 660 does
not even purport to ratify previously issued subpoenas,
so the authority for the subpoena in this case continues
to depend exclusively on the legislative power.

221a
Appendix C
Thus, the central question presented here remains
whether the Committee can issue this subpoena
investigating the alleged wrongdoing of the President
pursuant to the legislative power. This question is one
of exceptional importance, both for this case as well as
for the recurring disputes between Congress and the
Executive Branch.
I respectfully dissent from the denial of rehearing
en banc.

222a
Appendix D
APPENDIX D — CONSTITUTIONAL
PROVISIONS
U.S. Const. art. I, § 8
The Congress shall have Power To lay and collect Taxes,
Duties, Imposts and Excises, to pay the Debts and provide
for the common Defence and general Welfare of the
United States; but all Duties, Imposts and Excises shall
be uniform throughout the United States;
To borrow Money on the credit of the United States;
To regulate Commerce with foreign Nations, and among
the several States, and with the Indian Tribes;
To establish an uniform Rule of Naturalization, and
uniform Laws on the subject of Bankruptcies throughout
the United States;
To coin Money, regulate the Value thereof, and of foreign
Coin, and fix the Standard of Weights and Measures;
To provide for the Punishment of counterfeiting the
Securities and current Coin of the United States;
To establish Post Offices and post Roads;
To promote the Progress of Science and useful Arts,
by securing for limited Times to Authors and Inventors
the exclusive Right to their respective Writings and
Discoveries;

223a
Appendix D
To constitute Tribunals inferior to the supreme Court;
To define and punish Piracies and Felonies committed on
the high Seas, and Offences against the Law of Nations;
To declare War, grant Letters of Marque and Reprisal,
and make Rules concerning Captures on Land and Water;
To raise and support Armies, but no Appropriation of
Money to that Use shall be for a longer Term than two
Years;
To provide and maintain a Navy;
To make Rules for the Government and Regulation of the
land and naval Forces;
To provide for calling forth the Militia to execute the Laws
of the Union, suppress Insurrections and repel Invasions;
To provide for organizing, arming, and disciplining, the
Militia, and for governing such Part of them as may be
employed in the Service of the United States, reserving to
the States respectively, the Appointment of the Officers,
and the Authority of training the Militia according to the
discipline prescribed by Congress;
To exercise exclusive Legislation in all Cases whatsoever,
over such District (not exceeding ten Miles square) as
may, by Cession of particular States, and the Acceptance
of Congress, become the Seat of the Government of the
United States, and to exercise like Authority over all

224a
Appendix D
Places purchased by the Consent of the Legislature of
the State in which the Same shall be, for the Erection
of Forts, Magazines, Arsenals, dock-Yards, and other
needful Buildings;—And
To make all Laws which shall be necessary and proper
for carrying into Execution the foregoing Powers, and
all other Powers vested by this Constitution in the
Government of the United States, or in any Department
or Officer thereof.
U.S. Const. art. I, § 9, cl. 8
No Title of Nobility shall be granted by the United States:
And no Person holding any Office of Profit or Trust under
them, shall, without the Consent of the Congress, accept
of any present, Emolument, Office, or Title, of any kind
whatever, from any King, Prince, or foreign State.
U.S. Const. art. II, § 1, cl. 1
The executive Power shall be vested in a President of
the United States of America. He shall hold his Office
during the Term of four Years, and, together with the Vice
President, chosen for the same Term, be elected as follows.
U.S. Const. art. II, § 1, cl. 7
The President shall, at stated Times, receive for his
Ser vices, a Compensation, which shall neither be
encreased nor diminished during the Period for which he
shall have been elected, and he shall not receive within

225a
Appendix D
that Period any other Emolument from the United States,
or any of them.
U.S. Const. art. II, § 2
The President shall be Commander in Chief of the Army
and Navy of the United States, and of the Militia of the
several States, when called into the actual Service of the
United States; he may require the Opinion, in writing, of
the principal Officer in each of the executive Departments,
upon any Subject relating to the Duties of their respective
Offices, and he shall have Power to grant Reprieves and
Pardons for Offenses against the United States, except
in Cases of Impeachment.
He shall have Power, by and with the Advice and Consent
of the Senate, to make Treaties, provided two thirds of
the Senators present concur; and he shall nominate, and
by and with the Advice and Consent of the Senate, shall
appoint Ambassadors, other public Ministers and Consuls,
Judges of the supreme Court, and all other Officers of
the United States, whose Appointments are not herein
otherwise provided for, and which shall be established by
Law: but the Congress may by Law vest the Appointment
of such inferior Officers, as they think proper, in the
President alone, in the Courts of Law, or in the Heads of
Departments.
The President shall have Power to fill up all Vacancies
that may happen during the Recess of the Senate, by
granting Commissions which shall expire at the End of
their next Session.

226a
Appendix D
U.S. Const. art. II, § 3
He shall from time to time give to the Congress
Information of the State of the Union, and recommend
to their Consideration such Measures as he shall judge
necessary and expedient; he may, on extraordinary
Occasions, convene both Houses, or either of them, and in
Case of Disagreement between them, with Respect to the
Time of Adjournment, he may adjourn them to such Time
as he shall think proper; he shall receive Ambassadors
and other public Ministers; he shall take Care that the
Laws be faithfully executed, and shall Commission all the
Officers of the United States.

227a
Appendix E OF THE HOUSE
APPENDIX E — SUBPOENA
OF REPRESENTATIVES OF THE CONGRESS
OF THE UNITED STATES OF AMERICA, DATED
APRIL 15, 2019
SUBPOENA
BY AUTHORITY OF THE HOUSE OF
REPRESENTATIVES OF THE CONGRESS OF
THE UNITED STATES OF AMERICA
To Mazars USA LLP
You are hereby commanded to be and appear before the
Committee on Oversight and Reform of the House of
Representatives of the United States at the place, date,
and time specified below.
þ to produce the things identified on the attached
schedule touching matters of inquiry committed to said
committee or subcommittee; and you are not to depart
without leave of said committee or subcommittee.
Place of production: 2157 Rayburn House Office
Building, Washington DC 20515
Date: April 29, 2019
Time: 12:00 (noon)
 to testify at a deposition touching matters of inquiry
committed to said committee or subcommittee; and you
are not to depart without leave of said committee or
subcommittee.

228a
Appendix E
Place of testimony: ______________________________
Date:__________________ Time: __________________
 to testify at a hearing touching matters of inquiry
committed to said committee or subcommittee; and you
are not to depart without leave of said committee or
subcommittee.
Place of testimony: ______________________________
Date:__________________ Time: __________________
To any authorized staff member or the U.S. Marshals
Service to serve and make return.
Witness my hand and the sea l of the House of
Representatives of the United States, at the city of
Washington, D.C. this 15th day of April, 2019.
/s/
Chairman or Authorized Member

229a
Appendix E
PROOF OF SERVICE
Subpoena for Mazars USA LLP
Address c/o Jerry Bernstein, Esq., BlankRome LLP
405 Lexington Ave., New York, NY 10174
before the Committee on Oversight and Reform
U.S. House of Representatives
116th Congress
––––––––––––––––––––––––––––––
Served by (print name) Peter Kenny
Title Chief Investigative Counsel, Committee on Oversight
and Reform
Manner of service Email to Jerry Bernstein, BlankRome
LLP, Counsel to Mazars USA LLP
Date April 15, 2019
Signature of Server /s/					
Address 2157 Rayburn House Office Building, Washington,
D.C. 20515

230a
Appendix E
SCHEDULE A
With respect to Donald J. Trump, Donald J. Trump
Revocable Trust, the Trump Organization Inc., the
Trump Organization LLC, the Trump Corporation, DJT
Holdings LLC, the Trump Old Post Office LLC, the
Trump Foundation, and any parent, subsidiary, affiliate,
joint venture, predecessor, or successor of the foregoing:
1.

A ll statements of f inancial condition, annual
statements, periodic financial reports, and independent
auditors’ reports prepared, compiled, reviewed, or
audited by Mazars USA LLP or its predecessor,
WeiserMazars LLP;

2.

Without regard to time, all engagement agreements
or contracts related to the preparation, compilation,
review, or auditing of the documents described in Item
Number 1;

3.

All underlying, supporting, or source documents and
records used in the preparation, compilation, review,
or auditing of documents described in Item Number
1, or any summaries of such documents and records
relied upon, or any requests for such documents and
records; and

4.

All memoranda, notes, and communications related
to the preparation, compilation, review, or auditing of
the documents described in Item Number 1, including,
but not limited to:

231a
Appendix E
a.

all communications between Donald Bender
and Donald J. Tr ump or any employee or
representative of the Trump Organization; and

b.

all communications related to potential concerns
that records, documents, explanations, or other
information, including significant judgments,
provided by Donald J. Trump or other individuals
from the Trump Organization, were incomplete,
inaccurate, or otherwise unsatisfactory.

Unless otherwise noted, the time period covered by this
subpoena includes calendar years 2011 through 2018.

232a
Appendix E
Schedule Instructions
1.

In complying with this subpoena, you are required
to produce all responsive documents that are in
your possession, custody, or control, whether held
by you or your past or present agents, employees,
and representatives acting on your behalf. Produce
all documents that you have a legal right to obtain,
that you have a right to copy, or to which you have
access, as well as documents that you have placed in
the temporary possession, custody, or control of any
third party.

2.

Subpoenaed documents, and all documents reasonably
related to the subpoenaed documents, should not
be destroyed, altered, removed, transferred, or
otherwise made inaccessible to the Committee.

3.

In the event that any entity, organization, or individual
denoted in this subpoena is or has been known
by any name other than that herein denoted, the
subpoena shall be read also to include that alternative
identification.

4.

The Committee’s preference is to receive documents in
electronic form (i.e., CD, memory stick, thumb drive,
or secure file transfer) in lieu of paper productions.

5.

Documents produced in electronic format should be
organized, identified, and indexed electronically.

233a
Appendix E
6.

Electronic document productions should be prepared
according to the following standards:
a.

The production should consist of single page
Tagged Image File (“TIF”), files accompanied
by a Concordance-format load file, an Opticon
reference file, and a file defining the fields and
character lengths of the load file.

b.

Document numbers in the load file should match
document Bates numbers and TIF file names.

c.

If the production is completed through a series
of multiple partial productions, field names and
file order in all load files should match.

d.

A ll electronic documents produced to the
Committee should include the following fields
of metadata specific to each document, and no
modifications should be made to the original
metadata:
BEGDOC, ENDDOC, TEXT, BEGATTACH,
ENDATTACH, PAGECOUNT, CUSTODIAN,
RECORDTYPE, DATE, TIME, SENTDATE,
SENTTIME, BEGINDATE, BEGINTIME,
ENDDATE, ENDTIME, AUTHOR, FROM,
CC, TO, BCC, SUBJECT, TITLE, FILENAME,
FILEEXT, FILESIZE, DATECREATED,
T I M ECR E AT ED, DAT EL A S T MOD,
TIMELASTMOD, INTMSGID,
IN T MSGHEA DER , NATI V ELINK ,
INTFILPATH, EXCEPTION, BEGATTACH.

234a
Appendix E
7.

Documents produced to the Committee should include
an index describing the contents of the production.
To the extent more than one CD, hard drive, memory
stick, thumb drive, zip file, box, or folder is produced,
each should contain an index describing its contents.

8.

Documents produced in response to this subpoena
shall be produced together with copies of file labels,
dividers, or identifying markers with which they were
associated when the subpoena was served.

9.

When you produce documents, you should identify the
paragraph(s) in the subpoena schedule to which the
documents respond.

10. The fact that any other person or entity also possesses
non-identical or identical copies of the same documents
shall not be a basis to withhold any information.
11. The pendency of or potential for litigation shall not
be a basis to withhold any information.
12. In accordance with 5 U.S.C. § 552(d), the Freedom of
Information Act (FOIA) and any statutory exemptions
to FOIA shall not be a basis for withholding any
information.
13. Pursuant to 5 U.S.C. § 552a(b)(9), the Privacy Act
shall not be a basis for withholding information.
14. If compliance with the subpoena cannot be made in full
by the specified return date, compliance shall be made

235a
Appendix E
to the extent possible by that date. An explanation of
why full compliance is not possible shall be provided
along with any partial production.
15. In the event that a document is withheld on the
basis of privilege, provide a privilege log containing
the following information concerning any such
document: (a) every privilege asserted; (b) the type
of document; (c) the general subject matter; (d) the
date, author, addressee, and any other recipient(s);
(e) the relationship of the author and addressee to each
other; and (f) the basis for the privilege(s) asserted.
If a claimed privilege applies to only a portion of any
document, that portion only should be withheld and
the remainder of the document should be produced.
As used herein, “claim of privilege” includes, but is
not limited to, any claim that a document either may
or must be withheld from production pursuant to any
statute, rule, or regulation.
16. In complying with the subpoena, be apprised that
(unless otherwise determined by the Committee) the
Committee does not recognize: any purported nondisclosure privileges associated with the common
law including, but not limited to, the deliberativeprocess privilege, the attorney-client privilege, and
attorney work product protections; any purported
privileges or protections from disclosure under the
Freedom of Information Act or the Privacy Act; or
any purported contractual privileges, such as nondisclosure agreements.

236a
Appendix E
17. Any assertion by a subpoena recipient of any such
non-constitutional legal bases for w ithholding
documents or other materials, for refusing to answer
any deposition question, or for refusing to provide
hearing testimony, shall be of no legal force and
effect and shall not provide a justification for such
withholding or refusal, unless and only to the extent
that the Committee (or the chair of the Committee, if
authorized) has consented to recognize the assertion
as valid.
18. If any document responsive to this subpoena was, but
no longer is, in your possession, custody, or control,
identify the document (by date, author, subject, and
recipients), and explain the circumstances under
which the document ceased to be in your possession,
custody, or control.
19. If a date or other descriptive detail set forth in this
subpoena referring to a document is inaccurate, but
the actual date or other descriptive detail is known
to you or is otherwise apparent from the context of
the subpoena, produce all documents that would be
responsive as if the date or other descriptive detail
were correct.
20. This subpoena is continuing in nature and applies
to any newly-discovered information. Any record,
document, compilation of data, or information not
produced because it has not been located or discovered
by the return date shall be produced immediately
upon subsequent location or discovery.

237a
Appendix E
21. All documents shall be Bates-stamped sequentially
and produced sequentially.
22. Two sets of each production shall be delivered, one set
to the Majority Staff and one set to the Minority Staff.
When documents are produced to the Committee,
production sets shall be delivered to the Majority Staff
in Room 2157 of the Rayburn House Office Building
and the Minority Staff in Room 2105 of the Rayburn
House Office Building.
23. Upon completion of the production, submit a written
certification, signed by you or your counsel, stating
that: (1) a diligent search has been completed of all
documents in your possession, custody, or control that
reasonably could contain responsive documents; and
(2) all documents located during the search that are
responsive have been produced to the Committee.
Definitions
1.

The term “document” means any written, recorded,
or g raphic matter of any nature whatsoever,
regardless of how recorded, and whether original
or copy, including, but not limited to, the following:
memoranda, reports, expense reports, books,
manuals, instructions, financial reports, data,
working papers, records, notes, letters, notices,
confirmations, telegrams, receipts, appraisals,
pamphlets, magazines, newspapers, prospectuses,
communications, electronic mail (email), contracts,
cables, notations of any type of conversation,

238a
Appendix E
telephone call, meeting or other inter-office or intraoffice communication, bulletins, printed matter,
computer printouts, teletypes, invoices, transcripts,
diaries, analyses, returns, summaries, minutes,
bills, accounts, estimates, projections, comparisons,
messages, correspondence, press releases, circulars,
financial statements, reviews, opinions, offers, studies
and investigations, questionnaires and surveys, and
work sheets (and all drafts, preliminary versions,
alterations, modifications, revisions, changes, and
amendments of any of the foregoing, as well as any
attachments or appendices thereto), and graphic
or oral records or representations of any kind
(including without limitation, photographs, charts,
graphs, microfiche, microfilm, videotape, recordings
and motion pictures), and electronic, mechanical,
and electric records or representations of any kind
(including, without limitation, tapes, cassettes, disks,
and recordings) and other written, printed, typed,
or other graphic or recorded matter of any kind or
nature, however produced or reproduced, and whether
preserved in writing, film, tape, disk, videotape, or
otherwise. A document bearing any notation not a
part of the original text is to be considered a separate
document. A draft or non-identical copy is a separate
document within the meaning of this term.
2.

The term “communication” means each manner or
means of disclosure or exchange of information,
regardless of means utilized, whether oral, electronic,
by document or otherwise, and whether in a meeting,
by telephone, facsimile, mail, releases, electronic

239a
Appendix E
message including email (desktop or mobile device),
text message, instant message, MMS or SMS
message, message application, or otherwise.
3.

The terms “and” and “or” shall be construed broadly
and either conjunctively or disjunctively to bring
within the scope of this subpoena any information that
might otherwise be construed to be outside its scope.
The singular includes plural number, and vice versa.
The masculine includes the feminine and neutral
genders.

4.

The term “including” shall be construed broadly to
mean “including, but not limited to.”

5.

The term “Company” means the named legal entity
as well as any units, firms, partnerships, associations,
corporations, limited liability companies, trusts,
subsidiaries, affiliates, divisions, departments,
branches, joint ventures, proprietorships, syndicates,
or other legal, business or government entities over
which the named legal entity exercises control or in
which the named entity has any ownership whatsoever.

6.

The term “identify,” when used in a question
about individuals, means to provide the following
information: (a) the individual’s complete name and
title; (b) the individual’s business or personal address
and phone number; and (c) any and all known aliases.

7.

The term “related to” or “referring or relating to,”
with respect to any given subject, means anything

240a
Appendix E
that constitutes, contains, embodies, ref lects,
identifies, states, refers to, deals with, or is pertinent
to that subject in any manner whatsoever.
8.

The term “employee” means any past or present agent,
borrowed employee, casual employee, consultant,
contractor, de facto employee, detailee, fellow,
independent contractor, intern, joint adventurer,
loaned employee, officer, part-time employee,
permanent employee, provisional employee, special
government employee, subcontractor, or any other
type of service provider.

9.

The term “individual” means all natural persons and
all persons or entities acting on their behalf.

241a
Appendix
Appendix
F — H.F Res. 507
H. Res. 507
In the House of Representatives, U. S.,
July 24, 2019.
Whereas Congress’ power to conduct oversight and
investigations is firmly rooted in its legislative
authority under Article I of the Constitution, which
commits to the House of Representatives alone
the authority to establish its rules governing the
procedures and methods for the conduct of oversight
and investigations, as well as to determine the powers
that it delegates to its various committees;
Whereas those powers delegated to the committees
include the power to conduct oversight into and to
investigate, pursuant to the legitimate legislative
purposes of the respective committees, matters
involving, referring, or related, directly or indirectly,
to the persons, entities, and organizations specified
in this resolution;
Whereas committees of the House, pursuant to the
authority delegated by clause 2(m) of rule XI and
clause 11(d) of rule X of the Rules of the House of
Representatives, have undertaken investigations and
issued related subpoenas seeking personal, financial,
banking, and tax information related to the President,
his immediate family, and his business entities and
organizations, among others;

242a
Appendix F
Whereas the validity of some of these investigations
and subpoenas has been incorrectly challenged in
Federal court on the grounds that the investigations
and subpoenas were not authorized by the full House
and lacked a ‘‘clear statement’’ of intent to include the
President, which the President’s personal attorneys
have argued in Federal court is necessary before
the committees may seek information related to the
President; and
Whereas while these arguments are plainly incorrect
as a matter of law, it is nevertheless in the interest
of the institution of the House of Representatives to
avoid any doubt on this matter and to unequivocally
reject these challenges presented in ongoing or future
litigation: Now, therefore, be it
Resolved, That the House of Representatives ratifies
and affirms all current and future investigations, as well
as all subpoenas previously issued or to be issued in the
future, by any standing or permanent select committee of
the House, pursuant to its jurisdiction as established by
the Constitution of the United States and rules X and XI
of the Rules of the House of Representatives, concerning
or issued directly or indirectly to—
(1) the President in his personal or official
capacity;
(2) his immediate family, business entities, or
organizations;

243a
Appendix F
(3) the Office of the President;
(4) the Executive Office of the President;
(5) the White House;
(6) any entity within the White House;
(7) any indiv idual cur rently or for merly
employed by or associated with the White
House;
(8) any Federal or State governmental entity
or current or former employee or officer
thereof seeking information involving,
referring, or related to any individual or
entity described in paragraphs (1) through
(7); or
(9) any third par ty seeking infor mation
involving, referring, or related to any
individual or entity described in paragraphs
(1) through (7).
Attest:
Clerk.

244a
Appendix G
Appendix g — h. rES. 660
H. Res. 660
In the House of Representatives, U. S.,
October 31, 2019.
Resolved, That the Permanent Select Committee on
Intelligence and the Committees on Financial
Services, Foreign Affairs, the Judiciary, Oversight
and Reform, and Ways and Means, are directed
to continue their ongoing investigations as part of
the existing House of Representatives inquiry into
whether sufficient grounds exist for the House of
Representatives to exercise its Constitutional power
to impeach Donald John Trump, President of the
United States of America.
SEC. 2. OPEN AND TRANSPARENT
INVESTIGATIVE PROCEEDINGS BY THE
PERMANENT SELECT COMMITTEE ON
INTELLIGENCE.
For the purpose of continuing the investigation described
in the first section of this resolution, the Permanent
Select Committee on Intelligence (referred to in this
resolution as the ‘‘Permanent Select Committee’’) is
authorized to conduct proceedings pursuant to this
resolution as follows:
(1) The chair of the Permanent Select Committee
shall designate an open hearing or hearings
pursuant to this section.

245a
Appendix G
(2) Notwithstanding clause 2(j)(2) of rule XI of
the Rules of the House of Representatives,
upon recognition by the chair for such
purpose under this paragraph during any
hearing designated pursuant to paragraph
(1), the chair and ranking minority member
of the Permanent Select Committee shall
be permitted to question witnesses for
equal specified periods of longer than five
minutes, as determined by the chair. The
time available for each period of questioning
under this paragraph shall be equal for the
chair and the ranking minority member. The
chair may confer recognition for multiple
periods of such questioning, but each period
of questioning shall not exceed 90 minutes in
the aggregate. Only the chair and ranking
minority member, or a Permanent Select
Committee employee if yielded to by the
chair or ranking minority member, may
question witnesses during such periods of
questioning. At the conclusion of questioning
pursuant to this paragraph, the committee
shall proceed with questioning under the
five-minute rule pursuant to clause 2(j)(2)
(A) of rule XI.
(3) To allow for full evaluation of minority
witness requests, the ranking minority
member may submit to the chair, in writing,
any requests for witness testimony relevant
to the investigation described in the first

246a
Appendix G
section of this resolution within 72 hours
after notice is given for the first hearing
designated pursuant to paragraph (1).
Any such request shall be accompanied
by a detailed written justification of the
relevance of the testimony of each requested
witness to the investigation described in the
first section of this resolution.
(4)(A) The ranking minority member of the
Permanent Select Committee is authorized,
with the concurrence of the chair, to require,
as deemed necessary to the investigation—
(i) by subpoena or otherwise—
(I) the attendance and testimony of
any person (including at a taking
of a deposition); and
(II) the production of books, records,
correspondence, memoranda,
papers, and documents; and
(ii) by interrogatory, the furnishing of
information.
(B) In the case that the chair declines
to concur in a proposed action of the
ranking minority member pursuant to
subparagraph (A), the ranking minority
member shall have the right to refer to

247a
Appendix G
the committee for decision the question
whether such authority shall be so
exercised and the chair shall convene
the committee promptly to render that
decision, subject to the notice procedures
for a committee meeting under clause
2(g)(3)(A) and (B) of rule XI.
(C) Subpoenas and inter rogator ies so
authorized may be signed by the ranking
minority member, and may be served by
any person designated by the ranking
minority member.
(5) The chair is authorized to make publicly
available in electronic form the transcripts
of depositions conducted by the Permanent
Select Committee in furtherance of the
investigation described in the first section of
this resolution, with appropriate redactions
for classified and other sensitive information.
(6) The Per manent Select Committee is
directed to issue a report setting forth its
findings and any recommendations and
appending any information and materials
the Permanent Select Committee may
deem appropriate with respect to the
investigation described in the first section
of this resolution. The chair shall transmit
such report and appendices, along with
any supplemental, minority, additional, or

248a
Appendix G
dissenting views filed pursuant to clause 2(l)
of rule XI, to the Committee on the Judiciary
and make such report publicly available in
electronic form, with appropriate redactions
to protect classified and other sensitive
information. The report required by this
paragraph shall be prepared in consultation
with the chairs of the Committee on Foreign
Affairs and the Committee on Oversight and
Reform.
SEC. 3. TRANSMISSION
OF ADDITIONAL MATERIALS.
The chair of the Permanent Select Committee or the chair
of any other committee having custody of records or
other materials relating to the inquiry referenced
in the first section of this resolution is authorized, in
consultation with the ranking minority member, to
transfer such records or materials to the Committee
on the Judiciary.
SEC. 4. IMPEACHMENT INQUIRY PROCEDURES
IN THE COMMITTEE ON THE JUDICIARY.
(a) The House authorizes the Committee on the
Judiciary to conduct proceedings relating
to the impeachment inquiry referenced in
the first section of this resolution pursuant
to the procedures submitted for printing
in the Congressional Record by the chair
of the Committee on Rules, including such

249a
Appendix G
procedures as to allow for the participation
of the President and his counsel.
(b) T he Com m itt ee on t he Jud icia r y is
author i zed to promulgate additional
procedures as it deems necessary for the
fair and efficient conduct of committee
hearings held pursuant to this resolution,
provided that the additional procedures
are not inconsistent with the procedures
referenced in subsection (a), the Rules of the
Committee, and the Rules of the House.
(c)(1) The ranking minority member of the
Committee on the Judiciary is authorized,
with the concurrence of the chair of the
Committee on the Judiciary, to require, as
deemed necessary to the investigation—
(A) by subpoena or otherwise—
(i) the attendance and testimony of
any person (including at a taking
of a deposition); and
(ii) the production of books, records,
correspondence, memoranda,
papers, and documents; and
(B) by interrogatory, the furnishing of
information.

250a
Appendix G
(2) In the case that the chair declines
to concur in a proposed action of the
ranking minority member pursuant to
paragraph (1), the ranking minority
member shall have the right to refer to
the committee for decision the question
whether such authority shall be so
exercised and the chair shall convene
the committee promptly to render that
decision, subject to the notice procedures
for a committee meeting under clause
2(g)(3)(A) and (B) of rule XI.
(3) Subpoenas and inter rogator ies so
authorized may be signed by the ranking
minority member, and may be served by
any person designated by the ranking
minority member.
(d) The Committee on the Judiciary shall
report to the House of Representatives such
resolutions, articles of impeachment, or
other recommendations as it deems proper.
Attest:
Clerk.

251a
Appendix HOF THE RULES OF
APPENDIX H — EXCERPTS
THE HOUSE OF REPRESENTATIVES

RULES
of the
HOUSE OF REPRESENTATIVES
One Hundred Sixteenth Congress

Prepared By
Karen L. Haas
Clerk of the House of Representatives
January 11, 2019

252a
Appendix H
***
Rule X
3(i) The Committee on Oversight and Reform shall
review and study on a continuing basis the operation of
Government activities at all levels, including the Executive
Office of the President.
***
4(c)(2) In addition to its duties under subparagraph
(1), the Committee on Oversight and Reform may at any
time conduct investigations of any matter without regard
to clause 1, 2, 3, or this clause conferring jurisdiction over
the matter to another standing committee.
****

